APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Kennedy v.
Bremerton School District, No. 20-35222
(Mar. 18, 2021)............................................. App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Kennedy v. Bremerton
School District, No. 20-35222 (July 19,
2021)........................................................... App-40
Appendix C
Judgment, United States District Court
for the Western District of Washington,
Kennedy v. Bremerton School District, No.
3:16-cv-05694-RBL (Mar. 6, 2020) ........... App-130
Appendix D
Opinion, United States District Court for
the Western District of Washington,
Kennedy v. Bremerton School District, No.
3:16-cv-05694-RBL (Mar. 5, 2020) ........... App-132
Appendix E
Summary Judgment Hearing Transcript,
United States District Court for the
Western District of Washington, Kennedy
v. Bremerton School District, No. 3:16-cv05694-RBL (Feb. 12, 2020) ....................... App-171

Appendix F
Petition for Writ of Certiorari Denied,
United States Supreme Court, Kennedy v.
Bremerton School District, No. 18-12
(Jan. 22, 2019) ........................................... App-207
Appendix G
Opinion, United States Court of Appeals
for the Ninth Circuit, Kennedy v.
Bremerton School District, No. 20-35222
(Aug. 23, 2017) ......................................... App-214
Appendix H
Order, United States Court of Appeals for
the Ninth Circuit, Kennedy v. Bremerton
School District, No. 16-35801 (Jan. 25,
2018)......................................................... App-267
Appendix I
Preliminary
Injunction
Hearing
Transcript, United States District Court
for the Western District of Washington,
Kennedy v. Bremerton School District, No.
3:16-cv-05694-RBL (Sept. 19, 2016) ......... App-268
Appendix J
Relevant Docket Entry, United States
District Court for the Western District of
Washington, Kennedy v. Bremerton
School District, No. 3:16-cv-05694-RBL
(Sept. 19, 2016) ......................................... App-304
Appendix K
Constitutional Provisions ........................ App-305
U.S. Const. amend. I ............................ App-305
U.S. Const. amend. XIV, § 1 ................ App-305

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 20-35222
________________
JOSEPH A. KENNEDY,
Plaintiff-Appellant,
v.
BREMERTON SCHOOL DISTRICT,
Defendant-Appellee.
________________
Filed: March 18, 2021
________________
Before: DOROTHY W. NELSON, MILAN D. SMITH,
JR., and MORGAN CHRISTEN,
Circuit Judges.
________________
OPINION
________________
M. SMITH, Circuit Judge:
This case requires us to decide whether
Bremerton School District (BSD) would have violated
the Establishment Clause by allowing Joseph
Kennedy, a high school football coach, to engage in
demonstrative religious conduct immediately after
football games, while kneeling on the field’s fifty-yard
line, surrounded by many of his players, and
occasionally members of the community. To answer
this question, we must examine whether a reasonable

App-2
observer, aware of the history of Kennedy’s religious
activity, and his solicitation of community and
national support for his actions, would perceive BSD’s
allowance of Kennedy’s conduct as an endorsement of
religion. Although there are numerous close cases
chronicled in the Supreme Court’s and our current
Establishment Clause caselaw, this case is not one of
them. When BSD’s superintendent became aware of
Kennedy’s religious observances on the 50-yard line
with players immediately following a game, he wrote
Kennedy informing him what he must avoid doing in
order to protect BSD from an Establishment Clause
claim. In response, Kennedy determined he would
“fight” his employer by seeking support for his position
in local and national television and print media, in
addition to seeking support on social media. In a letter
from his counsel, he informed BSD that he would not
comply with its instructions, and that he intended to
continue engaging in the kind of mid-field religious
exercises he had been told not to perform. Answering
Kennedy’s solicitation, scores of parents, a state
representative, and students from both teams rushed
to mid-field after a game to support Kennedy against
BSD’s efforts to avoid violating the Constitution. All of
this was memorialized and broadcast by local and
national TV stations and print media.
District
personnel
received
hateful
communications from some members of the public,
and some BSD personnel felt physically threatened.
When it evaluated BSD’s actions concerning Kennedy,
the district court held that seeking to avoid an
Establishment Clause claim was the “sole reason”
BSD limited Kennedy’s public actions as it did. We
hold that BSD’s allowance of Kennedy’s conduct would

App-3
violate the Establishment Clause; consequently,
BSD’s efforts to prevent the conduct did not violate
Kennedy’s constitutional rights, nor his rights under
Title VII. We affirm the district court’s grant of
summary judgment to BSD on all claims.
FACTUAL AND PROCEDURAL BACKGROUND
We previously affirmed the district court’s denial
of Kennedy’s request for a preliminary injunction.
Kennedy v. Bremerton Sch. Dist. (Kennedy I), 869 F.3d
813 (9th Cir. 2017). Although our opinion in Kennedy
I set forth the facts as they were known at the time,
we nevertheless include the relevant facts here—both
those in the record at the time of Kennedy I, and those
added to the record since.
BSD employed Kennedy as a football coach at
Bremerton High School (BHS) from 2008 to 2015.
Kennedy was an assistant coach for the varsity
football team and the head coach for the junior varsity
football team. Kennedy’s contract expired at the end
of each football season. The contract provided that
BSD “entrusted” Kennedy “to be a coach, mentor and
role model for the student athletes.” Kennedy further
acknowledged that, as a football coach, he was
“constantly being observed by others.”
Kennedy is a practicing Christian. Kennedy’s
religious beliefs required him to “give thanks through
prayer, at the end of each game, for what the players
had accomplished and for the opportunity to be a part
of their lives through football.” Specifically, “[a]fter
the game [was] over, and after the players and coaches
from both teams [ ] met to shake hands at midfield,”
Kennedy felt called to kneel at the 50-yard line and
offer a brief, quiet prayer of thanksgiving for player

App-4
safety, sportsmanship, and spirited competition.”
Kennedy’s prayer usually lasted about thirty seconds.
Kennedy’s religious beliefs required that his prayer
occur on the field where the game was played,
immediately after the game concluded. This
necessarily meant that spectators—students, parents,
and community members—would observe Kennedy’s
religious conduct.
Kennedy began performing these prayers when he
first started working at BHS. At the outset, he prayed
alone. Several games into his first season, however, a
group of BHS players asked Kennedy whether they
could join him. “This is a free country,” Kennedy
replied, “You can do what you want.” Hearing that
response, the students joined him. Over time, the
group grew to include the majority of the team. The
BHS players sometimes invited the opposing team to
join. BHS principal John Polm testified that he later
became aware of a parent’s complaint that his son “felt
compelled to participate” in Kennedy’s religious
activity, even though he was an atheist, because “he
felt he wouldn’t get to play as much if he didn’t
participate.”
Eventually, Kennedy’s religious practice evolved.
He began giving short motivational speeches at
midfield after the games. Students, coaches, and other
attendees from both teams were invited to participate.
During the speeches, the participants kneeled around
Kennedy. He then raised a helmet from each team and
delivered a message containing religious content.
Kennedy subsequently acknowledged that these
motivational speeches likely constituted prayers.

App-5
BSD first learned that Kennedy was praying on
the field in September 2015, when the opposing team’s
coach told BHS principal John Polm that Kennedy had
asked his team to join him in prayer on the field. He
also noted that “he thought it was pretty cool how
[BSD] would allow” Kennedy’s religious activity. After
learning of the incident, Athletic Director Barton
spoke with Kennedy and expressed disapproval when
Kennedy conducted a prayer on the field. In response,
Kennedy posted on Facebook, “I think I just might
have been fired for praying.” Shortly thereafter, BSD
“was flooded with thousands of emails, letters, and
phone calls from around the country” regarding the
conflict over Kennedy’s prayer, “many of which were
hateful or threatening.”
BSD’s discovery prompted an inquiry into
whether Kennedy was complying with the school
board’s policy on “Religious-Related Activities and
Practices.” Pursuant to that policy, “[a]s a matter of
individual liberty, a student may of his/her own
volition engage in private, non-disruptive prayer at
any time not in conflict with learning activities.” In
addition, “[s]chool staff shall neither encourage nor
discourage a student from engaging in non-disruptive
oral or silent prayer or any other form of devotional
activity.”
The District’s investigation revealed that
coaching staff had received little training regarding
the District’s policy. Accordingly, BSD Superintendent
Aaron Leavell sent Kennedy a letter on September 17,
2015, to clarify the District’s prospective expectations.
Leavell advised Kennedy that he could continue
to give inspirational talks but “[t]hey must remain

App-6
entirely secular in nature, so as to avoid alienation of
any team member.” He further advised that “[s]tudent
religious activity must be entirely and genuinely
student-initiated, and may not be suggested,
encouraged (or discouraged), or supervised by any
District staff.” Leavell further counseled Kennedy that
“[i]f students engage in religious activity, school staff
may not take any action likely to be perceived by a
reasonable observer, who is aware of the history and
context of such activity at BHS, as endorsement of
that activity.” Lastly, Leavell stressed that Kennedy
was
free to engage in religious activity, including
prayer, so long as it does not interfere with
job responsibilities. Such activity must be
physically separate from any student activity,
and students may not be allowed to join such
activity. In order to avoid the perception of
endorsement discussed above, such activity
should either be non-demonstrative (i.e., not
outwardly discernible as religious activity) if
students are also engaged in religious
conduct, or it should occur while students are
not engaging in such conduct.
In response, Kennedy temporarily stopped
praying on the field after football games. Instead, after
the September 18th game, Kennedy gave a short
motivational speech “that included no mention of
religion or faith.” According to Kennedy, he began to
drive home that night but turned around to go back to
the field because he “felt dirty,” knowing that, by not
praying at the conclusion of the game, he had broken
his commitment to God. Back at the field, Kennedy

App-7
waited ten to fifteen minutes until “everyone else had
left the stadium” so that he could have “a moment
alone with God” to pray at the fifty-yard line.
BSD received no further reports of Kennedy
praying on the field after games, and BSD officials
believed that Kennedy was complying with its
directive that allowed his religious activity, so long as
he avoided “the perception of endorsement.” According
to Kennedy’s averment in his deposition, however (and
contrary to the allegations he raised in his EEOC
complaint), he prayed directly after every game except
the one on September 18.
Kennedy’s increasingly direct challenge to BSD
escalated when he wrote BSD through his lawyer on
October 14, 2015. The letter announced that Kennedy
would resume praying on the fifty-yard line
immediately after the conclusion of the October 16,
2015 game. Kennedy testified in his deposition that he
intended the October 14 letter to communicate to the
district that he “wasn’t going to stop [his] prayer
because there was [sic] kids around [him].” In other
words, Kennedy was planning to pray on the fifty-yard
line immediately after the game, and he would allow
students to join him in that religious activity if they
wished to do so. The lawyer’s letter also demanded
that BSD rescind the directive in its September 17
letter that Kennedy cease his post-game prayers at the
fifty-yard line immediately after the game.
Kennedy’s intention to pray on the field following
the October 16 game was widely publicized through
Kennedy and his representatives’ “numerous
appearances and announcements [on] various forms of
media.” For example, the Seattle Times published an

App-8
article on October 14 (the same day as the lawyer’s
letter was sent to BSD), entitled “Bremerton football
coach vows to pray after game despite district order. A
Bremerton High School football coach said he will pray
at the 50-yard line after Friday’s homecoming game,
disobeying the school district’s orders and placing his
job at risk.” The Seattle Times has the twenty-third
largest circulation of any newspaper in the country,
with an average Sunday circulation of 364,454. See
Circulation numbers for the 25 largest newspapers,
Seattle Times (May 1, 2012), https://bit.ly/2OGgYX5.
In an attempt to secure the field from public
access, BSD “made arrangements with the Bremerton
Police Department for security, had signs made and
posted, had ‘robo calls’ made to District parents, and
otherwise put the word out to the public that there
would be no access to the field.” A Satanist religious
group contacted BSD in advance of the game to notify
them that “it intended to conduct ceremonies on the
field after football games if others were allowed to.”
On the day of the game, the District had not yet
responded to Kennedy’s letter. Kennedy nonetheless
proceeded as he indicated he would. The Satanist
group was present at the game, but “they did not enter
the stands or go on to the field after learning that the
field would be secured.” But Kennedy had access to the
field by virtue of his position as a public-school
employee. Once the final whistle blew, Kennedy knelt
on the fifty-yard line, bowed his head, closed his eyes,
“and prayed a brief, silent prayer.” According to
Kennedy, while he was kneeling with his eyes closed,
“coaches and players from the opposing team, as well
as members of the general public and media,

App-9
spontaneously joined [him] on the field and knelt
beside [him].” Kennedy’s claim that the large
gathering around him of coaches, players, a state
elected official, and other members of the public who
had been made aware of Kennedy’s intentions because
of the significant amount of publicity advertising what
Kennedy was about to do, was “spontaneous” is selfevidently inaccurate. Moreover, Kennedy’s counsel
acknowledged in his October 14, 2015 letter that
Kennedy’s prayers were “verbal” and “audible,” flatly
contradicting Kennedy’s own recounting. BSD stated
that this demonstration of support for Kennedy
involved “people jumping the fence” to access the field,
and BSD received complaints from parents of students
who had been knocked down in the stampede.
Principal John Polm said that he “saw people fall[.]”
Principal Polm testified that “when the public went
out onto the field, we could not supervise effectively,”
resulting in “an inability to keep kids safe.” A photo of
this scene is in the record, and it depicts
approximately twenty players in uniform kneeling
around Kennedy with their eyes closed, a large group
of what appear to be adults standing outside the ring
of praying players, and several television cameras
photographing the scene.
In the days after the game, similar pictures were
“published in various media.” Kennedy also made
numerous media appearances in connection with the
October 16 game, to, in his words, “spread[] the word
of what was going on in Bremerton.” For example, on
October 18, 2015, CNN featured an article entitled
“Despite orders, Washington HS coach prays on field
after game.”

App-10
On October 23, 2015, BSD sent Kennedy a letter
explaining that his conduct at the October 16 game
violated BSD’s policy. BSD reiterated that it “can and
will” accommodate “religious exercise that would not
be perceived as District endorsement, and which does
not otherwise interfere with the performance of job
duties.” To that end, it suggested that “a private
location within the school building, athletic facility or
press box could be made available to [Kennedy] for
brief religious exercise before and after games.”
Kennedy, of course, could also pray on the fifty-yard
line after the stadium had emptied, as he did on
September 18. Because the “[d]evelopment of
accommodations is an interactive process,” the
District invited Kennedy to offer his own suggestions.
Kennedy and his attorneys’ only response in the
record to BSD’s invitation was informing the media
that the only acceptable outcome would be for BSD to
permit Kennedy to pray on the fifty-yard line
immediately after games.
Kennedy engaged in the same behavior in
violation of BSD’s directive on October 23, 2015 and
October 26, 2015. A photo taken after the October 23
game shows Kennedy kneeling alone on the field while
players and other individuals mill about. A photo
taken after the October 26 game shows at least six
individuals, some of whom appear to be school-age
children, kneeling around Kennedy.
Following the October 26 game, BSD placed
Kennedy on paid administrative leave. When
Kennedy was on leave, and during the time he
temporarily ceased performing on-field prayers, BHS
players did not initiate their own post-game prayer.

App-11
During this time, other BSD employees testified
that they suffered repercussions due to the “attention
given to Mr. Kennedy’s issue and the way he chose to
address the situation.” For example, Nathan Gillam,
BHS’s head football coach, testified that during the
controversy, “an adult who [he] had never seen before
came up to [his] face and cursed [him] in a vile
manner.” Gillam further stated that he was concerned
for his physical safety. He testified, “One of the
assistant football coaches was also a police officer and,
as we headed down to the field for one game, I
obliquely asked him what he thought about whether
we could be shot from the crowd.” As a result of these
concerns, Gillam “decided that [he] would resign” from
the coaching position he had held for eleven years.
After the season wound down, BSD began its
annual process of providing its coaches with
performance reviews. Gillam recommended that
Kennedy not be rehired because Kennedy “failed to
follow district policy,” “his actions demonstrated a lack
of cooperation with administration,” he “contributed to
negative relations between parents, students,
community members, coaches and the school district,”
and he “failed to supervise student-athletes after
games due to his interactions with [the] media and
[the] community.” Kennedy did not apply for a 2016
coaching position.
Kennedy commenced this action in the Western
District of Washington on August 9, 2016. He asserted
that his rights were violated under the First
Amendment and Title VII of the Civil Rights Act of
1964. Kennedy moved for a preliminary injunction on
August 24, 2016. The district court denied the

App-12
preliminary injunction on September 19, 2016.
Kennedy appealed the denial, and our panel affirmed.
Kennedy I, 869 F.3d at 813. Kennedy petitioned for a
writ of certiorari; the Supreme Court denied the
petition. Kennedy v. Bremerton Sch. Dist. (Kennedy II),
139 S. Ct. 634 (2019) (mem.).
On remand, the parties cross-moved for summary
judgment. The district court held that “the risk of
constitutional liability associated with Kennedy’s
religious conduct was the ‘sole reason’ the District
ultimately suspended him.” The district court further
held that BSD’s actions were justified due to the risk
of an Establishment Clause violation if BSD allowed
Kennedy to continue with his religious conduct.
Pursuant to this reasoning, the district court granted
BSD’s motion for summary judgment on all claims,
and Kennedy appealed.
STANDARD OF REVIEW
We review the district court’s grant of summary
judgment de novo. United States v. Phattey, 943 F.3d
1277, 1280 (9th Cir. 2019). Our task is to “view the
evidence in the light most favorable” to Kennedy, “and
determine whether there are any genuine issues of
material fact and whether the district court correctly
applied the relevant substantive law.” Id. (cleaned
up).
ANALYSIS
A.
We begin with Kennedy’s free speech claim
brought pursuant to 42 U.S.C. § 1983. In Pickering,
the Supreme Court held that “[t]he problem” in a
public-employee free speech case, “is to arrive at a
balance between the interests of the teacher, as a

App-13
citizen, in commenting upon matters of public concern
and the interest of the State, as an employer, in
promoting the efficiency of the public services it
performs through its employees.” Pickering v. Bd. of
Educ., 391 U.S. 563, 568 (1968). “[S]ince Pickering,”
we wrote, the law on this topic “has evolved
dramatically, if sometimes inconsistently. Unraveling
Pickering’s tangled history reveals a sequential fivestep series of questions.” Eng v. Cooley, 552 F.3d 1062,
1070 (9th Cir. 2009). Those questions are:
(1) whether the plaintiff spoke on a matter of
public concern; (2) whether the plaintiff
spoke as a private citizen or public employee;
(3) whether the plaintiff’s protected speech
was a substantial or motivating factor in the
adverse employment action; (4) whether the
state had an adequate justification for
treating the employee differently from other
members of the general public; and
(5) whether the state would have taken the
adverse employment action even absent the
protected speech.
Id. At issue here are factors (2) and (4). If Kennedy
spoke as a public employee when he engaged in
demonstrative religious activity at the fifty-yard line
necessarily in view of the players and fans who stayed
to the conclusion of the game, his speech is
unprotected. See id. at 1071. Kennedy carries the
burden of proof on factor (2). Id. Similarly, if BSD had
adequate justification for treating Kennedy differently
from other members of the public, Kennedy’s claim
fails. Id. at 1072. BSD carries the burden of proof on
factor (4). Id.

App-14
1.
“[W]hen public employees make statements
pursuant to their official duties, the employees are not
speaking as citizens for First Amendment purposes,
and the Constitution does not insulate their
communications from employer discipline.” Garcetti v.
Ceballos, 547 U.S. 410, 421 (2006). “The critical
question under Garcetti is whether the speech at issue
is itself ordinarily within the scope of an employee’s
duties, not whether it merely concerns those duties.”
Lane v. Franks, 573 U.S. 228, 240 (2014). In answering
that question,
[t]he proper inquiry is a practical one. Formal
job descriptions often bear little resemblance
to the duties an employee actually is expected
to perform, and the listing of a given task in
an employee’s written job description is
neither
necessary
nor
sufficient
to
demonstrate that conducting the task is
within the scope of the employee’s
professional duties for First Amendment
purposes.
Garcetti, 547 U.S. at 424-25.
In Kennedy I, we held that Kennedy spoke as a
public employee, and thus his free speech claim failed
at factor (2). 869 F.3d at 825. We explained that
Kennedy “was one of those especially respected
persons chosen to teach on the field, in the locker
room, and at the stadium. He was clothed with the
mantle of one who imparts knowledge and wisdom.
Like others in this position, expression was Kennedy’s
stock in trade.” Id. at 826 (quoting Peloza v.
Capistrano Unified Sch. Dist., 37 F.3d 517, 522 (9th

App-15
Cir. 1994) (internal citations and quotation marks
omitted)). Thus, his expression on the field—a location
that he only had access to because of his
employment—during a time when he was generally
tasked with communicating with students, was speech
as a government employee. Id. at 828. We briefly
address factor (2) to discuss subsequent developments.
Our holding, however, has not changed.
First, our opinion in Kennedy I should not be read
to suggest that, for instance, a teacher bowing her
head in silent prayer before a meal in the school
cafeteria would constitute speech as a government
employee. See Kennedy II, 139 S. Ct. at 636 (Alito, J.).
That type of expression is of a wholly different
character than Kennedy’s: Kennedy insisted that his
speech occur while players stood next to him, fans
watched from the stands, and he stood at the center of
the football field. Moreover, Kennedy repeatedly
acknowledged that—and behaved as if—he was a
mentor, motivational speaker, and role model to
students specifically at the conclusion of a game. That
distinguishes this case from the hypothetical scenario
of a teacher in the cafeteria.
We acknowledge the Supreme Court’s warning
not to create “excessively broad job descriptions” that
“convert” expressions of a private citizen into speech
as a government employee. Id. (quoting Garcetti, 547
U.S. at 424). But on the record before us, there is
simply no dispute that Kennedy’s position
encompassed his post-game speeches to students on
the field. Kennedy’s employer specifically instructed
him (1) that he should speak to players post-game and
(2) what the speeches should be about: “You may

App-16
continue to provide motivational, inspirational talks
to students before, during and after games and other
team activity, focusing on appropriate themes such as
unity, teamwork, responsibility, safety, endeavor and
the like that have long characterized your very
positive and beneficial talks with students.” In
commenting on Kennedy’s secular post-game speech
on September 18, Leavell wrote, “That talk was well
received, and appreciated by the District and the
community. I would certainly encourage continuation
of that practice.” The only conclusion based on this
record is that Kennedy’s post-game speech on the field
was speech as a government employee.
Second, our prior opinion in this case was not
meant to suggest that a teacher or coach “cannot
engage in any outward manifestation of religious
faith” while off duty. Id. at 637. In Kennedy I, we cited
Kennedy’s prayer in the bleachers, surrounded by
news cameras, two days after BSD issued a public
statement explaining Kennedy’s suspension, in the
context of “bolster[ing]” the already strong inference
that he “inten[ded] to send a message to students and
parents about appropriate behavior and what he
values as a coach,” in line with his job duties of
demonstrative communication as a role model for
players. 869 F.3d at 826. Kennedy’s intent to send a
message is important because this media event
represented a continuation of his on-field
demonstrative activities after the October 16, 23, and
26 games that were designed to attract publicity.
Nevertheless, Kennedy’s pre-suspension prescribed
speaking responsibilities were the touchstone of our
prior decision holding that Kennedy spoke as a

App-17
government employee—and they remain so in this
one.
We also note the following from the opinion of the
district court: “Although Kennedy originally claimed
to be off duty after games, he has now abandoned that
contention … All of the evidence, including Kennedy’s
own testimony, confirms that his job responsibilities
extended at least until the players were released after
going to the locker room.”
We therefore remain convinced that our
conclusion in Kennedy I, that “Kennedy spoke as a
public employee when he kneeled and prayed on the
fifty-yard line immediately after games while in view
of students and parents” is correct. 869 F.3d at 831.
2.
However, even if we were to assume, arguendo,
that Kennedy spoke as a private citizen, BSD may still
prevail if it can show that it had an adequate
justification for treating Kennedy differently from
other members of the general public. We hold that
BSD’s justification was adequate.
“[A] state interest in avoiding an Establishment
Clause violation may be characterized as compelling,
and
therefore
may
justify
content-based
discrimination.” Good News Club v. Milford Cent.
Sch., 533 U.S. 98, 112 (2001) (internal quotation
marks omitted); see also Peloza, 37 F.3d at 522 (“The
school district’s interest in avoiding an Establishment
Clause violation trumps [a teacher’s] right to free
speech.”).
The Establishment Clause provides that
“Congress shall make no law respecting an

App-18
establishment of religion.” U.S. Const. amend. I. The
Fourteenth
Amendment
incorporated
the
Establishment Clause against the states and their
public-school systems. See Wallace v. Jaffree, 472 U.S.
38, 49-50 (1985). The Clause “mandates government
neutrality between religion and religion, and between
religion and nonreligion.” McCreary Cnty., Ky. v. Am.
Civil. Liberties Union of Ky., 545 U.S. 844, 860 (2005)
(quoting Epperson v. Arkansas, 393 U.S. 97, 104
(1968)). “The Court has been particularly vigilant in
monitoring compliance with the Establishment Clause
in elementary and secondary schools.” Edwards v.
Aguillard, 482 U.S. 578, 583-84 (1987). In that setting,
“[t]he State exerts great authority and coercive power
through mandatory attendance requirements, and
because of the students’ emulation of teachers as role
models and the children’s susceptibility to peer
pressure.” Id. at 584. Accordingly, the Clause
“proscribes public schools from conveying or
attempting to convey a message that religion or a
particular religious belief is favored or preferred.” Lee
v. Weisman, 505 U.S. 577, 604-05 (1992) (Blackmun,
J., concurring) (internal quotation marks and
emphasis omitted).
The Supreme Court has made clear that an
Establishment Clause analysis “not only can, but
must, include an examination of the circumstances
surrounding” the action alleged to have violated the
Clause. Santa Fe Indep. Sch. Dist. v. Doe, 530 U.S.
290, 315 (2000) (emphasis added). Like the Court,
“[w]e refuse to turn a blind eye to the context in which”
Kennedy’s conduct arose. Id. Guided by Santa Fe, we
ask whether an objective observer, familiar with the
history of Kennedy’s on-field religious activity,

App-19
coupled with his pugilistic efforts to generate publicity
in order to gain approval of those on-field religious
activities, would view BSD’s allowance of that activity
as “stamped with [his or] her school’s seal of approval.”
Id. at 308. Here, the answer is unquestionably yes.
At the outset, we address Kennedy’s repeated
contention that the practice he sought to engage in
was a brief, personal, and private prayer. While his
prayer may have been brief, the facts in the record
utterly belie his contention that the prayer was
personal and private. As noted, Kennedy engaged in a
media blitz between October 14, 2015—when
Kennedy’s attorney informed BSD that he would be
reinstituting his prior practice that included allowing
students to join his prayer1—and October 16, 2015.2
Kennedy confirmed in his deposition that the October 14
letter included his intention not to stop students from joining his
prayer:
1

Q. So where it says in the last paragraph, “Coach
Kennedy will continue his practice,” do you understand
that is saying that you will continue your practice of
praying with students if the students come around
you?
A. I wasn’t going to stop my prayer because there was
kids around me.
Q. So is that a yes, sir?
…
A. Yes.
2 We note that Kennedy’s media appearances continue to the
present day. See, e.g., Joe Kennedy, “Football Coach Joe
Kennedy: A prayer sidelined me – here’s why I’m still fighting to
get back in the game,” Fox News (January 26, 2021),
https://fxn.ws/3cmoWyq; Fox & Friends, “Ex-high school football
coach still fighting five years after he was fired by school for

App-20
Kennedy’s deposition included the following exchange:
“Q. So you appeared on the media because you wanted
to spread the word about what you were doing? A. I
was sharing the word, yes, sir.” These media
appearances took place prior to Kennedy’s on-field
prayer on October 16, 23, and 26. That on-field prayer
cannot be construed as personal and private in the
context of Kennedy’s publicity leading up to it.
Context matters. As we know from Santa Fe, we
must examine the surrounding circumstances to
determine whether BSD rescinding the September 17
directive and allowing Kennedy free rein over his
public demonstrations of religious exercise would have
been perceived as a stamp of approval upon that
exercise. Thus, at issue in this case is not, as Kennedy
attempts to gloss it, a personal and private exercise of
faith. At issue was—in every sense of the word—a
demonstration, and, because Kennedy demanded that
it take place immediately after the final whistle, it was
a demonstration necessarily directed at students and
the attending public.
The evolution of Kennedy’s prayer practices with
students is also essential to understanding how an
praying on field,” Fox News (January 26, 2021),
https://fxn.ws/3la91pv; First Liberty, “Coach Joe Kennedy: How
20 Years in the Marine Corps Gave Him the Courage to Kneel,”
(May 3, 2019), https://bit.ly/3ak1e38 (interview with Kennedy in
which Kennedy stated, “I couldn’t believe that after 20 years of
serving and protecting the Constitution they would tell me that
my rights didn’t matter because I was a public employee. And as
a Marine, I knew I had to fight. I always told the young men
whom I coached to stand up when adversity came their way. I
had to be a leader to them and live up to what I said. So I wasn’t
going to back down[.]”).

App-21
objective observer would view BSD continuing to allow
Kennedy to pray on-field. An objective observer would
know that, eight years earlier, Kennedy began praying
alone on the fifty-yard line at the conclusion of each
game. Over time, little by little, his players began to
join him in this activity—at least one out of a fear that
declining to do so would negatively impact his playing
time. Kennedy did not stop players from joining him
then, just as he made clear to BSD on October 14, 2015
that he would not stop them from joining him when he
resumed his practice after the October 16 game.
Indeed, as noted, the record unquestionably reflects
that after October 14, 2015, Kennedy actively sought
support from the community in a manner that
encouraged individuals to rush the field to join him
and resulted in a conspicuous prayer circle that
included students. An objective observer would know,
in advance of the October 16 game, BSD made clear
that the field was not open to the public, specifically
denying access to other religious groups. Yet, Kennedy
used his access as a school employee to conduct his
religious activity. Viewing this scene, an objective
observer could reach no other conclusion than that
BSD endorsed Kennedy’s religious activity by not
stopping the practice:

App-22

Post-game ritual on the field, October 16, 2015.

Kennedy points to his post-game prayer on October
23, 2015—when no one joined him—in an attempt to
establish that all he wants is to pray alone. But this
mischaracterizes the record. Instead, the record
reflects that if BSD permitted Kennedy to resume his
prior practice, students would join him. One instance,
out of many, in which students did not join Kennedy’s
prayer cannot require us to pretend they never did and
never will.3 In sum, there is no doubt that an objective
Throughout this litigation, Kennedy has urged us to turn a
blind eye to the trajectory of his practice in favor of a segmented
view of the evidence, picking parts that help his case and
discarding those that do not. For example, during oral argument,
Kennedy’s counsel urged us to focus primarily on BSD’s October
23 letter. This letter—when read in isolation—appears to assert
that any demonstration of faith by any teacher in any context
would be impermissible. But acceding to Kennedy’s framing of
the record would be rejecting the very inquiry that Santa Fe
mandates. The October 23 letter was written after Kennedy
rejected the restrictions announced in the September 17 letter
and announced his intention to resume his unconstitutional
behavior over his employer’s clear prohibition. Such a myopic
view of the events leading to litigation simply does not tell the
3

App-23
observer, familiar with the history of Kennedy’s
practice, would view his demonstrations as BSD’s
endorsement of a particular faith. For that reason,
BSD had adequate justification for its treatment of
Kennedy, and the district court correctly granted
summary judgment to BSD on Kennedy’s free speech
claim.
B.
We next address Kennedy’s free exercise claim. In
Church of Lukumi, the Court wrote that “a law that is
neutral and of general applicability need not be
justified by a compelling governmental interest even
if the law has the incidental effect of burdening a
particular religious practice.” Church of the Lukumi
Babalu Aye v. City of Hialeah, 508 U.S. 520, 531
(1993). Pursuant to that analysis, a law that is not
neutral and generally applicable “must be justified by
a compelling governmental interest and must be
narrowly tailored to advance that interest.” Id. at 53132.
The District concedes that its September 17
directive is not neutral and generally applicable. It
purports to restrict Kennedy’s religious conduct
because the conduct is religious. See id. at 532 (“[T]he
protections of the Free Exercise Clause pertain if the
law at issue … regulates … conduct because it is
undertaken for religious reasons.” (emphasis added)).
But the District contends that its directive satisfies
strict scrutiny. We agree.
whole story—like attempting to decipher the plot of “The Wizard
of Oz” by viewing a still photograph of Dorothy waking in her bed
at the end of the film.

App-24
1.
“[A] state interest in avoiding an Establishment
Clause violation ‘may be characterized as compelling,’
and
therefore
may
justify
content-based
discrimination,” Good News Club, 533 U.S. at 113–14
(quoting Widmar v. Vincent, 454 U.S. 263, 271 (1981)),
such as prohibiting religious conduct that could be
imputed to the District. Based on the Establishment
Clause analysis in the fourth Eng factor above, the
District’s September 17 directive was thus motivated
by a compelling state interest.4
2.
In this context, a regulation fails the narrow
tailoring prong of strict scrutiny if it is either
overbroad or underinclusive given the government’s
compelling interest. Church of Lukumi, 508 U.S. at
546. For example, in Church of Lukumi, ordinances
prohibiting animal slaughter were underinclusive for
We determined above that BSD’s concern that it would violate
the Establishment Clause by allowing Kennedy’s conduct was
well-founded—this activity indeed constituted a violation. But
even without our holding as to the Establishment Clause, BSD
had reason for concern. Public school districts were repeatedly
sued in federal district courts across the country for alleged
Establishment Clause violations in the ten years preceding
BSD’s September 17 letter to Kennedy. See, e.g., Sherman v. Twp.
High School Dist. 214, 624 F. Supp. 907 (N.D. Ill. 2007); Doe v.
Wilson Cnty. Sch. Sys., 524 F. Supp. 2d 964 (M.D. Tenn. 2007);
Am. Humanist Ass’n v. S.C. Dep’t of Educ., 108 F. Supp. 3d 355
(D.S.C. 2015); Ryan v. Mesa Unified Sch. Dist., 64 F. Supp. 3d
1356 (D. Ariz. 2014); see also Borden v. Sch. Dist. of Twp. of E.
Brunswick, 523 F.3d 153, 178-79 (3d Cir. 2008) (holding that the
Establishment Clause prohibited a football coach from bowing
his head while players prayed because of his history of leading
the team in prayer).
4

App-25
the stated interests of “protecting the public health
and preventing cruelty to animals” because they failed
“to prohibit nonreligious conduct that endangers these
interests in a similar or greater degree than
[Plaintiff’s religious] sacrifice does.” Id. at 543.
Here, the September 17 directive and
accompanying BSD policy prohibiting Kennedy’s
conduct were narrowly tailored to the compelling state
interest of avoiding a violation of the Establishment
Clause. Indeed, there was no other way to accomplish
the state’s compelling interest. The District tried
repeatedly to work with Kennedy to develop an
accommodation for him that would avoid violating the
Establishment Clause; Kennedy declined to cooperate
in that process and insisted that the only acceptable
outcome would be praying immediately after the game
on the fifty-yard line in view of students and
spectators.
Because BSD had a compelling state interest to
avoid violating the Establishment Clause, and it tried
repeatedly to work with Kennedy to develop an
accommodation for him that would avoid violating the
Establishment Clause while nevertheless offering him
options that were narrowly tailored to protect his
rights, we affirm the decision of the district court to
deny Kennedy’s Free Exercise claim.
C.
In addition to his constitutional claims, Kennedy
brought four claims pursuant to Title VII: failure to
rehire, disparate treatment, failure to accommodate,
and retaliation.

App-26
1.
Pursuant to Title VII, “an unlawful employment
practice is established when the complaining party
demonstrates that … religion … was a motivating
factor for any employment practice, even though other
factors also motivated the practice.” 42 U.S.C.
§ 2000e-2(m). “In order to establish a prima facie case”
in Kennedy’s circumstances, he must “show that [he]
was a member of a protected group [ ], that [he] was
adequately performing [his] job; and that [he] suffered
an adverse employment action[.]” Kortan v. Cal. Youth
Auth., 217 F.3d 1104, 1113 (9th Cir. 2000).
Kennedy established that he was a member of a
protected group and that he suffered an adverse
employment action. However, he did not show that he
was adequately performing his job. Instead, the record
reflects that Kennedy refused to follow BSD policy and
conducted numerous media appearances that led to
spectators rushing the field after the October 16 game,
disregarding his and BSD’s responsibilities to ensure
students’ safety. We affirm the district court’s grant of
summary judgment to BSD on Kennedy’s failure to
rehire claim.
2.
To establish a prima facie case of disparate
treatment under Title VII, a plaintiff must show
“(1) he is a member of a protected class; (2) he was
qualified for his position; (3) he experienced an
adverse employment action; and (4) similarly situated
individuals outside his protected class were treated
more favorably.” Berry v. Dep’t of Soc. Servs., 447 F.3d
642, 656 (9th Cir. 2006). Kennedy satisfies the first
three prongs but stumbles on the fourth. “Other

App-27
employees are similarly situated to the plaintiff when
they have similar jobs and display similar conduct.”
Earl v. Nielsen Media Rsch., Inc., 658 F.3d 1108, 1114
(9th Cir. 2011) (internal quotation marks omitted).
Kennedy’s conduct is clearly dissimilar to the
other personal activities of assistant coaches he cites,
such as checking a cell phone or greeting a spouse,
because
Kennedy’s
conduct
violated
the
Establishment Clause, and obviously, checking a cell
phone does not. Kennedy asserted that another
assistant coach, David Boynton, could serve as a
similarly-situated employee because Boynton once
went on to the field following a game, took a picture of
the scoreboard, and said a silent Buddhist chant to
himself while standing. But Boynton’s alleged practice
of reciting silent Buddhist chants in his head while
standing on the field does not make Boynton similarly
situated to Kennedy, either—Leavell’s declaration
stated that he first “heard of an alleged Buddhist
chant by Mr. Boynton [] in news reports of Mr.
Kennedy’s EEOC complaint in January 2016 … Other
than Mr. Kennedy, [Leavell had] not received any
reports of any other BSD employee who has allegedly
engaged in readily observable demonstrative religious
activity, while on-duty in the performance of his or her
job, and in the presence of students.” The fact that
BSD was unaware of Boynton’s alleged practice shows
that Boynton and Kennedy were not similarly
situated; BSD had no opportunity to impose
differential treatment for conduct that was
unobservable.
Because Kennedy cannot make out a prima facie
case of disparate treatment, we affirm the district

App-28
court’s grant of summary judgment to BSD on this
claim.
3.
“To establish religious discrimination on the basis
of a failure-to-accommodate theory,” a plaintiff “must
first set forth a prima facie case that (1) he had a bona
fide religious belief, the practice of which conflicts
with an employment duty; (2) he informed his
employer of the belief and conflict; and (3) the
employer discharged, threatened, or otherwise
subjected him to an adverse employment action
because of his inability to fulfill the job requirement.”
Peterson v. Hewlett-Packard Co., 358 F.3d 599, 606
(9th Cir. 2004). It is undisputed that Kennedy
presented a prima facie case of failure-toaccommodate.
Once a plaintiff makes out a prima facie case, “the
burden then shifts” to the employer “to show that it
initiated good faith efforts to accommodate reasonably
the employee’s religious practices or that it could not
reasonably accommodate the employee without undue
hardship.” Id. For the reasons already discussed, BSD
did both. BSD officials repeatedly offered to work with
Kennedy to find an accommodation that would
insulate the District from an Establishment Clause
violation; Kennedy did not respond or indicated that
the only acceptable outcome in his view would be
resuming his prior practice of praying on the fifty-yard
line immediately following the game, in full view of
students and spectators. Because allowing Kennedy to
do so would constitute an Establishment Clause
violation, the District could not reasonably
accommodate Kennedy’s practice without undue

App-29
hardship. Accordingly, we affirm the district court’s
grant of summary judgment to BSD on Kennedy’s
failure-to-accommodate claim.
4.
In a retaliation claim under Title VII, a “plaintiff
has the burden of proving a prima facie case of
discrimination based on opposition to an unlawful
employment practice.” E.E.O.C. v. Crown Zellerbach
Corp., 720 F.2d 1008, 1012 (9th Cir. 1983). To prove a
prima facie case of retaliation based on opposition, the
plaintiff must show that “(1) he has engaged in
statutorily protected expression; (2) he has suffered an
adverse employment action; and (3) there is a causal
link between the protected expression and the adverse
action.” Id. If he does so, “the burden shifts to the
defendant
‘to
articulate
some
legitimate,
nondiscriminatory
reason’
for
the
adverse
employment action.” Id. (quoting Tex. Dept. of Cmty.
Affairs v. Burdine, 450 U.S. 248, 253 (1981)).
Kennedy presented a prima facie case of
retaliation. But Kennedy also refused to collaborate
with BSD in designing a reasonable accommodation
for his religious practice. Furthermore, as explained
above, Kennedy made it clear that he would continue
to pray on the fifty-yard line immediately following
the game as long as BSD employed him—a practice
that violated the Establishment Clause. This conduct
is a legitimate nondiscriminatory reason for the
adverse employment actions BSD took. We affirm the
district court’s grant of summary judgment to BSD on
Kennedy’s retaliation claim.

App-30
CONCLUSION
The record before us and binding Supreme Court
precedent compel the conclusion that BSD would have
violated the Establishment Clause by allowing
Kennedy to pray at the conclusion of football games,
in the center of the field, with students who felt
pressured to join him. Kennedy’s attempts to draw
nationwide attention to his challenge to BSD compels
the conclusion that he was not engaging in private
prayer, but was instead engaging in public speech of
an overtly religious nature while performing his job
duties. BSD tried to reach an accommodation for
Kennedy, but that was spurned by his insisting that
he be allowed to pray immediately after the conclusion
of each game, likely surrounded by students who felt
pressured to join him.
Kennedy’s Title VII claims also fail.
The judgment of the district court is AFFIRMED.
CHRISTEN, Circuit Judge, joined by D.W. NELSON,
Circuit Judge, concurring:
I concur in the majority’s decision affirming the
district court’s order granting summary judgment,
and dismissing Coach Kennedy’s Free Speech and
Free Exercise claims. I write separately to underscore
why, in my view, the outcome of this appeal is entirely
driven by the circumstances from which Coach
Kennedy’s claims arose.
I.
We consider “a sequential five-step series of
questions” when evaluating Free Speech claims
brought by public employees. Eng v. Cooley, 552 F.3d

App-31
1062, 1070 (9th Cir. 2009). The second and fourth
questions are at issue in this case: whether Kennedy
spoke as a private citizen or as a public employee, and
whether the Bremerton School District (BSD) had
adequate justification for treating Kennedy differently
from other members of the public. Id.
Garcetti v. Ceballos, 547 U.S. 410, 421 (2006),
explains that a person speaks as a public employee
when he makes statements pursuant to his official
duties. See Lane v. Franks, 573 U.S. 228, 240 (2014)
(“The critical question under Garcetti is whether the
speech at issue is itself ordinarily within the scope of
an employee’s duties.”). Garcetti also cautioned that
courts must not allow employers to describe job duties
in infinitely elastic terms. 547 U.S at 424. Garcetti’s
cautionary note is critically important: if employers
were allowed to decide that any unpopular or
unwelcome speech fell within their employees’ job
duties, they would be free to extinguish First
Amendment rights—or at least free to require that
employees choose between keeping their jobs and
exercising their First Amendment right to speak. We
conduct a practical inquiry to decide whether a task is
within the scope of an employee’s professional duties,
id. at 424-25, so we begin from the premise that a
coach’s duties include teaching non-academic skills
such as teamwork, sportsmanship, dedication, and
personal discipline.
Here, the district court found Kennedy’s job duties
included mentoring students, setting a good example,
and striving to “create good athletes and good human
beings.” BSD sent two letters to Kennedy after it
learned he was engaged in religious speech with the

App-32
team. The first encouraged him to “continue to provide
motivational, inspirational talks to students before,
during and after games and other team activity,” but
cautioned that his talks “may not include religious
expression, including prayer.” Hopefully, all
instructors at Bremerton High encourage their
students’ efforts, but it cannot be denied that the
nature of motivational talks coaches deliver to their
teams differs substantially from the words of
encouragement one might expect from geometry or
history teachers. Kennedy acknowledged that the
inspirational speeches he gave to players at the
conclusion of games likely constituted prayer, and his
speeches to the team were unmistakably the kind of
motivational communication that fell squarely within
his job duties. Kennedy’s demonstrative on-field
prayers of thanks immediately following games must
be viewed in the context of the motivational talks he
routinely gave to the team. On the record presented,
the district court correctly concluded there was no
genuine dispute that Kennedy spoke as a public
employee when he engaged in religious expression
during the talks he gave to the team, and when he
prayed at the fifty-yard line after the team’s games.
Eng’s fourth factor requires that we consider
whether BSD had adequate justification for treating
Kennedy differently from other members of the
general public. 552 F.3d at 1070. The district court
found the “sole reason” BSD suspended Kennedy was
its desire to avoid violating the Establishment Clause.
BSD’s Establishment Clause defense requires that we
ask whether an objective observer, familiar with the
history and circumstances surrounding Kennedy’s
prayers, would perceive them as “state endorsement of

App-33
prayer in public schools,” i.e., whether an objective
observer would view the prayers as “stamped with
[the] school’s seal of approval.” Santa Fe Indep. Sch.
Dist. v. Doe, 530 U.S. 290, 308 (2000) (citation and
internal quotation marks omitted).
Kennedy’s post-game prayers took place at
midfield while spectators were still in the stands, but
he insisted that he only intended to engage in “brief,
quiet prayer of thanksgiving for player safety,
sportsmanship, and spirited competition.” The district
court did not question Kennedy’s intentions, but it
recognized that if he had been allowed to continue
praying at the fifty-yard line, any objective observer
would have perceived that BSD endorsed Kennedy’s
speech. Santa Fe, 530 U.S. at 308. No other conclusion
could have been drawn after Kennedy publicly
announced he would defy BSD’s directive that he stop
praying at midfield, because spectators rushed to join
him at a subsequent game and BSD was forced to
engage security and close the field to the public. After
the public was barred from the field, the perception
that BSD endorsed Kennedy’s speech was unavoidable
because only his job as assistant coach allowed
Kennedy access. As the district court explained, if “a
director takes center stage after a performance, a
reasonable onlooker would interpret their speech from
that location as an extension of the school-sanctioned
speech just before it.” Kennedy’s subjective intent to
pray privately and personally did not guide BSD’s
response to Kennedy’s actions; the question was how
an objective observer would perceive Kennedy’s
speech.

App-34
Kennedy’s talks evolved over time and the
practice he eventually adopted, taking a knee at
midfield and delivering what he referred to as private
personal prayers alongside team members, was a
thematic extension of the motivational speeches he
delivered to Bremerton High’s assembled football
team. The majority does not imply that coaches cannot
lead by example or serve as excellent role models if
players see them engage in personal prayer. And it
must be acknowledged that Kennedy coached high
school players, who were surely less impressionable
than elementary-aged students. Still, even highschoolers are not immune from perceiving—or
misperceiving—pressure to “go along,” and the record
shows that at least one parent confirmed a player felt
“compelled to participate” in Kennedy’s post-game
prayers because “he felt he wouldn’t get to play as
much if he didn’t.” Kennedy agreed that coaches can
have an outsized influence and “for some kids, the
coach might even be the most important person they
encounter in their overall life.”
No case law requires that a high school teacher
must be out of sight of students or jump into the
nearest broom closet in order to engage in private
prayer, but it cannot be denied that this football
coach’s prayer at the fifty-yard line, immediately after
a game, under stadium lights and in front of players
and spectators, objectively sent a public message. In
contrast, even an on-duty teacher tasked with
supervising students in a high school cafeteria would
not risk sending a message that BSD endorses her
faith, nor risk inadvertently coercing students to join
her, if she took a moment to give thanks before eating
her meal. And the Establishment Clause can surely

App-35
accommodate high school students observing a
teacher giving thanks for an “all clear” announcement
made in the wake of a safety scare like an earthquake
tremor, or a “false alarm” announcement after a fire
bell.
The opinion we entered affirming the district
court’s order denying Coach Kennedy’s motion for a
preliminary injunction made reference to prayer
Kennedy engaged in while attending a game after he
had been suspended. Kennedy v. Bremerton Sch. Dist.,
869 F.3d 813, 820, 826 (9th Cir. 2017). That off-duty
speech played no role in BSD’s decision to suspend
Kennedy, nor did our prior opinion signal that BSD
would be free to restrict Kennedy’s off-duty speech.
See id. Rather, the prayer Kennedy engaged in as a
spectator after he was suspended was relevant
because he was surrounded by members of the media
he had courted. Although Kennedy argues he intended
to engage in private prayer, his prayers were anything
but private. Indeed, an objective observer would be
aware that fans rushed to join Kennedy on the field
and knocked over band members at the conclusion of
the October 16 game.
Kennedy candidly testified that he gave
numerous media interviews before he was suspended,
and that he did so in an effort to “spread the word.” In
those interviews, Kennedy announced a firm stance
that he would continue to pray and allow the team to
join him, despite BSD’s directives. In response, BSD
was “flooded with thousands of emails, letters, and
phone calls from around the country, many of which
were hateful or threatening.” Given the community’s
response to Kennedy’s public statements, BSD would

App-36
have unquestionably sent a message of endorsement if
it had allowed him to continue to pray at midfield.
BSD’s need to avoid an Establishment Clause
violation provided adequate justification for
prohibiting Kennedy’s post-game prayers. Kennedy’s
Free Speech claim fails to satisfy Eng’s second and
fourth factors. 552 F.3d at 1070.
II.
The sequence of events leading up to BSD’s
decision to place Kennedy on paid administrative
leave painted BSD into a corner because an objective
observer would have perceived the school’s
endorsement if Kennedy had been allowed to continue
praying at midfield. BSD had a compelling interest in
avoiding an Establishment Clause violation, Good
News Club v. Milford Cent. Sch., 533 U.S. 98, 112
(2001), and the district court correctly ruled BSD’s
adverse employment action was narrowly tailored to
advance that interest, see Church of the Lukumi
Babalu Aye v. City of Hialeah, 508 U.S. 520 531-32
(1993).
BSD first learned of Kennedy’s post-game prayers
in September 2015, when an opposing team’s coach
told Bremerton High’s principal that Kennedy had
asked the visiting team to join in a post-game prayer
on the field. BSD’s first letter to Kennedy explained
that his post-game prayers “would very likely be found
to violate the First Amendment’s Establishment
Clause,” and provided a number of “clear standards”
to which Kennedy was required to adhere. Kennedy
did not publicly pray at the following game, but on
October 14 he informed BSD that he would resume his

App-37
practice of praying on the fifty-yard line immediately
following the next game.
As explained, Kennedy’s widely publicized
intention to resume his post-game prayers resulted in
an overwhelming response from the public, and BSD
was reasonably concerned that it would be unable to
“keep kids safe.” BSD’s concerns were realized when
Kennedy resumed praying at the October 16 game and
members of the public rushed the field. After that
game, BSD enlisted help from the police department
to provide security and also made public
announcements and posted signs directing that public
access to the field would no longer be allowed.
BSD’s second letter reiterated that school staff
may not “engage in action that is likely to be perceived
as endorsing (or opposing) religion or religious
activities.” Nevertheless, Kennedy again prayed at the
fifty-yard line following the next two games. Faced
with mounting publicity and corresponding concern
for student and public safety, BSD placed Kennedy on
paid administrative leave.
At oral argument before our court, Kennedy’s
counsel repeatedly referred to a single sentence from
BSD’s second letter directing that “[w]hile on duty,”
Kennedy
must
refrain
from
engaging
in
“demonstrative religious activity, readily observable
to (if not intended to be observed by) students and the
attending public.” Kennedy plucks this single
sentence, and argues that it would prohibit a teacher
from giving thanks at lunchtime or engaging in any
other personal prayer while on duty. But this sentence
cannot be read in isolation. BSD consistently sought
to accommodate Kennedy’s religious exercise without

App-38
running afoul of the Establishment Clause. BSD’s
correspondence to Kennedy “ma[d]e it clear that
religious exercise that would not be perceived as
District endorsement, and which does not otherwise
interfere with the performance of job duties, can and
will be accommodated.” BSD offered Kennedy the use
of a private location within the school building,
athletic facility, or press box, and invited Kennedy to
propose alternative accommodations.
By the time BSD’s second letter directed Kennedy
to refrain from engaging in religious activity
observable to students and the attending public,
Kennedy had announced his intention to resume
praying midfield, BSD had received thousands of
letters, many of which were hostile and threatening,
and members of the public had knocked over some
students while rushing to join him on the field after
the October 16 game. Kennedy’s public statements
that he would continue to pray despite BSD’s
direction, and the public’s response to his statements,
provide important context for the single sentence he
isolates from BSD’s second letter.
BSD’s attempts to accommodate Kennedy’s
prayer were efforts to more narrowly tailor its
response, but Kennedy did not accept any of BSD’s
proposed accommodations, or even acknowledge them.
Instead, he gave media interviews publicizing his
intent to continue his post-game prayers and followed
through by praying on the fifty-yard line at the two
games that followed. Given Kennedy’s announced
plans to defy BSD’s reasonable directives, BSD met its
burden to show its response was the least-restrictive
means consistent with avoiding an Establishment

App-39
Clause violation. See Roman Catholic Diocese of
Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020).

App-40
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 20-35222
________________
JOSEPH A. KENNEDY,
Plaintiff-Appellant,
v.
BREMERTON SCHOOL DISTRICT,
Defendant-Appellee.
________________
Filed: July 19, 2021
________________
Before: DOROTHY W. NELSON, MILAN D. SMITH,
JR., and MORGAN CHRISTEN,
Circuit Judges.
________________
ORDER
________________
A judge of this court sua sponte requested a vote
on whether to rehear this case en banc. A vote was
taken and the matter failed to receive a majority of the
votes of the nonrecused active judges in favor of en
banc consideration. See Fed. R. App. P. 35(f).
Rehearing en banc is DENIED.
Judge Bress did not participate
deliberations or vote in this case.

in

the

App-41
M. SMITH, Circuit Judge, concurring in the denial of
rehearing en banc:
Unlike Odysseus, who was able to resist the
seductive song of the Sirens by being tied to a mast
and having his shipmates stop their ears with bees’
wax, our colleague, Judge O’Scannlain, appears to
have succumbed to the Siren song of a deceitful
narrative of this case spun by counsel for Appellant, to
the effect that Joseph Kennedy, a Bremerton High
School (BHS) football coach, was disciplined for
holding silent, private prayers. That narrative is false.
Although I discuss the events in greater detail below,
the reader should know the following basic truth ab
initio: Kennedy was never disciplined by BHS for
offering silent, private prayers. In fact, the record
shows clearly that Kennedy initially offered silent,
private prayers while on the job from the time he
began working at BHS, but added an increasingly
public and audible element to his prayers over the
next approximately seven years before the Bremerton
School District (BSD) leadership became aware that
he had invited the players and a coach from another
school to join him and his players in prayer at the fiftyyard line after the conclusion of a football game. He
was disciplined only after BSD tried in vain to reach
an accommodation with him after he (in a letter from
his counsel) demanded the right to pray in the middle
of the football field immediately after the conclusion of
games while the players were on the field, and the
crowd was still in the stands. He advertised in the
area’s largest newspaper, and local and national TV
stations, that he intended to defy BSD’s instructions
not to publicly pray with his players while still on duty
even though he said he might lose his job as a result.

App-42
As he said he would, Kennedy prayed out loud in the
middle of the football field immediately after the
conclusion of the first game after his lawyer’s letter
was sent, surrounded by players, members of the
opposing team, parents, a local politician, and
members of the news media with television cameras
recording the event, all of whom had been advised of
Kennedy’s intended actions through the local news
and social media.
In his statement, Judge O’Scannlain omits most of
the key facts in this case, reorders the chronology of
events, and ignores pertinent Establishment Clause
law, much of which has been in place for more than
half a century.
I.
When Joseph Kennedy was hired by BSD in 2008,
his post-game prayers were initially silent and
private. Kennedy v. Bremerton Sch. Dist. (Kennedy
III), 991 F.3d 1004, 1010 (9th Cir. 2021). Over the
ensuing years, however, Kennedy made it his mission
to intertwine religion with football. Eventually, he led
the team in prayer in the locker room before each
game, and some players began to join him for his postgame prayer, too, where his practice ultimately
evolved to include full-blown religious speeches to, and
prayers with, players from both teams after the game,
conducted while the players were still on the field and
while fans remained in the stands. Id.
When BSD’s Athletic Director heard about
Kennedy’s practices, he told Kennedy that he should
not be conducting prayers with his players. Id.
Kennedy then wrote on his Facebook page that he

App-43
thought he might have been fired for praying. Id. at
1011. According to Principal John Polm’s deposition,
that post resulted in “thousands of people saying they
were going to attend and storm the field with
[Kennedy]
after
the
game.”
In
addition,
Superintendent Aaron Leavell wrote in his
declaration that “[o]nce the topic arose, the District
was flooded with thousands of emails, letters, and
phone calls from around the country, many of which
were hateful or threatening.” Kennedy III, 991 F.3d at
1011. Clearly, from that time forward, the public was
watching to see whether BSD would permit Kennedy
to continue his demonstrative religious practices while
he was on the job. The public’s interest was neither
surprising nor unintended; during the course of these
events, Kennedy gave numerous media interviews
describing his practice of praying mid-field at the
conclusion of BHS’s games, and of his intention to defy
BSD in so doing.
Having learned of Kennedy’s on-duty religious
practice, BSD concluded that it needed to make
certain the coaching staff clearly understood the
parameters of what was expected of them regarding
religious activities while on the job. Id. BSD told the
coaching staff that they could and should continue
giving inspirational talks to their players but that
“[t]hey must remain entirely secular in nature, so as
to avoid alienation of any team member.” Id. BSD also
advised that “[s]tudent religious activity must be
entirely and genuinely student-initiated, and may not
be suggested, encouraged (or discouraged), or
supervised by any District staff.” Id. BSD further
counseled that “[i]f students engage in religious
activity, school staff may not take any action likely to

App-44
be perceived by a reasonable observer, who is aware of
the history and context of such activity at BHS, as
endorsement of that activity.” Id. Last, BSD stressed
that Kennedy personally was
free to engage in religious activity, including
prayer, so long as it does not interfere with
job responsibilities. Such activity must be
physically separate from any student activity,
and students may not be allowed to join such
activity. In order to avoid the perception of
endorsement discussed above, such activity
should either be non-demonstrative (i.e., not
outwardly discernible as religious activity) if
students are also engaged in religious
conduct, or it should occur while students are
not engaging in such conduct.
Id.
Kennedy initially followed BSD’s instructions,
ceasing both his pre-game and post-game prayers, but
he eventually commenced a very public campaign
against BSD focused only on the post-game activity.
Quoting from our opinion:
Kennedy’s increasingly direct challenge to
BSD escalated when he wrote BSD through
his lawyer on October 14, 2015. The letter
announced that Kennedy would resume
praying on the fifty-yard line immediately
after the conclusion of the October 16, 2015
game. Kennedy testified in his deposition
that he intended the October 14 letter to
communicate to the district that he “wasn’t
going to stop [his] prayer because there was
[sic] kids around [him].” In other words,

App-45
Kennedy was planning to pray on the fiftyyard line immediately after the game, and he
would allow students to join him in that
religious activity if they wished to do so. The
lawyer’s letter also demanded that BSD
rescind the directive in its September 17
letter that Kennedy cease his post-game
prayers at the fifty-yard line immediately
after the game.
Kennedy’s intention to pray on the field
following the October 16 game was widely
publicized through Kennedy and his
representatives’ “numerous appearances and
announcements [on] various forms of media.”
For example, the Seattle Times published an
article on October 14 (the same day as the
lawyer’s letter was sent to BSD), entitled
“Bremerton football coach vows to pray after
game despite district order. A Bremerton
High School football coach said he will pray
at the 50-yard line after Friday’s homecoming
game, disobeying the school district’s orders
and placing his job at risk.”[1]
In an attempt to secure the field from public
access, BSD “made arrangements with the
Bremerton Police Department for security,
had signs made and posted, had ‘robo calls’
made to District parents, and otherwise put
1 The Seattle Times has the twenty-third largest circulation of
any newspaper in the country, with an average Sunday
circulation of 364,454. See Circulation numbers for the 25 largest
newspapers,
Seattle
Times
(May
1,
2012),
https://bit.ly/2OGgYX5.

App-46
the word out to the public that there would be
no access to the field.” A Satanist religious
group contacted BSD in advance of the game
to notify them that “it intended to conduct
ceremonies on the field after football games if
others were allowed to.”
On the day of the game, the District had not
yet responded to Kennedy's letter. Kennedy
nonetheless proceeded as he indicated he
would. The Satanist group was present at the
game, but “they did not enter the stands or go
on to the field after learning that the field
would be secured.” But Kennedy had access
to the field by virtue of his position as a
public-school employee. Once the final
whistle blew, Kennedy knelt on the fifty-yard
line, bowed his head, closed his eyes, “and
prayed a brief, silent prayer.” According to
Kennedy, while he was kneeling with his eyes
closed, “coaches and players from the
opposing team, as well as members of the
general public and media, spontaneously
joined [him] on the field and knelt beside
[him].” Kennedy’s claim that the large
gathering around him of coaches, players, a
state elected official, and other members of
the public who had been made aware of
Kennedy’s intentions because of the
significant amount of publicity advertising
what Kennedy was about to do, was
“spontaneous” is self-evidently [false].
Moreover, Kennedy’s counsel acknowledged
in his October 14, 2015 letter that Kennedy’s
prayers were “verbal” and “audible,” flatly

App-47
contradicting Kennedy’s own recounting.
BSD stated that this demonstration of
support for Kennedy involved “people
jumping the fence” to access the field, and
BSD received complaints from parents of
students who had been knocked down in the
stampede. Principal John Polm said that he
“saw people fall[.]” Principal Polm testified
that “when the public went out onto the field,
we could not supervise effectively,” resulting
in “an inability to keep kids safe.” A photo of
this scene is in the record, and it depicts
approximately twenty players in uniform
kneeling around Kennedy with their eyes
closed, a large group of what appear to be
adults standing outside the ring of praying
players, and several television cameras
photographing the scene.[2]
In the days after the game, similar pictures
were “published in various media.” Kennedy
also made numerous media appearances in
connection with the October 16 game, to, in
2

App-48
his words, “spread[] the word of what was
going on in Bremerton.” For example, on
October 18, 2015, CNN featured an article
entitled “Despite orders, Washington HS
coach prays on field after game.”
On October 23, 2015, BSD sent Kennedy a
letter explaining that his conduct at the
October 16 game violated BSD’s policy. BSD
reiterated that it “can and will” accommodate
“religious exercise that would not be
perceived as District endorsement, and which
does not otherwise interfere with the
performance of job duties.” To that end, it
suggested that “a private location within the
school building, athletic facility or press box
could be made available to [Kennedy] for brief
religious exercise before and after games.”
Kennedy, of course, could also pray on the
fifty-yard line after the stadium had emptied,
as he did on September 18. Because the
“[d]evelopment of accommodations is an
interactive process,” the District invited
Kennedy to offer his own suggestions.
Kennedy and his attorneys’ only response in
the record to BSD’s invitation was informing
the media that the only acceptable outcome
would be for BSD to permit Kennedy to pray
on the fifty-yard line immediately after
games.
Kennedy engaged in the same behavior in
violation of BSD’s directive on October 23,
2015 and October 26, 2015. A photo taken
after the October 23 game shows Kennedy

App-49
kneeling alone on the field while players and
other individuals mill about. A photo taken
after the October 26 game shows at least six
individuals, some of whom appear to be
school-age
children,
kneeling
around
Kennedy.
…
During this time, other BSD employees
testified that they suffered repercussions due
to the “attention given to Mr. Kennedy’s issue
and the way he chose to address the
situation.” For example, Nathan Gillam,
BHS’s head football coach, testified that
during the controversy, “an adult who [he]
had never seen before came up to [his] face
and cursed [him] in a vile manner.” Gillam
further stated that he was concerned for his
physical safety. He testified, “One of the
assistant football coaches was also a police
officer and, as we headed down to the field for
one game, I obliquely asked him what he
thought about whether we could be shot from
the crowd.” As a result of these concerns,
Gillam “decided that [he] would resign” from
the coaching position he had held for eleven
years.
After the season wound down, BSD began its
annual process of providing its coaches with
performance reviews. Gillam recommended
that Kennedy not be rehired because
Kennedy “failed to follow district policy,” “his
actions demonstrated a lack of cooperation
with administration,” he “contributed to

App-50
negative relations between parents, students,
community members, coaches and the school
district,” and he “failed to supervise studentathletes after games due to his interactions
with [the] media and [the] community.”
Kennedy did not apply for a 2016 coaching
position.
Kennedy III, 991 F.3d at 1012-14.
When Kennedy sought injunctive relief from the
Supreme Court after we decided Kennedy v.
Bremerton School District (Kennedy I), 869 F.3d 813
(9th Cir. 2017), Justice Alito noted that “important
unresolved factual questions would make it very
difficult if not impossible at this stage to decide the
free speech question that the petition asks us to
review.” Kennedy v. Bremerton Sch. Dist. (Kennedy II),
139 S. Ct. 634, 635 (2019) (mem.) (Alito, J., concurring
in denial of certiorari). Specifically, Justice Alito
believed that the Court was unable to review our
decision until the record was clear about “the basis for
the school’s action” against Kennedy. Id. But after the
case was remanded to the district court and discovery
was completed, the district court ruled that “the risk of
constitutional liability associated with Kennedy’s
religious conduct was the ‘sole reason’ the District
ultimately suspended him.” Kennedy III, 991 F.3d at
1010 (emphasis added).
Judge O’Scannlain recounts only the facts that he
claims are “constitutionally relevant.” While our
panel—like the Supreme Court—“refuse[s] to turn a
blind eye to the context in which” an Establishment
Clause violation would arise, Santa Fe Independent
School District v. Doe, 530 U.S. 290, 315 (2000), many

App-51
of the facts that Judge O’Scannlain selectively deems
“constitutionally relevant” in his statement are
unmoored from the record. For the reader’s
convenience, I here provide each material unmoored
statement below, along with the accurate version, as
reflected in the record.
The unmoored claim

What the record actually
shows

“[S]tudents and coaches
began to join Kennedy in
prayer of their own
accord.” Statement at 46
(O’Scannlain,
J.,
statement
regarding
denial of rehearing en
banc).

There is no support for
the
suggestion
that
players
could
have
avoided Kennedy’s pregame
locker
room
prayers or post-game onfield prayers. At least
one atheistic student
athlete only participated
in the post-game prayers
because he feared he
would get less playing
time if he declined. No
students prayed on the
field without Kennedy
when Kennedy paused
his practice of doing so.

“Kennedy’s prayer—no
matter how personal,
private, brief, or quiet—
was wholly unprotected
by
the
First
Amendment.” Statement
at 52 (O’Scannlain, J.,
statement
regarding

Kennedy’s prayer was
public, audible, and
created a scene that
included students being
knocked down in the
rush to jump over the
fence to join Kennedy on
the field.

App-52
denial of rehearing en
banc).
“Kennedy
essentially
asked his employer to do
nothing—simply
to
tolerate the brief, quiet
prayer of one man.”
Statement
at
64
(O’Scannlain,
J.,
statement
regarding
denial of rehearing en
banc).

Kennedy engaged in
private
prayer
for
several years. But when
BSD learned that he had
begun leading students
in pre-game locker room
prayers
and
giving
overtly
religious
speeches on the field
post-game, it directed
him to stop that practice.
Kennedy demanded that
his employer allow him
to engage in a public
religious demonstration
surrounded by schoolage children in front of a
large crowd, in an area
he could only access
because he was a public
employee.

The panel relied “simply
on the existence of a
District
policy
that
coaches should ‘exhibit
sportsmanlike conduct
at
all
times’”
to
determine Kennedy’s job
duties. Statement at 52
(O’Scannlain,
J.,
statement
regarding

The panel relied on
numerous facts in the
record, including BSD’s
direction that Kennedy
engage in motivational
speech to students of a
secular nature at the end
of each game. The panel
also relied on Kennedy’s
own characterization of

App-53
denial of rehearing en his duties as a role model
and mentor, and his
banc).
agreement to “maintain
positive
media
relations,” “obey all the
Rules of Conduct before
players and public,” and
“serve[] as a personal
example.”
Kennedy
“plainly understood that
demonstrative
communication
fell
within the compass of his
professional
obligations.” Kennedy I,
869 F.3d at 826.
“[O]n the panel’s view, a
school can restrict any
speech for any reason so
long as it instructs its
employees
to
demonstrate
good
behavior in the presence
of others.” Statement at
54
(O’Scannlain,
J.,
statement
regarding
denial of rehearing en
banc).

A school can guide the
content of demonstrative
speech
to
students
during times when the
employee’s job duties
require that speech.
Kennedy III, 991 F.3d at
1015.

The panel held “that
prayer was one of
Kennedy’s job duties
when
his
employer
maintained a policy

The panel held that
speech
and
demonstrative conduct
after football games was
one of Kennedy’s job

App-54
banning it[.]” Statement
at 58 (O’Scannlain, J.,
statement
regarding
denial of rehearing en
banc).

duties, and therefore, his
carrying out of those
duties was speech as a
public
employee.
Kennedy I, 869 F.3d at
826.
This
is
quintessential regulable
government
employee
speech.

“Only
by
ignoring
everything the District
said and did could an
observer
(mistakenly)
think the school was
endorsing
Kennedy’s
[prayer].” Statement at
67
(O’Scannlain,
J.,
statement
regarding
denial of rehearing en
banc).

Given Kennedy’s media
campaign, if BSD had
dropped its opposition to
Kennedy’s
prayer
instead of suspending
him,
an
objective
observer would believe
that BSD now agreed
that
Kennedy
was
allowed to publicly pray
surrounded
by
his
players
as
a
demonstration for the
crowd.
BSD’s
prior
objection to the practice,
followed by its accession,
would
magnify,
not
diminish, BSD’s stamp of
approval.

“[T]he panel neglects
other, more narrowly
tailored
remedies.”
Statement
at
68
(O’Scannlain,
J.,

Kennedy rejected any
compromise
and
demanded that he be
allowed to pray on the
field surrounded by his

App-55
statement
regarding players and in front of all
denial of rehearing en the game’s attendees.
banc).
“[T]he district could have
disclaimed
Kennedy’s
prayer.” Statement at 69
(O’Scannlain,
J.,
statement
regarding
denial of rehearing en
banc).

A disclaimer would have
no effect on the proven
coercive effect Kennedy’s
prayers had on his
players. This coercive
effect is documented in
the record.

II.
With the real facts in mind, let us next consider
the relevant law. Kennedy alleged BSD’s actions
violated his First Amendment Free Speech rights. We
consider “a sequential five-step series of questions”
when evaluating Free Speech claims brought by public
employees. Eng v. Cooley, 552 F.3d 1062, 1070 (9th
Cir. 2009). Eng’s second and fourth questions are at
issue in this case: whether Kennedy spoke as a private
citizen or as a public employee, and whether BSD had
adequate justification for treating Kennedy differently
from other members of the public. BSD argued
Kennedy’s Free Speech claim failed because he spoke
as a public employee and, even if he spoke as a private
citizen, BSD had adequate justification for treating
Kennedy as it did because BSD would have violated
the Establishment Clause if it had permitted Kennedy
to continue his religious practices on the field.
I begin my legal analysis where Judge
O’Scannlain ended: with the Establishment Clause.

App-56
By the time of the adoption of thef
Constitution, our history shows that there
was a widespread awareness among many
Americans of the dangers of a union of
Church and State. These people knew, some
of them from bitter personal experience, that
one of the greatest dangers to the freedom of
the individual to worship in his own way lay
in the Government’s placing its official stamp
of approval upon one particular kind of
prayer[.]
Engel v. Vitale, 370 U.S. 421, 429 (1962). For that
reason, the Court in Engel held that a New York school
district violated the Establishment Clause by having
students recite a prescribed non-denominational
prayer at the beginning of each school day. Id. at 436.
Following Engel, Establishment Clause doctrine
evolved to take special care when challenged religious
endorsement occurred in schools. See Lee v. Weisman,
505 U.S. 577, 592 (1992) (“[T]here are heightened
concerns with protecting freedom of conscience from
subtle coercive pressure in the elementary and
secondary public schools.”). In Lee, the Court held that
it was unconstitutional for a Providence, Rhode Island
high school to include a prayer by a clergyman in its
graduation ceremony. Id. at 599. When discussing the
graduation prayer, the Court was guided by “the
lesson of history that was and is the inspiration for the
Establishment Clause, the lesson that in the hands of
government what might begin as a tolerant expression
of religious views may end in a policy to indoctrinate
and coerce.” Id. at 591-92. Religious expression that
bears “the imprint of the State” results in “grave risk
[to] that freedom of belief and conscience which are the

App-57
sole assurance that religious faith is real, not
imposed.” Id. at 590, 592. And in Abington Township,
the Court ruled that optional morning readings from
the Bible in public schools were unconstitutional,
writing, “[W]e cannot accept that the concept of
neutrality, which does not permit a State to require a
religious exercise even with the consent of the
majority of those affected, collides with the majority’s
right to free exercise of religion.” Sch. Dist. of Abington
Twp., Pa. v. Schempp, 374 U.S. 203, 225-26 (1963).
The Court continued, “While the Free Exercise Clause
clearly prohibits the use of state action to deny the
rights of free exercise to anyone, it has never meant
that a majority could use the machinery of the State
to practice its beliefs.” Id. at 226. This brief review of
the treatment of prayer in schools brings us to
Kennedy’s claim that he should have been allowed to
use his access to the BSD’s football field, its sports
program, and the attention of BSD’s spectators, to
practice his beliefs.
If allowing Kennedy to continue his religious
practice would have violated the Establishment
Clause, BSD’s restriction had “an adequate
justification” for Pickering/Eng purposes, and its
action was thus constitutional. See Good News Club v.
Milford Cent. Sch., 533 U.S. 98, 112 (2001) (holding
that “a state interest in avoiding an Establishment
Clause violation ‘may be characterized as
compelling,’” and justify restricting other First
Amendment rights).
Judge O’Scannlain contends that the panel failed
to identify the state action that constitutes an
Establishment Clause violation. That is a curious

App-58
misreading of our opinion. We explained that
Kennedy’s media appearances and refusal to comply
with BSD directives had created a public controversy,
and, understanding how Kennedy’s religious practice
had evolved, we specifically identified “BSD’s
allowance of [Kennedy’s religious] activity” as the
state action that would have violated the
Establishment Clause. Kennedy III, 991 F.3d at 1017;
see Santa Fe, 530 U.S. at 305-06 (holding that a
school’s choice to permit student religious activity is
enough to make student-led “pregame prayers bear
the imprint of the State” (internal quotation marks
omitted)). In writing that “private religious speech on
public school property does not constitute state action
and therefore does not run afoul of the Establishment
Clause,” Statement at 63 (O’Scannlain, J., statement
regarding denial of rehearing en banc), Judge
O’Scannlain puts the cart before the horse and ignores
the controlling rule from Santa Fe. In reality, religious
speech uttered by an individual on school property can
violate the Establishment Clause if an objective
observer would view the speech as stamped with the
school’s seal of approval. For example, in Collins v.
Chandler Unified School District, we held that the
school’s practice of permitting students to say a prayer
of their choosing at the beginning of student
assemblies violated the Establishment Clause. 644
F.2d 759, 760-61 (9th Cir. 1981). The Student Council
(not the school itself) selected the individual who
would give the prayer and noted the event on the
assembly agenda. Id. Like in Kennedy, the prayer in
Collins was the independent choice of private
individuals. Merely by allowing the prayer to take
place, the school violated the Establishment Clause.

App-59
The same would be true here if BSD had allowed
Kennedy’s prayers to continue.3
Judge O’Scannlain’s statement misses the crucial
point that becomes clear when the events are viewed
in the order in which they actually occurred. The panel
was required to address the choice BSD confronted:
impose some limits on Kennedy’s First Amendment
expression, or violate the Establishment Clause. It is
only through this analysis that we could determine
whether BSD’s decision to limit Kennedy’s religious
expression was backed by a compelling interest.
As the Supreme Court made clear in Santa Fe, the
context in which religious expression occurs is the
touchstone for the Establishment Clause analysis.
Santa Fe, 530 U.S. at 303-08. The Court instructed us
to ask “whether an objective observer, acquainted with
the text, [ ] history, and implementation of [the policy],
would perceive it as a state endorsement of prayer in
public schools.” Id. at 308 (citation omitted). For this
reason, we examined the context in which Kennedy’s
prayers occurred, including his publicity-seeking
activities leading up to the games on October 16, 23,
and 26 (after which he was suspended), the Coach’s
historical practice that resulted in players feeling
pressure to pray with him, and his insistence that the
prayer take place before the football players left the
field or the fans left the stands. (As noted, BSD offered
3
Incidentally, in rejecting another prayer-in-schools
Establishment Clause claim, Judge O’Scannlain attempted to
distinguish Collins. Doe v. Madison Sch. Dist. No. 321, 147 F.3d
832, 836 (9th Cir. 1998). But his opinion was vacated upon en
banc rehearing, and the en banc court decided the case on
different grounds. 177 F.3d 789 (9th Cir. 1999).

App-60
Kennedy multiple accommodations, including one—
which he accepted for a time—that allowed him to
wait until students had left the field to say his midfield prayer.) And like the Court in Santa Fe, we
concluded that if BSD had allowed Kennedy to
continue his activities rather than suspending him, an
objective observer would have been left with no doubt
that BSD endorsed the integration of prayer into the
football games.
Still, Judge O’Scannlain maintains, our
examination “drain[ed]” the Establishment Clause
case law of “the factors animating [its] logic,” which
our colleague lists as “the school policy, the degree of
control over employee speech, neutrality toward
religion, or the possibility of coercion.” In fact, these
considerations featured prominently in Kennedy III:
as stated previously, “the school policy” is set out in
our opinion, and the question was whether BSD could
allow Kennedy’s religious expression directed at
students. As for the degree of control over Kennedy’s
speech, BSD personnel specifically instructed
Kennedy “(1) that he should speak to players postgame and (2) what the speeches should be about[.]”
Kennedy III, 991 F.3d at 1016. With respect to
neutrality toward religion, allowing Kennedy to pray
in the manner he demanded would have forced BSD
either to open the field to all religious practices or
forgo neutrality. As we explained, “[a] Satanist
religious group contacted BSD in advance of the
[October 16] game to notify them that ‘it intended to
conduct ceremonies on the field after football games if
others were allowed to.’” Id. at 1012. And as for the
possibility of coercion, Kennedy III extensively
discussed
the
uncontroverted
direct
and

App-61
circumstantial evidence in the record that some of the
players felt coerced to pray with Coach Kennedy, and
that he intended to continue that practice. Id. at 1018
(“Over time, little by little, his players began to join
him in this activity—at least one out of a fear that
declining to do so would negatively impact his playing
time.”); id. at 1012 (“Kennedy testified in his
deposition that he intended the October 14 letter to
communicate to the district that he ‘wasn’t going to
stop [his] prayer because there was [sic] kids around
[him].’”); id. at 1013 (“When Kennedy was on leave,
and during the time he temporarily ceased performing
on-field prayers, BHS players did not initiate their
own post-game prayer.”). We addressed every factor
Judge O’Scannlain says we ignored, and each
supported our disposition. Given Kennedy’s own
statement that he would pray with students if allowed
to remain at his post, id. at 1012, the (very real) threat
of an Establishment Clause violation justified his
suspension.
Judge O’Scannlain’s final assertion is that we
overlooked BSD’s option to provide a disclaimer that
Kennedy’s religious activity did not carry the school’s
endorsement. But this resolution would not dispel the
pressure that players on the team felt to join in their
coach’s prayer circle out of fear that their playing time
would suffer if they opted out. Disclaimers are
insufficient in “coercive” contexts, Lassonde v.
Pleasanton Unified Sch. Dist., 320 F.3d 979, 984-85
(9th Cir. 2003); our colleague’s statement conveniently
omits the uncontested evidence that Kennedy’s
conduct left some of his players feeling pressure to
participate in mid-field prayers after the game. In
addition, the record also shows that no players prayed

App-62
on the field when Kennedy was not there, which
speaks to the coercive effect of Kennedy’s religious
practices.
I must not neglect to mention the dissent of a
second colleague who believes our opinion should have
been reheard en banc, Judge Ryan Nelson. Judge R.
Nelson’s dissent to the denial of rehearing en banc
appears to be based on two claims: (1) Santa Fe should
not be extended because it is “ahistorical”; and (2) we
applied Santa Fe’s test incorrectly. Cabining Supreme
Court precedent is a job for the Supreme Court—not a
three-judge or en banc panel of our court—and I
suspect Judge R. Nelson is fully aware of that fact. See
Rodriguez de Quijas v. Shearson/Am. Express, Inc.,
490 U.S. 477, 484 (1989) (“[T]he Court of Appeals
should follow the case which directly controls, leaving
to [the Supreme] Court the prerogative of overruling
its own decisions.”). Likewise, Judge Ikuta’s
suggestion that we should have taken this case en
banc to develop a “framework for evaluating how a
public employer can protect its employee’s religious
expression without becoming vulnerable to an
Establishment Clause claim” would ostensibly conflict
with the Supreme Court’s decisions that already
prescribe how courts should evaluate prayer in
schools. We are not at liberty to make such a change.
As for the second of Judge R. Nelson’s concerns, I
strongly disagree. Initially, Judge R. Nelson prejudges
the issue by claiming that the panel’s reliance on
Santa Fe was “inapt” because permitting Kennedy’s
prayer would not have been an endorsement of
religion. Dissent at 75 (R. Nelson, J., dissenting from
denial of en banc rehearing). However, the Santa Fe

App-63
test is how we are required to determine whether a
particular state action unconstitutionally establishes
religion. For that reason, the panel did not “extend”
Santa Fe—we applied the relevant law to the facts in
the record. Moreover, there are substantive problems
with Judge R. Nelson’s contention that players were
not coerced into joining Kennedy’s prayers. Most
importantly, Judge R. Nelson gives short shrift to the
clear line the Supreme Court has drawn between
adults and children in discussing Establishment
Clause coercion. In Town of Greece, the case upon
which Judge R. Nelson relies for his coercion
argument, the Court in fact distinguished “an
unconstitutional imposition as to mature adults, who
‘presumably’ are ‘not readily susceptible to religious
indoctrination or peer pressure,’” from high school
students at a school-sponsored event. Town of Greece,
N.Y. v. Galloway, 572 U.S. 565, 590 (2014) (citation
omitted). Unlike in adult environments, taking into
account “students’ emulation of teachers as role
models and the children’s susceptibility to peer
pressure,” “[t]he Court has been particularly vigilant
in monitoring compliance with the Establishment
Clause in elementary and secondary schools.”
Edwards v. Aguillard, 482 U.S. 578, 583-84 (1987).
Judge R. Nelson’s coercion argument falls flat because
it treats children as adults, in contravention of the
Supreme Court’s instruction that the two are different
for purposes of determining the danger of coercion.
Additionally, Judge R. Nelson minimizes the
experience of the student athlete who prayed with
Kennedy in contravention of his own religious beliefs
because he felt that declining to do so would decrease
his playing time. Dissent at 80, (R. Nelson, J.,

App-64
dissenting from denial of rehearing en banc). This
student’s experience—which is undisputed in the
record—perfectly illustrates the importance of the
difference between teens and adults that the Court set
forth in Town of Greece. Why is this student’s right to
be free from coercive pressure to violate his own
religious beliefs inferior to Kennedy’s right to practice
his in such a public and demonstrative way? Judge R.
Nelson’s outright dismissal of this student’s actual
participation in a religious exercise that violated his
beliefs is surprising. It implies that religious freedom
is reserved for sectarian Christians, but not
necessarily for those who are Jewish, Muslim,
Buddhist, atheist, or who hold to other creeds. That
approach, of course, flies in the face of current
Supreme Court law.
Finally, Judge R. Nelson conflates the coercion
inquiry with the Santa Fe inquiry, which perhaps
contributes to his mistaken perspective on this issue.
See Dissent at 80 n.5 (R. Nelson, J., dissenting from
denial of rehearing en banc). Kennedy’s publicity
campaign was relevant not because it coerced the
public to storm the field, but because it was essential
to consider the context of Kennedy’s religious activity
in determining whether BSD’s dropping its objection
to Kennedy’s behavior would cause an objective
observer to view the activity as stamped with the
school’s seal of approval. In contrast, the coercive
effect of Kennedy’s religious activity is apparent from
the record of events before BSD instructed Kennedy to
stop leading students in prayer. By the same token,
this evidence shows that it is also likely that players
would feel pressured to join Kennedy’s prayer in the

App-65
future if BSD gave Kennedy back his religious bully
pulpit.
Several of our dissenting colleagues also suggest
that the conflict between Kennedy and BSD made
clear that BSD did not endorse Kennedy’s religious
activity. As stated above, the operative fact in this
hypothetical would be BSD dropping its opposition to
the activity—the very outcome Kennedy sought.
Dropping opposition to the practice is different in kind
from publicly opposing it. But more broadly, adopting
a rule that rewards an employee’s ability to garner
public support and media coverage of a dispute with
his employer would come with perverse incentives. Let
us assume for a moment that an employer will act
more forcefully to curb a more egregious potential
Establishment Clause violation. Under a rule that
uses the force of the employer’s response to decide
whether there ever was an Establishment Clause
violation in the first place, the worst violations that
receive the strongest responses would no longer be
considered violations. That approach simply makes no
sense, and conflicts sharply with current Supreme
Court law.
III.
The actual facts of the case also leave no question
that Kennedy did not carry his burden to show that he
spoke as a private citizen, which is an independent
basis to affirm the district court. 4 In reaching the
4 Judge O’Scannlain appears to disapprove of the fact that our
opinion included alternative holdings on prongs two and four of
the Eng test. Statement at 59 (O’Scannlain, J., statement
regarding denial of rehearing en banc). The practice of including
alternative holdings or arguendo assumptions is quite common,

App-66
opposite conclusion, Judge O’Scannlain sets aside the
context of Kennedy’s audible prayers as well as
Kennedy’s acknowledgment that he was on duty while
on the field with his players, and contends that our
panel misapplied Garcetti v. Ceballos, 547 U.S. 410
(2006), the central Supreme Court precedent for
determining whether a government employee speaks
as a private citizen or as a public official.
Judge O’Scannlain’s contention that our opinion
misapplied Garcetti is simply wrong on the current
law. In Garcetti, the Court wrote that “[w]hen a citizen
enters government service, the citizen by necessity
must accept certain limitations on his or her freedom.”
547 U.S. at 418. One reason for this is that
government employees “often occupy trusted positions
in society,” id. at 419, (such as a mentor to high school
students, as Kennedy was). When a person in a
trusted position “speak[s] out, they can express views
that contravene governmental policies or impair the
proper performance of governmental functions.” Id. At
bottom, “[u]nderlying [the Court’s] cases has been the
premise that while the First Amendment invests
public employees with certain rights, it does not
empower them to ‘constitutionalize the employee
grievance.’” Id. at 420 (quoting Connick v. Thompson,
461 U.S. 138, 154 (1983)). Garcetti considered several
familiar to, and used by Judge O’Scannlain, and does not connote
a court’s lack of confidence in the first alternative holding. See
Ctr. for Biological Diversity v. Lohn, 511 F.3d 960, 965 (9th Cir.
2007) (O’Scannlain, J.); Friends of Southeast’s Future v.
Morrison, 153 F.3d 1059, 1069 (9th Cir. 1998) (O’Scannlain, J.);
Huffman v. Cnty. of L.A., 147 F.3d 1054, 1060 (9th Cir. 1998)
(O’Scannlain, J.); League of United Latin Am. Citizens v. Wilson,
131 F.3d 1297, 1307 (9th Cir. 1997) (O’Scannlain, J.).

App-67
factors: whether the employee speech was expressed
internally or publicly, whether the speech concerned
the subject matter of the employee’s job, and—most
importantly—whether the speech was “made
pursuant to his duties” as a public employee. Id. at
420–22. In subsequent cases, our circuit alternately
phrased this last inquiry as whether “the speech at
issue owes its existence to” the speaker’s government
employment. Johnson v. Poway Unified Sch. Dist., 658
F.3d 954, 970 (9th Cir. 2011), cert. denied, 566 U.S.
906 (Mar. 26, 2012).5
An integral part of Kennedy’s job was serving as
a mentor and role model to students. 6 BSD recognized
that one of the ways in which he carried out this duty
was by giving post-game motivational speeches to his
Judge O’Scannlain’s statement also relies heavily on the
minority statement regarding denial of certiorari the last time
this case was before the Supreme Court. It bears repeating that
the relevant justices acknowledged they did not have the benefit
of factual development in this case when the statement was
made, and that four justices do not represent the opinion of the
Court.
5

It was also Kennedy’s stated intent that his behavior set an
example for children watching. Kennedy testified during his
deposition that his behavior in the presence of students was
“always setting some kind of an example to the kids … to do what
is right.” (Emphasis added.) In an interview published on May 3,
2019, Kennedy affirmed that he viewed his religious activity as
setting an example, stating “[A]s a Marine, I knew I had to fight.
I always told the young men whom I coached to stand up when
adversity came their way. I had to be a leader to them and live
up to what I said. So I wasn’t going to back down[.]” See Kennedy
III, 991 F.3d at 1017 n.2. Clearly, Kennedy himself viewed
persisting in his public prayers as part of his service as a role
model to students in fulfillment of his job duties.
6

App-68
players on the field after football games. Kennedy’s
employer requested that he engage in such
expressions. In BSD’s September 17 letter to Kennedy,
Superintendent Aaron Leavell wrote, “You may
continue to provide motivational inspirational talks to
students before, during and after games and other
team activity, focusing on appropriate themes … that
have long characterized your very positive and
beneficial talks with students.” Leavell later wrote to
Kennedy that he “values very highly” Kennedy’s
“positive contributions to the BHS football program
and in particular,” his “motivational and inspirational
talks to players” after games. Leavell “encourage[d]
continuation of” the practice of post-game secular
motivational speeches to students.
Applying Garcetti to this fact pattern, the record
leaves no doubt that Kennedy’s prayers were speech
in his capacity as a public employee. Kennedy insisted
on expressing his religious speech publicly (indeed, he
refused to wait until the audience had left the stadium
so his prayers could be observed by all those on the
field and in the stadium); the record shows he would
not have had access to the field if he had not been
working as a coach; he admitted he was on duty when
he prayed on the field; and the prayers were uttered
in violation of his employer’s instructions as part of
the post-game motivational speeches his employer had
encouraged him to continue providing for the players.
Given these facts, there can be no genuine dispute that
this speech was within Kennedy’s job description, and
I reject the notion that our conclusion somehow
improperly broadens Kennedy’s duties in a way that
contravenes Garcetti.

App-69
*

*

*

In sum, based on the actual facts of the case, our
conclusion in Kennedy III faithfully applies the
relevant current law. I hope as this case proceeds that
the truth of what actually happened will prevail, but
whether it does or not, I personally find it more than
a little ironic that Kennedy’s “everybody watch me
pray” staged public prayers (that spawned this multiyear litigation) so clearly flout the instructions found
in the Sermon on the Mount on the appropriate way to
pray.7 I concur in our court’s denial of rehearing this
case en banc.
CHRISTEN, Circuit Judge, joined by D.W. NELSON,
Senior Circuit Judge, concurring in the denial of
rehearing en banc:
I do not typically publish my views concerning our
court’s decisions to grant or deny rehearing en banc,
but I make an exception here because the salient facts
that compelled our three-judge panel’s decision to
affirm the district court’s summary judgment ruling
may be obscured by the spirited statements dissenting
from our court’s denial of rehearing en banc. Our
three-judge panel unanimously affirmed the district
court’s summary judgment ruling because Coach
5 And when thou prayest, thou shalt not be as the hypocrites
are: for they love to pray standing in the synagogues and in the
corners of the streets, that they may be seen of men. Verily I say
unto you, They have their reward.
7

6 But thou, when thou prayest, enter into thy closet, and when
thou hast shut thy door, pray to thy Father which is in secret;
and thy Father which seeth in secret shall reward thee openly.
Matt 6:5-6 (King James).

App-70
Kennedy spoke as a public employee, because
Bremerton School District (BSD) did not demonstrate
a hint of hostility or bias toward religion or nonreligion, and because BSD had a compelling interest
in avoiding an Establishment Clause violation.
Kennedy v. Bremerton Sch. Dist. (Kennedy III), 991
F.3d 1004, 1014-21 (9th Cir. 2021) (citing Good News
Club v. Milford Cent. Sch., 533 U.S. 98, 113-14 (2001)).
The outcome of this appeal was driven by the
particular facts and circumstances of Coach Kennedy’s
post-game, on-field prayers, see id. at 1010-14, so it is
critically important that we not stray from the facts
that are supported by the record.
To begin, given the record presented to the district
court, there is no genuine dispute that Coach Kennedy
spoke as a public employee. Recognizing the Supreme
Court’s caution that job descriptions must not be read
too broadly, Garcetti v. Ceballos, 547 U.S. 410, 424
(2006), the proper inquiry to determine whether a task
is within the scope of a public employee’s professional
duties is a practical one, id. Here, the practical inquiry
into the duties of a high school football coach must
acknowledge that football coaches occupy a significant
leadership role in their high school communities and
wield undeniable—perhaps unparalleled—influence
where their players are concerned. 8 Kennedy III, 991
See Brief of Amicus Curiae Former Professional Football
Players Steve Largent and Chad Hennings at 1-2, Kennedy v.
Bremerton, 869 F.3d 813 (9th Cir. 2017) (No. 16-35801), 2016 WL
6649979 at *1 (Pro Football Hall of Famer Steve Largent “credits
his successes on and off the field in large part to the positive
influence of the men who coached him in his own youth,” and
College Football Hall of Famer Chad Hennings “attributes much
of his success to lessons imparted to him by the men who coached
8

App-71
F.3d at 1015-16, 1025. Contrary to our dissenting
colleagues’ suggestions, the parties did not consider
this point to be controversial. Indeed, Coach Kennedy
agreed that “for some kids, the coach might even be
the most important person they encounter in their
overall life,” and that “the scope of what a coach has to
do with some of the kids … is much more than what
any teacher in a classroom has to do.” Id. at 1025.
Second, regardless of Coach Kennedy’s subjective
intent, there was uncontroverted evidence that Coach
Kennedy’s prayerful speech had a coercive effect on his
players. At least one student felt compelled to join
Coach Kennedy’s post-game prayers, contrary to the
player’s own beliefs, because he feared he would get
less playing time if he did not participate. The record
also shows that the players did not initiate their own
post-game prayer when Coach Kennedy temporarily
ceased his practice, nor after Coach Kennedy had been
suspended. The conscientious district judge assigned
to this case appropriately factored these practical
considerations into his description of Coach Kennedy’s
job duties, and recognized that, in addition to teaching
students how to play the game, i.e., teaching players
how to block and tackle, Coach Kennedy’s job required
him to motivate and mentor students, set a good
example, and strive to “create good athletes and good
human beings.” See id. at 1010.
Third, our three-judge panel did not suggest that
a coach or teacher necessarily speaks as a public
employee every time he or she prays within eyeshot of
him throughout
endeavors.”).

his

scholastic

and

professional

athletic

App-72
students. Indeed, we illustrated that point by
including a few examples where educators might
engage in brief on-duty prayer that would be plainly
private and pose no risk of violating the
Establishment Clause. Id. at 1015-16, 1025. We
explained that a teacher tasked with supervising a
high school cafeteria would not risk an Establishment
Clause violation if she took a moment to give thanks
before eating her meal, and that the Establishment
Clause “can surely accommodate high school students
observing a teacher giving thanks for an ‘all clear’
announcement in the wake of a safety scare.” Id. at
1015, 1025. We had no reason to explore or define the
permissible limits of such speech in a school setting
because Coach Kennedy’s prayer so clearly crossed the
line by purposefully sending a very public message.
Coach Kennedy’s prayers occurred on the fifty-yard
line, immediately following the team’s games, before
the players left the field, under the stadium lights, and
while spectators remained in the stands. Kennedy III,
991 F.3d at 1010, 1024. To be clear, Coach Kennedy
insisted that he pray immediately after the games, not
while the players were on their way back to the locker
room. The players had not yet left the field and were
sometimes still shaking the hands of the opposing
players or singing the school fight song when Coach
Kennedy knelt and audibly prayed. Although he
initially agreed to one of BSD’s suggested
accommodations and prayed after the players and fans
left the stadium, see id. at 1011-12, it is important to
recognize that by the time the parties’ dispute came to
a head, Coach Kennedy had refused all BSD’s
accommodations and insisted that he be allowed to
worship at his chosen time and place: at midfield, with

App-73
players and fans present. Our conclusion that Coach
Kennedy spoke as a public employee when he prayed
at midfield following the team’s games rested on the
facts in the record.
Respectfully,
our
colleagues’
dissenting
statements concerning the denial of rehearing en banc
take sound bites from the record out of sequence and
paint an inaccurate picture of the dilemma Coach
Kennedy created. Though his prayers may have
started as personal and private, they evolved into
post-game motivational speeches to the majority of his
players, and Kennedy admitted his speeches likely
constituted prayers. Id. at 1011. After an opposing
coach informed BSD that Coach Kennedy invited the
opposing team to participate in post-game prayer,
BSD directed Coach Kennedy not to pray with the
students. But BSD encouraged Coach Kennedy to
continue delivering secular post-game motivational
messages. Id. at 1011. The district court correctly
concluded that, at all times relevant to Coach
Kennedy’s claims, he spoke as a public employee when
he prayed on the field immediately following games.
Despite our dissenting colleague’s protests, the record
does not support the notion that he engaged in private
personal prayer.
A few other points bear repeating: (1) BSD never
sanctioned Coach Kennedy for engaging in private
prayer; (2) as we describe at some length, Coach
Kennedy’s post-game prayers were anything but
private, id. at 1011-14, 1025; (3) nowhere did our
panel suggest that a school district will be subject to a
viable Establishment Clause claim any time a school
employee engages in private prayer; (4) Coach

App-74
Kennedy rejected several accommodations BSD
offered that would have allowed him to pray privately,
instead demanding that he be permitted to pray on the
fifty-yard line immediately following games, while
players, spectators, and media looked on, id. at 1013,
1022. To borrow an analogy from the district court, the
venue Kennedy chose for his post-game prayers was
akin to a drama teacher taking center stage to pray
after a school play. An objective observer would
interpret a teacher’s speech, delivered from that
location and directed to a school audience, as “an
extension of the school-sanctioned speech just before
it.” There is no genuine question that Coach Kennedy’s
prayers sent a very public message.
Contrary to the statement of one of our colleagues,
Coach Kennedy was not in the position of asking BSD
to “do nothing” or “tolerate the brief, quiet prayer of
one man.” Coach Kennedy launched a national media
campaign that magnified the public nature of his postgame prayers and painted BSD into a corner. As Judge
Ikuta aptly described the situation:
Joseph
Kennedy’s
highly
public
demonstrations of his religious convictions
put [BSD] in a no-win situation. BSD wanted
to respect Kennedy’s right “to engage in
religious activity, including prayer,” but it
feared that allowing Kennedy to engage in
such highly public activity on the field after
football games would create a perception that
BSD was endorsing religion, in violation of
the Establishment Clause.
Following Kennedy’s multiple media interviews,
he was joined on the field by his own players, players

App-75
from opposing teams, members of the public—
including a state representative—and the media.
Kennedy III, 991 F.3d at 1010. Our three-judge panel
described BSD’s unsuccessful efforts to keep people off
the football field and maintain a safe environment, id.
at 1012, but those efforts were in vain. As spectators
rushed to join Coach Kennedy in on-field prayer, band
members were knocked over, and one of BSD’s coaches
questioned whether he could be shot from the crowd.
Had BSD abandoned its opposition to Coach
Kennedy’s on-field prayers after his multiple
interviews with local and national media, an objective
observer would have perceived that BSD endorsed his
speech. Santa Fe Indep. Sch. Dist. v. Doe, 530 U.S.
290, 308 (2000).
Our dissenting colleagues suggest that BSD could
have issued a public disclaimer, but that was not a
realistic option; a public disclaimer in the wake of
Coach Kennedy’s media campaign would have only
called more attention to his very public worship.
Moreover, “the ‘First Amendment mandates
governmental neutrality between religion and
religion.’” McCreary Cnty. v. Am. Civil Liberties Union
of Ky., 545 U.S. 844, 860 (2005) (quoting Epperson v.
Arkansas, 393 U.S. 97, 104 (1968)). Thus, BSD could
not simply distance itself from Kennedy’s Christian
prayer and allow Kennedy to continue; rather, BSD
would have had to permit access by other religious
faiths, including the Satanist group that had notified
BSD it “intended to conduct ceremonies on the field
after football games if others were allowed to.”
Kennedy III, 991 F.3d at 1012. The suggestion that
BSD could have issued a public disclaimer is

App-76
untenable; BSD opened its forum for a football game,
not for religious worship by all comers.
This case concerns prayer in a public school, not a
town square. See Am. Legion v. Am. Humanist Ass’n,
139 S. Ct. 2067, 2092-93 (2019) (Kavanaugh, J.,
concurring) (identifying “religious expression in public
schools” as a “categor[y] of Establishment Clause
cases” distinct from “regulation of private religious
speech in public forums”); Lee v. Weisman, 505 U.S.
577, 592 (1992) (recognizing “heightened concerns
with protecting freedom of conscience from subtle
coercive pressure in the elementary and secondary
public schools”). The touchstone of the Court’s concern
in this type of case is the risk of coercion. See Lee, 505
U.S. at 587; Santa Fe, 530 U.S. at 310-13. The district
court found no genuine dispute that Coach Kennedy’s
prayers were public, not private, and that Coach
Kennedy occupied a “powerful position in his players’
lives.” The record includes unrebutted evidence that
at least one student felt compelled to participate in
Coach Kennedy’s post-game prayers, contrary to the
student’s own religious beliefs, because he feared he
would not get as much playing time if he did not. As
such, the uncontested facts support the district court’s
conclusion that Coach Kennedy’s prayers had a
coercive effect.
In the future, we may be presented with close
cases in which our court will have an opportunity to
address the important issues raised by a public
school’s response to an employee’s private prayer. But
this is not such a case. The actual record presented in
the district court bears little resemblance to the
hypothetical scenarios posited by Coach Kennedy, and

App-77
our decision faithfully applied existing Supreme Court
precedent to the particular facts presented.
Accordingly, I concur in our court’s denial of rehearing
en banc.
O’SCANNLAIN, Circuit Judge,9 with whom Judges
CALLAHAN, BEA, R. NELSON, COLLINS, and LEE
join, with whom Judge BUMATAY joins as to Part III,
and with whom Judge VANDYKE joins as to all parts
except Part IIB, respecting the denial of rehearing en
banc:
It is axiomatic that teachers do not “shed” their
First Amendment10 protections “at the schoolhouse
gate.” Tinker v. Des Moines Indep. Cmty. Sch. Dist.,
393 U.S. 503, 506 (1969).11 Yet the opinion in this case
obliterates such constitutional protections by
announcing a new rule that any speech by a public
As a judge of this court in senior status, I no longer have the
power to vote on calls for rehearing cases en banc or formally to
join a dissent from failure to rehear en banc. See 28 U.S.C. § 46(c);
Fed. R. App. P. 35(a). Following our court’s general orders,
however, I may participate in discussions of en banc proceedings.
See Ninth Circuit General Order 5.5(a).
9

U.S. Const. amend. I. References throughout this Statement
will be made to the Free Speech Clause, id. cl. 3 (“Congress shall
make no law … abridging the freedom of speech … ”), the Free
Exercise Clause, id. cl. 2 (“Congress shall make no
law … prohibiting the free exercise []of [religion] … ”), and the
Establishment Clause, id. cl. 1 (“Congress shall make no law
respecting an establishment of religion … ”).
10

11 Indeed, the Supreme Court reaffirmed this principle just a
few days ago. See Mahanoy Area Sch. Dist. v. B.L. ex rel. Levy,
594 U.S. __, 2021 WL 2557069, at *4 (June 23, 2021) (citing
Tinker, 393 U.S. at 506).

App-78
school teacher or coach, while on the clock and in
earshot of others, is subject to plenary control by the
government. Indeed, we are told that, from the
moment public high school football coach Joseph
Kennedy arrives at work until the very last of his
players has gone home after a game, the Free Speech
Clause simply doesn’t apply to him.
Kennedy lost his coaching job because he refused
to abandon his practice of kneeling on the field and
uttering a prayer after each football game. In 2017,
the three-judge panel decided that Kennedy’s prayer
was wholly unprotected by the Free Speech Clause.
Kennedy v. Bremerton Sch. Dist., 869 F.3d 813 (9th
Cir. 2017) (Kennedy I). In an extraordinary filing, four
Justices of the Supreme Court chastised the panel for
its “highly tendentious” reading of Garcetti v.
Ceballos, 547 U.S. 410 (2006). Kennedy v. Bremerton
Sch. Dist., 139 S. Ct. 634, 636 (2019) (statement of
Alito, J.) (Kennedy II).
Rather than heed the extremely rare
interlocutory guidance of four Justices, the panel has
doubled down on its “troubling” view. Id. (statement of
Alito, J.). The panel now declares not only that the
school district was permitted to suspend Kennedy, but
also that it was constitutionally required to do so.
Kennedy v. Bremerton Sch. Dist., 991 F.3d 1004, 101619 (9th Cir. 2021) (Kennedy III). That is strange
indeed, given that this is not an action brought by a
student or parent who alleges the government coerced
his or her participation in a state-sponsored prayer
service. No matter, the opinion here weaponizes the
Establishment Clause to defeat the Free Exercise

App-79
claim of one man who prayed “as a private citizen.” Id.
at 1016.
Our circuit now lies in clear conflict with Garcetti
and decades of Supreme Court cases affirming the
principle that the First Amendment safeguards—not
banishes—private, voluntary religious activity by
public employees. A decision at odds with Free Speech,
Free
Exercise,
and
Establishment
Clause
jurisprudence all at once, this case certainly
warranted a rehearing en banc. It is unfortunate that
our court has declined the opportunity to do so.
I.
A.
First,
the
facts—more
specifically,
the
12
constitutionally relevant facts. Joseph Kennedy was
a football coach of Bremerton High School from 2008
to 2015. Kennedy III, 991 F.3d at 1010. A devout
Christian, Kennedy sincerely believes that he is
obliged to give thanks to God through prayer after
each football game. Id. From the time he started
coaching, Kennedy would “kneel at the 50-yard line
and offer a brief, quiet prayer of thanksgiving for
That is, as Kennedy’s brief points out, the facts relevant to
the dispute over the constitutional right Kennedy actually
asserted—and the District actually denied—in this case: a “right
to engage in brief, personal prayer by himself on the field at the
conclusion of football games.” But see Kennedy III, 991 F.3d at
1017-19 (panel dwelling at length on instances when students
joined Kennedy in prayer, despite his never asserting a right to
pray with students). See also Kennedy II, 139 S. Ct. at 636
(statement of Alito, J.) (criticizing panel for colorfully
“recount[ing] all of [Kennedy’s] prayer-related activities” over the
course of several years, “[i]nstead of attempting to pinpoint” the
facts actually relevant to his constitutional claim).
12

App-80
player
safety,
sportsmanship,
and
spirited
competition.” Id. His prayer “usually lasted about
thirty seconds.” Id.
Over the years, students and coaches began to join
Kennedy in prayer of their own accord. Id. Sometimes
Kennedy prayed quietly by himself; sometimes he
combined his prayers with religious references in
motivational speeches to his players. Kennedy “never
coerced, required, or asked any student to pray.”
In September 2015, Bremerton School District
administrators learned of Kennedy’s prayers. Id. at
1011. After an investigation, the District determined
that Kennedy had violated District policy, which
stated that “[s]chool staff shall [not] encourage” a
student to pray. Id. The District directed Kennedy
that his prayer must “be physically separate from any
student activity” and later asked that he pray in “a
private location.” Id. at 1011-13. Moreover, if students
chose to pray at the same time as Kennedy, the
District ordered him not to pray in any way
“outwardly discernible as religious activity”—i.e., he
could not kneel or say his prayers aloud. Id. at 1011.
Through counsel, Kennedy expressed to the
District that he was within his constitutional rights to
continue saying a “short, private, personal, prayer at
midfield.” Kennedy proposed that he or another school
official could provide a disclaimer to alleviate any
concerns that his prayers would be somehow
attributed to the school. Kennedy then continued to
pray privately after games. 991 F.3d at 1012. After
media attention to the controversy gained steam, a
crowd of players, coaches, media, and members of the
public gathered around Kennedy when he prayed after

App-81
the October 16, 2015, game. Id. at 1012-13. The
District responded with a sweeping directive to Coach
Kennedy that made no distinction for whether he
prayed alone or with students, silently or out loud:
“While on duty for the District as an assistant coach,
you may not engage in demonstrative religious
activity, readily observable to (if not intended to be
observed by) students and the attending public.”
When Kennedy continued to pray at the conclusion of
each of the next two games, the District suspended
him. Id. at 1013. He was never rehired. Id. at 1014.
B.
Kennedy filed this suit under 42 U.S.C. § 1983,
alleging violations of his First Amendment rights to
Free Speech and Free Exercise, and under Title VII of
the Civil Rights Act of 1964, 42 U.S.C. §§ 2000e-2,
2000e-3, alleging employment discrimination on the
basis of religion as well as various other violations of
Title VII, including retaliation. Kennedy then moved
for a preliminary injunction on Free Speech grounds,
which the district court denied. The three-judge panel
here affirmed the denial of a preliminary injunction.
Kennedy I, 869 F.3d at 831. Kennedy petitioned for a
writ of certiorari, which the Supreme Court denied in
a one-line order. Kennedy II, 139 S. Ct. at 634. But four
Justices,13 in the very same order, took the
extraordinary step of adding a three-page statement
explaining that while an under-developed factual
record would have rendered Supreme Court review
premature, the denial of certiorari should not be taken
13 See Kennedy II, 139 S. Ct. at 635-37 (“Statement of Justice
ALITO, with whom Justice THOMAS, Justice GORSUCH, and
Justice KAVANAUGH join, respecting the denial of certiorari.”).

App-82
to “signify” that the Court “agree[d] with the decision
(much less the opinion) below.” Id. at 635 (statement
of Alito, J.). Quite the contrary, the four Justices took
the opportunity to criticize the panel opinion’s
“troubling” and “highly tendentious” misreading of
Garcetti, the Court’s leading case on the limits of the
government’s power to regulate the speech of public
employees. Id. at 636-37 (statement of Alito, J.).
Upon subsequent remand of the case, the district
court considered the remainder of Kennedy’s claims.
The district court found that “the risk of constitutional
liability associated with Kennedy’s religious conduct
was the sole reason the District ultimately suspended
him.” Kennedy v. Bremerton Sch. Dist., 443 F. Supp.
3d 1223, 1231 (W.D. Wash. 2020) (internal quotation
marks omitted). Concluding that the Establishment
Clause indeed required Kennedy’s suspension, the
district court granted summary judgment for the
District on Kennedy’s Free Speech, Free Exercise, and
Title VII claims. Id. at 1245. On appeal, the same
panel of our court agreed. Kennedy III, 991 F.3d at
1022-23. A judge sua sponte called for rehearing en
banc, but the matter failed to receive a majority of the
votes of the non-recused active judges in favor of en
banc consideration. Accordingly, rehearing en banc
was denied in the order to which this statement is
added. Ante, __ F.3d __ (9th Cir. 2021).
II.
A.
While the panel’s opinion, in my view, runs afoul
of controlling Supreme Court precedents on the Free
Speech, Free Exercise, and Establishment Clauses, it
does so most egregiously with respect to the Free

App-83
Speech Clause. Let us therefore begin with the
background principles animating the Court’s
jurisprudence on public employees’ speech rights:
Though it is well established that “the
government as employer … has far broader powers
than does the government as sovereign,” Waters v.
Churchill, 511 U.S. 661, 671 (1994) (plurality op.), it
is equally well established that “a citizen who works
for the government is nonetheless a citizen,” whose
rights do not simply vanish in the workplace. Garcetti,
547 U.S. at 419. Thus, when public employees speak
“as citizens about matters of public concern,” they may
be subjected “only [to] those speech restrictions that
are necessary for their employers to operate efficiently
and effectively.” Id.
In other words, a public employer’s special
latitude to control its employees’ speech extends only
to speech “the employer itself has commissioned” or
otherwise functionally “created.” Id. at 422. But when
public employees’ expression falls outside their official
job duties, we must “unequivocally reject[]” any
suggestion that they “may constitutionally be
compelled to relinquish the First Amendment rights
they would otherwise enjoy as citizens.” Pickering v.
Bd. of Educ., 391 U.S. 563, 568 (1968). Thus, our task
in any public-employee speech case is to delineate
whether the employee spoke “pursuant to [his or her]
official duties” (in which case the First Amendment
provides no protection) or, instead, in his or her
capacity as a “private citizen” (in which we must
subject the government to First Amendment scrutiny).
Garcetti, 547 U.S. at 421-22.

App-84
Garcetti v. Ceballos provides the critical
guideposts for this task. There, the Court analyzed
what now serves as the paradigmatic example of
“official” employee speech: a deputy prosecutor’s
internal memoranda to his supervisor, expressing his
concerns with a pending case and recommending its
dismissal. Id. at 414. The Court reasoned that because
the memoranda in question arose directly from the
very “tasks [Ceballos] was paid to perform”—namely,
the core “practical” responsibility of a deputy
prosecutor “to advise his supervisor about how best to
proceed with … pending case[s]”—they could not be
characterized as his private speech at all. Id. at 42122, 424-25. Rather, they constituted speech that the
government had “commissioned or created” (and
therefore had power to control). Id. at 422.
The Court took pains, however, to admonish “that
employers can [not] restrict employees’ rights by
creating excessively broad job descriptions.” Id. at 424.
Tellingly, the Court offered this admonition in direct
response to Justice Souter’s concern that “the
government may well try to limit the English teacher’s
options,” for example, “by the simple expedient of
defining teachers’ job responsibilities expansively,
investing them with a general obligation to ensure
sound administration of the school.” Id. at 431 n.2
(Souter, J., dissenting). To guard against such
concerns, the Court explained that the “proper
inquiry” into a public employee’s official job duties “is
a practical one,” and that “the listing of a given task in
an employee’s written job description is neither
necessary nor sufficient to demonstrate that
conducting the task is within the scope of the

App-85
employee’s professional duties for First Amendment
purposes.” Id. at 424-25.
B.
The opinion in Kennedy III has run far, far afield
of the “practical” inquiry dictated by Garcetti. Cf. 547
U.S. 424. It arrives at the bizarre conclusion that
Kennedy’s prayer was speech pursuant to his official
duties “as a government employee,” Kennedy III, 991
F.3d at 1015—which, make no mistake, is to say that
praying is somehow a football coach’s responsibility in
the same way that drafting memoranda on pending
prosecutions is a deputy prosecutor’s responsibility.
Worse still, the panel’s latest misapplication of
Garcetti directly contravenes the guidance offered by
four Supreme Court Justices in this very case.
Compare Kennedy II, 139 S. Ct. at 636 (statement of
Alito, J.) (“The Ninth Circuit’s opinion [in Kennedy I]
applies our decision in Garcetti … to public school
teachers and coaches in a highly tendentious way.”);
with Kennedy III, 991 F.3d at 1015 (“Our holding [from
Kennedy I] has not changed.”).
According to the opinion, a coach is “clothed with
the mantle of one who imparts knowledge and
wisdom,” so Kennedy’s prayer “on the field—a location
that he only had access to because of his
employment—during a time when he was generally
tasked with communicating with students, was speech
as a government employee.” Kennedy III, 991 F.3d at
1015 (quoting Kennedy I, 869 F.3d at 826). Thus, by
the opinion’s sweeping logic, Kennedy’s prayer—no
matter how personal, private, brief, or quiet—was
wholly unprotected by the First Amendment.

App-86
1.
The fundamental flaw with the opinion’s
conclusion is that it relies on precisely the kind of
“excessively broad job description[]” that Garcetti
plainly precludes. 547 U.S. at 424. In adopting the
reasoning of Kennedy I, which was more thorough but
no less troubling, the Kennedy III panel repeats its
original mistake. Relying simply on the existence of a
District policy that coaches should “exhibit
sportsmanlike conduct at all times,” the panel leapt to
this grandiosely broad characterization of Kennedy’s
job duties: “communicating the District’s perspective
on appropriate behavior” whenever “in the presence of
students and spectators.” Kennedy I, 869 F.3d at 82527. This epitomizes the sort of reasoning Garcetti
forbids. Moreover, the panel inferred its startling
conclusion from an even more startlingly simplistic
syllogism:
Because
Kennedy’s
job
involved
“demonstrative speech” and prayer can at times be
“demonstrative speech,” then (by the opinion’s
tortured logic) Kennedy’s prayer necessarily
“fulfill[ed]
his
professional
responsibility
to
communicate demonstratively.” Id. at 828. The
opinion’s flawed reasoning—at odds with Supreme
Court precedent and common sense—lumps together
obvious examples of football coaching, calling plays
and the like, with any speech that can be overheard by
someone else, no matter how personal or private it
may be.
If Garcetti were as simplistic as the panel made it
out to be, it could have been decided in just a few
sentences. All the Garcetti Court would have needed
to say—on the panel’s misguided reading—was that

App-87
Ceballos was an attorney, that an attorney’s job
involves the written word, and that any writing by
Ceballos accordingly would constitute speech
pursuant to his official duties. Therefore, by the
Kennedy III opinion’s logic, the Supreme Court was
only wasting ink when it delved into the content of
Ceballos’s memos, the precise duties of a calendar
deputy in the district attorney’s office, and the
comparison to civilian analogues, because Ceballos
could be disciplined with impunity whenever he put
pen to paper.
2.
Garcetti and basic logical coherence are not the
only victims of the opinion’s Free Speech analysis. By
assuming that teachers always act as teachers
between the first and last bell of the school day (or that
coaches always act as coaches from the time they
arrive for work at the school’s athletic office to the
moment the stadium lights go out on the end of a
game), the opinion also places itself in irreconcilable
contradiction with the most basic, “unmistakable”
axiom of the past century of school-speech
jurisprudence: that, as noted above, teachers do not
“shed their constitutional rights … at the schoolhouse
gate.” Tinker, 393 U.S. at 506; see also, e.g., Bethel Sch.
Dist. No. 403 v. Fraser, 478 U.S. 675, 688 (1986)
(Brennan, J., concurring) (noting the Court’s repeated
“reaffirm[ance]” of this “unimpeachable proposition”
of Tinker). For if, as the opinion declares, all
“demonstrative communication” in the presence of
students were unprotected, there would be little left of
the First Amendment—let alone Tinker’s landmark
holding—for public school employees. Likewise, the

App-88
Pickering balancing test would cease to provide refuge
for large swaths of school speech, religious or not. That
cannot be right. For as Kennedy rightly observes in his
brief, “Garcetti applied Pickering; it did not overrule
it.”
3.
And yet, on the panel’s view, a school can restrict
any speech for any reason so long as it instructs its
employees to demonstrate good behavior in the
presence of others. See Kennedy I, 869 F.3d at 825-26.
Despite the panel’s tepid assurance that its opinion
does not establish “any bright-line rule,” id. at 830
n.11, four Justices share my doubt:
According to the Ninth Circuit, public school
teachers and coaches may be fired if they
engage in any expression that the school does
not like while they are on duty, and the Ninth
Circuit appears to regard teachers and
coaches as being on duty at all times from the
moment they report for work to the moment
they depart, provided that they are within the
eyesight of students.
Kennedy II, 139 S. Ct. at 636 (statement of Alito, J.).
To illustrate, Justice Alito asked whether a
teacher in the Ninth Circuit still has the right to pray
before eating in the cafeteria where a student might
notice. Id. Kennedy I’s answer appeared to be no. 869
F.3d at 829 (“Kennedy can pray in his office … ”). To
be sure, Kennedy III attempts to distinguish the
hypothetical on the ground that a cafeteria prayer “is
of a wholly different character” than one on the
football field. 991 F.3d at 1015. But the panel fails to
identify any principled distinction between the two

App-89
that would actually impact its analysis. Rather, its
opinion simply describes the instant case: Kennedy
prayed “while players stood next to him, fans watched
from the stands, and he stood at the center of the
football field. Moreover, Kennedy … was a mentor,
motivational speaker, and role model to students
specifically at the conclusion of a game.” Id. at 1015
(emphasis omitted).
True enough, but none of these facts does
anything to distinguish the cafeteria scenario (or
innumerable others). If Kennedy prayed in the
cafeteria, “a location that he only had access to
because of his employment,” at a time when he was on
duty, “generally tasked with communicating with
students,” the panel’s opinion would dictate that he
spoke in his official capacity as a public employee in
doing so. Id. at 1015. The opinion’s ipse dixit exception
for mealtime prayer defies its own logic and will surely
not be taken seriously by litigants or courts
attempting to apply this sweeping rule to many
scenarios yet to come.14
Indeed, several other courts have acknowledged the farreaching scope of Kennedy I’s rule, which Kennedy III now
entrenches. See, e.g., Espinoza v. Montana Dep’t of Revenue, 140
S. Ct. 2246, 2265 (2020) (Thomas, J., concurring) (criticizing
Kennedy I for failing to protect even off-duty religious speech);
Kennedy II, 139 S. Ct. at 636-37 (statement of Alito, J.)
(“[Kennedy I] regard[s] teachers and coaches as being on duty at
all times … within the eyesight of students.”); Greisen v. Hanken,
925 F.3d 1097, 1112 (9th Cir. 2019) (interpreting Kennedy I to
apply whenever employees who teach and serve as role models
act in an official capacity in the presence of others); Barone v. City
of Springfield, 902 F.3d 1091, 1100-01 (9th Cir. 2018) (same);
Naini v. King Cty. Pub. Hosp. Dist. No. 2, No. C19-0886-JCC,
2020 WL 290927, at *13-14 (W.D. Wash. Jan. 21, 2020) (same);
14

App-90
Suppose, for example, a teacher receives bad news
about a family member while teaching and utters a
brief, quiet prayer, or suppose a coach makes the sign
of the cross upon seeing a player suffer an injury.
Imagine a coach who kneels during the national
anthem in protest or a teacher whose car parked on
school property bears a bumper sticker for a
presidential campaign. Even if the opinion’s one-off
exception for mealtime prayer were taken at face
value, these citizens would now stand to be censored,
disciplined, or even fired by their public employer for
any or no reason at all.
Relegating such speech to an empty office, or
perhaps to the teacher’s lounge, is an insult to the
First Amendment, which “extends to private as well
as public expression.” Givhan v. W. Line Consol. Sch.
Dist., 439 U.S. 410, 415 n.4 (1979) (emphasis added).
More fundamentally, doing so corrodes the civic
virtues that underlie the First Amendment: We ask
“teachers to foster those habits of open-mindedness
and critical inquiry which alone make for responsible
citizens … They cannot carry out their noble task if
the conditions for the practice of a responsible and
critical mind are denied to them.” Wieman v.
Updegraff, 344 U.S. 183, 196 (1952) (Frankfurter, J.,
concurring).

Kountze Indep. Sch. Dist. v. Matthews ex rel. Matthews, No. 0913-00251-CV, 2017 WL 4319908, at *4 (Tex. App. Sept. 28, 2017)
(noting Kennedy I’s broad reliance on the coach’s “responsibility
to communicate demonstratively”).

App-91
C.
Tellingly, and perhaps unsurprisingly, it would
have required far less intellectual gymnastics for an
en banc court to apply Garcetti properly than for the
panel to misapply Garcetti as it did.
1.
To determine whether Kennedy prayed within the
ambit of his official duties as a government employee,
we must ask what tasks he was paid to perform.
Garcetti, 547 U.S. at 422; see also Dahlia v. Rodriguez,
735 F.3d 1060, 1075 (9th Cir. 2013) (en banc) (“As part
of a ‘practical’ inquiry, a trier of fact must consider
what [the employee] was actually told to do.”). Some of
a football coach’s speech—calling a play, addressing
the players at halftime, or teaching how to block and
how to tackle—undoubtedly accomplishes official
tasks required of him. Yet a coach might speak instead
for purely personal reasons, such as chatting about the
weather with a spectator or calling his family to let
them know the game is over. Both sets of examples
take place on the job, on school property, and in
earshot of students, but only the former can be fairly
called speech the government paid to create.
Indeed, if we heed Garcetti’s instruction to inspect
the functional content of an employee’s speech, it is
easy to see the distinction between private speech and
official public speech in the context of football
coaching. Private speech is “the kind of activity
engaged in by citizens who do not work for the
government,” such as “writing a letter to a local
newspaper” or “discussing politics with a co-worker.”
Garcetti, 547 U.S. at 423. This makes perfect sense. By
contrast, where a public employee speaks in his or her

App-92
capacity as a public employee, “there is no relevant
analogue to speech by citizens who are not
government employees”—and accordingly, the
government is more likely to be correct that the speech
is really its to control. Id. at 424.
Writing a recommendation to the district attorney
on how to handle a case has no civilian analogue, and
thus, the speech in Garcetti was distinctly
governmental in nature (and in turn, subject to
governmental control). But if the attorney used the
same medium in the same setting to communicate a
message unrelated to work, say, an invitation to a
birthday party, he would not speak as a public official.
See also Coomes v. Edmonds Sch. Dist. No. 15, 816
F.3d 1255, 1264 (9th Cir. 2016) (“[E]ven if Coomes’s
duties … included speaking to parents regarding their
children’s participation in [a] program, she could have
gone outside her duties in speaking to parents about
other matters.”).
So too here: Kennedy might use on-field speech to
instruct the team’s defense, or he might kneel on the
field to pray quietly to God. The former is public
because only coaches call plays. Such speech “owes its
existence to a public employee’s professional
responsibilities.” Garcetti, 547 U.S. at 421. But the
latter is private because there is a clear civilian
analogue: Millions of Americans give thanks to God, a
practice that has nothing to do with coaching a sport.
2.
Perhaps the most obvious evidence that prayer
fell outside of Kennedy’s football-coaching duties was
his employer’s explicit and repeated opposition to such
prayer—culminating in Kennedy’s suspension. The

App-93
District demanded that coaching staff comply with a
policy entitled “Religious-Related Activities and
Practices,” which the District interpreted to prohibit
Kennedy’s post-game prayer. Kennedy III, 991 F.3d at
1011-13. How can the panel hold that prayer was one
of Kennedy’s job duties when his employer maintained
a policy banning it? Further heightening the
contradiction, the District told Kennedy that his
prayer “interfere[d] with the performance of job
duties.” Id. at 1013.15 How can it be that Kennedy’s
prayer “interfere[d] with” his job duties if, as the
District and panel maintain, it was simultaneously
pursuant to such duties? Cf. id. Rather than straining
to square this circle, a truly practical inquiry would
have recognized that Kennedy’s employer excluded
prayer from his duties—both as a matter of general
policy and as applied to him specifically.
In sum: A proper application of Garcetti and its
progenitors dictates that Kennedy’s prayer was his
private speech, not that of the government.
Consequently, his Free Speech rights are indeed
implicated, and the government’s stated justifications
for its censorship must face constitutional scrutiny.
See Pickering, 391 U.S. at 568.

To be clear, notwithstanding this statement from the District
to Kennedy, it remains undisputed that “the risk of constitutional
liability associated with Kennedy’s religious conduct”—rather
than any concern that Kennedy was being inattentive to his
players—“was the ‘sole reason’ the District ultimately suspended
him.” Kennedy III, 991 F.3d at 1014 (quoting Kennedy, 443 F.
Supp. 3d at 1231) (emphasis added).
15

App-94
III.
The opinion’s attempts to recast Kennedy’s
private speech as official government speech are
strange enough. But it then wanders even further
afield. Perhaps belying its own doubts, the panel does
not rest on its (ostensibly dispositive) conclusion that
Kennedy’s prayer was official speech unprotected by
the Free Speech Clause and therefore properly subject
to discipline.
Instead, the panel proceeds to announce the
alternative holding that, even if Kennedy’s speech
were private (and therefore triggered First
Amendment scrutiny), the District would have a
compelling interest in censoring it. See Kennedy III,
991 F.3d at 1016-19. That putatively “compelling
interest” is the District’s stated fear that, unless it
fired Kennedy, it would be committing an
Establishment Clause violation by creating the
perception that it “endorsed” Kennedy’s Christian
religious beliefs. See id. Consequently, the opinion
reaches the troubling conclusion that the Constitution
not only permitted, but required, the District to punish
Kennedy’s private prayer. In so doing, the opinion
defies the principle that “the state interest … in
achieving … separation of church and State” is
“limited by the Free Exercise Clause,” Widmar v.
Vincent, 454 U.S. 263, 276 (1981) (emphasis added)—
and not the other way around. More fundamentally,
the opinion subverts the entire thrust of the
Establishment Clause, transforming a shield for
individual religious liberty into a sword for
governments to defeat individuals’ claims to Free
Exercise. The panel’s holding, which thereby

App-95
misinterprets both of the First Amendment’s religion
clauses, simply cannot be squared with decades of
Supreme Court precedent to the contrary.
Indeed, upon a more faithful examination of such
precedents, they reveal a deep irony in the panel’s
Establishment Clause analysis: What the District
puts forth (and the panel accepts) as a justification to
extinguish Kennedy’s Free Speech claim actually has
quite the opposite effect. Namely, it imparts credence
and urgency to his Free Exercise claim, which might
otherwise have been dubious. See Kennedy II, 139 S.
Ct. at 637 (statement of Alito, J.) (expressing doubt—
prior to the District’s subsequent concession, noted in
the Kennedy III opinion, that District administrators’
motivation for disciplining Kennedy was “not
[religiously] neutral,” 991 F.3d at 1020—as to whether
Kennedy’s Free Exercise claim might not pass muster
under existing law).16 Moreover, a faithful reading of
At the preliminary-injunction stage (i.e., in the record that
was before the Supreme Court Justices in Kennedy II), the
District had advanced the dubious claim that its motivation for
punishing Kennedy’s prayer was that it “drew [him] away from
[his] work.” Kennedy I, 869 F.3d 819. Accordingly, the Justices
could not at that stage rule out the possibility that the District’s
“reason” for suspending Kennedy was that “he was supposed to
have been actively supervising the players after they had left the
field but instead left them unsupervised while he prayed on his
own.” Kennedy II, 139 S. Ct. at 635. Were that the case, the
District’s punishment of Kennedy presumably would have
constituted a “generally applicable, religion-neutral” action that
merely had the “effect of burdening [Kennedy’s] particular
religious practice,” which, under Smith, would “need not be
justified by a compelling governmental interest.” Emp’t Div.,
Dep’t of Hum. Res. v. Smith, 494 U.S. 872, 886 n.3 (1990). This
appears to be the uncertainty to which Justice Alito was referring
when he alluded to the possibility that Kennedy’s Free Exercise
16

App-96
the Court’s religion clauses jurisprudence makes clear
that the District’s (unfounded) fears of Establishment
Clause liability could justify its incursions on neither
Kennedy’s Free Speech rights nor his Free Exercise
rights.
A.
In crediting the District’s Establishment Clause
rationale, the panel backed itself into the corner of
conceding that the District had targeted Kennedy’s
conduct “because the conduct is religious.” Kennedy
III, 991 F.3d at 1020 (emphasis in original). The
unmistakable upshot of this concession is to trigger a
Free Exercise problem and to increase the credibility
of Kennedy’s alternative claim. For the most basic
lesson of the Supreme Court’s Free Exercise
jurisprudence teaches that when government actions
“target the religious for ‘special disabilities’ based on
their ‘religious status,’” they trigger “the strictest
scrutiny.” Trinity Lutheran Church of Columbia, Inc.
v. Comer, 137 S. Ct. 2012, 2021 (2017) (quoting Church
of Lukumi Babalu Aye, Inc. v. Hialeah, 508 U.S. 520,
533 (1993)). That is, such targeted incursions on
religious rights “must be justified by a compelling
governmental interest and must be narrowly tailored
to advance that interest.” Lukumi Babalu Aye, 508
U.S. at 531-32 (1993).
B.
Consequently, Kennedy’s suspension must
survive strict scrutiny, and the only way the District
claim might—on the basis of the record then before the Court—
be precluded by Smith. Kennedy II, 139 S. Ct. at 637 (statement
of Alito, J.) (citing Smith, 494 U.S. 872).

App-97
wins is if its fears were valid—i.e., if Kennedy could
not privately pray on the field after football games
without the District’s violating the Establishment
Clause and if suspending (then declining to re-hire)
Kennedy were the only way the District could remedy
such putative Establishment Clause problem. Even a
cursory review of the Supreme Court’s Establishment
Clause jurisprudence should have assuaged the
District’s paranoia. But instead, the panel has chosen
to exemplify the “brooding omnipresence” of the
“modern understanding of the Establishment
Clause … ever ready to be used to justify the
government’s infringement on religious freedom.”
Espinoza v. Montana Dep’t of Revenue, 140 S. Ct. 2246,
2263 (2020) (Thomas, J., concurring) (quoting S. Pac.
Co. v. Jensen, 244 U.S. 205, 222 (1917) (Holmes, J.,
dissenting)).
1.
a.
Most fundamentally, the opinion takes the rare—
indeed, unprecedented—step of perceiving an
Establishment Clause violation without first locating
any state action to constitute such a violation. In so
doing, the opinion contravenes the axiomatic principle
that “an Establishment Clause violation must be
moored in government action.” Capitol Square Rev. &
Advisory Bd. v. Pinette, 515 U.S. 753, 779 (1995)
(O’Connor, J., concurring); see also Manhattan Cmty.
Access Corp. v. Halleck, 139 S. Ct. 1921, 1926 (2019)
(explaining, in the Free Speech context, that “the First
Amendment constrains governmental actors and
protects private actors”) (emphasis added). Indeed, the
opinion contravenes the very text of the

App-98
Establishment Clause, which announces a constraint
on the State, rather than non-state actors.
In case after case, the Supreme Court has
determined that private religious speech on public
school property does not constitute state action and
therefore does not run afoul of the Establishment
Clause. For example, a private organization can use
classrooms for religious instruction after school, Good
News Club v. Milford Cent. Sch., 533 U.S. 98, 112-19
(2001); a Christian student newspaper can receive
university funding, Rosenberger v. Rector & Visitors of
Univ. of Va., 515 U.S. 819, 837-46 (1995); a church can
screen religious films on public school premises,
Lamb’s Chapel v. Ctr. Moriches Union Free Sch. Dist.,
508 U.S. 384, 394-95 (1993); students can form a
religious club with a faculty monitor, Bd. of Educ. of
Westside Cmty. Schs. v. Mergens ex rel. Mergens, 496
U.S. 226, 249-53 (1990) (plurality op.); and student
groups can use university facilities for worship,
Widmar v. Vincent, 454 U.S. 263, 270-75 (1981). In
short, the Supreme Court “ha[s] never extended [its]
Establishment Clause jurisprudence to foreclose
private religious conduct during nonschool hours
merely because it takes place on school premises
where … children may be present.” Good News, 533
U.S. at 115; see also Capitol Square, 515 U.S. at 764
(plurality op.) (“The test petitioners propose, which
would attribute to a neutrally behaving government
private religious expression, has no antecedent in our
jurisprudence … ”) (emphasis in original).
Underlying these holdings are decades of
Supreme Court caselaw drawing a sharp distinction
“between government speech endorsing religion, which

App-99
the Establishment Clause forbids, and private speech
endorsing religion, which the Free Speech and Free
Exercise Clauses protect.” Mergens, 496 U.S. 226 at
250 (plurality op.) (emphasis in original). The District,
then, had no reason to worry about liability from
Kennedy’s private religious conduct, because—and
this bears repeating—“an Establishment Clause
violation must be moored in government action.”
Capitol Square, 515 U.S. at 779 (O’Connor, J.,
concurring).
Here, by contrast, Kennedy never asked the
school to take any action endorsing or facilitating his
religious practice. Quite the contrary, Kennedy
essentially asked his employer to do nothing—simply
to tolerate the brief, quiet prayer of one man (which is
exactly what the District had done for years prior,
without anyone ever raising an Establishment Clause
claim against it).
b.
Consequently, this case bears no resemblance to
the kinds of institutional entanglements with
religion—often described as “coercive”—which may
give rise to an Establishment Clause violation. Cf.
Santa Fe Ind. Sch. Dist. v. Doe, 530 U.S. 290, 305-06,
309 (2000) (school policy once titled “Prayer at
Football Games” promoted prayer over the school P.A.
system); Lee v. Weisman, 505 U.S. 577, 587 (1992)
(school both sponsored and directed a graduation
prayer); Sch. Dist. of Abington Twp. v. Schempp, 374
U.S. 203, 205 (1963) (state law required daily Bible
reading at school); Engel v. Vitale, 370 U.S. 421 (1962)
(school required prayer to start each day).

App-100
Yet rather than abide the lessons of this line of
complex Establishment Clause jurisprudence, the
panel reduces it to one simplistic question: Would an
objective observer have viewed Kennedy’s prayer as
“stamped” with the “school’s seal of approval”?
Kennedy III, 991 F.3d at 1017 (quoting Santa Fe, 530
U.S. at 308). If the answer is “yes,” then, says the
panel, the District must punish Kennedy for privately
and independently engaging in such conduct. In other
words, because someone might mistakenly attribute
Kennedy’s prayer to the District (notwithstanding its
well-publicized opposition), the panel declares that the
school not only was free, but indeed obliged, to
discipline him in ways that would otherwise violate
his Free Speech and Free Exercise rights.
Lacking a single Supreme Court case that
supports its implicit assumption that a private
individual can commit an Establishment Clause
violation, the panel gestures desperately toward
Establishment Clause cases merely involving school
employees’ endorsement of religion. But the panel’s
opinion drains such cases of the factors driving their
logic—the school policy, the degree of control over
employee speech, neutrality toward religion, or the
possibility of coercion. See, e.g., Santa Fe, 530 U.S. at
301-03, 306-12; Weisman, 505 U.S. at 593.
Critically, every case cited in the opinion’s
Establishment Clause analysis involved government
speech, not private speech. See McCreary County. v.
Am. C.L. Union of Ky., 545 U.S. 844, 860 (2005)
(courthouse displays of the Ten Commandments);
Santa Fe, 530 U.S. at 315 (school policy “implemented
with the purpose of endorsing school prayer”);

App-101
Weisman, 505 U.S. 577, 587 (1992) (“state-sponsored
and state-directed … formal religious observance”);
Edwards v. Aguillard, 482 U.S. 578, 585-94 (1987)
(statewide ban on teaching evolution without
creationism); Wallace v. Jaffree, 472 U.S. 38, 59 (1985)
(statewide school prayer statute). It strikes me as
specious to conclude that such authorities should
apply equally to Kennedy’s speech merely because he
worked for a public employer. Especially so where the
Supreme Court and our court have expressly declined
to find Establishment Clause violations in the context
of private religious activity— authorities the opinion
conveniently ignores. Cf. Mergens, 496 U.S. 226 at 250
(plurality op.) (“The proposition that schools do not
endorse everything they fail to censor is not
complicated.”); Hills v. Scottsdale Unified Sch. Dist.
No. 48, 329 F.3d 1044, 1055-56 (9th Cir. 2003) (same);
Tucker v. Calif. Dep’t of Educ., 97 F.3d 1204, 1213 (9th
Cir. 1996) (“[S]peech by a public employee, even a
teacher, does not always represent, or even appear to
represent, the views of the state.”).
Likewise, the assumption that Kennedy spoke as
a private citizen—which the opinion expressly adopts
for the limited purpose of its in-the-alternative
Establishment Clause analysis, Kennedy III, 991 F.3d
at 1016, contrary to its earlier holding that Kennedy
spoke “as a public employee,” id. at 1015—forecloses
the opinion’s application of Santa Fe Independent
School District v. Doe, the only Supreme Court case
that bears even remote factual resemblance to ours.
Cf. 530 U.S. at 310, 312 (holding, where student’s
prayer was “deliver[ed] … over the school’s public
address system, by a speaker representing the student
body, under the supervision of school faculty, and

App-102
pursuant to a school policy that explicitly and
implicitly encourage[d] public prayer,” that school
policy had coerced attendees into participation in
prayer).
If the panel had engaged in a fair comparison
between the facts of Kennedy’s case and the facts of
the Establishment Clause cases upon which it relies,
it could have reached only one conclusion: The District
made its disavowal of Kennedy’s religious speech
crystal clear to any reasonable observer. For one, the
District, as mentioned above, had a pre-existing policy
restricting any religious speech that might
“encourage” a student to pray. Kennedy III, 991 F.3d
at 1011. The superintendent then sent Kennedy two
letters detailing the policy and ordering him to stop
praying. Id. at 1011-13. Finally, the District published
a letter addressed to parents and staff explaining its
policy opposing prayer.
Given such facts, how could anyone be mistaken
about the school’s position—let alone “view
[Kennedy’s private prayer] as [the District’s]
endorsement of a particular faith”? Id. at 1019. The
District vehemently opposed Kennedy’s prayer, and
the local community got the message loud and clear.
See id. at 1012 (“[T]he Seattle Times published an
article … entitled ‘Bremerton football coach vows to
pray after game despite district order.’” (emphasis
added)). Only by ignoring everything the District said
and did could an observer (mistakenly) think the
school was endorsing Kennedy’s. But the mere
possibility of such a mistake does not turn private
speech into endorsement, “at least where … the
government has not fostered or encouraged the

App-103
mistake.” Capitol Square, 515 U.S. at 766 (plurality
op.); see also Good News, 533 U.S. at 119 (“We cannot
operate … under the assumption that any risk … [of]
perceive[d] endorsement should counsel in favor of
excluding … religious activity. We decline to employ
Establishment Clause jurisprudence using a modified
heckler’s veto … ”) (emphasis added). A reasonable
observer would have known of the District’s actions
prior to Kennedy’s suspension, yet the opinion
maintains that every ounce of discipline—including
suspension—was required to comply with the
Establishment Clause.
At bottom, because there can be no Establishment
Clause violation without state action, the District’s
sole stated interest in avoiding Establishment Clause
liability cannot justify suppressing the Free Exercise
rights of its coach. And because strict scrutiny limits
us to considering state interests that are “genuine, not
hypothesized,” cf. United States v. Virginia, 518 U.S.
515, 533 (1996) (imposing this requirement in the
context of intermediate scrutiny, such that it applies a
fortiori in the strict-scrutiny context), it necessarily
follows that the District had no compelling interest in
punishing Kennedy’s prayer.
2.
The errors of the panel’s Establishment Clause
analysis do not stop with its stubborn refusal to
recognize the distinction between state and private
action. For even if an observer could mistake
Kennedy’s private speech for that of the school, it was
still erroneous for the panel to assume that the
District’s sole constitutional option was to suspend
Kennedy. In creating a false dichotomy between the

App-104
District’s chosen course and “allowing Kennedy free
rein,” Kennedy III, 991 F.3d at 1018, the panel
neglects other, more narrowly tailored remedies and
hastily announces that “there was no other way” to
handle the situation, id. at 1020. Instead, the panel
should have considered the accommodation Kennedy’s
counsel proposed: a simple disclaimer, clarifying that
Kennedy’s prayer was his own private speech, not that
of the District.
A school does not violate the Establishment
Clause where it “can dispel any ‘mistaken inference of
endorsement’ by making it clear to students
that … private speech is not the speech of the school.”
Prince v. Jacoby, 303 F.3d 1074, 1094 (9th Cir. 2002)
(quoting Mergens, 496 U.S. at 251); see also Hills, 329
F.3d at 1054-56. A disclaimer communicates that the
school’s permission “evinces neutrality toward, rather
than endorsement of, religious speech.” Mergens, 496
U.S. at 251. Our court has found a disclaimer to be
inadequate only once—in the “coercive” context of a
graduation speech. Lassonde v. Pleasanton Unified
Sch. Dist., 320 F.3d 979, 983-85 (9th Cir. 2003).
If the school could have disclaimed Kennedy’s
prayer in a statement or at each game, then firing him
was not necessary to comply with the Establishment
Clause, and the violation of his Free Exercise rights
was not narrowly tailored. As we have long recognized,
the District could have more productively addressed
its fear of confused observers while still protecting
Kennedy’s fundamental rights. Indeed, as our court
has observed:
The school’s proper response is to educate the
audience rather than squelch the speaker.

App-105
Schools may explain that they do not endorse
speech by permitting it. … Free speech, free
exercise, and the ban on establishment are
quite compatible when the government
remains neutral and educates the public
about the reasons.
Hills, 329 F.3d at 1055 (quoting Hedges v. Wauconda
Cmty. Unit Sch. Dist. No. 118, 9 F.3d 1295, 1299-1300
(7th Cir. 1993)). By holding that any demonstrative
prayer
in
public
would
necessarily
(and
unconstitutionally) be imputed to the District, the
panel leaves no room for schools “to educate the
audience.” Id. (quoting Hedges, 9 F.3d at 1299).
Rather, on the panel’s view, the District had no choice
but to issue a warning, a directive, and, ultimately, a
suspension. At the very least because the District
could have disclaimed Kennedy’s prayer, the panel is
mistaken. Under binding precedents of the Supreme
Court, schools can and must do more to protect the
First Amendment liberties of coaches and teachers.
IV.
The opinion has forced our circuit into clear
conflict with the Supreme Court’s instruction in
Garcetti—despite the published guidance of four
Justices in this very case. And the opinion compounds
the error by commanding public schools throughout
the nine states and two federal territories of the Ninth
Circuit to search for and to eliminate private religious
speech or else face liability under the Establishment
Clause. The First Amendment does not demand that
we “purge from the public sphere all that in any way
partakes of the religious,” Van Orden v. Perry, 545

App-106
U.S. 677, 699 (2005) (Breyer, J., concurring in the
judgment), but unfortunately, the Ninth Circuit does.
For the foregoing reasons, it is most regrettable
that our court has failed to rehear this case en banc.
______________________
O’SCANNLAIN and BEA, Circuit Judges, respecting
the denial of rehearing en banc:
We agree with the views expressed by Judge Ikuta
in her dissent from denial of rehearing en banc.
______________________
O’SCANNLAIN, Circuit Judge, respecting the denial
of rehearing en banc:
I agree with the views expressed by Judge R.
Nelson in his dissent from denial of rehearing en banc.
______________________
O’SCANNLAIN, Circuit Judge, respecting the denial
of rehearing en banc:
I agree with the views expressed by Judge Collins
in his dissent from denial of rehearing en banc.
______________________
BEA, Senior Circuit Judge, respecting the denial of
rehearing en banc:
I agree with the views expressed by Judge Collins
in his dissent from denial of rehearing en banc.
______________________
IKUTA, Circuit Judge, with whom CALLAHAN, R.
NELSON, BADE, FORREST, and BUMATAY, Circuit
Judges, join, dissenting from the denial of rehearing
en banc:
I write
perspective.

separately

to

express

a

different

App-107
A.
Joseph Kennedy’s highly public demonstrations of
his religious convictions put Bremerton School
District (BSD) in a no-win situation. BSD wanted to
respect Kennedy’s right “to engage in religious
activity, including prayer,” but it feared that allowing
Kennedy to engage in such highly public activity on
the field after football games would create a
perception that BSD was endorsing religion, in
violation of the Establishment Clause. Kennedy v.
Bremerton Sch. Dist., 991 F.3d 1004, 1011 (9th Cir.
2021).
To avoid such a violation, BSD repeatedly told
Kennedy to stop praying on the field after the football
games. Id. at 1011-13. BSD sent Kennedy letters
“explaining that his conduct … violated BSD’s
[religious activities] policy,” id. at 1013, and advised
him that his post-game talks “must remain entirely
secular in nature,” id. at 1011.
Kennedy was defiant. He told BSD, through his
lawyer, that he intended to resume praying at the
fifty-yard line at the next game notwithstanding
BSD’s orders. Id. at 1012. His unyielding stance was
“widely publicized through Kennedy and his
representatives’
numerous
appearances
and
announcements on various forms of media.” Id.
(cleaned up). The Seattle Times published an article
with the headline “Bremerton football coach vows to
pray after game despite district order,” and explaining
that “[a] Bremerton High School football coach said he
will pray at the 50-yard line after Friday’s
homecoming game, disobeying the school district’s
orders and placing his job at risk.” Id.

App-108
Under these well-publicized circumstances, no
objective observer (assuming we apply the “objective
observer” test) would think BSD was endorsing
Kennedy’s prayers. See Santa Fe Indep. Sch. Dist. v.
Doe, 530 U.S. 290, 308 (2000) (holding that in
determining whether there is an Establishment
Clause violation, “one of the relevant questions is
whether an objective observer, acquainted with the
text, legislative history, and implementation of the
statute, would perceive it as a state endorsement of
prayer in public schools” (cleaned up)). Rather, BSD
took “pains to disassociate itself from the private
speech involved in this case.” See Rosenberger v.
Rector & Visitors of Univ. of Virginia, 515 U.S. 819,
841 (1995); Kennedy, 991 F.3d at 1011, 1013. A
“reasonable observer” who is “deemed aware of the
history and context of the community and forum in
which the religious speech takes place,” see Good News
Club v. Milford Cent. Sch., 533 U.S. 98, 119 (2001)
(cleaned up), would know that Kennedy’s prayer was
not “stamped with [BSD’s] seal of approval,” see Santa
Fe, 530 U.S. at 308. Clearly “there would have been no
realistic danger that the community would think that
the District was endorsing religion or any particular
creed.” See Good News Club, 533 U.S. at 113 (quoting
Lamb’s Chapel v. Ctr. Moriches Union Free Sch. Dist.,
508 U.S. 384, 395 (1993)). BSD’s concern that
Kennedy’s religious activities would be attributed to
BSD is simply not plausible. See Rosenberger, 515 U.S.
at 841. Applying the objective observer test from
Santa Fe, there is no Establishment Clause violation
here.
Therefore, even assuming (as the panel majority
does) that Kennedy spoke as a private citizen, BSD

App-109
could not successfully justify any content-based
discrimination against Kennedy on the ground that it
needed to do so to avoid an Establishment Clause
violation.
B.
By holding that BSD could be subject to an
Establishment Clause claim under the circumstances
of this case, the majority missed an opportunity to
address the tension between the Free Exercise Clause
and Establishment Clause in the public employment
context. The Supreme Court has recognized that
public employers are caught between “countervailing
constitutional concerns” of respecting the free exercise
rights of their employees while at the same time
avoiding giving offense to the public by appearing to
endorse religious activity. Good News Club, 533 U.S.
at 119. The majority’s holding that BSD was
reasonable to fear liability for an Establishment
Clause violation is dangerous because it signals that
public employers who merely fail to act with sufficient
force to squelch an employee’s publicly observable
religious activity may be liable for such a claim. This
raises the risk that public employers will feel
compelled (or encouraged) to silence their employee’s
religious activities, even in moments of private prayer,
so long as they can be seen by students. Cf. Kennedy
v. Bremerton Sch. Dist., 139 S. Ct. 634, 636 (2019)
(Alito, J., statement respecting denial of certiorari).
We should address this issue directly. Just as the
Supreme Court provided guidance to public employers
for balancing their employees’ free speech rights with
the requirements of a particular job, see Garcetti v.
Ceballos, 547 U.S. 410, 421 (2006), we need a parallel

App-110
framework for evaluating how a public employer can
protect its employee’s religious expression without
becoming vulnerable to an Establishment Clause
claim. Because this case raises an opportunity to
develop such a framework, I respectfully dissent from
denial
of
rehearing
this
case
en
banc.
R. NELSON, Circuit Judge, joined by
CALLAHAN, BUMATAY, and VANDYKE, Circuit
Judges, and by IKUTA, Circuit Judge, as to Part I,
dissenting from the denial of rehearing en banc:
The way to stop hostility to religion is to stop
being hostile to religion. The panel held that merely
allowing high school football coaches and players to
pray on the field “unquestionably” violates the
Establishment Clause. Kennedy v. Bremerton Sch.
Dist., 991 F.3d 1004, 1017 (9th Cir. 2021). Not so fast.
First, the panel misapplied Supreme Court
precedent since none of the School District’s actions
would have come close to an endorsement of religion
or coercion. Instead, the panel went beyond precedent,
assuming a hypothetical Establishment Clause
violation where there was none. This extension is
especially erroneous given that the panel’s reliance on
Santa Fe Independent School District v. Doe, 530 U.S.
290 (2000), is inapt as there would not have been an
endorsement of religion by allowing Coach Kennedy to
pray. Moreover, Santa Fe should not be extended as it
stems from Lemon v. Kurtzman, 403 U.S. 602 (1971)—
an ahistorical, atextual, and failed attempt to define
Establishment Clause violations. See Freedom From
Religion Found., Inc. v. Chino Valley Unified Sch.
Dist. Bd. of Educ., 910 F.3d 1297, 1305-06 (9th Cir.

App-111
2018) (R. Nelson, J., dissenting from denial of
rehearing en banc). And given the Supreme Court has
effectively killed Lemon, see generally Am. Legion v.
Am. Humanist Ass’n, 139 S. Ct. 2067 (2019), the panel
should not have extended Santa Fe’s holding.
Second, the panel’s analysis goes far afield from
the original meaning of an established religion.
American Legion demonstrated how critical historical
practice and understanding is in the Establishment
Clause context. The panel missed that cue. And
because of that mistake, the panel allowed an
ahistorical and expansive view of the Establishment
Clause “to justify the [School District]’s infringement
on [Coach Kennedy’s] religious freedom.” See Espinoza
v. Mont. Dep’t of Revenue, 140 S. Ct. 2246, 2263 (2020)
(Thomas, J., concurring). Yet the Establishment
Clause was originally intended “to secure religious
liberty,” not purge it from the public square. See Santa
Fe, 530 U.S. at 313. And make no mistake, favoring
secularism over religion is not neutrality. Ante, at 2829 (M. Smith, J., concurring in denial of rehearing en
banc).
Thus, the panel not only misapplied Supreme
Court precedent; it also failed to analyze the
Establishment Clause issue in light of American
Legion and to realign our jurisprudence with the
Establishment
Clause’s
original
meaning.
17
Respectfully, I dissent.

17 Judge O’Scannlain argues the Establishment Clause was not
implicated for want of state action. Ante, at 62-63. That point has
merit. For purposes of my analysis, however, I assume the School
District’s allowance of Coach Kennedy’s mid-field prayers would

App-112
I.
The Constitution forbids Congress from making a
“law respecting an establishment of religion.” U.S.
Const. amend. 1; see also Everson v. Bd. of Educ. of
Ewing Twp., 330 U.S. 1, 15 (1947) (incorporating
Establishment Clause to the states). Under existing
Supreme
Court
precedent,
there
was
no
Establishment Clause violation here. What is more,
the panel extended that precedent to reach a
conclusion far beyond the original meaning of the
Establishment Clause.
A.
Under the Establishment Clause, that Congress
cannot
“formally
establish[
a]
church
is
straightforward.” Am. Legion, 139 S. Ct. at 2080. But
“pinning down the meaning of ‘a law respecting an
establishment of religion’ has proven to be a vexing
problem.” Id. In Lemon, the Supreme Court attempted
to create a “grand unified theory” of Establishment
Clause violations, focusing on a law’s purpose, effects,
and entanglement with religion. Id. at 2087; see
Lemon, 403 U.S. at 612-13. That effort fell flat, and
Lemon was slowly replaced by a kaleidoscope of other
tests.18 Lemon’s juice was finally wrung dry in 2019
have been state action. Even then, there would have been no
Establishment Clause violation.
See, e.g., Hunt v. McNair, 413 U.S. 734, 741 (1973); Lee v.
Weisman, 505 U.S. 577 (1992); Zobrest v. Catalina Foothills Sch.
Dist., 509 U.S. 1 (1993); Rosenberger v. Rector & Visitors of Univ.
of Va., 515 U.S. 819 (1995); Zelman v. Simmons-Harris, 536 U.S.
639 (2002); Van Orden v. Perry, 545 U.S. 677 (2005); Town of
Greece v. Galloway, 572 U.S. 565 (2014); Trump v. Hawaii, 138
S. Ct. 2392 (2018).
18

App-113
when a majority of the Justices yet again “personally
dr[ove] pencils through the creature’s heart.” 19 See
Lamb’s Chapel v. Ctr. Moriches Union Free Sch. Dist.,
508 U.S. 384, 398 (1993) (Scalia, J., concurring in the
judgment). But despite Lemon’s demise, we are left to
sort through the continued application of its progeny.
Here, the panel primarily relied on Santa Fe, a
test focused on what the “objective observer” would
view as an endorsement of religion. Kennedy, 991 F.3d
at 1017 (citing Santa Fe, 530 U.S. at 308). Given this
Writing for a plurality, Justice Alito criticized Lemon for its
widespread shortcomings and noted its demise, Am. Legion, 139
S. Ct. at 2080-82, instead relying on “a more modest approach
that focuses on the particular issue at hand and looks to history
for guidance,” id. at 2087. Concurring Justices reached similar
conclusions. Justice Kavanaugh underscored that “this Court no
longer applies the old test articulated in Lemon v. Kurtzman.” Id.
at 2092. Justice Thomas would “overrule the Lemon test in all
contexts.” Id. at 2097. Justice Gorsuch rejected the
“misadventure” that was Lemon. Id. at 2101. And Justice Breyer
analyzed the issue without relying on Lemon. Id. at 2090-91.
19

Since American Legion, the Supreme Court continues to ignore
Lemon. See Espinoza, 140 S. Ct. at 2254. And other courts around
the country have recognized Lemon’s demise and wisely left it
dead. See, e.g., Woodring v. Jackson County, 986 F.3d 979, 981
(7th Cir. 2021); Perrier-Bilbo v. United States, 954 F.3d 413, 425
(1st Cir. 2020); Kondrat’yev v. City of Pensacola, 949 F.3d 1319,
1321 (11th Cir. 2020); Freedom From Religion Found., Inc. v.
County of Lehigh, 933 F.3d 275, 280-81 (3d Cir. 2019); Williams
v. Kingdom Hall of Jehovah’s Witnesses, No. 20190422, 2021 WL
2251819, at *4 (Utah June 3, 2021); see also Brown v. Collier, 929
F.3d 218, 246-48 (5th Cir. 2019) (rejecting Lemon’s application
without recognizing its demise). Though not formally overruled,
see Georgia v. Pub. Res. Org., Inc., 140 S. Ct. 1498, 1520 n.6
(2020) (Thomas, J., dissenting), Lemon is effectively (and
fortunately) dead.

App-114
test stems from Lemon’s atextual and ahistorical
purpose and effects prongs, see Lynch, 465 U.S. 668,
688-90 (1984) (O’Connor, J., concurring), the
endorsement test is equally suspect. See infra Part
I.B. Even applying that test, however, the panel was
wrong. In Santa Fe, a school’s formal policy authorized
religious prayer before all football games, excluded
minority viewpoints, and controlled the invocation’s
content. 530 U.S. at 302-08. The school also provided
access to its public address system and “clothed [the
pregame prayer ceremony] in the traditional indicia of
school sporting events.” Id. at 307-08. Here, however,
the School District’s “degree of … involvement” in
Coach Kennedy’s private prayers or the players’
voluntary participation is zero. See id. at 305. In fact,
nothing in Santa Fe is remotely analogous to Coach
Kennedy’s case. Had the School District allowed him
to pray, that would not have been an endorsement
either, as I explain in the next section.
The Supreme Court has also directed us to look at
whether a school’s practices coerce students into
religious practices or beliefs. See generally Good News
Club v. Milford Cent. Sch., 533 U.S. 98 (2001); Lee, 505
U.S. 577. Coercion does not mean peer-pressure or
offense when encountering a religious practice. Town
of Greece, 572 U.S. at 589 (plurality op.) (“Offense,
however, does not equate to coercion.”); id. at 609
(Thomas, J., concurrence in part) (the Establishment
Clause is not violated “whenever the reasonable
observer feels subtle pressure” (internal quotation
marks omitted)). As James Madison explained, the
Establishment Clause was designed to stop Congress
from “establish[ing] a religion, and enforc[ing] the
legal observation of it by law, []or compel[ling] men to

App-115
worship God in any manner contrary to their
conscience.” Debates on the Amendments to the
Constitution (Aug. 15, 1789), 1 Annals of Congress 758
(1834). Instead, coercion in the school context only
occurs when a school sponsors religion or leverages
mandatory attendance requirements. See Good News
Club, 533 U.S. at 116; see also Santa Fe, 530 U.S. at
313 (voluntary prayer is allowed in public schools so
long as the State does not “affirmatively sponsor[] the
particular religious practice of prayer”).
Nothing here suggests coercion. If anything, the
School District vehemently opposed, not sponsored,
Coach Kennedy’s activities. Ante, at 66-67 (statement
of O’Scannlain, J.); ante, at 72-73 (Ikuta, J.,
dissenting). The record also contains no evidence that
participation in Coach Kennedy’s mid-field prayers
were mandatory. In fact, he made sure players knew
that they did not need to join in. When players asked
to participate, Coach Kennedy replied, “This is a free
country[.] … You can do what you want.” Kennedy,
911 F.3d at 1010. And because players, coaches, and
others on a football field could join “as a result of their
own genuine and independent private choice,” there
was no coercion and thus no establishment. See
Zelman, 536 U.S. at 652. Those choices were
“reasonably attributable to the individual” not the
school.20 Id. According to Coach Kennedy, while he
20 The panel noted that the “players did not initiate their own
post-game prayer” once Coach Kennedy was placed on
administrative leave. Kennedy, 991 F.3d at 1013; see also ante, at
29 (M. Smith, J., concurring in denial of rehearing en banc); ante,
at 38 (Christen, J., concurring in denial of rehearing en banc).
But that does not mean the players were previously coerced into
joining Coach Kennedy when he did pray. If anything, it is more

App-116
“was kneeling with his eyes closed, coaches and
players from the opposing team, as well as members
of the general public and media, spontaneously [21]
joined him on the field and knelt beside him.”
Kennedy, 991 F.3d at 1012-13 (alterations adopted)
(internal quotation marks omitted).
One player expressed “fear” that not joining
Coach Kennedy’s mid-field prayer “would negatively
impact his playing time.” Kennedy, 991 F.3d at 1018.
But a colorable coercion claim requires evidence of
actual benefits or burdens discriminatorily allocated
based on religious beliefs. Town of Greece, 572 U.S. at
589 (plurality op.). Though one player expressed fear
of mistreatment, there was no hint of actual evidence
that Coach Kennedy ever disfavored players based on
their religious participation. And that is key, since by
all accounts Coach Kennedy had engaged in religious
reasonable to assume that the players avoided doing exactly what
their coach had just been punished for. Fear of engaging in
religious expression is not evidence of past coercion. To the
contrary, it undermines any Establishment Clause violation by
the School.
The panel disagreed that the public response to Coach
Kennedy’s prayer was spontaneous. Kennedy, 991 F.3d at 1013.
But Coach Kennedy’s “publicity advertising” is beside the point
for a coercion inquiry. See id. Whether the public felt inspired to
join Coach Kennedy’s efforts because of his publicity or joined in
the moment, there is no evidence that Coach Kennedy’s media
appearances somehow coerced coaches, players, spectators, and
others to join him. More fundamentally, the School District did
the opposite of compelling participation—it attempted to
dissuade the public from joining Coach Kennedy by fielding “robo
calls” and restricting access to the field. See id. at 1012. Those
who joined Coach Kennedy, whether spontaneously or not, did so
voluntarily.
21

App-117
expression for years without one allegation of unequal
treatment. Without more, this single statement from
one player experiencing “subtle pressure” is hardly
enough. See Town of Greece, 572 U.S. at 609 (Thomas,
J., concurrence in part).22 Courts must “distinguish
between real threat” of an establishment “and mere
shadow.” Am. Legion, 139 S. Ct. at 2091 (Breyer, J.,
concurring) (citation omitted). Since neither the
School District nor Coach Kennedy imposed
consequences based on participation, there was no
coercion. And the individual players’ and coaches’
choice to engage in religious expression would not
have been an establishment.23
To be sure, the Supreme Court has recognized that
elementary and secondary students can be more impressionable
and thus more susceptible to coercion. See Kennedy, 991 F.3d at
1017 (quoting Edwards v. Aguillard, 482 U.S. 578, 583-84
(1987)). Contrary to Judge M. Smith’s assertion, I do not ignore
this distinction. Ante, at 30-31 (M. Smith, J., concurring in denial
of rehearing en banc). This case is not like those where a school
requires students to say a non-denominational prayer, appoints
a clergy to pray over a graduation ceremony, or offers optional
morning Bible readings. See id. at 24-25. Because here the School
District
“[i]s
not
actually
advancing
religion,
the
impressionability of students” is not “relevant to the
Establishment Clause issue.” Good News Club, 533 U.S. at 116.
And though teachers and coaches are role-models, the Supreme
Court has yet to factor that consideration into its Establishment
Clause analysis. See id.
22

23 The panel thought that allowing Coach Kennedy to pray
would have subjected the School District and spectators to a
parade of horribles, including (alarmingly) letting anyone onto
the field like the Satanists waiting in the stands. See Kennedy,
991 F.3d at 1012; see also ante, at 28-29 (M. Smith, J., concurring
in denial of rehearing en banc); ante, at 42 (Christen, J.,
concurring in denial of rehearing en banc). This reasoning is

App-118
Despite there being neither endorsement nor
coercion, the panel still thought allowing Coach
Kennedy to pray would have “unquestionably”
violated the Establishment Clause. Kennedy, 991 F.3d
at 1017. That conclusion erroneously went beyond
Supreme Court precedent and therefore should have
been corrected.24
B.
The panel’s analysis was wrong for a more
fundamental
reason:
it
leaps
beyond
the
Establishment Clause’s original meaning to the
incorrect. Nothing would have required the School District to
open the field to the public. Instead, it would have had to allow
the religious exercise of those with access to the field without
discriminating between beliefs or practices. See Trump v.
Hawaii, 138 S. Ct. at 2417 (“[The] clearest command of the
Establishment Clause is that one religious denomination cannot
be officially preferred over another.”).
If nearly all players had joined Coach Kennedy, that would not
have been an establishment either. To be clear, these religious
protections apply equally to all creeds. See ante, at 31 (M. Smith,
concurring in denial of rehearing en banc). But when “nearly all”
of those engaging in voluntary religious exercise “turn[] out to be”
members of the same faith, allowing those homogenous exercises
would “not reflect an aversion or bias … against minority faiths.”
Town of Greece, 572 U.S. at 585. So long as individuals, as here,
retain a “genuine and independent private choice,” the frequency
of a religious belief or practice should not factor into an
Establishment Clause analysis. See Zelman, 536 U.S. at 652.
Were Santa Fe controlling, we clearly would need to apply
Supreme Court precedent. See ante, at 29-30 (M. Smith, J.,
concurring in denial of rehearing en banc). But Santa Fe is not
controlling, and we should not extend inapt precedent (as the
panel did here), especially when the Supreme Court has recently
taken a different tack in Establishment Clause cases. See
generally Am. Legion, 139 S. Ct. 2067.
24

App-119
detriment of free exercise rights. Generally, we rely on
the plain meaning of the Constitution because the
Framers “employed words in their natural sense,
and … intended what they have said.” Gibbons v.
Ogden, 22 U.S. (1 Wheat.) 1, 188 (1824). And
“contemporary
history,
and
contemporary
interpretation” help us capture how the Constitution’s
text would have been understood by the ordinary voter
at the time of its ratification. 3 Joseph Story,
Commentaries on the Constitution of the United
States § 405 (1833); see also District of Columbia v.
Heller, 554 U.S. 570, 576 (2008) (cleaned up) (“the
Constitution was written to be understood by the
voters” at the time it was ratified). This inquiry is
critical as “a practice consistent with our nation’s
traditions is just as permissible whether undertaken
today” or 230 years ago. Am. Legion, 139 S. Ct. at 2102
(Gorsuch, J., concurring in the judgment); cf. Fulton v.
City of Philadelphia, 141 S. Ct. 1868, 1896 (2021)
(Alito, J., concurring in the judgment) (words in the
Free Exercise Clause “had essentially the same
meaning in 1791 as they do today”). Thus, the plain
meaning of the Establishment Clause’s text informed
by historical practice should guide our interpretation
of that Clause.
The Supreme Court has already interpretated the
Establishment Clause under a historical test in many
contexts. To name a few, the Van Orden plurality
jettisoned Lemon to analyze a monument’s nature and
“our Nation’s history.” 545 U.S. at 686; see also id. at
699 (Breyer, J., concurring) (rejecting a single test, but
recognizing the Court’s reliance on historical practices
in some contexts). In Marsh v. Chambers, 463 U.S.
783, 787-89 (1983), and Town of Greece, 572 U.S. at

App-120
575-76, the Court looked to historical practices and
understandings to determine the constitutionality of
legislative prayer. And recently in American Legion,
the Court continued its trend with a majority of the
Justices analyzing the “particular issue at hand” and
relying on “history for guidance.” 139 S. Ct. at 2067
(plurality op.); see also id. at 2096 (Thomas, J.,
concurring in the judgment); id. at 2102 (Gorsuch, J.,
concurring in the judgment). Even Everson relied on
“the background and environment of the period in
which [the Establishment Clause’s] constitutional
language was fashioned and adopted” in the school
context. 330 U.S. at 8. This history-based test is not a
way to approach Establishment Clause cases, see Am.
Legion, 139 S. Ct. at 2092 (Kavanaugh, J.,
concurring)—it should be the way.
For judges, originalism provides a powerful check
against injecting our own policy preferences into the
Constitution; but sticking to the Establishment
Clause’s original public meaning is especially critical.
The Bill of Rights generally sets a floor, allowing
federal, state, and local governments to further
protect those rights. Hence Congress and many states
enacted legislation to keep protecting religious
freedoms after the Supreme Court artificially limited
the Free Exercise Clause. See Emp. Div., Dep’t of
Hum. Res. of Or. v. Smith, 494 U.S. 872 (1990); Holt v.
Hobbs, 574 U.S. 352, 357 (2015); National Conference
of State Legislatures, State Religious Freedom
Restoration
Acts
(May
4,
2017),
https://www.ncsl.org/research/civil-and-criminaljustice/state-rfra-statutes.aspx. In contrast, the
Establishment Clause is more of a ceiling. It was
ratified to ensure the free exercise of religion without

App-121
government interference. Santa Fe, 530 U.S. at 313
(“Indeed, the common purpose of the Religion Clauses
is to secure religious liberty.” (emphasis added)
(internal quotation marks and citation omitted)); see
also James Madison, Memorial and Remonstrance
Against Religious Assessments (1785), reprinted in
The Founders’ Constitution 82-84 (Philip B. Kurland
& Ralph Lerner eds., 1986). But by expanding the
Establishment Clause beyond its original scope, we
frustrate its purpose and inhibit personal religious
exercise in the public square.
The panel’s analysis is a perfect example. Under
the panel’s ahistorical view of the Establishment
Clause, the School District had to let Coach Kennedy
go since simply allowing him to pray on the field would
have “unquestionably” violated the Establishment
Clause. See Kennedy, 991 F.3d at 1017. Or as Judge
M. Smith reiterated, “[m]erely by allowing the prayer
to take place,” the School District would have “violated
the Establishment Clause” even if the prayer “was the
independent choice of private individuals.” Ante, at 26
(M. Smith, J., concurring from denial of rehearing en
banc). That conclusion could not be further from the
original meaning of an established religion. Yet the
panel expanded the Establishment Clause beyond its
original scope, and even beyond our precedent, in a
way that would allow the School District to violate the
free exercise rights of an employee engaged in private
prayer. Kennedy, 991 F.3d at 1019-21.
Historical practice shows that allowing religion in
the public square was never understood to be an
establishment. See 3 Story, supra, § 405. “There is an
unbroken history of official acknowledgment by all

App-122
three branches of government of the role of religion in
American life from at least 1789.” Lynch, 465 U.S. at
674. George Washington as his “first official act” gave
“fervent supplications to that Almighty Being who
rules over the universe,” for “[n]o people can be bound
to acknowledge and adore the Invisible Hand, which
conducts the affairs of men more than those of the
United States.” First Inaugural Address (Apr. 30,
1789), reprinted in 1 Inaugural Addresses of the
Presidents of the United States 7 (2000). Only days
after the Establishment Clause was ratified, Congress
“enacted legislation providing for paid chaplains for
the House and Senate.” Lynch, 465 U.S. at 674.
Thanksgiving began as a day of gratitude “to the Great
Lord and Ruler of Nations,” and eventually became a
national holiday one century later. Id. at 677-78 & n.2
(citations omitted). Be it executive or legislative
practices, the Pledge of Allegiance, or deific references
on our coinage, these overtly religious practices are
constitutional today not just because of tradition; they
did not violate the Establishment Clause then and
certainly do not now. See Am. Legion, 139 S. Ct. at
2102 (Gorsuch, J., concurring in the judgment).
In schools specifically, allowing religious exercise
never caused heartburn. In our nation’s early days,
clergy oversaw education and often intermixed
religious training. Joseph P. Viteritti, Blaine’s Wake:
School Choice, the First Amendment, and State
Constitutional Law, 21 Harv. J. L. & Pub. Pol’y 657,
663 (1998); see also Alexis de Tocqueville, 1 Democracy
in America 314 n.f (2d ed. 1900) (“Almost all education
is entrusted to the clergy.”). Massachusetts’
constitution also affirmed that “the happiness of a
people, and the good order and preservation of civil

App-123
government essentially depend upon piety, religion
and morality” attained through “public worship of God
and … public instructions.” Mass. Const. of 1780 pt. I,
art. III. Pennsylvania’s constitution similarly
considered “religious societies” as perfectly situated
“for the advancement of religion or learning.” Pa.
Const. of 1776, §§ 44-45.
The First Congress allowed religion in schools as
well. Those for and against a federal constitution
agreed that the new Congress had no authority to
establish a religion. See Amar, supra, at 36; The
Federalist No. 45 (James Madison) (“The powers
delegated by the proposed Constitution to the federal
government are few and defined.”); 3 Story, supra,
§ 1873 (“Thus, the whole power over the subject of
religion
is
left
exclusively
to
the
state
governments … ”). Still, the First Congress had
authority to reenact the Northwest Ordinance of 1787,
which declared that “[r]eligion, morality, and
knowledge, being necessary to good government and
the happiness of mankind, schools and the means of
education shall forever be encouraged.” Act of Aug. 7,
1789, ch. 8, 1 Stat. 50, 52. Congress could not have
passed that law if doing so would have impermissibly
encroached into the religious sphere.
Tellingly, a recent analysis of founding-era
corpora found no evidence that prayers or religious
practices in schools were considered an establishment
of religion at the time of the Establishment Clause’s
ratification. Stephanie H. Barclay et al., Original
Meaning and the Establishment Clause: A Corpus
Linguistics Analysis, 61 Ariz. L. Rev. 505, 555 (2019).
The only potential Establishment Clause violation

App-124
occurred when parents and students could not choose
between already religious schools. Id. at 555 n.311.
Decades later, the relationship between schools
and religion began to shift. Newly minted public
schools called for “strict religious neutrality” and the
“entire exclusion of religious teaching.” Viteritti,
supra, at 666. But in reality, these policies aimed to
weaken Catholic parochial schools and strengthen
Protestant dominance in educational settings. Id. at
666-68. It worked. And sadly, this religious infighting
laid the groundwork for the Supreme Court’s
separationist jurisprudence (like Lemon) and today’s
anti-religious demands in all public contexts.
Eventually, it became culturally apropos to declare
that “[t]he First Amendment has erected a wall
between church and state” that “must be kept high
and impregnable.” Everson, 330 U.S. at 18. But that
wall was not laid in 1791; it was laid brick by brick in
the centuries that followed.25
Everson relies, in part, on a letter from Thomas Jefferson to
the Danbury Baptist Association, explaining that the Religion
Clauses were “intended to erect ‘a wall of separation between
Church and State.’” 330 U.S. at 16; see also Thomas Jefferson,
Letter to the Danbury Baptist Association (Jan. 1, 1802),
reprinted in The Founders’ Constitution, supra, at 96.
Separationists have relied on this statement for decades. But
Jefferson was not present during the framing and ratification of
the Bill of Rights and is thus “a less than ideal source of
contemporary history as to the meaning of the Religion Clauses
of the First Amendment.” Wallace v. Jaffree, 472 U.S. 38, 92
(1985) (Rehnquist, J., dissenting); see id. (“It is impossible to
build sound constitutional doctrine upon a mistaken
understanding of constitutional history.”). More importantly,
Jefferson thought the Establishment Clause disallowed Congress
from passing religiously focused legislation, but not the states
25

App-125
Applying the Establishment Clause’s historical
bounds to Coach Kennedy’s case, the panel got it
wrong. Merely allowing a coach or teacher to pray on
the football field would not have been an
establishment in 1791 and thus is not an
establishment now. “The Religion Clauses of the First
Amendment … [b]y no means … impose a prohibition
on all religious activity in our public schools.” Santa
Fe, 530 U.S. at 313. Again, en banc review would have
allowed our court to correct the panel’s ahistorical
analysis.
II.
One last thought. If we accept a historical
approach to Establishment Clause cases (as American
Legion requires), what do we do with the litany of
other tests created over the years? It makes little
sense to kill Lemon but keep its progeny. Thus, tests
stemming from Lemon’s purpose, effects, or
entanglement prongs are inherently suspect. That
said, if a test accurately captures the Establishment
Clause’s historical bounds without narrowing or
expanding those bounds, there is no need to jettison
the test.
The panel’s “objective observer” test far exceeds
the original bounds of the Establishment Clause. See
Kennedy, 991 F.3d at 1017 (quoting Santa Fe, 530 U.S.
(which retained the authority to enact such legislation). Amar,
supra, at 34-35. This explains Jefferson’s unwillingness to
declare a day of Thanksgiving while president, but allowance of
religious endorsements as Virginia’s governor so long as
dissenters retained their freedom of conscience. Id. Against this
backdrop, it makes no sense to superimpose Jefferson’s views of
federal limits on state and local governments.

App-126
at 308). The test is already suspect since it stems from
Lemon, see Lynch, 465 U.S. at 688-90 (O’Connor, J.,
concurring), and its overbroad sweep confirms that
suspicion. First, “endorsement” is too opaque. As this
case demonstrates, “endorsement” can sweep wide
enough to forbid the School District from merely
allowing personal prayer on a football field (a practice
that historically was never an establishment).
Second, the test turns on the objective observer.
But who is that? The panel did not have someone from
1791 in mind. No, the panel relied on whether a
modern-day observer—infused with today’s more
recent separationist mentality—would view the
School District’s allowance of Coach Kennedy’s prayer
as an establishment. After all, only that modern
mentality drove the School District to ask Coach
Kennedy to pray in a “private location” off the field or
non-visibly on the field. See Kennedy, 991 F.3d at
1013. Only that mentality allowed the district court to
find the School District’s actions were justified by the
Establishment Clause. And only that mentality
compelled the panel to praise the School District’s
“efforts to avoid violating the Constitution” yet
disparage Coach Kennedy’s efforts to personally
exercise his beliefs in a public space and defend his
free exercise rights.26 E.g., Kennedy, 991 F.3d at 1010.
The main opinion repeatedly criticized Coach Kennedy for
publicly defending his rights and refusing to hide his religious
beliefs— “pugilistic,” to put it in a word. Kennedy, 991 F.3d at
1017. But would we ever pejoratively refer to members of various
civil rights movements as “pugilistic” when they publicly,
peacefully, and vocally tried to vindicate their rights? Absolutely
not. See, e.g., Masterpiece Cakeshop Ltd. v. Colo. Civ. Rts.
Comm’n, 138 S. Ct. 1719, 1727 (2018) (gay individuals and
26

App-127
Put simply, relying on the modern-day observer
allows governments and the courts to expand the
Establishment Clause’s prohibitions beyond its
original bounds and inhibit free exercise. But the
Establishment Clause as originally understood makes
clear there is “no constitutional requirement which
makes it necessary for government to be hostile to
religion and to throw its weight against efforts to
widen the effective scope of religious influence.”
Zorach v. Clauson, 343 U.S. 306, 314 (1952). So just as
Lemon has been deemed largely illegitimate, so is an
equally illegitimate and ahistorical endorsement test
based on the modern-day objective observer. See Town
of Greece, 572 U.S. at 609-10 (Thomas, J., concurring
in part).
III.
The Establishment Clause was designed to keep
government out of personal religious exercise, not
purge religion from the public square. Not only did the
panel’s analysis miss the mark, but it expanded a
dangerous misunderstanding of the Establishment
Clause that infringes, not protects, religious rights.
There may be situations in which a school’s
sponsorship or mandatory attendance policies lead to
actual coercion. But merely allowing religion to be

couples “cannot be treated as social outcasts or as inferior in
dignity or worth,” and “[t]he exercise of their freedom on terms
equal to others must be given great weight and respect by the
courts”). The position “that religious beliefs cannot legitimately
be carried into the public sphere … implying that … religious
persons are less than fully welcome” is hostility toward religion,
not neutrality. Id. at 1729.

App-128
independently expressed in a school setting was never
and is not an establishment of religion.
Without a distorted view of the Establishment
Clause to hide behind (whether analyzed under
existing Supreme Court precedent specifically or a
historical analysis generally), the School District
violated Coach Kennedy’s free exercise rights.
Religion was the “sole reason” it acted against Coach
Kennedy, triggering the strictest scrutiny. Kennedy,
991 F.3d at 1010; Espinoza, 140 S. Ct. at 2255. The
School District also had no compelling interest other
than
an
erroneous
understanding
of
the
Establishment Clause. In other words, at least Coach
Kennedy’s Free Exercise claim would have
“unquestionably” succeeded.
We are left with yet another decision untethered
from history and grounded in hostility toward religion
of more recent vintage. But from this nation’s
beginning, when government “guarantee[d] the
freedom to worship as one chooses,” “ma[d]e room for
[a] wide variety of beliefs and creeds,” “show[ed] no
partiality to any one group,” and “let[] each flourish,”
it “follow[ed] the best of our traditions.” Zorach, 343
U.S. at 313-14. With history as our guide, we can
better follow the First Congress’s “example of respect
and tolerance for differing views, an honest endeavor
to achieve inclusivity and nondiscrimination, and a
recognition of the important role that religion plays in
the lives of many Americans.” Am. Legion, 139 S. Ct.
at 2089. I dissent.

App-129
COLLINS, Circuit Judge, dissenting from the denial
of rehearing en banc:
For the reasons set forth by Judge O’Scannlain,
whose statement I join, I dissent from the denial of
rehearing en banc in this case. I have little to add to
the much that has already been said about this case,
but I do think that it is worthwhile to underscore one
irreducible aspect of the panel’s opinion.
In concluding that Bremerton School District
employed the least restrictive means of accomplishing
its assertedly compelling interest in avoiding an
Establishment Clause violation, the panel relied on
the premise that “allowing Kennedy” to “pray[] on the
fifty-yard line immediately following the game in full
view of students and spectators” “would constitute an
Establishment Clause violation.” Kennedy v.
Bremerton Sch. Dist., 991 F.3d 1004, 1022 (9th Cir.
2021) (emphasis added). Thus, according to the panel,
allowing any publicly observable prayer behavior by
the coach in those circumstances—even silent prayer
while kneeling—would violate the Establishment
Clause. See id. (describing “pray[ing] on the fifty-yard
line immediately following the game” as “a practice
that violated the Establishment Clause”). Whatever
else might be said about what occurred at the various
games at issue in this case, that holding is indefensible
under current Supreme Court caselaw, as Judge
O’Scannlain amply demonstrates.

App-130
Appendix C
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON, AT TACOMA
________________
No. 16-cv-05694
________________
JOSEPH A. KENNEDY,
Plaintiff,
v.
BREMERTON SCHOOL DISTRICT,
Defendant.
________________
Filed: March 6, 2020
________________
JUDGMENT
________________
 Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
 Decision by Court. This action came to
consideration before the Court. The issues have
been considered and a decision has been rendered.
Judgment [63] is DENIED, and Defendant Bremerton
School
District’s
Motion
for
Summary
Judgment [70] is GRANTED.

App-131
DATED: March 6, 2020.
William M. McCool
Clerk
[handwritten: signature]
Deputy Clerk

App-132
Appendix D
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON, AT TACOMA
________________
No. 16-cv-05694
________________
JOSEPH A. KENNEDY,
Plaintiff,
v.
BREMERTON SCHOOL DISTRICT,
Defendant.
________________
Filed: March 5, 2020
________________
Before: LEIGHTON, Ronald B.,
District Judge.
________________
OPINION
________________
INTRODUCTION
THIS MATTER is before the Court on the parties’
Cross-Motions for Summary Judgment. Dkt. ## 63,
70. Plaintiff Joseph Kennedy, a former football coach
at Bremerton High School, was suspended in 2015
after he refused to change his practice of praying at
the 50-yard line immediately after games. The
ensuing dispute has highlighted a tension in the First
Amendment between a public-school educator’s right
to free religious expression and their school’s right to

App-133
restrict that expression when it violates the
Establishment Clause. Although the Court is
sympathetic to Kennedy’s desire to follow his beliefs,
the former right must give way to the latter in this
case. The Court therefore GRANTS Defendant
Bremerton School District’s Motion for Summary
Judgment and DENIES Kennedy’s Motion.
BACKGROUND
1.

Kennedy’s Coaching Career and History of
Religious Conduct with Players.

Kennedy was employed as a football coach at
Bremerton High School (BHS) from 2008 until the
2015-16 season. Kennedy Dec., Dkt. # 71-4, at 1. As an
assistant coach, Kennedy had to help the head coach
with team supervision, assume direct supervisorial
authority when designated by the head coach, and
“[o]bey all Rules of Conduct before players and the
public.” Dkt. # 64-4 at 15. In addition to these practical
responsibilities, Kennedy’s position required him to
act as a “mentor and role model for the student
athletes, … exhibit sportsmanlike conduct at all
times, … maintain positive media relations, … [and
strive to] create good athletes and good human
beings.” Coaching Agreement, Dkt. # 64-2 at 11. In
Kennedy’s own estimation, a coach’s role extends far
beyond merely teaching a sport and often involves a
large amount of influence over student athletes.
Kennedy Dep., Dkt. # 64-24, at 106-108.
According to his colleagues and superiors,
Kennedy was a successful and dedicated coach when
he worked at BHS. Polm Dep., Dkt. # 71-5, at 42-43;
Saulsberry Dep., Dkt. # 71-6, at 14; Boynton Dep.,
Dkt. # 71-7, at 12. Kennedy also was (and is) a

App-134
practicing Christian, and his sincerely-held beliefs
required him to “give thanks through prayer, at the
end of each game, for what the players had
accomplished and for the opportunity to be a part of
their lives through the game of football.” Kennedy
Dec., Dkt. # 71-4, at 2-3. This took the form of a
roughly 30-second prayer that Kennedy delivered on
one knee at the 50-yard line immediately after the
players and coaches shook hands after the game. Id.
at 3. According to Kennedy, these prayers were private
communications with God that Kennedy committed to
after watching a 2006 film called Facing the Giants.
Id. at 2-3.
Kennedy recounts that when he began this
practice in 2008 he would pray alone. Id. at 3.
However, when players from the BHS team began to
join him, he did not interfere. Id. Although the number
of participating players varied from game to game,
Kennedy recalls that a majority of the team eventually
took part. Id. Eventually, Kennedy began delivering
inspirational speeches with religious references after
games. Id. at 4. He would also participate in pre- and
post-game locker room prayers, although he testifies
that these were not required by his religious beliefs.
Id. Kennedy emphasizes that he “never coerced,
required, or asked any student to pray with [him] at
the conclusion of games.” Id.
2.

The District issues a Directive to Kennedy
Limiting his Religious Conduct around
Players on September 17, 2015.

Although Kennedy’s religious activity with
student athletes went on for years, the District did not
find out about it until September 2015 when a coach

App-135
from an opposing team informed BHS Principal Polm
that Kennedy had asked his team to join him in prayer
on the field. Polm Dep., Dkt. # 71-5, at 55-56. Kennedy
was first approached about his praying on September
11, when Athletic Director Barton spoke with
Kennedy after a game and expressed disapproval
when Kennedy conducted a prayer on the field.
Kennedy Dep., Dkt. # 71-10, at 24-25. This prompted
Kennedy to post on Facebook that he might get fired
for praying. Id. at 25.
After an inquiry, the District sent Kennedy a
letter on September 17, 2015, stating that his
practices of giving religious inspirational talks at the
50-yard line (which “evolve[ed] organically” from his
prayer at the 50-yard line) and leading prayer in the
locker room likely violated District policy. September
17 Letter, Dkt. # 64-8, at 1. Specifically, the letter
explained that the conduct likely ran afoul of Board
Policy 2340, which seeks to avoid violations of the
Establishment Clause by requiring that school staff
neither encourage nor discourage students from
engaging in religious activity. Id. at 1-2. Although
noting that it “may not address every potential
scenario,” the letter closed with the following
directive:
Student religious activity must be entirely
and genuinely student-initiated, and may not
be suggested, encouraged (or discouraged), or
supervised by any District staff. … You and
all District staff are free to engage in religious
activity, including prayer, so long as it does
not interfere with job responsibilities. Such
activity must be physically separate from any

App-136
student activity, and students may not be
allowed to join such activity. In order to avoid
the perception of endorsement discussed
above, such activity should either be nondemonstrative
(i.e.,
not
outwardly
discernable as religious activity) if students
are also engaged in religious conduct, or it
should occur while students are not engaging
in such conduct.
Id. at 3. Some students and parents expressed thanks
for the District’s directive that Kennedy cease praying
after games, with some noting that their children had
participated in the prayers to avoid being separated
from the rest of the team or ensure playing time.
Barton Dec., Dkt. # 65, at 2; Leavell Dec. at 7; Polm
Dep., Dkt. # 64-25, at 73-74; see also Saulsberry Dep.,
Dkt. # 64-26, at 19-20.
After meeting with Kennedy to further explain
the situation, Superintendent Leavell testified that
Kennedy was “not happy” with the District’s directive
but agreed to abide by it. Leavell Dec., Dkt. # 67, at 4.
At the September 18 game, Kennedy ceased praying
in the locker room, omitted religious references in his
inspirational speech, and prayed on the field only after
the stadium had emptied. Kennedy Dec., Dkt. # 71-4,
at 5. For the following five varsity and junior varsity
games, Kennedy testified at his deposition that he
either does not remember the manner in which he
prayed or recalls that he prayed for 10-15 seconds
while the team was performing the fight song, walking
off the field, or heading to the bus. Kennedy Dep., Dkt.
# 71-10, at 163-65. It is unclear whether he prayed at
the 50-yard line. Id. Although Kennedy states that

App-137
there were school administrators at these games,
Leavell, Polm, and Barton were unaware of Kennedy’s
prayer at the time and believed he had ceased praying
immediately after games. Leavell Dec., Dkt. # 82, at 2;
Polm Dec., Dkt. # 80, at 2; Barton Dec., Dkt. # 81, at
2. After Kennedy changed his practices in September,
no students were witnessed praying on the field
independently. Leavell Dec., Dkt. # 67, at 7.
3. Kennedy Opposes the District’s Directive,
makes Media Appearances, and Prays at the
October 16 Homecoming Game.
On October 14, the District received a letter from
Kennedy’s
lawyers
requesting
a
religious
accommodation on his behalf. October 14 Letter, Dkt.
# 71-16. The letter emphasized that Kennedy’s
prayers were not obviously Christian and occurred
“after his official duties as a coach have ceased.” Id. at
2. In light of this, Kennedy’s lawyers insisted that his
prayers were private speech and that the District
could not prohibit him from praying with students if
they voluntarily joined. Id. at 6-7. The letter thus
advised the District that Kennedy would resume
praying at the 50-yard line after the October 16
homecoming game and requested that the District
rescind its September 17 directive with respect to this
practice. Id. at 6.
Meanwhile, Kennedy began making media
appearances spreading the word that he intended to
pray after the October 16 game. Kennedy Dep., Dkt.
# 64-24, at 72-73. The Seattle Times published an
article on October 14 announcing Kennedy’s plans for
the upcoming game, and a local news story aired
before the game that explained the conflict with the

App-138
District and included a statement from Kennedy that
he planned to “do what [he’d] always done” at the
game. Seattle Times Article, Dkt. # 64-11; Local News
Video, Dkt. 64-12. The District also began receiving a
large amount of emails, letters, and phone calls
regarding the conflict over Kennedy’s prayer, many of
which were hateful or threatening. Leavell Dec., Dkt.
# 67, at 3. This may have been originally triggered by
Kennedy’s September 11 Facebook about getting fired
for praying.
Given this public response, Superintendent Aaron
Leavell anticipated that members of the community
would likely try to join Kennedy on the field after the
homecoming game and that the District was currently
unprepared to prevent this. September 18 Email, Dkt.
# 64-9; Leavell Dec., Dkt. # 67, at 4. This prediction
proved accurate, as a large number of people came
onto the field after October 16 game. Leavell Dec. at 6.
In the rush to reach the field, some band members and
cheerleaders were knocked down. Id. Kennedy himself
followed his custom of praying at the 50-yard line after
the players had shaken hands, except this time he was
surrounded by cameras and joined by a group of
players, coaches, and even a state representative (the
BHS players were busy singing the school’s fight song
at the time). Kennedy Dep., Dkt. # 64-24, at 69-70;
Photo of October 16 Game, Dkt. # 64-13.
4.

The District Reiterates its Concerns and
Kennedy Continues to Pray at the 50-Yard
Line after Games.

After October 16, the District increased security
at games and placed robocalls to parents informing
them that there was no public access to the field.

App-139
Leavell Dec., Dkt. # 67, at 6. The District also sent
another letter to Kennedy on October 23 informing
him that his conduct at the homecoming game did not
comply with the September 17 directive. October 23
Letter, Dkt. # 64-14, at 1. The letter emphasized that
Kennedy’s duties as an assistant coach did not cease
immediately after games and continued until the
players were out of the dressing rooms and released to
their parents. Id. at 2. Indeed, the head coach of the
BHS team had confirmed that Kennedy was among
those assistant coaches “with specific responsibility
for the supervision of players in the locker room
following games.” Id.; see also Polm Dep., Dkt. # 64-25,
at 47; Kennedy Dep., Dkt. # 64-24, at 41-42 (testifying
that
he
is
performing
“football
coaching
functions … until the last kid leaves [the stadium]”).
The letter also stated that the “[d]evelopment of
accommodations is an interactive process” and
suggested the possibility of finding other options for
Kennedy’s prayer, such as a private location at the
field. October 23 Letter at 2-3; see also Polm Dep., Dkt.
# 64-25, at 46-49 (explaining that Kennedy was told he
could pray on the field when his supervisory duties
had ceased). However, Kennedy’s current practices
“drew him away from [his] work” and, to a reasonable
observer, appeared as District endorsement of
religion. October 23 Letter at 2.
Kennedy did not take the District up on its offer
to keep discussing religious accommodations. Leavell
Dec., Dkt. # 67, at 5. Instead, Kennedy continued his
practice of praying at the 50-yard line in the next two
games. At the October 23 game, Kennedy prayed alone
in the middle of the field while the players headed to
the stands. Video of October 23 Game, Dkt. # 71-20. At

App-140
the October 26 game, Kennedy initially knelt down by
himself but was then joined by about a dozen other
adults. Video of October 26 Game, Dkt. # 71-22. Once
the players finished their fight song, they joined
Kennedy at the middle of the field after he had
finished his kneeling prayer. Id.
5.

The
District
Places
Kennedy
on
Administrative Leave and he Declines to
Reapply for his Position as an Assistant
Coach.

Citing Kennedy’s decision to keep praying on the
field at the games on October 16, 23, and 26, the
District placed Kennedy on paid administrative leave
on October 28, 2015 for violating the District’s prior
directives. October 28 Letter, Dkt. # 64-16. Although
the October 23 letter had mentioned that Kennedy’s
prayer distracted him from his supervisorial duties,
the risk of constitutional liability associated with
Kennedy’s religious conduct was the “sole reason” the
District ultimately suspended him. Leavell Dep., Dkt.
# 71-9, at 197; see also District Statement and Q&A
regarding Kennedy, Dkt. # 71-2, at 1 (placing Kennedy
on leave was “necessitated” by his refusal to cease his
“overt, public religious displays.”). Kennedy was no
longer allowed to participate in games as a coach but
could attend them as a member of the public, which he
did on October 30 when he prayed in the bleachers
with a group of people. Id.; Photo of Kennedy Praying
in Bleachers, Dkt. # 64-17; Leavell Dec., Dkt. # 67, at
7. Although the October 28 letter renewed the
District’s
invitation
to
discuss
alternative
accommodations, Kennedy did not respond. October
28 Letter; Kennedy Dep., Dkt. # 64-24, at 100.

App-141
Kennedy’s evaluations for the 2015 season by
Head Coach Gillam and Athletic Director Barton
reflected the drama that had played out with the
District. Gillam gave Kennedy low marks for putting
his own interests over those of the team, although
Kennedy received high marks for his relationship with
players and other qualities. Gillam Evaluation, Dkt.
# 64-19. Barton similarly praised Kennedy’s coaching
skills but criticized his lack of cooperation, noting that
he “never came in after numerous requests and
contacts.” Barton Evaluation, Dkt. # 64-20. At the end
of the 2015 season, Gillam resigned as head coach
after eleven years in the position, and the six assistant
coach contracts also expired. Gillam Dec., Dkt. # 66, at
3; Steedman Dec., Dkt. # 22, at 3. Kennedy was one of
four current assistant coaches who did not reapply for
their jobs. Steedman Dec. at 3.
6.

Procedural History

Kennedy filed suit in this Court on August 9,
2016. Complaint, Dkt. # 1. Kennedy’s first two claims
under 42 U.S.C. § 1983 allege the District violated his
First Amendment rights to free speech and free
exercise by limiting his practice of praying at the 50yard line and ultimately placing him on leave. Id. at
13-14. Kennedy’s remaining five claims fall under
Title VII of the Civil Rights Act of 1964 and allege
failure to re-hire, protected characteristic as a
motivating factor, disparate treatment, failure to
accommodate, and retaliation. Id. at 14-16. Kennedy
asks for declaratory relief and an injunction
reinstating him as a BHS assistant coach with an
acceptable religious accommodation for his practice of
praying at the 50-yard line. Id. at 16.

App-142
Kennedy moved for a preliminary injunction
based on his First Amendment claims on August 24,
2016. Dkt. # 15. The Court denied that motion at a
hearing held on September 19. Dkt. # 25. Kennedy
appealed, and the Ninth Circuit affirmed on the basis
that Kennedy’s prayers were delivered in his capacity
as a public employee and were thus unprotected
speech. Kennedy v. Bremerton Sch. Dist., 869 F.3d 813
(9th Cir. 2017) (Kennedy I). The Supreme Court
denied certiorari, but four of the justices issued a
concurring opinion expressing skepticism at the prior
holdings. Kennedy v. Bremerton Sch. Dist., 139 S. Ct.
634 (2019) (Kennedy II). Now, both parties have moved
for summary judgment on all seven of Kennedy’s
claims.
DISCUSSION
1.

Summary Judgment Standard

Summary judgment is proper “if the pleadings,
the discovery and disclosure materials on file, and any
affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(c). In
determining whether an issue of fact exists, the Court
must view all evidence in the light most favorable to
the nonmoving party and draw all reasonable
inferences in that party’s favor. Anderson Liberty
Lobby, Inc., 477 U.S. 242, 248-50 (1986); Bagdadi v.
Nazar, 84 F.3d 1194, 1197 (9th Cir. 1996). A genuine
issue of material fact exists where there is sufficient
evidence for a reasonable factfinder to find for the
nonmoving party. Anderson, 477 U.S. at 248.
On cross-motions, the defendant bears the burden
of showing that there is no evidence which supports an

App-143
element essential of the plaintiff’s claim. Celotex Corp.
v. Catrett, 477 U.S. 317, 322 (1986). Conversely, the
plaintiff “must prove each essential element by
undisputed facts.” McNertney v. Marshall, No. C-912605-DLJ, 1994 WL 118276, at *2 (N.D. Cal. Mar. 4,
1994) (citing Fontenot v. Upjohn Co., 780 F.2d 1190,
1194 (5th Cir.1986)). Either party may defeat
summary judgment by showing there is a genuine
issue of material fact for trial. Id.; Anderson, 477 U.S.
at 250. Although the parties may assert that there are
no contested factual issues, this is ultimately the
court’s responsibility to determine. Fair Hous. Council
of Riverside Cty., Inc. v. Riverside Two, 249 F.3d 1132,
1136 (9th Cir. 2001).
2.

Section 1983 Free Speech Claim

To succeed in his claims under § 1983, Kennedy
must prove that the District acted under color of state
law to violate his constitutional rights under the First
Amendment. Stein v. Ryan, 662 F.3d 1114, 1118 (9th
Cir. 2011). In cases involving the free speech rights of
government workers, First Amendment protections
aim “both to promote the individual and societal
interests that are served when employees speak as
citizens on matters of public concern and to respect the
needs of government employers attempting to perform
their important public functions.” Garcetti v. Ceballos,
547 U.S. 410, 420 (2006). This balancing test between
employer control and individual freedom traces back
to Pickering v. Board of Ed. of Township High School
Dist. 205, 391 U.S. 563 (1968), but has evolved
through subsequent cases. See Ceballos, 547 U.S. at
417-20 (collecting cases).

App-144
Today, the Ninth Circuit has boiled this precedent
down to a First Amendment retaliation test that
requires
asking
five
sequential
questions:
“(1) whether the plaintiff spoke on a matter of public
concern; (2) whether the plaintiff spoke as a private
citizen or public employee; (3) whether the plaintiff’s
protected speech was a substantial or motivating
factor in the adverse employment action; (4) whether
the state had an adequate justification for treating the
employee differently from other members of the
general public; and (5) whether the state would have
taken the adverse employment action even absent the
protected speech.” Eng v. Cooley, 552 F.3d 1062, 1070
(9th Cir. 2009).1 A plaintiff’s failure to satisfy a single
one of these requirements is fatal to their claim.
Johnson v. Poway Unified Sch. Dist., 658 F.3d 954,
961 (9th Cir. 2011).

The Ninth Circuit applies the analysis from Pickering
“regardless of the reason an employee believes his or her speech
is constitutionally protected,” including if it is religious speech
that also implicates the Free Exercise Clause. Berry v. Dep’t of
Soc. Servs., 447 F.3d 642, 650 (9th Cir. 2006); see also Knight v.
Connecticut Dep’t of Pub. Health, 275 F.3d 156, 167 (2d Cir. 2001)
(reaching same conclusion). That said, Kennedy alleges a distinct
claim based on the Free Exercise Clause challenging the
District’s directive barring Kennedy’s practice of praying in view
of students. Complaint, Dkt. # 1, at 14. While there is substantial
overlap between these claims, unlike Berry and Knight, Kennedy
does not allege a “hybrid” free speech/free exercise claim. See
Berry, 447 F.3d at 649 n.5; Knight, 275 F.3d at 166. Kennedy’s
free exercise claim is sufficiently distinct from his free speech
claim to warrant separate analysis under Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 546 (1993).
1

App-145
a. Whether Kennedy Spoke as a Private Citizen
or Public Employee
The District first contends that Kennedy’s prayer
at the 50-yard line was delivered in his capacity as a
public employee, while Kennedy argues that it was
private speech falling outside of his coaching role.
“[W]hen public employees make statements pursuant
to their official duties, the employees are not speaking
as citizens for First Amendment purposes, and the
Constitution does not insulate their communications
from employer discipline.” Ceballos, 547 U.S. 410, 421.
In Ceballos, the speech at issue—a critical disposition
memo—indisputably
fell
within
Ceballos’s
responsibilities as a prosecutor, giving the Court “no
occasion to articulate a comprehensive framework for
defining the scope of an employee’s duties.” Id. at 424.
Nonetheless, the Court pointed out that the “proper
inquiry is a practical one” and that “employers
can[not] restrict employees’ rights by creating
excessively broad job descriptions.” Id.; see also Lane
v. Franks, 573 U.S. 228, 240 (2014) (The “critical
question under Ceballos is whether the speech at issue
is itself ordinarily within the scope of an employee’s
duties, not whether it merely concerns those duties.”).
The Ninth Circuit has interpreted Ceballos as
presenting courts with a “mixed question of fact and
law” regarding the nature of a public employee’s
speech. Posey v. Lake Pend Oreille Sch. Dist. No. 84,
546 F.3d 1121, 1129 (9th Cir. 2008). First, the trier or
fact must determine the “scope and content of a
plaintiff’s job responsibilities;” then, “the court must
“evaluate the ultimate constitutional significance of
the facts as found.” Id. (partly quoting Bose Corp. v.

App-146
Consumers Union of United States, Inc., 466 U.S. 485,
501 n.17 (1984)). If the employee’s speech is “the
product of performing the tasks the employee was paid
to perform” or “owes its existence to [their]
professional responsibilities,” then they spoke in their
capacity as a public employee and their speech is
unprotected. Eng, 552 F.3d at 1071 (quoting Posey v.
Lake Pend Oreille Sch. Dist. No. 84, 546 F.3d 1121,
1127 n.2 (9th Cir. 2008) and Ceballos, 547 U.S. at 421,
respectively) (internal quotation omitted).
In Johnson v. Poway Unified School District, 658
F.3d 954 (9th Cir. 2011), the Ninth Circuit applied this
framework to teachers and defined the scope of their
duties with respect to student-directed speech.
Johnson, a high school math teacher, had decorated
his classroom using two banners with religious
messages, such as “IN GOD WE TRUST.” Id. at 958.
The court concluded that Johnson’s duties
encompassed such communications because the school
had a specific policy regulating the content of
classroom banners and because “expression is a
teacher’s stock and trade, the commodity she sells to
her employer in exchange for a salary.” Id. at 967. The
court thus held that, “as a practical matter, we think
it beyond possibility for fairminded dispute that the
‘scope and content of [Johnson’s] job responsibilities’
did not include speaking to his class in his classroom
during class hours.” Id. (quoting Ceballos, 547 U.S. at
424).
The court then assessed the constitutional
significance of these facts and held that Johnson’s
speech owed its existence to his position, despite the
fact that the banners’ messages were outside the math

App-147
curriculum. Id. at 967-68. The court pointed out that
“[a]n ordinary citizen could not have walked into
Johnson’s classroom and decorated the walls as he or
she saw fit.” Id. at 968. More broadly, “because of the
position of trust and authority they hold and the
impressionable young minds with which they interact,
teachers necessarily act as teachers for purposes of a
Pickering inquiry when at school or a school function,
in the general presence of students, in a capacity one
might reasonably view as official.” Id.
It was Johnson that the Ninth Circuit primarily
relied upon in upholding this Court’s order denying a
preliminary injunction. Kennedy I, 869 F.3d at 824-25.
Just as Johnson was tasked with educating his
students in the classroom, the appellate court
determined that Kennedy’s job was to serve as a role
model and mentor on the field. Id. at 825.
Consequently, “[w]hen acting in an official capacity in
the presence of students and spectators, Kennedy was
also responsible for communicating the District’s
perspective on appropriate behavior through the
example set by his own conduct.” Id. at 827. The court
then held that Kennedy’s prayer was a product of his
coaching position because it took place “[1] at school or
a school function, [2] in the general presence of
students, [3] in a capacity one might reasonably view
as official.” Id. at 827 (quoting Johnson, 658 F.3d at
968). Further, the court noted that Kennedy’s speech
“owe[d] its existence” to the field-access provided by
his coaching position and, as in Johnson, deemed the
content of Kennedy’s speech largely irrelevant. Id. at
827-28 (quoting Ceballos, 547 U.S. at 421-22).

App-148
Kennedy appealed again, and although the
Supreme Court did not grant certiorari, four of the
Justices criticized the Ninth Circuit’s reasoning.
Kennedy II, 139 S. Ct. at 635 (Alito, J., concurring).
The Justices observed that the Ninth Circuit’s
application of Ceballos implies that teachers and
coaches are “on duty” whenever students are nearby
and can thus be fired for any expressive activity
during the school day or at school events. Id. at 636.
This could include a prayer before lunch or an
innocuous comment that is overheard by students. Id.
According to the four Justices, Ceballos’s holding does
not reach so far. Id. at 636-37.
As this tension demonstrates, the question of
what speech is public vs. private becomes especially
difficult when an essential part of an employee’s job is
expression. On one hand, a coach or teacher’s duties
as an educator make it imperative that the school can
control the types of information they impart to young
minds. On the other hand, these broad duties could
conceivably encompass all expression—no matter how
personal—if there is a slight chance students could
witness it. But while this case exists near the
crossroads of these concerns, Kennedy’s prominent,
habitual prayer is not the kind of private speech that
is beyond school control.
As the Ninth Circuit determined, Kennedy’s
duties as a coach “involved modeling good behavior
while acting in an official capacity in the presence of
students and spectators.” Kennedy I, 869 F.3d at 826.
The agreement Kennedy signed upon becoming a
coach confirms this by requiring him to act as a
“mentor and role model for the student athletes” and

App-149
“exhibit sportsmanlike conduct at all times.” Coaching
Agreement, Dkt. # 64-2 at 11. Kennedy himself
testified that what he says or does while coaching
serves as an influential example for his players to “do
what is right”. Kennedy Dep., Dkt. # 64-24, at 109110. A practical description of a coach’s job
responsibilities must account for this far-reaching
influence.
This does not necessarily mean that all of a
coach’s conduct nearby student athletes is within the
scope of their job. After all, as the four concurring
Justices pointed out, such an outcome could
conceivably mean that a coach’s speech is subject to
control even off the clock. Kennedy II, 139 S. Ct. at 637
(Alito, J., concurring). There is a point at which an
educator’s speech is so obviously personal that it is
delivered as a citizen. This may be the case when a
coach greets family in the bleachers during a game or
a teacher wears a cross around their neck. See District
30(b)(6) Dep., Dkt. # 71-9, at 125-26; see also Boynton
Dep., Dkt. # 71-7, at 19-21 (testifying that BHS
coaches would sometimes check their phones or greet
friends and family in the stand after games).2
Kennedy claims that the Ninth Circuit determined the scope
of a coach’s duties based on an incomplete record in Kennedy I.
Kennedy Motion, Dkt. # 70, at 13. But the only additional
evidence that Kennedy identifies is the deposition testimony of
the District and Coach Boynton that a coach would not be
disciplined for placing a brief call or greeting family while on
duty. The fact that some specific speech would not lead to
discipline does not necessarily mean it is delivered in a private
capacity. But more importantly, this limited new evidence does
not mean the record before the Ninth Circuit was fatally
inadequate on this issue.
2

App-150
Although students may glimpse such expression from
time to time, contextual cues will alert them that the
conduct is private and not intended to influence them.
But just as it would excessively restrict public
educators to encompass all speech within the scope of
their duties, it would be equally harmful to exclude all
speech that is not overtly educational. Speech around
students bearing the mark of an educator’s formal
role, such as a classroom banner, is well within the
scope of their responsibilities. See Johnson, 658 F.3d
at 958. To hold otherwise would hinder schools’ ability
to protect students from all sorts of improper
communications by teachers and coaches that happen
to occur outside of a lesson. Consequently, while
Kennedy’s job description is broad, it nonetheless
captures the reality that educators are entrusted with
shaping students while on duty.
Given this practical assessment of Kennedy’s
duties as a coach, the Court must hold that his prayers
at the 50-yard line were not constitutionally protected.
“[T]eachers necessarily act as teachers for purposes of
a Pickering inquiry when [1] at school or a school
function, [2] in the general presence of students, [3] in
a capacity one might reasonably view as official.”
Kennedy I, 869 F.3d at 827 (quoting Johnson, 658 F.3d
at 968). It is the third requirement that Kennedy
contests,3 but his speech simply cannot be compared

3 Although Kennedy originally claimed to be off duty after
games, he has now abandoned that contention. See October 14
Letter, Dkt. # 71-16, at 2. All of the evidence, including Kennedy’s
own testimony, confirms that his job responsibilities extended at
least until the players were released after going to the locker

App-151
to an impromptu phone call, greeting family in the
bleachers, or even quickly bowing one’s head before a
meal. See Kennedy II, 139 S. Ct. at 636 (Alito, J.,
concurring). Like the front of a classroom or the center
of a stage, the 50-yard line of a football field is an
expressive focal point from which school-sanctioned
communications regularly emanate. If a teacher
lingers at the front of the classroom following a lesson,
or a director takes center stage after a performance, a
reasonable onlooker would interpret their speech from
that location as an extension of the school-sanctioned
speech just before it. The same is true for Kennedy’s
prayer from the 50-yard line.
Kennedy testified that, despite his prominent
location on the field, his prayers were between him
and God and not directed at players or audience
members. Kennedy Dep. at 27. This may be true as far
as Kennedy is concerned, but the Ceballos/Eng
analysis is not so subjective. If it was, a teacher could
validly claim that their sincerely-held beliefs compel
them to announce their prayers after each lesson or
proselytize in front of students. The teacher may not
intend to direct their actions at the students, but the
latter would nonetheless feel implicated. Kennedy’s
prayers at the center of the field, under bright lights,
in front of the bleachers, at a time when the general
public could not access the field had a similar effect.
Kennedy’s speech at the 50-yard line also “owes
its existence” to his coaching position. Ceballos, 547
U.S. at 421. As the Ninth Circuit observed, this is
room. Kennedy Dep., Dkt. # 64-24, at 41-42; October 23 Letter,
Dkt. # 64-14, at 1; Polm Dep., Dkt. # 64-25, at 47.

App-152
literally the case because only BHS staff and players
had access to the field immediately after football
games. Kennedy I, 869 F.3d at 827. However, as the
Court explained in Ceballos, presence in an exclusive
location is insufficient on its own to expose an
employee’s speech to restriction. See 547 U.S. at 421
(“Many citizens do much of their talking inside their
respective workplaces.”). Here, however, Kennedy’s
speech was uniquely tied to his job. Kennedy’s
sincerely-held beliefs did not allow him to pray just
anywhere about anything; he was required to pray on
school-controlled property about a school-sponsored
event. The place and manner of Kennedy’s speech also
gave it a unique effect that derived from his position.
Just as the impact of Ceballos’s memo depended on his
authority and duties as a prosecutor, the impact of
Kennedy’s prayer came from his position as a coach.
See id. at 414, 420.
And indeed, whether Kennedy intended it or not,
his prayers did have an impact: players joined
Kennedy at the 50-yard line for years despite evidence
that some would not have done so if Kennedy were not
a coach. Kennedy Dec., Dkt. # 71-4, at 2-3; Barton
Dec., Dkt. # 65, at 2; Leavell Dec. at 7; Polm Dep., Dkt.
# 64-25, at 73-74; see also Saulsberry Dep., Dkt. # 6426, at 19-20. He may not have been teaching his
players to block and tackle, but Kennedy’s highly
visible prayers were similarly influential on players’
conduct. Because he was hired precisely to occupy this
type of influential role for student athletes, Kennedy
spoke in his capacity as a public employee and his
§ 1983 free speech claim fails as a result.

App-153
b. Whether the District’s
Adequately Justified

Actions

were

The fact that Kennedy spoke as an employee is
enough to end the Court’s analysis at part two of the
Eng inquiry. Johnson, 658 F.3d at 961. However, the
District’s
justification
for
disciplining
Kennedy―avoiding
an
Establishment
Clause
violation―is so closely related to the public nature of
Kennedy’s speech and his remaining claims that it
warrants discussion. “Establishment Clause concerns
can justify speech restrictions ‘in order to avoid the
appearance of government sponsorship of religion.’”
Hills v. Scottsdale Unified Sch. Dist. No. 48, 329 F.3d
1044, 1053 (9th Cir. 2003) (quoting Lassonde v.
Pleasanton Unified Sch. Dist., 320 F.3d 979, 983-85
(9th Cir.2003)). Indeed, “a state interest in avoiding
an Establishment Clause violation ‘may be
characterized as compelling.’” Good News Club v.
Milford Cent. Sch., 533 U.S. 98, 112 (2001) (quoting
Widmar v. Vincent, 454 U.S. 263, 271 (1981)).
As the Supreme Court has recognized numerous
times, “there are heightened concerns with protecting
freedom of conscience from subtle coercive pressure in
the elementary and secondary public schools.” Lee v.
Weisman, 505 U.S. 577, 592 (1992) (collecting cases).
Santa Fe Independent School District v. Doe is
particularly instructive here. 530 U.S. 290 (2000). The
policy in Santa Fe, which was adopted by a majority of
the student body, allowed a student-led prayer to be
delivered via the high school’s announcement system
before football games. Id. at 297-99. The Court held
the policy unconstitutional because it amounted to

App-154
government endorsement of religion and coerced
participation in religious activity.4 Id. at 309, 312.
Under the endorsement test, the court must ask
“whether an objective observer, acquainted with the
text, legislative history, and implementation of the
statute, would perceive it as a state endorsement of
[religion].” Id. at 308 (quoting Wallace v. Jaffree, 472
U.S. 38, 76 (1985) (O’Connor, J., concurring in the
judgment)). The prayer, which was delivered “over the
school’s public address system, by a speaker
representing the student body, under the supervision
of school faculty, and pursuant to a school policy that
explicitly and implicitly encourages public prayer,”
created the perception of school sponsorship. Id. at
310. The coercion test asks simply whether students
are somehow forced to “support or participate in
religion or engage in a religious exercise.” Newdow v.
Kennedy argues that Santa Fe’s holding was based solely on
the coercive effects of the school’s prayer announcement policy.
Kennedy Opposition, Dkt. # 83, at 6. The Court disagrees. Santa
Fe expressly held, “[T]he simple enactment of this policy, with the
purpose and perception of school endorsement of student prayer,
was a constitutional violation.” 530 U.S. at 316. Indeed, in
justifying its holding, Santa Fe quoted O’Connor’s concurrence in
Lynch v. Donnelly, 465 U.S. 668, 688 (1984) identifying the
endorsement test. Santa Fe, 530 U.S. at 309-10. Other courts in
this circuit have also applied both the endorsement and coercion
tests in cases involving religious expression in schools. See, e.g.,
Newdow v. Rio Linda Union Sch. Dist., 597 F.3d 1007, 1017 (9th
Cir. 2010); Kennedy I, 869 F.3d at 834 (Smith, J., concurring). To
the extent that Justice Kavanaugh’s concurrence in American
Legion v. American Humanist Association, 139 S. Ct. 2067, 2093
(2019) cabins the Establishment Clause analysis in school prayer
cases to the coercion test, the Court declines to follow this nonbinding dicta.
4

App-155
Rio Linda Union Sch. Dist., 597 F.3d 1007, 1038-39
(9th Cir. 2010) (citing Lee, 505 U.S. at 592). The Santa
Fe Court determined that the policy was coercive
because it used the “immense social pressure”
associated with high school football games to “exact
religious conformity” from those in attendance. Id. at
311-12 (quoting in part Lee, 505 U.S. at 596).
Other circuit courts have similarly recognized the
potential for Establishment Clause violations when
school employees become involved in religious
expression. In Doe v. Duncanville Independent School
District, for example, the Fifth Circuit held that school
staff participating in student-led prayer at basketball
games “improperly entangle[d] [the school] in religion
and signal[ed] an unconstitutional endorsement of
religion.” 70 F.3d 402, 406 (5th Cir. 1995). And in
Borden v. School District of the Township of East
Brunswick, the Third Circuit held that a coach bowing
his head and taking a knee to join his players in prayer
before games violated the Establishment Clause. 523
F.3d 153, 179 (3d Cir. 2008). Although the court noted
that the result might be different if the practice was
viewed in isolation, the coach’s years-long history of
leading prayers with athletes would cause a
reasonable observer to perceive school endorsement of
religion. Id. at 177-78.
Here, Kennedy’s practice of praying at the 50yard line fails both the endorsement and coercion tests
and violates the Establishment Clause.5 While it may
5 Some courts have employed the test from Lemon v. Kurtzman,
403 U.S. 602 (1971) in cases involving religious conduct at
schools. See, e.g., Newdow, 597 F.3d at 1076. Kennedy argues
that the Lemon test is disfavored and does not apply in the school.

App-156
not convey school approval as universally as a public
announcement system, speech from the center of the
football field immediately after each game also
conveys official sanction. This is even more true when
Kennedy is joined by students or adults to create a
group of worshippers in a place the school controls
access to. Kennedy argues that he “intentionally
avoided organizing prayer with others” after the
District’s September 17 letter, but the publicity
surroundings his prayer and its prominent location
made explicit invitations unnecessary. See Kennedy
Dec., Dkt. # 71-4, at 3 (noting that his prayers on the
field drew players to join over time); Photo of October
16 Game, Dkt. # 64-13 (showing Kennedy praying
with players and members of the public). Indeed, at
the very last game before Kennedy’s suspension, a
group of adults went to the center of the field to pray
with him. Video of October 26 Game, Dkt. # 71-22. At
no time did Kennedy, through words or actions, ensure
that others would not amplify his religious message on
the field.
And even if the District did not have an official
policy condoning Kennedy’s conduct, as in Santa Fe, a
reasonable observer would conclude the school was
aware that a “distinctively Christian prayer” was
taking place and had chosen to allow it. See Kennedy
I, 869 F.3d at 835 n.3 (observing that non-Christian
religions employ different poses for worship). The risk
of that perception is certainly higher here than in
Duncanville and Borden, where school staff merely
The Court need not address this because the endorsement and
coercion tests are more readily applicable to the issues here and
are sufficient to resolve them.

App-157
participated in prayer rather than initiating it
themselves. Duncanville, 70 F.3d at 406; Borden, 523
F.3d at 176. And like those cases, Kennedy’s role as a
representative of the District makes disclaimers an
inadequate remedy. Duncanville, 70 F.3d at 406;
Borden, 523 F.3d at 177 n.20; see also Kennedy I, 869
F.3d at 836 (Smith, J., concurring).
Observers would also be aware that Kennedy’s
activities were religious in nature based on his history
of engaging in religious activity with players. For eight
years prior to 2015, Kennedy prayed with students in
the locker room, prayed on the field, and delivered
religious inspirational talks after games. Kennedy
Dec., Ex. 71-4, at 3-4. Anyone familiar with this
history would view Kennedy’s prayer at the 50-yard
line as continuing this tradition of injecting religious
undertones into BHS football events.
But even more than the perception of school
endorsement, the greatest threat posed by Kennedy’s
prayer is its potential to subtly coerce the behavior of
students attending games voluntarily or by
requirement. Players (sometimes via parents)
reported feeling compelled to join Kennedy in prayer
to stay connected with the team or ensure playing
time, and there is no evidence of athletes praying in
Kennedy’s absence. Leavell Dec., Dkt. # 67, at 7;
Barton Dep., Dkt. # 65, at 2; Polm Dep., Dkt. # 64-25,
at 73-74; Saulsberry Dep., Dkt. # 64-26, at 19-20.
Kennedy himself testified that, “[o]ver time, the
number of players who gathered near [him] after the
game grew to include the majority of the team.”
Kennedy Dec., Dkt. # 71-4, at 3. This slow
accumulation of players joining Kennedy suggests

App-158
exactly the type of vulnerability to social pressure that
makes the Establishment Clause vital in the high
school context. As anyone who has passed through
that fraught stage of life can confirm, there is no time
when the urge to join majority trends is greater. But
when it comes to religion, the Establishment Clause
forbids government actors from using this pressure to
promote conformity.
Kennedy argues that his prayers were not
coercive because, after the District’s September 17
directive, he “intentionally separated himself from
students and waited until players were departing the
field before engaging in prayer.” Kennedy Motion,
Dkt. # 70, at 18; see also Kennedy Dep., Dkt. # 64-24,
at 62-66 (explaining that, after the September 17
letter, Kennedy and his lawyers planned for him to
pray quickly at the 50-yard line while students were
distracted by singing the fight song). However, even if
the Court focuses only on Kennedy’s final few games,
the outcome is the same. Kennedy may have tried to
deliver his prayers in late 2015 while players were
distracted, but this does not mean the athletes were
unaware of Kennedy’s actions or could not have joined
him. His brief prayers were still long enough for other
adults to participate at the October 16 and 26 games,
and Kennedy’s original practice of praying alone on
the field eventually drew in most of the team.
Indeed, Kennedy’s post-September 17 prayers
were not meaningfully different from his original
practice before he started giving inspirational
speeches.
Kennedy’s
own
statements
have
consistently represented his plan for the October 16,
23, and 26 games as a continuation of what he “started

App-159
out doing.” Kennedy Dep. at 64; October 14 Letter,
Dkt. # 71-16, at 6; Local News Video, Dkt. 64-12.
Kennedy took no reliable steps to prevent students
from joining him in prayer and has admitted that he
would not have stopped them if they had. Kennedy
Dep. at 65-66. The injunctive relief Kennedy requests,
which would permit him to pray “at the 50-yard line
at the conclusion of BHS football games” with no other
limitations, reflects this. Complaint, Dkt. # 1, at 16.
There is thus no assurance that, if Kennedy were
allowed to resume his post-game prayers, students
would not become involved again. This would be
constitutionally unacceptable, as it would be
impossible to tell which players joined out of genuine
desire and which felt pressured.
Finally, Kennedy’s own intentions also do not
change the practical effects of his prayer. Kennedy
occupied a powerful position in his players’ lives, both
as a role model and as one of the people controlling
their chance to perform on the biggest stage American
high schools have to offer: the football field. Kennedy
Dep., Dkt. # 64-24, at 106 (acknowledging that
coaches can be the most important figure in some
student athletes’ lives). As Judge Smith observed in
his concurring opinion, there is “no reason to believe
that the pressure emanating from [Kennedy’s]
position of authority would dissipate” simply because
he may have intended it to. Kennedy I, 869 F.3d at 835.
Rather, Kennedy’s prayers sent a “message to
members of the audience who are nonadherents that
they are outsiders, not full members of the political
community.” Id. (quoting Santa Fe, 530 U.S. at 309).
For many young athletes, the response to such a
message is a desire to become an insider by joining

App-160
Kennedy at the 50-yard line. This coercive effect
violates the Establishment Clause and justifies the
District’s decision to place Kennedy on leave.
3.

Section 1983 Free Exercise Claim

In addition to his free speech claim, Kennedy also
makes a § 1983 claim under the Free Exercise Clause.
“[I]f the object of a law is to infringe upon or restrict
practices because of their religious motivation, the law
is not neutral, … and it is invalid unless it is justified
by a compelling interest and is narrowly tailored to
advance that interest.” Church of the Lukumi Babalu
Aye, Inc. v. City of Hialeah, 508 U.S. 520, 533 (1993);
see also Employment Div., Dep’t of Human Res. of
Oregon v. Smith, 494 U.S. 872, 883 (1990). “A law
lacks facial neutrality if it refers to a religious practice
without a secular meaning discernable from the
language or context.” Lukumi, 508 U.S. at 533.
Kennedy contends that the District’s September
17 directive, which derived from Board Policy 2340,
was not neutral or generally applicable because it
specifically targeted Kennedy’s religious conduct. See
September 17 Letter, Dkt. # 64-8. But even if this is
the case, the District’s decision to restrict Kennedy’s
post-game prayer activities was not unconstitutional
under the standard from Lukumi. The District had a
compelling interest in avoiding constitutional
violations, see Good News Club, 533 U.S. at 112, and
the Court has already concluded that allowing
Kennedy to continue praying at the 50-yard line would
have violated the Establishment Clause. The
District’s application of Board Policy 2340 to Kennedy
was also narrowly tailored to protect his rights. The
District gave Kennedy multiple options to continue

App-161
praying after games that would not have amounted to
a violation. Kennedy, however, rejected these
accommodations and did not respond to the District’s
requests for further input. In light of this, Kennedy’s
Free Exercise claim cannot succeed.
4.

Title VII Claims

Finally, Kennedy asserts five claims under Title
VII of the Civil Rights Act of 1964 related to his
suspension: failure to re-hire (42 U.S.C. § 2000e2(a)(1)), protected characteristic (§ 2000e-2(m)),
disparate treatment (§ 2000e-2(a)), retaliation
(§ 2000e-3(a)), and failure to accommodate (§§ 2000e2(a) & 2000(j)). Kennedy Motion, Dkt. # 70, at 22-23.
Congress passed Title VII to remove “artificial,
arbitrary, and unnecessary barriers to employment
when the barriers operate invidiously to discriminate
on the basis of racial or other impermissible
classification,” such as religion. McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 801 (1993). However, in
Kennedy’s case, there is no evidence that the District’s
actions were motivated by anything other than a
desire to avoid constitutional violations.
a. Failure to Re-Hire Motivated by Protected
Characteristic
Kennedy asserts that the District failed to re-hire
him on the basis of his religious beliefs, although his
actual claim is that the District made it futile for him
to re-apply for his job after they suspended him and
issued critical evaluations. Complaint, Dkt. # 1, at 16.
Title VII makes it unlawful for employers to “fail or
refuse
to
hire
or
to
discharge
any
individual … because of such individual’s race, color,

App-162
religion, sex, or national origin.” 42 U.S.C. § 2000e2(a)(1).
A 1991 amendment to the statute further provides
that “an unlawful employment practice is established
when the complaining party demonstrates that race,
color, religion, sex, or national origin was a motivating
factor for any employment practice, even though other
factors also motivated the practice.” § 2000e-2(m).6
Thus, even if the employer’s action had other,
nondiscriminatory motivations, they can still be liable
if the employee’s protected characteristic was also a
motivation. Costa v. Desert Palace, Inc., 299 F.3d 838,
848 (9th Cir. 2002). It is also not necessary under Title
VII that an employee actually suffer a rejection if a
negative outcome is preordained. Reed v. Lockheed
Aircraft Corp., 613 F.2d 757, 762 (9th Cir. 1980)
(“When a person’s desire for a job is not translated into
a formal application solely because of his
unwillingness to engage in a futile gesture he is as
much a victim of discrimination as is he who goes
through the motions of submitting an application.”).
To establish a prima facie case under Title VII, a
plaintiff need only present direct or indirect evidence
creating an inference of discrimination. Raad v.

Kennedy alleges separate claims for failure to re-hire and
protected characteristic as a motivating factor. Complaint, Dkt.
# 1, at 15-16. But § 2000e-2(m) actually modified the definition of
an “unlawful employment practice” as identified in § 2000e-2(a).
See Costa v. Desert Palace, Inc., 299 F.3d 838, 848 (9th Cir. 2002).
In light of this, the Court will address Kennedy’s failure to rehire claim under this more plaintiff-friendly inspirational
definition described in § 2000e-2(m) rather than addressing the
claims separately.
6

App-163
Fairbanks N. Star Borough Sch. Dist., 323 F.3d 1185,
1196 (9th Cir. 2003).
Even under these forgiving standards, Kennedy’s
claim cannot pass scrutiny. There is no evidence that
Kennedy’s religion itself, rather than the
unconstitutional time and manner he expressed it,
motivated the District’s actions. All the evidence
shows that the District wanted to accommodate
Kennedy’s faith and encouraged constitutional
religious expression. Indeed, the centerpiece of
Kennedy’s § 1983 claims is the assertion that he was
placed on leave “solely [because of] concern that [his]
conduct might violate the constitutional rights of
students and other community members.” Kennedy
Motion, Dkt. # 70, at 9 (quoting Leavell Dep., Dkt.
# 71-9, at 197). Kennedy’s effort to equate the
District’s good faith efforts to obey the Establishment
Clause with religiously-motivated discrimination
cannot amount to a prima facie case of discrimination.
b. Disparate Treatment
Kennedy also asserts a disparate treatment claim
based on the theory that the District targeted
Kennedy for his demonstrative religious expression
while failing to discipline other coaches who acted
similarly. Complaint, Dkt. # 1, at 14. To succeed in a
disparate impact claim, the plaintiff employee must
first make a prima facie case by showing that: “(1) he
is a member of a protected class; (2) he was qualified
for his position; (3) he experienced an adverse
employment action; and (4) similarly situated
individuals outside his protected class were treated
more favorably.” Berry v. Dep’t of Soc. Servs., 447 F.3d
642, 656 (9th Cir. 2006). Then, the burden shifts to the

App-164
defendant employer to provide a “legitimate
nondiscriminatory reason” for the action.7 Id. If they
succeed in this, the plaintiff again has the burden of
demonstrating that the defendant’s reason is actually
pretextual. Id. (citing McDonnell Douglas, 411 U.S. at
804).
Here, Kennedy cannot carry his initial burden
because he cannot show that anyone outside his class
engaged in comparable conduct. Kennedy contends
that other coaches on the team “similarly situated” to
him were not disciplined for expressive activity like
tying their shoes. But “[o]ther employees are similarly
situated to the plaintiff when they have similar jobs
For Title VII theories other than disparate impact, § 2000e2(m) establishes that an employer can still be liable even if they
had an additional, non-discriminatory reason for their action if a
protected characteristic was one of the motivating factors. See
Costa v. Desert Palace, Inc., 299 F.3d 838, 848 (9th Cir. 2002)
(“[I]f the employee succeeds in proving only that a protected
characteristic was one of several factors motivating the
employment action, an employer cannot avoid liability
altogether, but instead may assert an affirmative defense to bar
certain types of relief by showing the absence of ‘but for’
causation.”). However, § 2000e-2(k) contains its own definition of
an “unlawful employment practice” for disparate impact claims:
“An unlawful employment practice based on disparate impact is
established under this subchapter only if … a complaining party
demonstrates that a respondent uses a particular employment
practice that causes a disparate impact on the basis of race, color,
religion, sex, or national origin and the respondent fails to
demonstrate that the challenged practice is job related for the
position in question and consistent with business necessity.”
(emphasis added). This supersedes the definition in § 2000e-2(m)
(which only applies “[e]xcept as otherwise provided in this
subchapter”) and allows employers a complete defense if they can
demonstrate a legitimate nondiscriminatory basis for the action.
7

App-165
and display similar conduct.” Earl v. Nielsen Media
Research, Inc., 658 F.3d 1108, 1114 (9th Cir. 2011)
(emphasis added). Tying one’s shoes is in no way
similar to demonstrative religious worship in the
center of the field.
Kennedy argues that, under Berry, the Court
should compare “Kennedy’s brief, personal conduct [to
the] brief, personal conduct of the other football
coaches.” Kennedy Opposition, Dkt. # 83, at 20. In
Berry, the court compared the plaintiff’s request to use
a conference room for religious purposes to another
group’s request to use the room for secular purposes.
447 F.3d at 656. But unlike Berry, Kennedy’s use of
the center of the field to pray after each game is not
the same as other coaches’ spontaneous personal acts
somewhere else on the field. The Court also rejects the
notion that the District must treat religious
expression the same as non-religious expression when
there are no constitutional liabilities for the latter.
Berry recognized this distinction as well. Id. at 656
(“[W]e perceive a difference between business-related
social functions and religious meetings.”).
The only evidence of a coach doing anything
remotely comparable to praying on the 50-yard line is
Kennedy’s testimony that Coach Boynton engaged in
silent Buddhist chants on the field after “many” BHS
games. Kennedy Dec., Dkt. # 71-4, at 4; see also
Kennedy Dep., Dkt. # 64-24, at 148. Boynton testified
about one occurrence when he went onto the field after
the last game of his first season, took a picture of the
scoreboard, and said a silent chant to himself while
standing. Boynton Dep., Dkt. # 64-23, at 54-57. The
District was not aware of any religious conduct by

App-166
Boynton until Kennedy mentioned it in his EEOC
complaint. Leavell Dec., Dkt. # 67, at 7. Kennedy
himself admits that he would not have known that
Boynton was engaging in Buddhist prayer at games
because the only indication was that he sometimes
closed his eyes briefly. Kennedy Dep. at 149-151. The
fact that no one would have learned of Boynton’s
conduct if he had not said something himself confirms
that it is not analogous to Kennedy’s demonstrative
prayer.
But even if it was, the District had a legitimate,
non-discriminatory reason for placing Kennedy on
leave: avoiding a constitutional violation. The
undisputed evidence demonstrates that this was the
District’s rationale, and Kennedy presents no evidence
that the District’s actions were merely pretext to
punish him for his religion. In fact, Kennedy argues
that the District’s rationale of avoiding liability was
“consistent with [its] representations to both the
public and the federal government.” Kennedy Motion,
Dkt. # 70, at 9. Kennedy’s disparate treatment claim
therefore fails.
c.

Failure to Accommodate

Kennedy next claims that the District failed to
accommodate his sincerely-held religious beliefs by
putting restrictions on his post-game prayers. To
succeed in a failure to accommodate claim, a plaintiff
must show that: “(1) he had a bona fide religious belief,
the practice of which conflicts with an employment
duty; (2) he informed his employer of the belief and
conflict; and (3) the employer discharged, threatened,
or otherwise subjected him to an adverse employment
action because of his inability to fulfill the job

App-167
requirement.” Berry, 447 F.3d at 655 (quoting Peterson
v. Hewlett-Packard Co., 358 F.3d 599, 606 (9th Cir.
2004)). The burden then shifts to the defendant
employer, who must demonstrate that “it initiated
good faith efforts to accommodate reasonably the
employee’s religious practices or that it could not
reasonably accommodate the employee without undue
hardship.” Id. (quoting Peterson, 358 F.3d at 606).
Although Kennedy makes a prima facie showing
that the District failed to accommodate him, the
accommodation Kennedy demanded would have been
an undue hardship for the District because it violated
the Establishment Clause. As expressed in his
October 14, 2015 letter, the accommodation Kennedy
requested was unfettered freedom to “continue his
practice of saying a private, post-game prayer at the
50-yard line,” possibly with a disclaimer that his
speech was private. October 14 Letter, Dkt. # 71-16, at
6. This would have violated the Establishment Clause,
and Kennedy did not respond to the District’s efforts
to find a constitutional accommodation.
Kennedy now tries to argue that the District’s
September
17
letter
was
an
acceptable
accommodation allowing him to pray on the field away
from students that the District deviated from later in
its October 23 letter. Kennedy Motion, Dkt. # 70, at
23. This distinction, while convenient for Kennedy, is
not supported by the record. First, the District’s
September 17 letter did not explicitly address
Kennedy’s 50-yard line prayers because they had by
then “evolve[ed] organically” into inspirational talks
with religious undertones. Dkt. # 64-8 at 1. Even so,
the letter broadly stated, “Student religious activity

App-168
must be entirely and genuinely student-initiated, and
may not be suggested, encouraged (or discouraged), or
supervised by any District staff.” Id. at 3. Kennedy
himself interpreted this as a direction to “cease” his
“private religious activity … [of] walk[ing] to the 50yard line and pray[ing].” October 14 Letter, Dkt. # 7116 at 1; see also Kennedy Dep., Dkt. # 64-24, at 38-39
(testifying that Leavell made the District’s position
about the prayer “very clear” and that Kennedy
“agreed to stop the post-game prayers”). The District
never offered to let Kennedy pray at the 50-yard line
immediately after games.
Even if it had, any arrangement in which
Kennedy prayed at the center of the field, immediately
after games, in the presence of students would have
run afoul of the Establishment Clause. Short of
requiring Kennedy to pray out of students’ sight, the
only way to ensure Kennedy’s prayers remained
“separate from any student activity” was to forbid
students from joining. September 17 Letter, Dkt. # 648 at 3. This, however, was also unacceptable to
Kennedy because it would have infringed on the rights
of students.8 October 14 Letter, Dkt. # 71-16, at 5-6;
see also Kennedy Dep., Dkt. # 64-24, at 65-66 (“I
At his deposition, Kennedy admitted that he likely would have
accepted an accommodation that allowed him to pray on the field
during the window of time when students were on their way to
the bus or on their way to the locker room. Kennedy Dep., Dkt.
# 71-10, at 47-49. However, Kennedy never reached out to the
District to discuss such an accommodation, id. at 47, and his
October 14 letter made clear that he wished to resume his former
practice of prayer. Dkt. # 71-16 at 6. The Court therefore need
not decide whether such an arrangement would have complied
with the Establishment Clause.
8

App-169
wasn’t going to stop my prayer because there was kids
around me.”). There was thus no constitutional option
for the District besides trying to find a way for
Kennedy to pray privately after games. Because the
District made several good-faith attempts to reach
such an arrangement with Kennedy,9 his Title VII
claim fails.
d. Retaliation
Finally, Kennedy claims that the District
retaliated against him for obtaining counsel and
exercising his rights under the First Amendment. “To
make out a prima facie case of retaliation, an
employee must show that (1) he engaged in a
protected activity; (2) his employer subjected him to
an adverse employment action; and (3) a causal link
exists between the protected activity and the adverse
action.” Ray v. Henderson, 217 F.3d 1234, 1240 (9th
Cir. 2000). “If a plaintiff has asserted a prima facie
retaliation claim, the burden shifts to the defendant to
articulate a legitimate nondiscriminatory reason for
its decision.” Id. The plaintiff then must prove that the
defendant’s reason is mere pretext. Id.
As with Kennedy’s other Title VII claims, the fact
that his prayers on the 50-yard line violated the
Kennedy claims that the District never offered to allow him
to pray on the field after the students had left. But in his
deposition, Principal Polm testified that he offered just such an
accommodation to Kennedy. Polm Dep., Dkt. # 64-25, at 46-49.
Kennedy himself returned to the field on September 18, waited
for the stadium to empty, and prayed on the field. Kennedy Dec.,
Dkt. # 71-4, at 5. Regardless, this dispute is not material because
Kennedy did not respond to the District’s good faith efforts to
reach an accommodation.
9

App-170
Establishment Clause is fatal. By unilaterally
rejecting the District’s September 17 directive, stoking
media attention, and continuing his unconstitutional
manner of prayer, Kennedy did not engage in
“protected activity.” The District’s decision to place
Kennedy on leave and issue evaluations critical of his
non-cooperative choices was also justified by its desire
to avoid liability under the Establishment Clause.
Kennedy’s retaliation claim therefore fails.
CONCLUSION
While public schools do not have unfettered
discretion to restrict an employee’s religious speech,
they do have the ability to prevent a coach from
praying at the center of the football field immediately
after games. The Court GRANTS the District’s Motion
for Summary Judgment and DENIES Kennedy’s
Motion.
IT IS SO ORDERED.
Dated this 5th day of March, 2020.
[handwritten: signature]
Ronald B. Leighton
United States District Judge

App-171
Appendix E
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON, AT TACOMA
________________
No. 16-cv-05694
________________
JOSEPH A. KENNEDY,
Plaintiff,
v.
BREMERTON SCHOOL DISTRICT,
Defendant.
________________
Summary Judgment Hearing
________________
February 12, 2020
________________
Before: LEIGHTON, Ronald B.,
District Judge.
________________
THE CLERK: This is Kennedy versus Bremerton
School District, Cause No. C16-5694-RBL.
Counsel, please make an appearance.
MR. ANDERSON: Good morning, Your Honor.
Devin Anderson from Kirkland & Ellis, on behalf of
plaintiff, joined by my colleague Bill Lane, also Jeff
Helsdon, co-counsel, and Hiram Sasser, co-counsel.
THE COURT: Good morning.

App-172
MR. TIERNEY: Good morning, Your Honor.
Michael Tierney appearing for the Bremerton School
District, accompanied by Jeffrey Ganson, the general
counsel for the District, and Superintendent Aaron
Leavell.
THE COURT: Good morning, all.
This is the day scheduled for oral argument on
competing motions for summary judgment. The
defendant’s motion was filled first, but on the same
day. If you guys have agreed on an order, somebody
has their Power Point on, so plaintiff wants to go first?
MR. ANDERSON: We’ll have plaintiff go first,
and we’ll give the District their time.
THE COURT: We’ll do this in the round, row the
boat, you know, you have done that before, so just
come back and forth until you say what you need to
say.
You might focus on, at some point in your
argument, Justice Alito’s comments about drawing
distinctions about the conduct that resulted in
dismissal.
I didn’t write an opinion, but I thought I made it
very clear that I thought Mr. Kennedy was on duty
with all of the ruffles and flourishes of coachdom, and
he was responsible and still within his job
responsibilities to take care of administrative issues
that he had, and it would be very different if he went
across the street to a park and prayed, read the Bible,
students came with him, wanted to be with him and
all that. It would have been a different situation. I
thought that was all very clear to the Ninth Circuit
and clear to the Supreme Court.

App-173
As trial judges, we are loathe to find facts, make
findings in preliminary proceedings for injunctive
relief and/or summary judgment. That is my concern
a little bit on your arguments.
Mr. Anderson, you’re up.
MR. ANDERSON: Thank you, Your Honor.
Appreciate the opportunity to be heard today.
As Your Honor has seen, we prepared a document
to go through. I have a hard copy, if Your Honor would
prefer a hard copy; otherwise, we are happy to click
through.
THE COURT: I would like a hard copy.
MR. ANDERSON: May I approach?
THE COURT: You bet.
MR. ANDERSON: I have a separate handout just
of the timeline that we are going to be using. I think
the timeline will help inform some of these questions.
It is a printout of the slide.
Again, Your Honor, appreciate the opportunity to
be heard this morning. Devin Anderson for Coach
Kennedy.
I want to address and start where Your Honor left
off with what Justice Alito said. I think he was—the
Supreme Court obviously did not take the case. They
thought there was still some factual development that
needs to happen. What we have seen is discovery has
shown—really, there are two central facts that I think
have to be taken into account on which the issues in
this case turn.
Fact No. 1 is: What was the conduct that is
actually at issue here? Discovery has shown that the

App-174
conduct at issue, the practice that Coach Kennedy
engaged in, sought to engage in, the practice for which
he was ultimately placed on administrative leave, was
to take a knee at the end of the football game to say a
silent, personal prayer. It is not about prayer with
students. It is a silent, personal prayer—and, in fact,
that’s how the District itself describes it—that lasted
about 15 seconds. We will show a couple of stills.
We did submit the video. There is actually videos
of the two games that immediately preceded his
termination, which I think helps the Court get a sense
for what the practice is at issue. It is a brief, 15-second
prayer at the conclusion of the game as the players—
they do their post-game handshake, they each go off,
they do the fight songs, the coaches are milling about,
that's when he was taking a knee. That’s the activity
at issue. That’s the first key fact.
The second key fact—and I think this is where
Justice Alito got a little bit—thought it wasn't
asserted, was why the District took the action it did.
Discovery here has been—has clarified that. As
we will see, the District suspended Coach Kennedy
based solely—again, this word “solely,” that is not my
word, that is the District's word—solely on its view
that allowing Coach Kennedy to do this conduct, the
15-second prayer, would violate the establishment
clause.
Those are the two key facts: What did he do, and
why did the District take the action.
On those two key facts, I think these
constitutional issues turn, which is Issue No. 1, when
Coach Kennedy took that knee and did his silent

App-175
prayer of thanksgiving, was he speaking as a public
employee or private citizen?
Our argument is he spoke as a private citizen.
The second one is the establishment clause
question. Does it violate the establishment clause for
the District to allow Coach Kennedy to engage in this
activity? We would submit the answer is no.
Long ago, the Supreme Court emphasized in the
Tinker case that school employees do not shed the
constitutional right to freedom of speech at the
schoolhouse gate.
We respectfully submit that the District's position
that anything a public employee does while
technically on the clock and visible to others is
unprotected speech, is directly contrary to Tinker’s
direction here.
I think what I want to do is go through the
timeline here, Your Honor. I appreciate the indulgence
to walk through this because I think this will help
crystalize the facts that I think are undisputed on
which the Court can make the legal determinations it
has to make.
The timeline is critical to understanding the two
key facts, what he did and why the District took its
action. For years prior to this 2015 football season,
starting when Coach Kennedy became a coach in 2008
or 2009, he, compelled by his religious belief, engaged
in this prayer of thanksgiving following football
games. Over time, students noticed it and asked if
they can join. He said, “It is a free country. You can do
what you want.”

App-176
From 2008 to about 2015, it was off and on,
sometimes he would do it by himself, he testified, and
sometimes other students would come with him. It
wasn’t a regular practice.
Anyway, the District apparently didn’t know
about this—that’s what they have claimed—until the
September 11th game, which is the—one of the first
home games versus Klahowya.
THE COURT: Try Puyallup.
MR. ANDERSON: I am from Arizona.
THE COURT: I wanted to introduce you and
welcome you to the Northwest.
MR. ANDERSON: I appreciate that. I really do.
That’s when the District learned about this. Over
the course of the week after this game, the District
issues a letter on September 17th, where the District
gave Coach Kennedy some very specific directives.
There are two key points. We are on slide 5. No. 1,
the District recognized Coach Kennedy’s action was
voluntary. He wasn’t requiring student participation.
It gave a clear directive: You can’t have students with
you when you pray.
We have culled out from Exhibit 3 what the
directive was. I think there are three or four
components here that I want to highlight.
Directive No. 1 is: You and District staff are free
to engage in religious activity, including prayer, so
long as it does not interfere with your job duties.
The record shows in this case that a 15-second
prayer, just as if he was to kneel down and tie his shoe,

App-177
doesn’t distract him from his job duties. The District
testified to that. That is beyond dispute.
The second direction: It has to be physically
separate. One of the problems with the prior practice
is students would come around him as he was praying.
District said: Don’t do that anymore. Coach Kennedy
never did.
Third, students may not be allowed to join. Again,
that was the third directive: No more prayer with
students.
Fourth directive was: If it is demonstrative
activity, you can’t be doing it at the same time
students are doing it. In other words, if the students
are praying, you can’t kind of pray also on your own.
It needs to be separate.
That was the directive. That’s the directive Coach
Kennedy understood.
The next game was the September 18th home
game. This is the day after the District provided the
direction. At that game—this is the only game, Your
Honor, in the 2015 season at which Coach Kennedy
did not pray immediately after the game. He was still
digesting the letter that he got from the District. He
did not engage in a prayer right after the game.
What happened is, as he was driving home, as he
was driving home, he felt, in his own words, dirty. He
felt like he had committed the sin of ingratitude
because he had not expressed his prayer of
thanksgiving after the game. He actually turned
around, he drove back, went to the stadium and
prayed. The problem was his religious beliefs required

App-178
him to pray immediately after the game. That had—
too much time had elapsed.
What happens is for the next five games after this
one, he resumes the practice he had been doing years
before of a silent, personal prayer. He waited until the
students had separated and were starting to go do
their fight song, post-game tradition, and he engaged
in that activity. Nobody noticed.
The District submitted affidavits saying they
actually didn’t know he was engaged in this prayer
activity, which we think actually proves our point,
especially when we talk about what a reasonable
observer would see from the establishment clause
perspective. Nobody notices.
What happened then is on October 14th, Coach
Kennedy sends a letter. He wants to be open with the
District. He sends a letter from his attorneys to the
District—we are at slide 9—reiterating saying, look,
what I want to do, what I have been doing, is a private,
personal prayer. That is what I want to do.
Then we come to the next game, the Centralia
game. This was a home game on October 16, two days
after Coach Kennedy sends the letter.
THE COURT: Centralia.
MR. ANDERSON: You keep correcting me, Your
Honor. I deserve it.
THE COURT: Everybody needs to be humble.
That is why you are here.
MR. ANDERSON: I appreciate that.
THE COURT: And me, too.

App-179
MR. ANDERSON: This is the picture Your Honor
has seen before. This got a lot of air time at the PI
hearing.
This is the Centralia game. What happened here
is Coach knelt to say a prayer. Nobody from the
Bremerton School District, but the opposing team
from a different district spontaneously joined him
because of the media coverage that ensued over this
week. That’s where this picture comes from. Two
critical facts about this. Number one, this game has
never been cited as the reason for the District’s action.
This game is not why the District took its action, as
we’ll see as we look at the exhibits in evidence.
In fact, if we go to the next slide, we have the
contemporaneous emails from Dr. Leavell, the
superintendent, immediately following this game to
state officials. You see here Dr. Leavell says, “The
coach moved on from leading prayer with kids—”
everybody knew this was not about leading prayer
with kids—“to taking a silent prayer at the 50-yard
line.” Bill Keim, from the Department of Education,
responds, “Seems like it may be a moot issue. I assume
the use of silent prayer changes the equation of it.” Dr.
Leavell says, “Yes, it does.”
THE COURT: It moves out of evangelism to a
thoughtful prayer of thanks.
MR. ANDERSON: Personal, right? A silent,
personal prayer rather than sort of a team activity,
which is different than the cases that the District
brings in like the Doe case from the Fifth Circuit or
the Borden case where you had coaches engaging with
or leading student prayer.

App-180
If we go to the next slide, another
contemporaneous email. “The issue is quickly
changing as it shifted from leading prayer with
student athletes to a coach’s right to conduct a
personal, private prayer on the 50-yard line.” The
reason for the 50-yard line is that’s where he is after
they finish the post-game shake. We have all seen
those lines, the lines cross, people peel off, coaches are
talking to each other. That’s where Coach Kennedy is
when he takes his knee.
Even the District recognizes, this is not about
student prayer. This is not the situation anymore. It
is a personal, silent prayer.
The next game, the District sends a second letter.
We talked to Your Honor about the September 17th
letter, “Don’t pray with students. You can pray on your
own, but you can’t do it around students. You can’t be
demonstrative if the students are being demonstrative
as well.”
Now we get a second letter, the October 23rd
letter, where the District again reiterated, “It looks
like you are trying to do what we told you to do. In
general, I believe you have attempted to comply with
the guidelines.” He is not praying with students.
Then they give him a new direction. This is a
different directive than what was in the September
17th letter. “While on duty for the District as assistant
coach, you may not engage in demonstrative religious
activity, readily observable, if not intended to be
observed, by students and the attending public. This
is a different directive. You can’t do demonstrative
religious activity if people can see you.

App-181
Now Coach Kennedy has this different directive.
Now he faces the next game, that day, October 23rd,
against North Mason. This is an away game.
If we go to the next slide, we pulled out a still from
a video clip we submitted into evidence. Your Honor,
if I may approach the video screen. This one,
unfortunately, is a little grainy. We put in a red arrow
so you can see where Coach Kennedy is.
I think this captures what the post-game
situation is like following a football game. You have
players starting to head to the sidelines. You have
coaches milling about. In the middle of all this, you see
Coach Kennedy taking a knee. He could just as easily
be checking the turf, he could be tying his shoe. He
happens to be engaged in a personal prayer.
If we go to the next slide, again, the District
recognized this is now becoming a closer call. Another
contemporaneous email from Dr. Leavell saying, “His
actions Friday,” again, Friday being the North Mason
game, “yet again moved closer to what we want, but
are still unconstitutional.”
That Monday—we have Friday is the varsity
game versus North Mason. The next game is Monday,
October 26th, is a home game versus North Mason. It
is a junior varsity game where Coach Kennedy is the
head coach of the junior varsity team. We have a still
on that one, which is slide 21.
Again, you see the players are starting to
separate. Coach Kennedy is taking a knee. This is a
higher resolution. You can see him a bit better. You
have other coaches milling about during this time
period.

App-182
These two games, the two North Mason games are
the basis for the District’s action. How do we know
this? The District sent a letter two days later. This is
the official letter placing Coach Kennedy on
administrative leave.
Let’s go to slide 22. You will see there that the
District cites those two games, October 23rd and
October 26th, in their view, because Coach Kennedy
was on duty. In other words, he is on the clock, right?
He is still at work in the same way that somebody
might be at work if they are still in the building while
during working hours. He was still on duty. He
kneeled and prayed while his players—players
weren't with him. Players were engaged in other postgame traditions.
Those are the two games that are at issue. The
two stills we saw are the two pieces of conduct at issue.
The District was also crystal clear why it took its
action. If we go to the next slide. I asked Dr. Leavell,
“Is it your testimony today that consistent with the
representations made here to the government that the
District’s course of action in this matter has been
driven solely by concern that Mr. Kennedy’s conduct
might violate the constitutional rights of students and
others, right, by creating this establishment clause
issue?” The answer was, “Yes.” “Is it a true, accurate,
complete description of all the bases?” “Yes.”
That's the same thing the District told the public,
as reflected in slide 24. It is the same representation
the District made to the federal government in slide
25.
I think the confusion that Justice Alito had has
been cleared up. This isn't a question of was he failing

App-183
to supervise during the 15 seconds. No. The District
was very clear why it took its action, because we might
get sued for the establishment clause. That’s the
District’s position. That tees up the question for the
Court. It is not a factual issue. The question is: Is that
right? Was the District correct when it took that
position?
That leads us to the free speech claims at issue,
which is the Eng test. There is no dispute that we are
in Eng land.
Eng has five factors, but I think—although the
District has taken inconsistent positions in its two
briefs, I think we are only fighting about two of these
factors. No. 1 was on the matter of public concern. No
dispute that religious speech is on that subject. That’s
what the Ninth Circuit Johnson case says.
Here we are at Eng Factor 2: In what capacity was
Coach Kennedy speaking when he engaged in his
demonstrative religious conduct at the conclusion of
the games? That is a practical—the Ninth Circuit in
its opinion in this very case said that's a practical, factintensive inquiry. It doesn’t depend on root job
descriptions. You have to look at what does this person
do.
Under Lane vs Franks, the question is whether
the speech at issue is ordinarily within the scope of the
employee’s job duties. So as a coach, I think if you look
at it in that way, no, right? Praying—saying your own
silent prayer is not within the scope of what a coach
normally does.
What this Court looked at, and what the Ninth
Circuit looked at at the early preliminary injunction
phase is, well, look, a coach is a role model, right? The

App-184
coach is visible. The young men on the team are
looking up to the coach. There is no dispute about that.
That’s precisely why Coach Kennedy wants to do what
he does. He recognizes that, and frankly everybody
who worked with him recognize—
THE COURT: It is subtly coercive. That’s the
Rubicon that we wrestle with is, is that coercive.
MR. ANDERSON: I think that comes in at Eng
Factor 4, right? That coercion right is the
establishment clause. I think the question right now
is when he knelt to say a silent, personal prayer, in
what capacity is he speaking?
The question under Lane is not was he officially
on the clock or not. Otherwise, that would mean,
contrary to Tinker, any time you show up for work as
a public employee, you don’t—your speech is
unprotected. That’s not the law.
I think that is what Justice Alito is highlighting.
We can’t read job duties so broad that any time a
public employee is visible to somebody else, that that
means they cannot—their speech is unprotected no
matter what. That would prohibit bowing your head,
folding your arms, saying a prayer for a meal if you
happened to be in the school cafeteria and students see
you.
And to come to the coercion point that Your Honor
hit, I think what we know from the timeline—this is
why I spent so much time on the timeline—there is no
coercion involved here because there aren’t students
involved. Coach Kennedy never directed his prayers,
as of September 17th, once he got the direction, to
students anymore. This is about his own personal,
private speech.

App-185
In fact, the District’s own witnesses—if we go to
slide 28, the District's own witnesses confirmed that
coaches can engage in a variety of personal activity
that lasts 15, 30 seconds following a game, and that
doesn’t pose any issue.
I asked Dr. Leavell if somebody tied their shoe,
would that be an issue. Of course not. I asked
Assistant Head Coach Boynton, what if somebody was
talking to somebody in the stand—if we can go to the
next slide. As an assistant head coach, sitting in your
bird’s eye view, if you saw an assistant coach was
talking to parents, family, friends for 15 or 30 seconds,
would you think they were somehow not doing what
they were supposed to be doing? No. Everybody knows
what the aftermath of a football game is. Kissing
girlfriends, family members, giving high fives. This is
not a captive audience situation. Right? This is not Lee
vs Weisman or the Santa Fe case where you have a
graduation ceremony, captive audience, you have a
public announcement system through which you are
communicating on behalf of the school. This is him, on
his own, and as those pictures show, everybody is
milling about, and a reasonable observer would look at
him and say, is he tying his shoe, is he checking the
turf and so forth.
The rule cannot be just because he’s a coach, and
because he’s on the clock, his speech is unprotected.
That’s what Justice Alito—if we go to slide 30. That’s
what Justice Alito cautioned against. He thought the
Ninth Circuit was straying into a view that public
school teachers and coaches can be fired if they engage
in any expression that the school does not like while
they are on duty. We have to be careful to not say they

App-186
are on duty all the time; otherwise, we are
contradicting what Tinker said 50 years ago.
As I was talking about, the speech was not
directed at others. If we go to slide 31. It is the
District's own description of the speech at issue. It is
not directed to students. It is not directed at others. It
is a silent, personal, private prayer. Those are the
District’s words, not mine.
The presence of others is irrelevant to Kennedy.
Coach Kennedy testified—also, the whole personal
thing, it also relates to the way people were using the
word “public” and “prayer.” It was, “Am I doing this as
a school person like”—or, “Am I doing this as me? It is
just between me and God. It is not the school doing it
and the team doing it.” That’s his testimony. The legal
determination ultimately is up to this Court. His
testimony is the presence of people is not part of his
sincere religious beliefs. His sincere religious belief is
it is a silent prayer, he does it after the game, he does
it on the field where the contest was fought.
That leads us to Eng Factor 4 where we are
talking about the establishment clause. When we get
to Eng Factor 4, the burden is on the School District.
It bears a particularly heavy burden here because of
the breadth of the rule it wants, which is if he is
visible, if any public employee is visible to students or
the public while on the clock, they cannot engage in
demonstrative religious activity.
The establishment clause issue is the only
justification on which the Court needs to rule, whether
the District is right or wrong, and under the Ninth
Circuit’s Hill case, the District has to show there was
an actual establishment clause violation.

App-187
The District says, well, the fear of a potential
establishment clause lawsuit is sufficient. That’s not
the law. That’s not what Hill says, that’s not what
Good News Club says. You need to have an actual
establishment clause violation. That makes sense
because you can always come up with some litigant
who could stitch together some potential allegations
and say, well, that person could come up with an
establishment clause lawsuit. The District needs to be
right. That creates the right balance between the
constitutional rights of the employee and the
constitutional obligations of the District.
The test at issue comes from the Santa Fe case—
Santa Fe and Lee vs Weisman are the two Supreme
Court cases that deal with prayer in the context of
public schools. They look at coercion. Right? Supreme
Court evaluates whether school prayer has the
improper effect of coercing those present to participate
in an act of religious worship.
Go to the next slide. This is the conduct at issue.
Not students around him. Presence or absence of
students is irrelevant to Coach Kennedy.
I think as a matter of law, when a coach kneels for
a 15-second silent, personal, private prayer, as
everybody else is milling about following the postgame, there is no coercive effect. There is no captive
audience. Nobody—after receiving the direction from
the District, no Bremerton School District students
participated in any prayers with Coach Kennedy ever
again. This is not the Borden case, it is not the Doe
case.
I want to also make sure I touch on the free
exercise claim that we have, which is separate from

App-188
the free speech claim. Let’s go ahead and jump to slide
40.
Under the free exercise clause, and specifically
under the Supreme Court’s Church of the Lukumi
case, you can’t have a policy—we have Employment
Division vs Smith, which says a neutral policy of
general applicability is fine. What you can’t have is a
policy that specifically targets speech because it is
religious.
We would submit that is exactly what happened
here. The District’s policy towards Coach Kennedy is
he could not engage in demonstrative religious activity
in front of students. That’s precisely the type of
religion-specific policy that Church of Lukumi said is
not constitutional.
No question they suspended Coach Kennedy
because his conduct was religious. Had he talked to an
opposing coach about a recent presidential debate or
election, some other type of expression, he would not
have been suspended. It was specifically because of
the religious content of his speech that he was
targeted. As a result, we are in Church of the Lukumi
land, and the District has to satisfy strict scrutiny.
Ultimately, that analysis will collapse into the
establishment clause analysis because the District
will say, well, look, the interest that we are trying to
vindicate under strict scrutiny is avoiding the
establishment clause violation. For all the reasons I
have talked about, and I won’t go over again, that is
incorrect.
Finally, Your Honor, and I will make sure to give
time to my opponent, we have Title VII claims. Those
claims raise similar issues. We have the disparate

App-189
impact claim where Coach Kennedy has to show he
belonged to a protected class; not in dispute. That he
was qualified; not in dispute. Third, that he was
subjected to an adverse employment action. Again, not
in dispute. Four, similarly situated individuals were
treated more favorably.
The evidence shows the District did not target
coaches who engaged in non-religious forms of
expression following football games, whether it is
talking to somebody else about any topic. There was
testimony that there was an assistant football coach
who did a Buddhist chant once. Wasn’t as
demonstrative as kneeling down, but he did it. He was
not subjected to adverse action.
The second Title VII claim is the failure to
accommodate claim. The reasons here ultimately are
going to collapse. The District never offered an
accommodation that would satisfy Coach Kennedy’s—
or, eliminate the religious conflict between what
Coach Kennedy was doing.
Third, there is a retaliation claim based on the
District’s action once Coach Kennedy asserted his
constitutional rights in the October 14th letter.
With that, Your Honor, I will take a seat.
THE COURT: Thank you, Mr. Anderson.
Mr. Tierney, good to see you again.
MR. TIERNEY: Good to see you. I don’t hear that
often.
THE COURT: We’re a kinder, gentler group.
MR. TIERNEY: What I would like to do, Your
Honor, is pull back a little bit and emphasize an

App-190
overriding principle here, that we aren’t deciding this
case on the basis of overriding principles or broad
rules or a one-size-fits-all test. If there is anything we
learn from free speech and free exercise cases, it is
that every case is decided on its particular facts.
I think that addresses Judge Alito’s concerns. I
think he was talking about the implications of some of
the language in the Ninth Circuit opinion as to how it
might be applied in other situations. Nowhere does he
say that the Ninth Circuit failed to address this case
on the specific facts of the speech.
THE COURT: I commented last time that on
religious freedom cases, I prepare oral argument,
write the decision, and burn all the stuff because you
cannot keep the forms, the cookie cutters that you
think might come in handy as you go. You have to start
all over with the particular facts and circumstances.
MR. TIERNEY: I agree. I think that is what we
need to do here. I’ll be addressing, you know, what is
the broad implication if this rule is applied in
somebody’s lunchroom or some other place. This is a
case limited to the facts here.
I want to go out of order and move to the end of
when we are talking about the speech in question,
talking about the activities that took place, what do
we end up with? What are the actual facts taking place
at the end?
Now, I would like to turn the document camera
on.
THE CLERK: It is on.
MR. TIERNEY: We saw a slide at the start of Mr.
Kennedy’s last prayer, the last game that he is

App-191
playing. That is just as he is starting to kneel down,
and there are other people coming to join him. Counsel
described it as other coaches milling around. In fact,
there weren’t other coaches milling around. There we
go.
That was the first step in—that you saw before of
Mr. Kennedy starting to kneel. This is what the prayer
itself looked like as it was being performed.
Mr. Kennedy was joined by this other group of
people. The facts of the last prayer that took place is a
prayer circle at mid-field. It is interesting who these
people are. This man in the trench coach with the “No.
2” on his back is a state representative.
THE COURT: Jesse Young.
MR. TIERNEY: Jesse young. Next to him with the
“No. 3” is another state representative. We have two
government officials praying at mid-field with the
coach. There is two students there. We have heard
discussion about Mr. Kennedy didn’t want to pray
with students. In fact, that was the heart of the letter
that he wrote was that he be given permission to pray
with students. That’s the only position he ever
communicated to the District. That is the position that
his representatives made clear was the only position
he was presenting. They turned down every
opportunity to negotiate with the District or join in
some form of looking for an accommodation. Mr.
Kennedy admitted that in his deposition. We cited all
that.
The position he took is entirely set forth in the
letter of October, I think it was the 14th, October 14th
letter.

App-192
This is what we are analyzing in the issues in this
case. This is the instance of speech.
THE COURT: Is this in the declarations?
MR. TIERNEY: Yes.
THE COURT: I have seen so many—
MR. TIERNEY: It is attached in our exhibits,
Your Honor. I have also cited the testimony of Mr.
Kennedy where he is identifying these various people,
some at least he said he didn’t know. He agrees there
appears to be two school-aged children there. This
person No. 9 is taping or videoing the event.
This is—to back up a little bit, this is after a game.
The context, the event that is happening, we are not
talking about a casual, something at practice,
something at some other situation. For these players,
there is only about ten of these events a year. This is
a big moment. There is a context that is attached to
this demonstration that is taking place here. That
carries meaning. It is a communication to the people
around. That is not something that can be denied
seriously, with a straight face.
This is a big moment for the kids. It is a big
moment for the parents in the stands at games. The
testimony from Mr. Barton was there is sometimes as
many as a thousand people at a game, certainly
hundreds. There is only a few of these events per year.
There is band members, cheerleaders, everybody
around.
If you look at that video of this, what takes place
after this is, as his team comes back out onto the field,
he addresses the team, the state legislators address

App-193
the team. That is part of the context of the
communication that is taking place.
It is more than just a 15-second private, personal,
unobservable prayer by Mr. Kennedy. It is a staged
demonstration. However laudable, it is still a
communication to everybody around about what the
coach values, about what is taking place with the
people that are going to address the team. It is a
message to the players. It is a message to the people
in the stands. This is what we analyzed in this case.
This is certainly what the history was leading up to is
this, that these—we have a picture I submitted in our
materials of the prayer practice before of the students
kneeling around Mr. Kennedy, him holding up two
helmets, praying, delivering this prayer in a standing
position in that situation. This all carries a context. It
all carries communication to the people around.
I know that is at the end. I think it is important
to point out where this goes.
The comments, the argument from the plaintiffs
is that this is all about the establishment clause in the
School District’s mind, the School District’s position.
But that isn’t what was said. What was said was the
constitutional rights of students and others.
In a letter from Mr. Ganson early on in the
matter, he pointed out that the Washington
Constitution imposes stricter requirements than the
Federal Constitution. There is the issue of the
establishment clause under the Washington
Constitution.
There is also concerns expressed, and I will pull
out some of those materials and show you, about the
forum rules, the forum access rules for the District,

App-194
and that this was not an open forum. This was not a
platform for private speech.
The District’s concern is that by allowing Mr.
Kennedy to present his speech at this center stage,
that it had to open a forum for anybody else to present
their speech. There could be, in that instance, no
distinctions drawn between the kind of speech that
was allowed. The District can’t discriminate on a
content basis if it has an open, public forum. It can’t
say, well, Mr. Kennedy is allowed to pray, but we are
not going to let somebody else conduct a religious
ceremony.
THE COURT: We had a forum issue with the
Department of Ecology. They allowed employees with
particular interests to use their lobby and atrium in
their building for promotion, charitable activities, and
there were some labor meetings where their
representative counsel was with them and there was
an attempt by those who were trying to communicate
with them about their right to opt out of union
membership. That is perhaps at the Ninth Circuit
now.
I felt like they didn’t—there was a clear
distinction, a purpose, and the antis would be outside
in front of the place handing out their literature and
the like.
It is a complex issue about what is a private
forum, what is an open forum, and what is a melded
forum situation.
MR. TIERNEY: Indeed. It is a thicket for a public
agency to enter into, if it wants to try to limit a forum
and/or somehow police a partly open forum.

App-195
We cite the DiLoreto case where the Ninth Circuit
upheld a school district’s decision to not want to enter
that thicket and closing a forum completely just to
avoid having to make those sorts of decisions. That
involved posting advertisements on baseball field
fences that included the Ten Commandments, and
rather than have to deal with that, the school district
said, fine, we won't have advertising on the fences, and
that was an acceptable response.
In this case, we could easily imagine if somebody
wants to say, well, the field afterward is an open,
public forum, so I get to do whatever speech I want.
Would this case be decided differently if, instead
of going out and saying a prayer, Mr. Kennedy held up
somebody’s campaign banner at the close, “vote for
Clinton,” “vote for Trump” at the end. Would there be
any problem with the District saying, no, we don’t
want that?
I think that also goes to the question of whether
this is directed at religion. The District didn’t close the
forum only for religious expression. It closed the forum
for anybody’s expression. It doesn’t allow anybody else
to go out there and conduct a social protest, burn a
flag, support this cause or that cause.
Having pointed that out, I am going to—
THE COURT: It is important, at the end of the
day, you have to pick your cabin, what this case is
about and what it is not about.
Mr. Anderson says it is about the establishment
clause.
MR. TIERNEY: It is about constitutional rights,
and constitutional rights include the establishment

App-196
clause. They include the rights of others to have access
to an open, public forum. There is really two kinds of
rights there. I don’t think—I don’t agree that we
necessarily have to choose between those. I think they
were both concerns of the School District’s.
It is expressed in the letters, when Mr. Kennedy
was put on administrative leave and the District sent
out a communication to the public, one of the things
that was asked by the District in its Q and A—and it
responded—“Is the District allowing other groups to
use the football field for religious activities?” “During
and after games until attendees leave, the field and
stadium are exclusively in use by the District for
District-sponsored events. The football field is not a
public forum when it is used for a District-sponsored
event.” That was on the District’s mind back then.
Partly, it is an establishment clause issue. Factually,
historically, that is also a piece of the District’s mind.
Here is another internal communication by the
District. Again, this—
THE COURT: I have seen this.
MR. TIERNEY: 64.21, the District is saying, this
issue of equity is exactly the door we were worried
about opening to all groups with Joe establishing his
ritual of prayer after games. That is a piece of this
case.
We have an establishment clause analysis to do,
but we also have a public forum analysis to do.
Since I am on the public forum topic, there is no
case that allows—no authority that allows a school
district employee to determine the content of a school
district event. That is in the hands of the district. The

App-197
district can say, this is the play we are going to put on.
This is who is going to sing at the pep rally. This is
how we are going to conduct our post-game
ceremonies.
The District wanted, for safety reasons—and
having been a lacrosse coach and seeing it happen, we
might want to eliminate the handshake line. I saw a
couple of handshake lines go bad in my time. It is up
to the District to make those determinations. It is up
to the District to decide who is going—what song the
band is going to play at halftime. It is up to the District
to decide whether it is going to present a prayer as
part of its closing ceremonies. That is not something
the District surrenders just by hiring somebody and
giving them a position as an assistant coach. It doesn’t
say, okay, now you get to determine what we do on the
football field as part of our closing ceremonies.
The District—this is part of what was involved in
the discussions about: Are you on duty, off duty, is the
event still going on. The District’s direction to Mr.
Kennedy was that yes, this is still an event going on.
You are still part of the District. You are still subject
to our directions. We don’t want this to be part of the
event.
There is no authority that allows Mr. Kennedy to
say no, I am going to speak what I am going to speak
at halftime—not halftime, but at the closing
ceremony. I am going to hold up a campaign sign, say
a prayer, or do whatever. Certainly, there is no
authority that says, I am going to invite people out
onto the field to pray in the middle of the field with me
and address the team afterward. There is simply no
authority for that.

App-198
That is what we are analyzing here in this case.
One thing that was left out. Sorry I was shuffling.
I was cutting a couple things out of the binder. The
timeline here leaves out the first letter from the
District, which is October 16th. That is Document 7115. I think looking at that document will tell us—this
is the District’s first response once it hears from Mr.
Kennedy.
Just to back up. The District had its first exchange
with Mr. Kennedy. It issued written directions. As I
put in our briefing materials, the next thing it knows,
it sees a news report that says Mr. Kennedy has
returned to the field after the game and prayed an
hour later. District thinks things are fine. Doesn’t
have anybody else monitoring him after that, and then
gets this letter on October 14th that says—well, it says
what it says.
Then the District responds to that, which isn’t
shown on the timeline. The response is addressing
some of the points I am talking about. You are on—at
the event on the field under the game lights solely by
virtue of your employment. The field is not an open
forum to which members of the public are invited.
I want to make sure I have the right date on this,
Your Honor. This is the October 23rd letter. Sorry.
THE COURT: Let me see if I can pull it up.
MR. TIERNEY: No matter how much you
rehearse this.
THE COURT: I don’t have a letter of October 16th
in the file. I had a verdict last night at 5:00. We have
the day.

App-199
MR. TIERNEY: It is underneath an email. This is
document 71-15. It starts with an email. This is what
is attached underneath the email.
I am looking on this point in the middle here
where it states, “After all, the District activity is not
merely an athletic contest. The event encompasses all
the pregame preparation and post-game activities
attendant to which and are, as much as the game
itself, reasons for District athletic programs.” The
District is pointing out to Mr. Kennedy the importance
of the post-game ceremonies.
Then it goes on, on the next page, to distinguish
that period of time from later when he is no longer on
duty, he is free to engage in such activities as he
chooses so long as they are otherwise consistent with
the District policies regarding private use of District
facilities.
In the first written response to Mr. Kennedy’s
letter, the District points out that he has to obey the
District rules for access to District facilities for his
speech. It is specifically—it goes on in the paragraph
to acknowledge, we know, we saw the reports that you
are going back to the field and praying after games.
We have no problem with that practice. That is the
paragraph, and it continues on.
In this case, from the beginning there was
concerns about the impact on District policies of
allowing—of opening the post-game ceremonies to—as
a forum for private speech. For that reason, Mr.
Kennedy doesn't gain anything in that argument by
saying whether he is speaking as a public employee or
private citizen. If he is speaking as a public employee,
he doesn’t have free speech rights under the Pickering

App-200
test. If he is not speaking as a public employee, he
doesn’t have access to the field and he is violating the
District’s rules on that basis.
I won’t go through the others. In each of the letters
after, it mentions to him the field is not an open, public
forum. That is important on its own. It is also
important as to how that colors the establishment
clause issue.
The establishment clause issue turns on
endorsement by the government. That is one of the
tests. We cite three different tests in the coercion test
and the Lemon test.
The endorsement test, the effect, the aura of
endorsement grows even stronger in a situation where
the District is allowing its property to be used only by
one employee, and only for a religious expression, and
only at the center stage of the post-game ceremonies
in one of the big events of the year, and nobody else is
allowed to use the field for any reason. That adds to
the aura of endorsement.
When you add to it that it is a prior circle attended
by two elected politicians who are allowed access as
well, that adds to the issue of endorsement.
I won’t pull it up, but the first picture from the
Centralia game where Mr. Kennedy is in the field, the
person right next to him again in the tan trench coat
is Representative Jesse Young. Anybody with
knowledge of the situation, anybody who had been
following it, would see and would be aware of that
history. That is one of the aspects for a test under the
endorsement test is what is being communicated, if
you have an awareness of the history of the situation,
that Mr. Young has been out there praying with Mr.

App-201
Kennedy on the field and supporting him in his efforts
through that. That, again, however laudable that
might be, however proper the message might be for a
person to receive, for a young athlete to receive, it is
still an endorsement by the government of that
message of religion in a situation where it should be
neutral.
I think I have basically covered what I have to say.
In the process, I wanted to point out, and I think I did,
that there are other aspects to the facts, not that we
are disputing the facts—
THE COURT: Are there any disputed facts?
MR. TIERNEY: I don’t think there are any
disputed facts. I think there is a question of whether
everything is material, certainly. They are not
contending that the District knew that Mr. Kennedy
was doing some prayers while the District thought he
wasn’t praying anymore. The District quit monitoring
him.
They are not disputing that he returned to the
field or that that was published in the paper. I don’t
believe there is really any dispute about those things.
THE COURT: Of what significance is the fact that
Mr. Kennedy did not reapply?
MR. TIERNEY: I understand the argument that
he is saying that it would have been futile for me to
reapply. It was clear that I wouldn’t have gotten the
job if I did.
I couldn’t concede that for purposes of argument
in saying that’s fine, you can sue for them sending you
that message or making it clear by the context that
you wouldn’t be rehired, but you can’t sue them for

App-202
failing to rehire you if you didn’t apply. I mean, you
have to do something to trip the wire for that
argument. The District didn’t get an application from
him, had four positions to fill and filled them with
people who had applied. It didn’t fail to rehire him.
It may seem like a small step, but it is the kind of
thing that legal tests sometimes turn on where we
have to do things to trigger a situation. I think that is
the significance of it. I don’t think it is a monumental
point in the case because I believe the District’s
actions were justified in setting that requirement. I
think that is the effect of it.
THE COURT: With regard to asserted remedies,
is that an issue at this time?
MR. TIERNEY: I think it would be if we were at a
remedy phase. Yeah, it would definitely. I don’t think
there is misconduct by the District to remedy there. It
may be a technical point.
THE COURT: I am just trying to cover the
waterfront of what—is this a two-step dance, one-step
dance. It has already been one step. We are at two. All
right.
Thank you, Mr. Tierney.
THE COURT: Mr. Anderson.
MR. ANDERSON: Thank you, Your Honor. Let
me start where the Court left off on the question of
reapplication. The law is clear under the Dahlia vs
Rodriguez case, a placement on suspension is
sufficient injury for 1983 purposes. There is still a live
claim. We had testimony from the athletic director,
from the head football coach that unless and until the
directive was either rescinded by the District or Coach

App-203
Kennedy would agree to comply with the directive, he
would not be rehired. To the extent we need to get to
a remedy phase, and what that remedy—if it is
rescission
of
the
directive,
or
mandatory
reinstatement, we can get to that at a separate phase.
I want to emphasize there is no significance to the
legal issues of the case, of the fact he did not formally
do a reapplication. There was no need to engage in a
futile act of doing that.
I want to turn to the forum, this late-breaking
forum argument from the District. I think it is
somewhat remarkable that the District has moved
away from the establishment clause, establishment
clause, establishment clause and now is making all
the argument about forum access.
THE COURT: If they can build a corral small
enough that it weighs heavily on their side, it is a winwin. They say this promotes and endorses the
establishment clause, and that was covered
extensively in their brief, and if he is—if he is a private
citizen, he is not entitled to go onto the 50-yard line
and pray.
MR. ANDERSON: But it is a lose-lose for public
employees under that. That violates Tinker. Under the
District’s argument, they are saying, we want to
maintain the school as a non-public forum, is I think
what their argument is. Tinker says under that
rationale, then we are violating Tinker because public
employees could never engage in any religious activity
so long as they are in view of somebody. They can’t
have it both ways.

App-204
The exhibit—Mr. Tierney did not read this portion
of this exhibit. If we put back up this October 16th
letter, I drew an arrow to it.
There is a District policy regarding the private use
of District facilities—which do not prohibit religious
activities. The fact that—the—I think the confusion is
the forum analysis actually doesn’t come into play
under Pickering. If you look at the Johnson case,
Johnson was a case you might remember with the
school teacher, math teacher who had the posters—
THE COURT: Right.
MR. ANDERSON:—in his room that highlighted
God. One country under God, one nation under God,
and highlighted those. The court there said no, no, we
don’t do a forum analysis. The plaintiff there had
argued, well, semi public, different categories of
forums. The Ninth Circuit said no, the forum analysis
is not the right analysis for the Pickering claims by
public employees. That makes sense, because
otherwise the government employer could always say,
it is a non-public forum, so you cannot engage in any
private religious expression, even if it is—there is no
impetus of coercion, no indicia of endorsement.
THE COURT: How do you say “Poway”?
MR. ANDERSON: I am not going to fall into that
trap.
The forum analysis, number one, that’s not the
reason the District took the action. This is something
that has come up as litigation has gone on, and
frankly, is a sign the District has lost some confidence
in the establishment clause issue.

App-205
I think—but more fundamentally, as I said, if you
look at Johnson vs Poway, the Ninth Circuit said we
don't do a forum analysis in the Pickering context.
That makes sense because otherwise you start to run
into Tinker.
I wanted to make sure I hit that forum point.
Also a reference to the Washington State
Constitution, and that potentially being more broad.
Again, all the cases that are cited—go back—the Court
can go back and look at the letters. They are all federal
establishment clause cases. That was the impetus of
the District’s position. Not until the litigation, have
they started to reference more directly the
Washington State Constitution.
Let’s not forget, we are talking about Coach
Kennedy’s federal constitutional rights. Under the
supremacy clause, the Washington State Constitution
could not trump Coach Kennedy’s federal
constitutional rights in all events.
I don’t think the—I don’t think the District can
run away from the foundational question here which
is: Does the private, 15-second prayer, is that speech
by a private employee—a private citizen, is he
speaking as a private citizen at that moment? Again,
Tinker and Pickering are clear that you can’t just
forbid, just because they happen to still be on the clock
in the formal sense of “at work,” that doesn’t mean
they are now stripped of their First Amendment
rights.
For those reasons, Your Honor, we would ask that
summary judgment be granted on the constitutional
and Title VII claims.

App-206
THE COURT: Mr. Tierney, anything you want to
add?
MR. TIERNEY: Berry vs Department of Social
Services explains the circumstances under which
forum analysis applies to a freedom of religion, free
speech claim. It not employed there. It is not employed
in the broad sense of just saying everything is a forum.
When there is an issue of whether the government
entity is imposing a non-public or limited public forum
on a government space, it does apply. That is in the
Berry case, Ninth Circuit case.
THE COURT: Anything, Mr. Anderson?
MR. ANDERSON: No, Your Honor. Berry is
distinguishable. The Court can read that and figure it
out.
THE COURT: Thank you very much for your
scholarship, advocacy, and also for the litigants. You
all are without guile. You are doing what you perceive
to be the right thing to do for the right reasons. It is a
first class lesson in civics, the Constitution, and we
have to live it out now.
I am the low rung on the ladder. I am sure that
the ladder will be climbed. I will get you my written
decision within—well, very soon.
Have a great weekend. Thanks again. Court will
be at recess.
*

*

*
s/Angela Nicolavo
ANGELA NICOLAVO
COURT REPORTER

App-207
Appendix F
SUPREME COURT OF THE UNITED STATES
________________
No. 18-12
________________
JOSEPH A. KENNEDY,
Petitioner,
v.
BREMERTON SCHOOL DISTRICT,
Respondent.
________________
Filed: January 22, 2019
________________
Before: ALITO, THOMAS, GORSUCH, AND
KAVANAUGH,
Justices.
________________
OPINION
________________
The petition for a writ of certiorari is denied.
Statement of JUSTICE ALITO, with whom
JUSTICE THOMAS, JUSTICE GORSUCH, and
JUSTICE KAVANAUGH join, respecting the denial of
certiorari.
I concur in the denial of the petition for a writ of
certiorari because denial of certiorari does not signify
that the Court necessarily agrees with the decision
(much less the opinion) below. In this case, important
unresolved factual questions would make it very

App-208
difficult if not impossible at this stage to decide the
free speech question that the petition asks us to
review.
I.
Petitioner Joseph Kennedy claims that he lost his
job as football coach at a public high school because he
engaged in conduct that was protected by the Free
Speech Clause of the First Amendment. He sought a
preliminary injunction awarding two forms of relief:
(1) restoration to his job and (2) an order requiring the
school to allow him to pray silently on the 50-yard line
after each football game. The latter request appears to
depend on petitioner’s entitlement to the first—to
renewed employment—since it seems that the school
would not permit members of the general public to
access the 50-yard line at the relevant time.
The key question, therefore, is whether petitioner
showed that he was likely to prevail on his claim that
the termination of his employment violated his free
speech rights, and in order to answer that question it
is necessary to ascertain what he was likely to be able
to prove regarding the basis for the school’s action.
Unfortunately, the answer to this second question is
far from clear.
On October 23, 2015, the superintendent wrote to
petitioner to explain why the district found
petitioner’s conduct at the then-most recent football
game to be unacceptable. And in that letter, the
superintendent gave two quite different reasons: first,
that petitioner, in praying on the field after the game,
neglected his responsibility to supervise what his
players were doing at that time and, second, that
petitioner’s conduct would lead a reasonable observer

App-209
to think that the district was endorsing religion
because he had prayed while “on the field, under the
game lights, in BHS-logoed attire, in front of an
audience of event attendees.” 869 F. 3d 813, 819 (CA9
2017). After two subsequent games, petitioner again
kneeled on the field and prayed, and the
superintendent then wrote to petitioner, informing
him that he was being placed on leave and was
forbidden to participate in any capacity in the school
football program. The superintendent’s letter
reiterated the two reasons given in his letter of
October 23. And the district elaborated on both
reasons in an official public statement explaining the
reasons for its actions.
When the case was before the District Court, the
court should have made a specific finding as to what
petitioner was likely to be able to show regarding the
reason or reasons for his loss of employment. If the
likely reason was simply petitioner’s neglect of his
duties—if, for example, he was supposed to have been
actively supervising the players after they had left the
field but instead left them unsupervised while he
prayed on his own—his free speech claim would likely
fail. Under those circumstances, it would not make
any difference that he was praying as opposed to
engaging in some other private activity at that time.
On the other hand, his free speech claim would have
far greater weight if petitioner was likely to be able to
establish either that he was not really on duty at the
time in question or that he was on duty only in the
sense that his workday had not ended and that his
prayer took place at a time when it would have been
permissible for him to engage briefly in other private

App-210
conduct, say, calling home or making a reservation for
dinner at a local restaurant.
Unfortunately, the District Court’s brief, informal
oral decision did not make any clear finding about
what petitioner was likely to be able to prove. Instead,
the judge’s comments melded the two distinct
justifications:
“He was still in charge. He was still on the job.
He was still responsible for the conduct of his
students, his team. … And a reasonable
observer, in my judgment, would have seen
him as a coach, participating, in fact leading
an orchestrated session of faith … ” App. to
Pet. for Cert. 89.
The decision of the Ninth Circuit was even more
imprecise on this critical point. Instead of attempting
to pinpoint what petitioner was likely to be able to
prove regarding the reason or reasons for his loss of
employment, the Ninth Circuit recounted all of
petitioner’s prayer-related activities over the course of
several years, including conduct in which he engaged
as a private citizen, such as praying in the stands as a
fan after he was suspended from his duties.
If this case were before us as an appeal within our
mandatory jurisdiction, our clear obligation would be
to vacate the decision below with instructions that the
case be remanded to the District Court for proper
application of the test for a preliminary injunction,
including a finding on the question of the reason or
reasons for petitioner’s loss of employment. But the
question before us is different. It is whether we should
grant discretionary review, and we generally do not
grant such review to decide highly fact-specific

App-211
questions. Here, although petitioner’s free speech
claim may ultimately implicate important constitutional issues, we cannot reach those issues until the
factual question of the likely reason for the school
district’s conduct is resolved. For that reason, review
of petitioner’s free speech claim is not warranted at
this time.
II.
While I thus concur in the denial of the present
petition, the Ninth Circuit’s understanding of the free
speech rights of public school teachers is troubling and
may justify review in the future.
The Ninth Circuit’s opinion applies our decision in
Garcetti v. Ceballos, 547 U. S. 410 (2006), to public
school teachers and coaches in a highly tendentious
way. According to the Ninth Circuit, public school
teachers and coaches may be fired if they engage in
any expression that the school does not like while they
are on duty, and the Ninth Circuit appears to regard
teachers and coaches as being on duty at all times
from the moment they report for work to the moment
they depart, provided that they are within the
eyesight of students. Under this interpretation of
Garcetti, if teachers are visible to a student while
eating lunch, they can be ordered not to engage in any
“demonstrative” conduct of a religious nature, such as
folding their hands or bowing their heads in prayer.
And a school could also regulate what teachers do
during a period when they are not teaching by
preventing them from reading things that might be
spotted by students or saying things that might be
overheard.

App-212
This Court certainly has never read Garcetti to go
that far. While Garcetti permits a public employer to
regulate employee speech that is part of the
employee’s job duties, we warned that a public
employer cannot convert private speech into public
speech “by creating excessively broad job
descriptions.” Id., at 424. If the Ninth Circuit continues to apply its interpretation of Garcetti in future
cases involving public school teachers or coaches,
review by this Court may be appropriate.
What is perhaps most troubling about the Ninth
Circuit’s opinion is language that can be understood to
mean that a coach’s duty to serve as a good role model
requires the coach to refrain from any manifestation
of religious faith—even when the coach is plainly not
on duty. I hope that this is not the message that the
Ninth Circuit meant to convey, but its opinion can
certainly be read that way. After emphasizing that
petitioner was hired to “communicate a positive
message through the example set by his own conduct,”
the court criticized him for “his media appearances
and prayer in the BHS bleachers (while wearing BHS
apparel and surrounded by others).” 869 F. 3d, at 826.
This conduct, in the opinion of the Ninth Circuit,
“signal[ed] his intent to send a message to students
and parents about appropriate behavior and what he
values as a coach.” Ibid. But when petitioner prayed
in the bleachers, he had been suspended. He was
attending a game like any other fan. The suggestion
that even while off duty, a teacher or coach cannot
engage in any outward manifestation of religious faith
is remarkable.

App-213
III.
While the petition now before us is based solely on
the Free Speech Clause of the First Amendment,
petitioner still has live claims under the Free Exercise
Clause of the First Amendment and Title VII of the
Civil Rights Act of 1964. See Brief in Opposition 11, n.
1. Petitioner’s decision to rely primarily on his free
speech claims as opposed to these alternative claims
may be due to certain decisions of this Court.
In Employment Div., Dept. of Human Resources of
Ore. v. Smith, 494 U. S. 872 (1990), the Court
drastically cut back on the protection provided by the
Free Exercise Clause, and in Trans World Airlines,
Inc. v. Hardison, 432 U.S. 63 (1977), the Court opined
that Title VII’s prohibition of discrimination on the
basis of religion does not require an employer to make
any accommodation that imposes more than a de
minimis burden. In this case, however, we have not
been asked to revisit those decisions.

App-214
Appendix G
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 16-35801
________________
JOSEPH A. KENNEDY,
Plaintiff-Appellant,
v.
BREMERTON SCHOOL DISTRICT,
Defendant-Appellee.
________________
Filed: August 23, 2017
________________
Before: NELSON, J., SMITH, JR., J., and
CHRISTEN, J., Circuit Judges.
________________
OPINION
________________
M. SMITH, Circuit Judge:
Bremerton High School (BHS) football coach
Joseph A. Kennedy appeals from the district court’s
order denying his motion for a preliminary injunction
that would require Bremerton School District (BSD or
the District) to allow Kennedy to kneel and pray on
the fifty-yard line in view of students and parents
immediately after BHS football games. We affirm.

App-215
FACTUAL AND PROCEDURAL BACKGROUND
A. Bremerton School District
BSD is located in Kitsap County, Washington,
across the Puget Sound from Seattle. The District is
home to approximately 5,057 students, 332 teachers,
and 400 non-teaching personnel. BSD is religiously
diverse. Students and families practice, among other
beliefs, Judaism, Islam, the Bahá’í faith, Buddhism,
Hinduism, and Zoroastrianism.
BSD employed Kennedy as a football coach at
Bremerton High School from 2008 to 2015. Kennedy
served as an assistant coach for the varsity football
team and also as the head coach for the junior varsity
football team. Kennedy’s contract expired at the end
of each football season. It provided that BSD
“entrusted” Kennedy “to be a coach, mentor and role
model for the student athletes.” Kennedy further
agreed to “exhibit sportsmanlike conduct at all times,”
and acknowledged that, as a football coach, he was
“constantly being observed by others.”
Kennedy’s formal job description required him to
assist the head coach with “supervisory responsibilities,”
“[a]dhere to Bremerton School District policies and
administrative regulations,” “communicate effectively”
with parents, “maintain positive media relations,” and
“[o]bey all the Rules of Conduct before players and the
public as expected of a Head Coach,” including the
requirement to “use proper conduct before the public and
players at all times.” Consistent with his responsibility
to serve as a role model, Kennedy’s contract required
that, “[a]bove all” else, Kennedy would endeavor not only
“to create good athletes,” but also “good human beings.”

App-216
B. Kennedy’s Religious Beliefs and Past
Practices
Kennedy is a practicing Christian. Between 2008
and 2015, he led students and coaching staff in a
locker-room prayer prior to most games. He also
participated in prayers that took place in the locker
room after the games had ended. Kennedy insists
these activities predated his involvement with the
program, and were engaged in as a matter of school
tradition. His religious beliefs do not require him to
lead any prayer before or after BHS football games.
Kennedy’s religious beliefs do require him to give
thanks through prayer at the end of each game for the
players’ accomplishments and the opportunity to be a
part of their lives through football. Specifically,
“[a]fter the game is over, and after the players and
coaches from both teams have met to shake hands at
midfield,” Kennedy feels called to “take a knee at the
50-yard line and offer a brief, quiet prayer of
thanksgiving for player safety, sportsmanship, and
spirited competition.” Kennedy’s prayer usually lasts
about thirty seconds. He wears a shirt or jacket
bearing a BHS logo when he prays at midfield.
Because his “prayer lifts up the players and recognizes
their hard work and sportsmanship during the game,”
Kennedy’s religious beliefs require him to pray on the
actual field where the game was played.
Kennedy began performing these prayers when he
first started working at BHS. At the outset, he prayed
alone. Several games into his first season, however, a
group of BHS players asked Kennedy whether they
could join him. “This is a free country,” Kennedy
replied, “You can do what you want.” Hearing that

App-217
response, the students elected to join him. Over time,
the group grew to include the majority of the team.
Sometimes the BHS players even invited the opposing
team to join.
Eventually, Kennedy’s religious practice evolved
to something more than his original prayer. He began
giving short motivational speeches at midfield after
the games. Students, coaches, and other attendees
from both teams were invited to participate. During
the speeches, the participants kneeled around
Kennedy, who raised a helmet from each team and
delivered a message containing religious content.
Kennedy subsequently acknowledged that these
motivational speeches likely constituted prayers.
C. The September 17, 2015, Letter from
BSD to Kennedy
The District first learned that Kennedy was leading
locker-room prayers and praying on the field in
September 2015, when an employee of another school
district mentioned the post-game prayers to a BSD
administrator.1 The discovery prompted an inquiry
into whether Kennedy was complying with the school
board’s policy on “Religious-Related Activities and
Practices.” Pursuant to that policy, “[a]s a matter of
individual liberty, a student may of his/her own
volition engage in private, non-disruptive prayer at
any time not in conflict with learning activities.” In
addition, “[s]chool staff shall neither encourage nor
discourage a student from engaging in non-disruptive
1 The District had not received complaints up to that point. As
the community became aware of Kennedy’s practices, however,
the District reports that individuals “expressed concern about
Mr. Kennedy’s actions.”

App-218
oral or silent prayer or any other form of devotional
activity.”
Kennedy was candid and cooperative throughout
the District’s inquiry. The investigation revealed that
coaching staff had received little training regarding
the District’s policy. Accordingly, BSD Superintendent
Aaron Leavell sent Kennedy a letter on September 17,
2015, to clarify the District’s prospective expectations.
Leavell explained that Kennedy’s two practices
were “problematic” under the Establishment Clause,
but he acknowledged that they were well-intentioned
and that Kennedy had “not actively encouraged, or
required, [student] participation.” Leavell advised
Kennedy that he could continue to give inspirational
talks, but “[t]hey must remain entirely secular in
nature, so as to avoid alienation of any team member.”
He further advised that “[s]tudent religious activity
must be entirely and genuinely student-initiated, and
may not be suggested, encouraged (or discouraged), or
supervised by any District staff.” Leavell further
counseled Kennedy that “[i]f students engage in
religious activity, school staff may not take any action
likely to be perceived by a reasonable observer, who is
aware of the history and context of such activity at
BHS, as endorsement of that activity.” Lastly, Leavell
stressed that Kennedy was
free to engage in religious activity, including
prayer, so long as it does not interfere with
job responsibilities. Such activity must be
physically separate from any student activity,
and students may not be allowed to join such
activity. In order to avoid the perception of
endorsement discussed above, such activity

App-219
should either be non-demonstrative (i.e., not
outwardly discernible as religious activity) if
students are also engaged in religious
conduct, or it should occur while students are
not engaging in such conduct.
D. Kennedy Responds via an October 14th
Letter
By this point, Kennedy’s prayers had “generated
substantial publicity.” Comments on social media led
the District to be concerned that BHS would not be
able to secure its field after the September 18, 2015,
game, assuming—as it suspected—that a crowd would
come down from the stands to join Kennedy’s on-field
prayer. The District was “not able to prevent that from
happening” based on the state of its preparations, and
it decided that it would not “prevent access to the field
at that point.” On the day of the game, the school’s
concerns were not realized, however, because after
receiving the District’s letter, Kennedy temporarily
stopped praying on the field while students were
around. Instead, after the September 18th game,
Kennedy gave a short motivational speech “that
included no mention of religion or faith.” Then, once
“everyone else had left the stadium,” he walked to the
fifty-yard line, knelt, and prayed alone.
After complying in this manner for several weeks,
Kennedy wrote the District through his lawyer on
October 14, 2015. He requested a religious
accommodation under the Civil Rights Act of 1964
that would allow him to “continue his practice of
saying a private, post-game prayer at the 50-yard line”
immediately following BHS football games. The letter
opined that Kennedy’s religious expression occurred

App-220
during “non-instructional hours” because, according to
Kennedy, “his official coaching duties ceased” after the
games had ended. The letter also acknowledged that
Kennedy’s prayers were “audibl[e],” but stressed that
“he does not pray in the name of a specific religion,”
and “neither requests, encourages, nor discourages
students from participating in” his prayer. Lastly, the
letter announced that Kennedy would resume praying
on the fifty-yard line at the October 16, 2015, game.
Kennedy’s intention to pray on the field following
the October 16th game “was widely publicized,
including
through
[Kennedy’s]
own
media
appearances.” On the day of the game, the District had
not yet responded to Kennedy’s letter, but Kennedy
nonetheless proceeded as he had indicated. Once the
final whistle blew, Kennedy shook hands with the
opposing team and waited until most of the BHS
players were singing the fight song to the audience in
the stands. Then, he knelt on the fifty-yard line, bowed
his head, closed his eyes, “and prayed a brief, silent
prayer.” According to Kennedy, while he was kneeling
with his eyes closed, “coaches and players from the
opposing team, as well as members of the general
public and media, spontaneously joined [him] on the
field and knelt beside [him].” In the days after the
game, pictures were “published in various media”
depicting Kennedy praying while surrounded by
players and members of the public.
The District maintains that while Kennedy was
walking to the fifty-yard line, “[t]here were people
jumping the fence and others running among the
cheerleaders, band[,] and players.” Afterwards, “the
District received complaints from parents of band

App-221
members who were knocked over in the rush of
spectators on to the field.” Sometime after the game,
members of a Satanist religion contacted the District
and said they “intended to conduct ceremonies on the
field after football games if others were allowed to.”
Ultimately, the District made arrangements with the
Bremerton Police Department to secure the field after
games, then posted signs, made “robocalls” to District
parents, and “otherwise put the word out to the public
that there would be no [future] access to the field.”
Representatives of the Satanist religion showed up at
the next game, “but they did not enter the stands or go
on the field after learning that the field would be
secured.”2
E. The District’s October 23rd and October
28th Letters
Leavell sent Kennedy a second letter on October
23, 2015. He thanked Kennedy for his “efforts to
comply with the September 17 directives.” Still, he
explained that Kennedy’s conduct at the game on
October 16th was inconsistent with the District’s
requirements. Leavell emphasized “that the District
does not prohibit prayer or other religious exercise by
employees while on the job,” but “such exercise must
not interfere with the performance of job
responsibilities, and must not lead to a perception of
District endorsement of religion.”
2 Kennedy contends that prior to this date, BHS had allowed
parents and fans to walk onto the field after games to socialize
and congratulate the players. He does not meaningfully contest
that the field was not an open forum while in use by the District,
however, and that the District retained the right to limit public
access.

App-222
According to the District, Kennedy had not met
those requirements because “paid assistant coaches in
District athletic programs are responsible for
supervision of students not only prior to and during
the course of games, but also during the activities
following games and until players are released to their
parents or otherwise allowed to leave.” (emphasis
added). The District confirmed with Kennedy’s head
coach “that for over ten years, all assistant coaches
have had assigned duties both before and after each
game and have been expected to remain with the team
until the last student has left the event.” Thus, the
District told Kennedy,
[W]hen you engaged in religious exercise
immediately following the game on October
16, you were still on duty for the District. You
were at the event, and on the field, under the
game lights, in BHS-logoed attire, in front of
an audience of event attendees, solely by
virtue of your employment by the District.
The field is not an open forum to which
members of the public are invited following
completion of games; but even if it were, you
continued to have job responsibilities,
including the supervision of players. While
[BSD] understand[s] that your religious
exercise was fleeting, it nevertheless drew
you away from your work. More importantly,
any reasonable observer saw a District
employee, on the field only by virtue of his
employment with the District, still on duty,
under the bright lights of the stadium,

App-223
engaged in what was clearly, given your prior
public conduct, overtly religious conduct. 3
The District reiterated that it “can and will”
accommodate “religious exercise that would not be
perceived as District endorsement, and which does not
otherwise interfere with the performance of job
duties.” To that end, it suggested that “a private
location within the school building, athletic facility or
press box could be made available to [Kennedy] for
brief religious exercise before and after games.”
Kennedy, of course, could also resume his prior
practice of praying on the fifty-yard line after the
stadium had emptied. Because the “[d]evelopment of
accommodations is an interactive process,” the
District invited Kennedy to offer his own suggestions.
The District also reminded Kennedy that “[w]hile on
duty for the District as an assistant coach, you may
not engage in demonstrative religious activity, readily
observable to (if not intended to be observed by)
students and the attending public.”
F. Kennedy Continues Praying on the
Fifty-Yard Line
Kennedy’s legal representatives responded to the
District’s letter by informing the media that the only
acceptable outcome would be for the District to permit
Kennedy to pray on the fifty-yard line immediately

3 Kennedy appears to have abandoned his argument that he
was not “on duty” after the games. Instead, he contends that he
never received a post-game assignment “that would prohibit
[him] from engaging in religious expression lasting no more than
30 seconds.”

App-224
after games.4 Kennedy’s conduct bore that out. He
prayed on the fifty-yard line immediately after the
game on October 23rd, and once again after the game
on October 26th.
The District subsequently notified Kennedy in an
October 28th letter that he had violated the District’s
directives and would be placed on paid administrative
leave from his position as an assistant coach. The
District also publicly-released a document entitled
“Bremerton School District Statement and Q&A
Regarding Assistant Football Coach Joe Kennedy,”
which detailed the history of the District’s interactions
with Kennedy and explained its views regarding the
constitutionality of Kennedy’s conduct.
While Kennedy was on leave, he was not allowed
to participate in BHS football program activities.
Kennedy could still attend the games in his capacity
as a member of the public. At the October 30, 2015,
game, which Kennedy attended as a member of the
public, Kennedy prayed in the bleachers while
wearing his BHS apparel, surrounded by others, and
with news cameras recording his actions.
While Kennedy was on leave, and during the time
that he temporarily ceased performing on-field
prayers, BHS players did not pray on their own after
BHS football games. Rather, during the 2015 season,
the District observed players praying on the field only
at the games where Kennedy elected to do so. The
4 Kennedy now contends that the District’s accommodations
were inadequate because “BSD did not explain how [his] religious
expression would be accommodated at away games,” where BSD
does not have direct control over the facilities.

App-225
District’s public statement thus opined “[i]t is very
likely that over the years, players have joined in these
activities because to do otherwise would mean
potentially alienating themselves from their team,
and possibly their coaches.” The District also surmised
that “students required to be present by virtue of their
participation in football or cheerleading will
necessarily suffer a degree of coercion to participate in
religious activity when their coaches lead or endorse
it.” The District’s statement acknowledged that there
was “no evidence” that students were “directly coerced
to pray with Kennedy.” (emphasis added). The District
also acknowledged that Kennedy “complied” with
directives “not to intentionally involve students in his
on-duty religious activities.” (emphasis added).
G. Kennedy’s Evaluation and Decision Not
to Reapply for a Job
After the season ended, the District began its
annual process of providing its coaches with
performance reviews. This starts with written
evaluations by the head coach and the school’s athletic
director. The assistant coach then typically meets with
one of those two people to go over his performance
evaluation. If the coach is unsatisfied with the head
coach or athletic director’s evaluation, he can involve
the school principal or the District. Kennedy had
previously participated in this review—and had
received uniformly positive evaluations—but he did
not participate in 2015. Kennedy’s supervisors
nonetheless submitted their assessments. The athletic
director recommended that Kennedy not be rehired
because Kennedy “failed to follow district policy” and
“failed to supervise student-athletes after games due

App-226
to his interactions with [the] media and [the]
community.”
The head coach of the varsity football team left the
job at the conclusion of the 2015 season. The one-year
contracts also expired for all six of the assistant
football coaches. The District therefore opened up to
application all seven of the football coaching positions.
Kennedy did not apply for a coaching position during
the 2016 season.
H. Kennedy Files Suit
Kennedy commenced this action in the Western
District of Washington on August 9, 2016. He asserts
that his rights under the First Amendment and Title
VII of the Civil Rights Act of 1964 were violated.
Kennedy moved for a preliminary injunction on
August 24, 2016, arguing that he would succeed on the
merits of his claim that BSD retaliated against him for
exercising his First Amendment right to free speech. 5
Kennedy sought an injunction ordering BSD to
(1) cease discriminating against him in violation of the
First Amendment, (2) reinstate him as a BHS football
coach, and (3) allow him to kneel and pray on the fiftyyard line immediately after BHS football games.
The district court denied the requested
preliminary injunction on September 19, 2016.
Applying the five-step framework laid out in Eng v.
Kennedy brings his First Amendment retaliation claim
pursuant to 42 U.S.C. § 1983. The First Amendment applies
against the State pursuant to the Fourteenth Amendment. See
McIntyre v. Ohio Elections Comm’n, 514 U.S. 334, 336 n.1 (1995)
(“The term ‘liberty’ in the Fourteenth Amendment to the
Constitution makes the First Amendment applicable to the
States.”).
5

App-227
Cooley, 552 F.3d 1062 (9th Cir. 2009), the court held
that Kennedy was unlikely to prevail on the merits of
his First Amendment retaliation claim because
Kennedy spoke as a public employee and BSD’s
conduct was justified by its need to avoid violating the
Establishment Clause. In reaching these conclusions,
the court observed that “Kennedy was dressed in
school colors,” “chose a time and event [that] … is a big
deal” for students, and “used that opportunity to
convey his religious views” while “[h]e was still
responsible for the conduct of his students.” The court
also found that Kennedy’s prayer resulted in “subtle
coercion” because “[i]f you are an athlete, you are
impressionable, and you … want to please your coach
to get more playing time, to shine.” The court further
concluded that a reasonable observer familiar with the
relevant context “would have seen [Kennedy] as a
coach, participating, in fact[,] leading an orchestrated
session of faith.” Given that Kennedy could not
demonstrate a likelihood of success on the merits, the
district court did not address the remaining
preliminary injunction factors. Kennedy filed a timely
notice of appeal on October 3, 2016.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C.
§ 1292(a)(1).
A plaintiff seeking a preliminary injunction must
establish that (1) he is likely to succeed on the merits
of his claim, (2) he is likely to suffer irreparable harm
in the absence of preliminary relief, (3) the balance of
equities tips in his favor, and (4) an injunction is in the
public interest. Sanders Cty. Republican Cent. Comm.
v. Bullock, 698 F.3d 741, 744 (9th Cir. 2012).

App-228
“[W]e review the denial of a preliminary
injunction for abuse of discretion.” Harris v. Bd. of
Supervisors, L.A. Cty., 366 F.3d 754, 760 (9th Cir.
2004). “The district court necessarily abuses its
discretion when it bases its decision on an erroneous
legal standard or on clearly erroneous findings of fact.”
Id. (internal quotation marks omitted). Where, as
here, “the district court is alleged to have relied on an
erroneous legal premise, we review the underlying
issues of law de novo.” Id.; see also Sanders, 698 F.3d
at 744 (“[W]here a district court’s denial of a
preliminary injunction motion rests solely on a
premise of law and the facts are either established or
undisputed, our review is de novo.” (internal quotation
marks omitted)).
ANALYSIS
Kennedy contends that the district court erred by
concluding that he was not likely to succeed on the
merits of his claim that BSD placed him on paid
administrative leave in retaliation for exercising his
First Amendment right to free speech.
First Amendment retaliation claims are governed
by the framework in Eng. See 552 F.3d at 1070-72.
Kennedy must show that (1) he spoke on a matter of
public concern, (2) he spoke as a private citizen rather
than a public employee, and (3) the relevant speech
was a substantial or motivating factor in the adverse
employment action. Coomes v. Edmonds Sch. Dist.
No. 15, 816 F.3d 1255, 1259 (9th Cir. 2016) (citing
Eng, 552 F.3d at 1070-71). Upon that showing, the
State must demonstrate that (4) it had an adequate
justification for treating Kennedy differently from
other members of the general public, or (5) it would

App-229
have taken the adverse employment action even
absent the protected speech. Id. (citing Eng, 552 F.3d
at 1070-72). “[A]ll the factors are necessary, in the
sense that failure to meet any one of them is fatal to
the plaintiff’s case.” Dahlia v. Rodriguez, 735 F.3d
1060, 1067 n.4 (9th Cir. 2013) (en banc). Accordingly,
“a reviewing court is free to address a potentially
dispositive factor first rather than addressing each
factor sequentially.” Coomes, 816 F.3d at 1260
(internal quotation marks omitted).
Here, the parties do not contest that Kennedy
spoke on a matter of public concern (Eng factor one),
that the relevant speech was a substantial or
motivating factor in the District’s decision to place
Kennedy on leave (Eng factor three), and that the
District would not have taken the adverse
employment action in the absence of the relevant
speech (Eng factor five). Thus, we need consider only
whether Kennedy spoke as a private citizen or a public
employee (Eng factor two), and whether BSD’s
conduct was adequately justified by its need to avoid
an Establishment Clause violation (Eng factor four).
We conclude that Kennedy spoke as a public employee,
not as a private citizen, and therefore decline to reach
whether BSD justifiably restricted Kennedy’s speech
to avoid violating the Establishment Clause. Kennedy
accordingly cannot show a likelihood of success on the
merits of his First Amendment retaliation claim, and
is not entitled to the preliminary injunction he seeks. 6

6 The parties have not briefed the remaining preliminary
injunction factors, and we need not reach them in light of this
conclusion.

App-230
I.

Kennedy spoke as a public employee, and
not as a private citizen, when he prayed on
the fifty-yard line in view of students and
parents immediately after BHS football
games.
A. Governing Law

“[P]ublic employees do not surrender all their
First Amendment rights by reason of their
employment.” Garcetti v. Ceballos, 547 U.S. 410, 417
(2006). Rather, they retain the right “in certain
circumstances[] to speak as a citizen addressing
matters of public concern.” Id. Courts therefore must
decide under the second Eng factor whether an official
spoke as a citizen, and thus had First Amendment
rights to exercise, or whether the official spoke in his
capacity as a public employee, and therefore did not.
Pickering v. Board of Education of Township High
School District 205, 391 U.S. 563 (1968), laid a
foundation for this inquiry. The Court held that a
school district violated a teacher’s right to free speech
when it fired the teacher for writing a letter to a local
newspaper criticizing the school board’s handling of a
tax proposal. Id. at 564-65. The Court noted that the
statements in the letter were not “directed towards
any person with whom [the teacher] would normally
be in contact in the course of his daily work.” Id. at
569-70. Moreover, publication of the letter did not
“imped[e] the teacher’s proper performance of his daily
duties in the classroom” or “interfere[] with the
regular operation of the schools generally.” Id. at 57273. Because the school had no greater interest in
limiting the teacher’s speech than it did “in limiting a
similar contribution by any member of the general

App-231
public,” id. at 573, the teacher spoke as a private
citizen, and the speech itself could not furnish a basis
for the teacher’s dismissal from public employment,
id. at 574.
The Court refined this inquiry in Garcetti v.
Ceballos, 547 U.S. 410 (2006). There it held “that when
public employees make statements pursuant to their
official duties, the employees are not speaking as
citizens for First Amendment purposes, and the
Constitution does not insulate their communications
from employer discipline.” Id. at 421 (emphasis
added). Applying that reasoning, “the Court found
that an internal memorandum prepared by a
prosecutor in the course of his ordinary job
responsibilities constituted unprotected employee
speech.” Lane v. Franks, 134 S. Ct. 2369, 2378 (2014)
(citing Garcetti, 547 U.S. at 424). The prosecutor spoke
as a public employee because he was “fulfilling a
responsibility to advise his supervisor about how best
to proceed with a pending case.” Garcetti, 547 U.S. at
421. In other words, “[the prosecutor’s] expressions
were made pursuant to his duties as a calendar
deputy,” id., and “[r]estricting speech that owes its
existence to a public employee’s professional
responsibilities,” the Court said, “does not infringe any
liberties the employee might have enjoyed as a private
citizen,” id. at 421-22.
Garcetti also emphasized “that various easy
heuristics are insufficient for determining whether an
employee spoke pursuant to his professional duties.”
Dahlia, 735 F.3d at 1069; see also Garcetti, 547 U.S. at
420-21, 424. For instance, it was “not dispositive” that
the prosecutor “expressed his views inside his office,

App-232
rather than publicly,” Garcetti, 547 U.S. at 420, or that
the memorandum “concerned the subject matter of
[the prosecutor’s] employment,” id. at 421. The Court
rejected the suggestion that employers could restrict
their employees’ rights “by creating excessively broad
job descriptions.” Id. at 424. It ultimately instructed
that
The proper inquiry is a practical one. Formal
job descriptions often bear little resemblance
to the duties an employee actually is expected
to perform, and the listing of a given task in
an employee’s written job description is
neither
necessary
nor
sufficient
to
demonstrate that conducting the task is
within the scope of the employee’s
professional duties for First Amendment
purposes.
Id. at 424-25.
Following Garcetti, we clarified that “the
determination whether the speech in question was
spoken as a public employee or a private citizen
presents a mixed question of fact and law.” Posey v.
Lake Pend Oreille Sch. Dist. No. 84, 546 F.3d 1121,
1129 (9th Cir. 2008). “First, a factual determination
must be made as to the scope and content of a
plaintiff’s job responsibilities.” Johnson v. Poway
Unified Sch. Dist., 658 F.3d 954, 966 (9th Cir. 2011)
(internal quotation marks omitted). “Second, the
ultimate constitutional significance of those facts
must be determined as a matter of law.” Id. (internal
quotation marks omitted).
Helpfully, in 2011, we applied these instructions
in a First Amendment retaliation case involving a

App-233
teacher employed by a public school. The teacher
argued that he spoke as a private citizen when he
decorated his classroom with two large banners that
conveyed a religious message. Johnson, 658 F.3d at
965. We held that the teacher’s religious speech was
“unquestionably of inherent public concern,” id. at
966, but that he nonetheless “spoke as an employee,
not as a citizen,” id. at 970.
At the first step, we observed that Johnson (the
teacher) did “not hold a unique or exotic government
position”—he “perform[ed] the ordinary duties of a
math teacher.” Id. at 967. In defining those duties, we
found that “expression is a teacher’s stock in trade, the
commodity [he] sells to [his] employer in exchange for
a salary.” Id. (internal quotation marks and alteration
omitted). So, it was “irrelevant … to the question of
whether Johnson spoke as a citizen or as an employee”
that “the banners were not part of Johnson’s
curriculum.” Id. at 967 n.13. After all, “teachers do not
cease acting as teachers each time the bell rings or the
conversation moves beyond the narrow topic of
curricular instruction.” Id. at 967-68.
We further observed that Johnson hung the
banners pursuant to a long-standing policy permitting
teachers to decorate their classrooms subject to
specific limitations. Id. at 967. Accordingly, we found
that Johnson’s speech occurred “while performing a
function [] squarely within the scope of his position”;
“[h]e was not running errands for the school in a car
adorned with sectarian bumper stickers,” for instance,
“or praying with people sheltering in the school after
an earthquake.” Id. Adding it up, because Johnson
was communicating with his students, “as a practical

App-234
matter,” we found it was “beyond possibility for
fairminded dispute that the scope and content of
Johnson’s job responsibilities did not include speaking
to his class in his classroom during class hours.” Id.
(internal quotation marks, alteration, and emphasis
omitted).
At step two, we assessed the constitutional
significance of those facts by asking “whether
Johnson’s speech owe[d] its existence to his position,
or whether he spoke just as any non-employee citizen
could have.” Id. For several reasons, we held “[t]he
answer [was] clear”: “Johnson did not act as an
ordinary citizen when ‘espousing God as opposed to no
God’ in his classroom.” Id. To start, “[a]n ordinary
citizen could not have walked into Johnson’s
classroom and decorated the walls as he or she saw fit,
anymore than an ordinary citizen could demand that
students remain in their seats and listen to whatever
idiosyncratic perspective or sectarian viewpoints he or
she wished to share.” Id. at 968. “Unlike Pickering,”
moreover, “who wrote a letter to his local newspaper
as any citizen might, … Johnson took advantage of his
position to press his particular views upon the
impressionable and captive minds before him.” Id.
(internal quotation marks and citation omitted). More
generally, “because of the position of trust and
authority [teachers] hold and the impressionable
young minds with which they interact,” we held that
“teachers necessarily act as teachers for purposes of a
Pickering inquiry when [1] at school or a school
function, [2] in the general presence of students, [3] in
a capacity one might reasonably view as official.” Id.
Applying that rule, Johnson fit the parameters. The
religious speech “at issue” therefore “owe[d] its

App-235
existence to Johnson’s position as a teacher.” Id. at
970. And, because the speech fell within the ordinary
scope of Johnson’s professional responsibilities, the
school “acted well within constitutional limits in
ordering Johnson not to speak in a manner it did not
desire.”7 Id.

Kennedy calls our attention to Dahlia and Lane. While we
draw guidance from those decisions, they did not work an
appreciable change to the legal inquiry required under the second
Eng factor.
7

In Lane, the Supreme Court reiterated that “[t]he critical
question under Garcetti is whether the speech at issue is itself
ordinarily within the scope of an employee’s duties, not whether
[the subject matter of the speech] merely concerns those duties.”
134 S. Ct. at 2379. It held that “[t]ruthful testimony under oath
by a public employee outside the scope of his ordinary job duties
is speech as a citizen for First Amendment purposes.” Id. at 2378
(emphasis added).
In Dahlia, we reiterated that the second Eng factor requires a
practical, fact-specific inquiry, and that courts may not rely solely
on a generic job description. See 735 F.3d at 1070-71. We also
articulated several “guideposts” for determining whether an
individual acted within the scope of their professional duties. Id.
at 1073-74. These included (1) “whether or not the employee
confined his communications to his chain of command,” (2) “the
subject matter of the communication,” and (3) whether a public
employee’s speech is “in direct contravention to his supervisor’s
orders.” Id. at 1074-75. While we are mindful of these factors,
they stem from the context Dahlia confronted—a police officer
reporting abuse that occurred in his own police department. See
id. at 1064-65. We find Johnson more informative for our
purposes than either Dahlia or Lane because Johnson specifically
addressed teacher speech in the public school context. See
Johnson, 658 F.3d at 967-68; see also Coomes, 816 F.3d at 125961.

App-236
B. Application
Applying the foregoing principles, Kennedy spoke
as a public employee, and not as a private citizen.
Before undertaking our analysis, two critical points
deserve attention. First, the relevant “speech at issue”
involves kneeling and praying on the fifty-yard line
immediately after games while in view of students and
parents. See Lane, 134 S. Ct. at 2379. It is not, as
Kennedy contends, praying on the fifty-yard line
“silently and alone.” We know this because Kennedy
was offered (and, for a time, accepted) an
accommodation permitting him to pray on the fiftyyard line after the stadium had emptied and students
had been released to the custody of their parents. His
refusal of that accommodation indicates that it is
essential that his speech be delivered in the presence
of students and spectators. Second, for the same
reason, the “speech at issue” is directed at least in part
to the students and surrounding spectators; it is not
solely speech directed to God. Hence, the question
under the second Eng factor is whether this
demonstrative communication to students and
spectators “is itself ordinarily within the scope of
[Kennedy’s] duties.” Id.
1.

Factual determination of Kennedy’s
job responsibilities.

Kennedy’s job did not merely require him to
supervise students in the locker room, at practice, and
before and after games. Nor was it limited to treating
injuries and instructing players about techniques
related to football. Rather, in addition to these duties,
BSD “entrusted” Kennedy “to be a coach, mentor and
role model for the student athletes.” Kennedy further

App-237
agreed to “exhibit sportsmanlike conduct at all times,”
and acknowledged that, as a football coach, he was
“constantly being observed by others.” The District
also required Kennedy to “communicate effectively”
with parents, “maintain positive media relations,” and
“[o]bey all the Rules of Conduct before players and the
public as expected of a Head Coach,” including the
requirement to “use proper conduct before the public
and players at all times.” Consistent with his duty to
serve as a role model to students, Kennedy’s contract
required that, “[a]bove all” else, Kennedy would
endeavor not only “to create good athletes,” but also
“good human beings.”
Kennedy’s job, in other words, involved modeling
good behavior while acting in an official capacity in the
presence of students and spectators. Kennedy’s amici
agree. According to former professional football
players Steve Largent and Chad Hennings, for
instance, a football coach “serve[s] as a personal
example.” That is what the District hired Kennedy to
do, when he was in the presence of students and
parents: communicate a positive message through the
example set by his own conduct. Any person who has
attended a high school sporting event likely knows
that this is true. To illustrate, when a referee makes a
bad call, it is a coach’s job to respond maturely. In
doing so, he provides an example to players and
spectators. Likewise, when a parent hassles a coach
after a game seeking more playing time for her child,
a calm reaction by the coach teaches the player about
appropriate conduct. By acknowledging that he was
“constantly being observed by others,” Kennedy
plainly
understood
that
demonstrative
communication fell within the compass of his

App-238
professional obligations. And tellingly, Kennedy’s
insistence that his demonstrative speech occur in view
of students and parents suggests that Kennedy prayed
pursuant to his responsibility to serve as a role model
and moral exemplar. Were that not evident enough
from Kennedy’s rejection of BSD’s accommodations,
Kennedy’s off-field conduct bolsters the inference. In
particular, his media appearances and prayer in the
BHS bleachers (while wearing BHS apparel and
surrounded by others) signal his intent to send a
message to students and parents about appropriate
behavior and what he values as a coach.
Practically speaking, Kennedy’s job as a football
coach was also akin to being a teacher. See Grossman
v. S. Shore Pub. Sch. Dist., 507 F.3d 1097, 1100 (7th
Cir. 2007) (“Staff that interact with students play a
role similar to teachers.”). “While at the high school”
he was “not just any ordinary citizen.” Peloza v.
Capistrano Unified Sch. Dist., 37 F.3d 517, 522 (9th
Cir. 1994). He was “one of those especially respected
persons chosen to teach” on the field, in the locker
room, and at the stadium. Id. He was “clothed with the
mantle of one who imparts knowledge and wisdom.”
Id. Like others in this position, “expression” was
Kennedy’s “stock in trade.” Johnson, 658 F.3d at 967.
Kennedy’s expressions also carried weight—as the
district court said, “the coach is more important to the
athlete than the principal.” See also Br. of Americans
United for Separation of Church and State et al. as
Amici Curiae Supporting Appellee at 7-8 [hereinafter
AUSCS Br.] (former BHS player states that Kennedy
was a “parental figure” to the team).

App-239
As a high school football coach, it was also
Kennedy’s duty to use his words and expressions to
“instill[] values in the team.” Borden v. Sch. Dist. of
Tp. of E. Brunswick, 523 F.3d 153, 173 n.15 (3rd Cir.
2008). As amici observe, “many mothers look to the
coaches of their son’s football team as the last best
hope to show their son[s] what it means to become a
man—a real man[.]” AUSCS Br. at 7 (quoting John
Harbaugh, Why Football Matters, Balt. Ravens (Apr.
22, 2015), http://tinyurl.com/kn5fdhh). The record
reflects that Kennedy pursued that task. For example,
Kennedy gave motivational speeches to students and
spectators after the games. Moreover, BHS players did
not pray on their own in Kennedy’s absence. Rather,
the District observed players praying on the field only
at the games where Kennedy personally elected to do
so.
Finally, just as Johnson’s job responsibilities
included “speaking to his class in his classroom during
class
hours,”
Kennedy’s
included
speaking
demonstratively to spectators at the stadium after the
game through his conduct. Johnson, 658 F.3d at 967.
Kennedy’s demonstrative speech thus occurred “while
performing a function” that fit “squarely within the
scope of his position.” Id. After all, Kennedy spoke at
a school event, on school property, wearing BHSlogoed attire, while on duty as a supervisor, and in the
most prominent position on the field, where he knew
it was inevitable that students, parents, fans, and
occasionally the media, would observe his behavior.
In sum, Kennedy’s job was multi-faceted, but
among other things it entailed both teaching and
serving as a role model and moral exemplar. When

App-240
acting in an official capacity in the presence of
students and spectators, Kennedy was also
responsible for communicating the District’s
perspective on appropriate behavior through the
example set by his own conduct.
2.

The constitutional significance of
Kennedy’s job duties.

Mindful of those facts, by kneeling and praying on
the fifty-yard line immediately after games while in
view of students and parents, Kennedy was sending a
message about what he values as a coach, what the
District considers appropriate behavior, and what
students should believe, or how they ought to behave.
Because such demonstrative communication fell well
within the scope of Kennedy’s professional obligations,
the constitutional significance of Kennedy’s job
responsibilities is plain—he spoke as a public
employee, not as a private citizen, and his speech was
therefore unprotected.
Each of the guideposts we have established in this
context suggests that Kennedy spoke as a public
employee. First, “teachers necessarily act as teachers
for purposes of a Pickering inquiry when [1] at school
or a school function, [2] in the general presence of
students, [3] in a capacity one might reasonably view
as official.” Johnson, 658 F.3d at 968. Kennedy’s
conduct easily meets all three of these conditions.
Next, as Johnson and Coomes instruct, if
Kennedy’s “speech ‘owes its existence’ to his position
as a teacher, then [Kennedy] spoke as a public
employee, not as a citizen, and our inquiry is at an
end.” Id. at 966 (quoting Garcetti, 547 U.S. at 421-22).
Here, an ordinary citizen could not have prayed on the

App-241
fifty-yard line immediately after games, as Kennedy
did, because Kennedy had special access to the field by
virtue of his position as a coach. The record
demonstrates as much. Representatives of a Satanist
religion arrived at the stadium “to conduct ceremonies
on the field after [a] [BHS] football game[.]” They were
forced to abandon this effort after they learned that
the field was not an open forum. Thus, the precise
speech at issue—kneeling and praying on the fiftyyard line immediately after games while in view of
students and parents—could not physically have been
engaged in by Kennedy if he were not a coach.
Kennedy’s speech therefore occurred only because of
his position with the District.8
Lastly, given that “expression,” as in Johnson,
was Kennedy’s “stock in trade,” the commodity he sold
to his employer for a salary, id. at 967 (internal
Two additional points warrant comment. First, contrary to
Kennedy’s assertions, the forum is relevant because the on-field
location is a required component of Kennedy’s speech, and one
that is central to the message he conveys. Indeed, Kennedy
insists that his sincerely held religious beliefs do not permit him
to pray anywhere other than on the field where the game was just
played. The accommodations he refused signal further temporal
and circumstantial requirements concerning his speech (i.e., that
it must be delivered immediately after the game, while in view of
spectators). These features confirm that the relevant conduct—
Kennedy’s demonstrative speech to students and spectators—
owes its existence to Kennedy’s position with the District.
Second, Kennedy’s demonstrative message to students only
carries instructive force due to his position as a coach. Surely, if
an ordinary citizen walked onto the field and prayed on the fiftyyard line, the speech would not communicate the same message
because the citizen would not be clothed with Kennedy’s
authority. See Johnson, 658 F.3d at 968; Evans-Marshall v. Bd.
of Educ., 624 F.3d 332, 340 (6th Cir. 2010).
8

App-242
quotation mark and alteration omitted), it is similarly
non-dispositive of “the question of whether [Kennedy]
spoke as a citizen or as an employee” that the religious
content of Kennedy’s message was not part of his
“curriculum,” id. at 967 n.13. Coaches, like teachers,
do not cease acting as coaches “each time the bell rings
or the conversation moves beyond the narrow topic of
curricular instruction.” Id. at 967-68. In any event,
Kennedy’s prayer celebrates sportsmanship, so the
content of Kennedy’s speech arguably falls within
Kennedy’s curriculum. See ER 251 (job description
requiring Kennedy to “exhibit sportsmanlike conduct
at all times”).
True, Kennedy spoke in contravention of his
supervisor’s orders, see Dahlia, 735 F.3d at 1075, but
that lone consideration is not enough to transform
employee speech into citizen speech. If it was, there
would be no need for the Garcetti analysis because
every First Amendment retaliation case in the
employment context involves some degree of employer
disagreement with the expressive conduct.
All told, by kneeling and praying on the fifty-yard
line immediately after games, Kennedy was fulfilling
his professional responsibility to communicate
demonstratively to students and spectators. Yet, he
“took advantage of his position to press his particular
views upon the impressionable and captive minds
before him.” Johnson, 658 F.3d at 968 (internal
quotation marks omitted). In addition, he “did not act
as an ordinary citizen when ‘espousing God as opposed
to no God’” under the bright lights of the BHS football
stadium. Id. at 967. Because his demonstrative speech
fell within the scope of his typical job responsibilities,

App-243
he spoke as a public employee, and the District was
permitted to order Kennedy not to speak in the
manner that he did. See id. at 967-70; Tucker v. State
of Cal. Dep’t of Educ., 97 F.3d 1204, 1213 (9th Cir.
1996) (“A teacher appears to speak for the state when
he or she teaches; therefore, the department may
permissibly restrict such religious advocacy.”); Peloza,
37 F.3d at 522 (permitting District to restrict biology
teacher’s ability “to discuss his religious beliefs with
students during school time on school grounds”).
Other circuits agree. In Borden, the Third Circuit
concluded that a coach spoke “pursuant to his official
duties as a coach”—and thus as a public employee—
when he bowed his head and took a knee with his team
while they prayed in the locker room prior to football
games. 523 F.3d at 171 n.13. The coach “concede[d]
that the silent acts of bowing his head and taking a
knee [were] tools that he use[d] to teach his players
respect and good moral character.” Id. at 172. He
therefore was fulfilling his responsibilities as a
teacher, as Kennedy is here.
In Evans-Marshall v. Board of Education, 624
F.3d 332 (6th Cir. 2010), the Sixth Circuit explained
that “[w]hen a teacher teaches, the school
system … hires that speech.” Id. at 340 (internal
quotation mark omitted). As a consequence, “it can
surely regulate the content of what is or is not
expressed,” because a teacher is not “the employee and
employer.” Id. (internal quotation marks omitted). For
example, “[w]hen Pickering sent a letter to the local
newspaper criticizing the school board,” the court
noted, “he said something that any citizen has a right
to say, and he did it on his own time and in his own

App-244
name, not on the school’s time or in its name.” Id. By
contrast, when a teacher teaches—as Kennedy did
through the example of his own conduct while acting
in his capacity as an assistant coach—”[he] d[oes]
something [he] was hired (and paid) to do, something
[he] could not have done but for the Board’s decision
to hire [him] as a public school teacher.” Id.
The Seventh Circuit employed the same
reasoning in Mayer v. Monroe County Community
School Corporation, 474 F.3d 477 (7th Cir. 2006). It
found “that teachers hire out their own speech and
must provide the service for which employers are
willing to pay.” Id. at 479. It thus held that a teacher
spoke as an employee, not as a citizen, when she
opined on the Iraq war at a “current-events session,
conducted during class hours, [that] was part of her
official duties.” Id. Similarly, Kennedy spoke on the
field, at a time when he was on call, and in a manner
that was well within his job description. Like the
teacher in Mayer, he therefore spoke as a public
employee.
Finally, in Doe v. Duncanville Independent School
District, 70 F.3d 402 (5th Cir. 1995), the Fifth Circuit
barred school employees from participating in or
supervising student-initiated prayers that took place
after basketball practice. Id. at 406. It reasoned that
“[t]he challenged prayers take place during schoolcontrolled,
curriculum-related
activities
that
members of the basketball team are required to
attend,” and “[d]uring these activities[,] [District]
coaches and other school employees are present as
representatives of the school and their actions are
representative of [District] policies.” Id. Applying that

App-245
reasoning, if a coach speaks as an employee by
standing in the vicinity of student prayer and
supervising the students immediately after a
basketball practice, there can be little question that
Kennedy spoke as an employee when he likewise
performed a task that the District hired and paid him
to perform: demonstrative communication with
students and spectators immediately after football
games.
3.

Kennedy’s counterarguments
not convincing

are

Kennedy insists the district court invented “a
bright-line temporal test that strips First Amendment
protections from ‘on the job’ public employees.” That is
incorrect. The district court said “[t]here is no brightline test … on this issue,” and decided the second Eng
factor by asking whether Kennedy spoke as a public
employee or private citizen “under the totality of the
circumstances.” More importantly, the court did not
articulate a temporal dichotomy that reserves First
Amendment rights only for “off-duty” employees. To
illustrate, Kennedy can pray in his office while he is
on duty drawing up plays, pray non-demonstratively
when on duty supervising students, or pray in “a
private location within the school building, athletic
facility, or press box” before and after games, as BHS
offered. He can also write letters to a local newspaper
while on duty as a coach, see Pickering, 391 U.S. at
572-74, or privately discuss politics or religion with his
colleagues in the teacher’s lounge, see Rankin v.
McPherson, 483 U.S. 378, 388-92 (1987); Tucker, 97
F.3d at 1213. What he cannot do is claim the First
Amendment’s protections for private-citizen speech

App-246
when he kneels and prays on the fifty-yard line
immediately after games in school logoed-attire in
view of students and parents. Cf. Berry v. Dep’t of Soc.
Servs., 447 F.3d 642, 651-52 (9th Cir. 2006) (upholding
a restriction prohibiting a government employee from
discussing religion with his clients in his government
cubicle in the course of providing them assistance,
while explaining that the employee could still read his
Bible “whenever he does not have a client with him in
his cubicle”).
Next, Kennedy observes that “[t]he critical
question under Garcetti is whether the speech at issue
is itself ordinarily within the scope of an employee’s
duties.” Lane, 134 S. Ct. at 2379. He argues that
prayer—”the speech at issue”—did not “relate[] to” his
job, and certainly did not constitute “coaching.”9 But
again, where, as here, a teacher speaks at a school
event in the presence of students in a capacity one
might reasonably view as official, we have rejected the
proposition that a teacher speaks as a citizen simply
because the content of his speech veers beyond the
topic of curricular instruction, and instead relates to
religion. Johnson, 658 F.3d at 967-68; see also
Grossman, 507 F.3d at 1100 (“The First Amendment
is not a teacher license for uncontrolled expression at
variance with established curricular content.”
(internal quotation marks omitted)); Mayer, 474 F.3d
Kennedy elsewhere acknowledges that whether a public
employee speaks “as a citizen” does not turn on the content of the
speech. Kennedy may then be arguing that the act of praying
itself is not related to his job. That argument fails because
demonstratively speaking to students and spectators after games
through the example set by his own conduct is within the scope
of Kennedy’s job responsibilities.
9

App-247
at 480 (concluding teacher spoke as employee even
though she “had not been hired to buttonhole
cosmetology students in the corridors and hand out
tracts proclaiming that homosexuality is a mortal
sin”). Kennedy also does not dispute that his
demonstrative speech taught students about what he
viewed as appropriate conduct. Nor can he dispute
that many players responded as if prayer were part of
the school-sponsored curriculum—they prayed on the
field only when Kennedy elected to do so.
Finally, Kennedy insists it is irrelevant that he
had access to the field only by virtue of his position
because Lane establishes that the critical question is
whether his speech was within the ordinary scope of
his duties. For the reasons explained above, Kennedy’s
speech was within the ordinary scope of his duties. In
any event, Kennedy overlooks Coomes, which affirmed
that if a plaintiff’s speech “owes its existence to [his]
position as a teacher, then [he] spoke as a public
employee, not as a citizen, and our inquiry is at an
end.”10 816 F.3d at 1260 (internal quotation marks
and alterations omitted).
In sum, when Kennedy kneeled and prayed on the
fifty-yard line immediately after games while in view
of students and parents, he spoke as a public
employee, not as a private citizen, and his speech
therefore was constitutionally unprotected. 11
We issued Coomes nearly two years after the Supreme Court
issued Lane. Additionally, Coomes is more factually analogous
than Lane because Coomes involved speech by a public-school
official.
10

11 We emphasize that our conclusion neither relies on, nor
should be construed to establish, any bright-line rule. As our

App-248
CONCLUSION
On Friday nights, many cities and towns across
America temporarily shut down while communities
gather to watch high school football games. Students
and families from all walks of life join “to root for a
common cause” and admire the young people who step
proudly onto the field. Santa Fe Ind. Sch. Dist. v. Doe,
530 U.S. 290, 312 (2000). While we “recognize the
important role that public worship plays in many
communities, as well as the sincere desire to include
public prayer as a part of [these] occasions,” such
activity can promote disunity along religious lines,
and risks alienating valued community members from
an environment that must be open and welcoming to
all. Id. at 307. That is why the “preservation and
transmission of religious beliefs and worship is a
responsibility and a choice committed to the private
sphere, which itself is promised freedom to pursue
that mission.” Lee v. Weisman, 505 U.S. 577, 589
(1992).
As for the task at hand, we hold that Kennedy
spoke as a public employee when he kneeled and
prayed on the fifty-yard line immediately after games
while in view of students and parents. Kennedy
therefore cannot show a likelihood of success on the
merits of his First Amendment retaliation claim. We
analysis demonstrates, the second Eng factor requires a
practical, fact-intensive inquiry into the nature and scope of a
plaintiff’s job responsibilities. It also requires a careful
examination of the precise speech at issue. We also continue to
recognize that “speech by a public employee, even a teacher, does
not always represent, or even appear to represent, the views of
the state.” Tucker, 97 F.3d at 1213.

App-249
AFFIRM the district court’s order denying Kennedy’s
motion for a preliminary injunction. Appellant shall
bear costs on appeal. Fed. R. App. P. 39(a)(2).
M. Smith, Circuit Judge, specially concurring:
I write separately to share my view that BSD’s
actions were also justified to avoid violating the
Establishment Clause. Kennedy’s claim therefore fails
on the additional ground that the District can satisfy
the fourth Eng factor. See Eng v. Cooley, 552 F.3d
1062, 1071-72 (9th Cir. 2009) (asking whether the
state has an adequate justification for restricting the
employee’s speech). I also write to share a few
thoughts about the role of the Establishment Clause
in protecting the rights of all Americans to worship (or
not worship) as they see fit.
I.

Governing Law

The Establishment Clause provides that
“Congress shall make no law respecting an
establishment of religion.” U.S. Const. amend. I. The
Clause applies against the states, and therefore their
public school systems, pursuant to the Fourteenth
Amendment. See Wallace v. Jaffree, 472 U.S. 38, 4950 (1985). The Clause “mandates governmental
neutrality between religion and religion, and between
religion and nonreligion.” McCreary Cty., Ky. v. Am.
Civil. Liberties Union of Ky., 545 U.S. 844, 860 (2005)
(quoting Epperson v. Ark., 393 U.S. 97, 104 (1968))
(internal quotation marks omitted). “The Court has
been particularly vigilant in monitoring compliance
with the Establishment Clause in elementary and
secondary schools.” Edwards v. Aguillard, 482 U.S.
578, 583-84 (1987). In that setting, “[t]he State exerts

App-250
great authority and coercive power through
mandatory attendance requirements, and because of
the students’ emulation of teachers as role models and
the children’s susceptibility to peer pressure.” Id. at
584. Accordingly, the Clause “proscribes public schools
from conveying or attempting to convey a message
that religion or a particular religious belief is favored
or preferred.” Lee v. Weisman, 505 U.S. 577, 604-05
(1992) (Blackmun, J., concurring) (internal quotation
marks and emphasis omitted).
Under the fourth Eng factor, the District can
escape potential liability if it can show that it had an
adequate justification for treating Kennedy differently
from other members of the general public. Eng, 552
F.3d at 1071-72. “[A] state interest in avoiding an
Establishment Clause violation may be characterized
as compelling, and therefore may justify contentbased discrimination.” Good News Club v. Milford
Cent. Sch., 533 U.S. 98, 112 (2001) (internal quotation
marks omitted); see also Peloza v. Capistrano Unified
Sch. Dist., 37 F.3d 517, 522 (9th Cir. 1994) (“The
school district’s interest in avoiding an Establishment
Clause violation trumps [a teacher’s] right to free
speech.”).12
The parties disagree as to whether the District must show an
actual Establishment Clause violation, see Good News, 533 U.S.
at 112-13, or merely a legitimate interest in avoiding an
Establishment Clause violation, see Lamb’s Chapel v. Ctr.
Moriches Union Free Sch. Dist., 508 U.S. 384, 394 (1993) (noting
the Court’s suggestion in a prior case that “the interest of the
State in avoiding an Establishment Clause violation may be a
compelling one justifying an abridgement of free speech
otherwise protected by the First Amendment.” (internal
quotation marks and alteration omitted)); Berry v. Dep’t of Soc.
12

App-251
Santa Fe Independent School District v. Doe, 530
U.S. 290 (2000), describes the framework for assessing
whether BSD would be liable for an Establishment
Clause violation if Kennedy were to resume kneeling
and praying on the fifty-yard line immediately after
games in the presence of students and spectators. See
id. at 315 (asking whether the “continuation of” prayer
at school event would violate the Establishment
Clause).
In Santa Fe, the plaintiffs challenged a school
district policy that permitted, but did not require, a
student to deliver a prayer over the public address
system before each varsity football game. Id. at 294.
The “Prayer at Football Games” policy “authorized two
student elections, the first to determine whether
‘invocations’ should be delivered, and the second to
select the spokesperson to deliver them.” Id. at 297
(internal quotation marks omitted). After the students
had voted in favor of prayer and selected a speaker,
the school district implemented two changes. It
omitted the word “prayer” from the title and amended
the policy to refer to “‘messages’ and ‘statements’ as
well as ‘invocations.’” Id. at 298 (internal quotation
marks omitted).
To assess whether the amended policy violated
the Establishment Clause, the Court asked whether
an objective student observer who was familiar with
Servs., 447 F.3d 642, 651 (9th Cir. 2006) (holding that the
government’s “need to avoid possible violations of the
Establishment Clause” justified a restriction on employee
speech). I do not reach this issue because a resumption of
Kennedy’s conduct would clearly result in an actual
Establishment Clause violation.

App-252
the history and context of the school’s conduct would
perceive that “prayer is, in actuality, encouraged by
the school.” Id. at 308. Put differently, the relevant
question was “whether an objective observer,
acquainted with the text, legislative history, and
implementation of the [policy], would perceive it as a
state endorsement of prayer in public schools.” Id.
(emphasis added) (internal quotation marks omitted).
Applying that rule, the Court held that “an objective
Santa Fe High School student w[ould] unquestionably
perceive the inevitable pregame prayer as stamped
with her school’s seal of approval.” Id.
The Court first considered the setting. The prayer
would be “delivered to a large audience assembled as
part of a regularly scheduled, school-sponsored
function conducted on school property.” Id. at 307. The
message would also be “broadcast over the school’s
public address system,” which was “subject to the
control of school officials.” Id. The pregame ceremony
would be “clothed in the traditional indicia of school
sporting events, which generally include not just the
team, but also cheerleaders and band members
dressed in uniforms sporting the school name and
mascot.” Id. at 308. Further, the school’s name would
be emblazoned on the field and the crowd would be
“waving signs displaying the school name.” Id. The
upshot, said the Court, was that an objective audience
member would perceive the pregame prayer as a
public expression “delivered with the approval of the
school administration.” Id.
The text and purpose of the policy reinforced that
conclusion. The express purpose of the pregame
message was to “solemnize the event.” Id. at 306. Yet

App-253
tellingly, the only message type the text endorsed was
an “invocation,” and “in the past at Santa Fe High
School, an ‘invocation’ ha[d] always entailed a focused
religious message.” Id. at 306-07 (internal quotation
marks omitted). The Court also noted that the school
regulated the content of the message. Among other
things, the message had to “establish the appropriate
environment for competition.” Id. at 306 (internal
quotation marks omitted). The school also required
that the pregame message “promote good
sportsmanship.” Id.
The history and context of the policy bolstered the
conclusion that an objective observer would perceive
the school to be encouraging prayer. The school had a
“long-established tradition of sanctioning student-led
prayer at varsity football games,” id. at 315, and the
policy itself had evolved from the “office of ‘Student
Chaplain’ to the candidly titled ‘Prayer at Football
Games’ regulation,” id. at 309. The Court noted that
the prayers were possible only because the school
board had chosen to give the students the opportunity
to deliver pregame messages. Id. With that context,
the Court said it was “reasonable to infer that the
specific purpose of the policy was to preserve a popular
state-sponsored religious practice.” Id. (internal
quotation marks omitted).
Lastly, the Court was “persuaded that the
delivery of a pregame prayer has the improper effect
of coercing those present to participate in an act of
religious worship.” Id. at 312. According to the Court,
some nonadherents were likely required to attend the
games, “such as cheerleaders, members of the band,
and, of course, the team members themselves.” Id. at

App-254
311. Even those who were not so required would “feel
immense social pressure,” the Court said, “to be
involved in the extracurricular event that is American
high school football.” Id. (internal quotation marks
omitted). So, by allowing the prayer to be delivered,
the district was impermissibly forcing students to
choose “between attending these games and avoiding
[a potentially] personally offensive religious ritual[].”
Id. at 312.
Mindful of the totality of these circumstances, the
Court concluded that “the realities of the situation
plainly reveal that [the district’s] policy involves both
perceived and actual endorsement of religion.” Id. at
305. It therefore violated the Establishment Clause.
Id. at 316.
II. Application
Here, an objective BHS student familiar with the
history and context of Kennedy’s conduct would
perceive his practice of kneeling and praying on the
fifty-yard line immediately after games in view of
students and spectators as District endorsement of
religion or encouragement of prayer. The District
therefore justifiably restricted Kennedy’s speech to
avoid violating the Establishment Clause.
A. The setting, context, and history support
the perception that Kennedy’s conduct
would be viewed as state endorsement of
religion.
The setting supports this conclusion. If Kennedy’s
practice were to resume, an objective student would
observe a public-school employee in BHS-logoed attire
demonstratively praying in front of “a large audience
assembled as part of a regularly scheduled, school-

App-255
sponsored function conducted on school property.” Id.
at 307. Based on previous experience, Kennedy’s
players would likely join him, meaning he would likely
be surrounded by a majority of the team. The speech
would also occur at the most prominent location on the
field during a time when Kennedy is responsible for
supervising players. Lastly, the scene would likely
exhibit “the traditional indicia of school sporting
events,” including “cheerleaders and band members
dressed in uniforms,” an audience “waving signs
displaying the school name,” and the school’s name or
initials “written in large print across the field and on
banners and flags.” Id. at 308.
The context would bolster the perception that the
District was endorsing religion. An objective observer
would know that Kennedy had access to the field only
by virtue of his position as a coach, that a Satanist
group had been denied such access, and that Kennedy
insists on demonstratively praying only while in view
of students and spectators. True, in contrast to Santa
Fe, the District would not be authorizing or regulating
the content of Kennedy’s prayers. See 530 U.S. at 30607. Still, an objective observer would know that it is
Kennedy’s professional duty to communicate
demonstratively to students and spectators after
games, and that use of the field, like use of the public
address system, is “subject to the control of school
officials.” Id. at 307.
The relevant history would add to the perception
that the District encourages prayer. An objective
observer would know that during the previous eight
years, Kennedy led and participated in locker-room
prayers, regularly prayed on the fifty-yard line, and

App-256
eventually led a larger spiritual exercise at midfield
after each game. BSD states that it was not aware of
this conduct until 2015, but if Kennedy were to resume
his practice of praying at midfield, an objective
student could reasonably infer that the District was
ratifying the religious exercises that Kennedy had
previously conducted. This inference would follow
because the District would be acquiescing to
Kennedy’s conduct knowing full well that the players
prayed only when Kennedy elected to do so, and that
the previous practice started as an individual prayer
but evolved into an orchestrated session of faith.13
Lastly, by permitting Kennedy’s conduct, the
District would be condoning the same coercion
identified in Santa Fe. As was true in that case,
various students would be required to attend the
games, “such as cheerleaders, members of the band,
and, of course, the team members themselves.” Id. at
311. They would see an important District
representative display “the distinctively Christian
prayer form”14 in the most prominent location on the
Again, perhaps bolstering this inference, an objective
observer would likely see Kennedy surrounded by his players. An
objective observer familiar with the relevant history would also
know that the football team had engaged in pre- and post-game
prayers “as a matter of school tradition,” and that both activities
apparently “predated” Kennedy’s involvement with the football
program. With that context, an objective observer might
reasonably perceive that the District had changed its mind
regarding the propriety of Kennedy’s conduct. This is particularly
so because BSD had previously stated in a letter to the
Bremerton community that it could not permit Kennedy’s
conduct lest it be considered to be endorsing religion.
13

14 Amici note that Kennedy employed “the distinctively
Christian prayer form of kneeling with hands clasped and head

App-257
field, despite the community’s religious diversity. This
act would “send[] the ancillary message to members of
the audience who are nonadherents that they are
outsiders, not full members of the political community,
and an accompanying message to adherents that they
are insiders, favored members of the political
community.” Id. at 309-10 (internal quotation marks
omitted). Kennedy might not “intentionally involve
students in his on-duty religious activities,” (emphasis
added), but I have no reason to believe that the
pressure emanating from his position of authority
would dissipate. Accordingly, many students would
feel pressure to join Kennedy’s religious activity to
avoid marking themselves as outsiders or alienating
themselves from the team. The record suggests that
this is precisely what occurred when Kennedy first
started praying on the field in 2008. See Kennedy Decl.
at 3 (“Over time, the number of players who gathered
near me after the game grew to include the majority
of the team.”). Yet the Constitution forbids Kennedy
from forcing students whose beliefs are not the same

bowed—a pose with deep historical significance and symbolic
meaning within Christianity.” Br. of Americans United for
Separation of Church and State et al. as Amici Curiae Supporting
Appellee at 12. By contrast, Jews “do not typically kneel,” and
instead “stand for prayer and often sway.” Id. at 13. For Muslims,
“the typical prayer posture is prostration, though prayer also
involves standing and bowing.” Id. Prayer in the Bahá’í faith
“involves kneeling, bowing, and prostration.” Id. Hindus and
Buddhists “pray in the seated, cross-legged lotus position.” Id.
Finally, it is worth noting that the Bremerton community
includes individuals who identify as atheist or as agnostic. Id. at
14.

App-258
as his to compromise their personal beliefs or identify
themselves as religious dissenters.
In sum, if Kennedy were to resume kneeling and
praying on the fifty-yard line immediately after games
while in view of students and spectators, an objective
student observer would see an influential supervisor
do something no ordinary citizen could do—perform a
Christian religious act on secured school property
while surrounded by players—simply because he is a
coach. Irrespective of the District’s views on that
matter, a reasonable observer would conclude in light
of the history and context surrounding Kennedy’s
conduct that the District, “in actuality,” favors
religion, and prefers Christianity in particular.15
Santa Fe, 530 U.S. at 308.
B. Kennedy’s counterarguments are not
persuasive.
Kennedy contends that an objective observer
would “conclude (at most) that he is engaged in a
personal moment of silence” because students would
Borden v. Sch. Dist. of Tp. of E. Brunswick, 523 F.3d 153 (3rd
Cir. 2008), supports this conclusion. There, the Third Circuit held
that a football coach impermissibly endorsed religion by bowing
his head and taking a knee while his players engaged in prayer.
Id. at 174. Like Kennedy, the coach had a history of leading team
prayers, yet stated that he wanted to bow and kneel only to show
respect to his team. Id. at 177. The court concluded that the
history gave rise “to a reasonable inference that [the coach’s]
requested conduct is meant to preserve a popular state-sponsored
religious practice of praying with his team.” Id. (internal
quotation marks omitted). In light of Kennedy’s history, an
objective observer could draw the same inference here,
notwithstanding Kennedy’s statement that he seeks only to pray
silently and alone.
15

App-259
not be directly coerced to pray, the District would not
be regulating the content of his religious expression,
and the prayer would not be the product of a school
policy, in contrast to the prayer at issue in Santa Fe.
These observations may be correct, but they have little
significance when considered within the totality of the
circumstances. Indeed, they are rebutted by the
evidence of indirect coercion, and the fact that an
objective observer familiar with the context would
know it is Kennedy’s professional duty to
communicate demonstratively to students and
spectators after games.
Next, Kennedy insists that kneeling and praying
on the fifty-yard line would not be viewed as state
endorsement of religion because a coach’s expressive
conduct around a playing field is quintessential
personal speech. Kennedy notes that some athletes
point to the heavens after a touchdown, or kneel when
a player is being treated for an injury, yet fans do not
generally view either of those actions as having been
made on behalf of the team. Even if that is true, it says
little about the speech at issue here, and it ignores
entirely the relevant history and context surrounding
Kennedy’s speech. See Santa Fe, 530 U.S. at 315
(holding courts may not “turn a blind eye to the
context in which [the conduct] arose”).
Lastly, Kennedy contends that the remedy for any
inference of endorsement “is to educate the audience
rather than squelch the speaker.” Hills v. Scottsdale
Unified Sch. Dist. No. 48, 329 F.3d 1044, 1055 (9th
Cir. 2003) (quoting Hedges v. Wauconda Cmty. Unit
Sch. Dist. No. 118, 9 F.3d 1295, 1299-1300 (7th Cir.
1993)). However, we have held that a disclaimer is not

App-260
sufficient to alleviate Establishment Clause concerns
in the graduation speech context, Lassonde v.
Pleasanton Unified Sch. Dist., 320 F.3d 979, 984 (9th
Cir. 2003), and it is similarly unlikely that a
disclaimer would cure the perception of endorsement
at issue here. Once again, an objective student
observer would still see a respected District employee
do something no ordinary citizen could do—perform a
distinctively Christian religious act on a secured
portion of school property while supervising
students—simply because he is a BHS football coach.
Moreover, because Kennedy’s speech would occur in
the course of his ordinary responsibilities and he
would be speaking in his capacity as a public
employee, his conduct would be attributed to the
District, thus diluting the effect of any potential
disclaimer. See Borden, 523 F.3d at 177 n.20 (“As an
employee of the School District as both a coach and
tenured teacher, Borden’s actions can be imputed to
the School District. For this reason, Borden’s claim
that the School District could remove any
Establishment Clause violation by writing a
disclaimer saying that Borden’s speech does not
represent the ideals of the School District is simply
wrong.”); Doe v. Duncanville Ind. Sch. Dist., 70 F.3d
402, 406 (5th Cir. 1995) (stating that during schoolsponsored sporting events coaches “are present as
representatives of the school and their actions are
representative of [school district] policies”).16

16 I nonetheless emphasize that schools should not simply
“throw up their hands because of the possible misconceptions
about endorsement of religion.” Hills, 329 F.3d at 1055. Instead,
they should endeavor “to teach [students] about the first

App-261
In sum, the District can satisfy the fourth Eng
factor. It justifiably restricted Kennedy’s speech to
avoid violating the Establishment Clause. An
objective BHS student familiar with the relevant
history and context would perceive Kennedy’s conduct
to
reflect
school
endorsement
of
religion,
encouragement of prayer, and a preference for one
particular faith.17
III. Averting state establishment of religion
ultimately safeguards religious liberty.
Some readers may find this conclusion
disconcerting. The record reflects, after all, that Coach
Kennedy cared deeply about his students, and that his
conduct was well-intentioned and flowed from his
sincerely-held religious beliefs. Given those factors, it
is worth pausing to remember that the Establishment
Clause is designed to advance and protect religious
liberty, not to injure those who have religious faith.
Indeed, history has taught us “that one of the greatest
dangers to the freedom of the individual to worship in
amendment, about the difference between private and public
action, [and] about why we tolerate divergent views,” as BSD’s
letter to the Bremerton community admirably sought to do here.
Id. (first alteration in original) (quoting Hedges, 9 F.3d at 1299).
“Free speech, free exercise, and the ban on establishment are
quite compatible when the government remains neutral and
educates the public about the reasons.” Id. (quoting Hedges, 9
F.3d at 1300). However, in this instance, BSD would not be
remaining neutral in the eyes of an objective observer if it were
to permit Kennedy to resume his on-field prayers.
17 The District also contends that Kennedy’s conduct fails the
so-called “coercion” test and the three-prong framework from
Lemon v. Kurtzman, 403 U.S. 602 (1971). I do not address those
arguments in light of the analysis outlined above.

App-262
his own way lay[s] in the Government’s placing its
official stamp of approval upon one particular kind of
prayer or one particular form of religious services.”
Engel v. Vitale, 370 U.S. 421, 429 (1962).
It is a lamentable fact of human history that
whenever a religious majority controls the
government, it frequently uses the civil power to
persecute religious minorities and non-believers.18
The Founders who met in Philadelphia to negotiate
the terms of the U.S. Constitution, and the men who
later met in ratifying conventions in the several
states, were well aware that many hundreds of
thousands of people had lost their lives, been tortured,
or had otherwise been deprived of their civil rights by
governments in the control of some religious faith,
during the then recent European wars of religion.
These cataclysmic events led writers such as Thomas
Hobbes (1588-1679) and John Locke (1632-1704), each
of whom was familiar to the Founders, to argue that
state coercion is an inappropriate and ineffective tool
for enforcing religious conformity, since religious
belief must be sincerely held to be truly efficacious.
In some ways, the United States is a nation whose
very existence is due to religious conflict because most
of the colonies were initially settled by persons who
Interested readers might find Will (and later Will and Ariel)
Durant’s epic series on the history of civilization, with separate
volumes entitled The Age of Faith, The Renaissance, The
Reformation, The Age of Reason Begins, The Age of Louis XIV,
The Age of Voltaire, and Rousseau and Revolution, amongst
others, an excellent source to learn more about this subject. See
WILL DURANT & ARIEL DURANT, THE STORY OF CIVILIZATION
(MJF Books 1993).
18

App-263
came here to escape religious persecution in Europe.
When such colonists came, they generally settled
amongst those who held similar religious beliefs, and
the dominant religious group controlled the civil
government, just as had been the case in Europe.
Thus, Anglicans initially dominated in Virginia,
Puritans in Massachusetts, Quakers in Pennsylvania,
Baptists in Rhode Island, and Roman Catholics in
Maryland. But when, for example, the Puritan leaders
of the Massachusetts Bay Colony were challenged by
religious dissenters, such as Roger Williams and Anne
Hutchinson, the dissidents were banished from, and
persecuted by, the Colony over disagreements
concerning theology, as were Catholics and nonPuritans generally. Violence was frequently employed
in many of the colonies to suppress religious
dissenters.
Seeking to make America a more true refuge from
religious persecution, some early leaders began to
advocate for the disentanglement of religion and
government. For example, in responding to a bill
introduced by Patrick Henry calling for state support
for “Teachers of the Christian Religion,” future
president James Madison penned an essay arguing
that Virginia should not financially support Christian
instruction. See James Madison, Memorial and
Remonstrance Against Religious Assessments (June
20, 1785), in 5 THE FOUNDERS’ CONSTITUTION 82 (P.
Kurland & R. Lerner eds. 1986). Madison asked
rhetorically: “Who does not see that the same
authority which can establish Christianity, in
exclusion of all other Religions, may establish with the
same ease any particular sect of Christians, in
exclusion of all other Sects?” Id. He also observed that

App-264
Henry’s bill was “a departure from that generous
policy, which, offering an Asylum to the persecuted
and oppressed of every Nation and Religion, promised
a lustre to our country.” Id. at 83.
After Henry’s bill was defeated, the Virginia
legislature eventually took up Thomas Jefferson’s
plan for the separation of church and state. In 1786,
the Virginia Bill for Establishing Religious Freedom
was adopted. Among other things, that Bill provided:
We the General Assembly of Virginia do
enact, that no man shall be compelled to
frequent or support any relig[i]ous Worship
place or Ministry whatsoever, nor shall be
enforced, restrained, molested, or burthened
in his body or goods, nor shall otherwise
suffer on account of his religious opinions or
belief, but that all men shall be free to
profess, and by argument to maintain their
opinions in matters of religion, and that the
same shall in no wise diminish, enlarge, or
affect their civil capacities.
Id. at 77. Jefferson wrote that the law was “meant to
comprehend, within the mantle of its protection, the
Jew and the Gentile, the Christian and Mahometan,
the Hindoo, and Infidel of every denomination.”
Thomas Jefferson, Autobiography (1821), in 5 T HE
FOUNDERS’ CONSTITUTION, at 85.
Madison endeavored to make Jefferson’s vision a
part of the Constitution. For example, Article VI of the
Constitution requires that all federal officials “shall be
bound by Oath or Affirmation, to support this
Constitution; but no religious Test shall ever be
required as a Qualification to any Office or public

App-265
Trust under the United States.” U.S. Const. art. VI,
cl. 3. Later, what became the First Amendment to the
Constitution included the words: “Congress shall
make no law respecting an establishment of religion,
or prohibiting the free exercise thereof … .” Id. amend.
I. The purpose of these clauses is to protect our
freedom of worship unhindered by the government.
This very brief glimpse of one aspect of our history
is intended to show that, having learned from the
harmful effects of past religious conflicts, our nation’s
Founders included in our foundational law safeguards
against religious oppression by a government (or arms
of that government) under the control of a religious
majority that would punish or severely limit our right
to worship (or not worship) as we please. This is a
priceless bulwark of our personal freedom, and I hope
that interested readers will come to appreciate the
Establishment Clause as a good friend and protector,
and not as an enemy, of one of their most precious
rights and liberties.
IV. Conclusion
Striking an appropriate balance between
ensuring the right to free speech and avoiding the
endorsement of a state religion has never been easy.
Thankfully, we no longer resolve these conflicts with
violence, but instead use courts of law, where parties
make arguments in free and open hearings to address
their differences. To that end, I commend the lawyers
in these proceedings for the exceptional job they have
done.
At the end of the day, I believe that a resumption
of Kennedy’s conduct would violate the Establishment
Clause. I would therefore deny the preliminary

App-266
injunction on the additional ground that BSD can
satisfy the fourth Eng factor.

App-267
Appendix H
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 16-35801
________________
JOSEPH A. KENNEDY,
Plaintiff-Appellant,
v.
BREMERTON SCHOOL DISTRICT,
Defendant-Appellee.
________________
Filed: January 25, 2018
________________
Before: NELSON, J., SMITH, JR., J., and
CHRISTEN, J., Circuit Judges.
________________
ORDER
________________
Judges M. Smith and Christen have voted to deny
the petition for rehearing en banc, and Judge Nelson
so recommends. A judge of the court called for a vote
on the petition for rehearing en banc. A vote was
taken, and a majority of the non-recused active judges
of the court failed to vote for en banc rehearing. Fed.
R. App. P. 35(f). The petition for rehearing en banc is
DENIED.

App-268
Appendix I
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON, TACOMA DIVISION
________________
No. CV16-5694RBL
________________
JOSEPH A. KENNEDY,
Plaintiff,
v.
BREMERTON SCHOOL DISTRICT,
Defendant.
________________
Preliminary Injunction Hearing
________________
September 19, 2016
________________
Before the Honorable Ronald B. Leighton
United States District Court Judge
________________
THE CLERK: This is in the matter of Kennedy
versus Bremerton School District, Cause No. C165694RBL. Counsel please make their appearances.
MS. RICKETTS: Good morning, your Honor.
Rebekah Ricketts for the plaintiff, Joseph Kennedy.
With me at counsel table is Ben Wilson.
MR. HELSDON: Good morning, your Honor. Jeff
Helsdon for Joe Kennedy.

App-269
MR. BERRY: Good morning, your Honor. Michael
Berry for Joe Kennedy.
MR. FERATE: Good morning, your Honor. A.J.
Ferate here for Joe Kennedy.
THE COURT: Good morning.
MR. TIERNEY: Good morning, your Honor.
Michael Tierney. I represent the Bremerton School
District.
THE COURT: Good morning.
MR. TIERNEY: Accompanying me is Aaron
Leavell. He is the superintendent of the school district.
And Jeff Ganson is the general counsel for the school
district. We have some others in the audience, but
that’s who is at the table with us.
THE COURT: Thank you. Good morning. I have
reviewed everything that has been submitted by both
sides. Because of the importance of this matter, I
wanted to schedule oral argument for the plaintiff’s
motion for a preliminary injunction. Plaintiff can
make their argument.
MS. RICKETTS: Good morning, your Honor. This
case is about Coach Kennedy’s First Amendment right
to take a knee at midfield at the end of the BHS
football games and say a silent prayer for 15 to 30
seconds.
The district has admitted it suspended Coach
Kennedy from all participation in the BHS football
program because he engaged in, quote, demonstrative
religious conduct while he was still on duty as a coach.
The primary issue here is whether the district can
strip Coach Kennedy of his First Amendment rights at

App-270
the schoolhouse gate. And that is exactly what Tinker
forbids.
The district has already conceded that Coach
Kennedy’s religious conviction is fleeting, that any
student participation was entirely voluntary, was
never coerced, never even actively encouraged, and
that Coach Kennedy fully complied with the district’s
directives not to intentionally involve students in his
religious expression. All of these concessions are in the
district’s official correspondence, and are clear on the
face of the record.
The district has also effectively conceded three of
the four prongs of the preliminary injunction inquiry.
That’s not surprising, because the law is clear that
deprivation of First Amendment rights constitutes
irreparable harm, and the balance of equities and
public interest prongs cut squarely in favor of the
party whose rights are being chilled.
So what remains is the Eng test, and Coach
Kennedy, we respectfully submit, amply satisfies that
test.
As an initial matter, the district concedes, as it
must, that Coach Kennedy’s religious expression is a
matter of public concern. So that takes care of Step 1.
At Step 2, the district has completely ignored
controlling precedent from the Supreme Court and the
Ninth Circuit. Under Lane v. Franks, the critical
question in order to determine whether an individual
speaks as a citizen or as an employee is whether that
speech falls within the ordinary scope of his job
responsibilities. That is the task that Lane v. Franks
announces, and that is the task that the Ninth Circuit

App-271
specifically adopted in Coomes, following the Lane
decision.
Under that task, your Honor, it is abundantly
clear that Coach Kennedy’s speech is outside the scope
of his ordinary job responsibilities. The district has not
decided whether he will speak or what he will say, and
all of the responsibilities that the district points to,
coaching football, caring for injuries, maintaining
equipment, none of these have anything to do with
Coach Kennedy’s private personal prayer.
So the clear import of Lane is that Coach Kennedy
speaks as a citizen, not as a public employee, and his
speech is therefore fully protected.
THE COURT: You know, my parents were
educators of a small district. They had responsibilities
well beyond the classroom. My dad coached baseball,
basketball, football. He wouldn’t recognize the
limitations that you’re arguing, that Coach Kennedy
is not a coach at that moment. Center of the field,
lights on, school property.
How do you persuade people, who know the
educational mission of all public schools, that
Mr. Kennedy is off duty?
MS. RICKETTS: Your Honor, to be clear, our
argument does not turn on whether Coach Kennedy is
on duty or off duty. We think the controlling test under
Lane versus Franks is whether the expression that is
at issue is ordinarily within the scope of his job
responsibilities. We do not, for these purposes,
dispute—we don’t think there is a factual dispute
about the nature of his job responsibilities.

App-272
In fact, the district has effectively abandoned
their prior argument that his alleged failure to
supervise justified the adverse action here.
But the Ninth Circuit en banc in the Dahlia
decision made clear that public employees may receive
First Amendment protection for expressions made at
work.
So the only thing the district can point to is this
bright-line temporal test that they invent, that treats
any expression by an on-duty public employee as
speech, quote, as an employee for constitutional
purposes.
THE COURT: Is there a difference between the
speech if it is religious in nature? The trip wire is very
taut for most speech that does not have a religious
overtone, because we guard our liberties jealously for
political discussion and the like. But there is a push
me/pull you on religion. It is the uprights.
It is not Scylla, it is not Charybdis. I mean, we
don’t need a geography test for the Italian peninsula
and Sicily, just the goalposts. You’ve got to thread the
needle, so to speak, between establishment and free
exercise.
And that, I think, makes the trip wire a little
slack. How do you respond to that?
MS. RICKETTS: Respectfully, we would submit
that for purposes of the prong two inquiry, under Eng,
which looks at whether he is speaking as a citizen or
as an employee, we do not think the religious content
matters for purposes of that analysis.
Now, your Honor is certainly correct that when we
get to prong four, which is where the district bears the

App-273
burden to show an adequate justification for its
actions, then you’re absolutely right that the
Establishment Clause comes squarely into play, and
in fact that is the only justification that the district
has offered here for its adverse actions against Coach
Kennedy.
It has abandoned the argument that it failed to
supervise, and said solely that its adverse actions were
required in order to violate the Establishment Clause.
So with your Honor’s permission, I will skip to
that step. The controlling test is Sante Fe, your Honor.
And the question under Sante Fe is what the
reasonable observer would understand given the facts
and the context.
So what would the reasonable observer
understand here? He would see Coach Kennedy take
a knee at midfield for 15 to 30 seconds. At most, your
Honor, the reasonable observer would draw the
conclusion that he is engaged in a personal moment of
silence.
Now, that is completely different—completely
different facts from the district’s other cases, which
involve public employees who actively encourage,
actively orchestrate student religious expression.
By the district’s own admission—
THE COURT: Nobody orchestrated that gaggle of
press and everyone around? I saw the pictures.
MS. RICKETTS: Your Honor, it is a great point,
and I’m glad you raised the picture. The picture that
is in the record of the coach surrounded by players was
taken following the October 16th game. The district

App-274
puts forward this picture as evidence
Establishment Clause concerns are justified.

its

What the district does not tell you, following the
October 16th game Coach Kennedy intentionally
waited until the Bremerton students had finished
their handshakes, were walking towards the stands,
and were engaged in their post-game fight song. It was
at that moment that he intentionally waited to drop to
his knee, close his eyes, and engage in a personal
prayer.
So the players that you see gathered around
Coach Kennedy in that photo are not Bremerton
players. They are Centralia players who gathered
around him at a point in time where his eyes were
closed, his head was bowed.
According to his sworn declaration, and the
district does not dispute this, he had nothing to do
with orchestrating that event.
In fact, the only reason, your Honor, that event
occurred is because the district in prior weeks had
taken very public actions to try to stamp out Coach
Kennedy’s religious expression.
So for the district to cite the controversy that it
created as a justification for its adverse actions
against Coach Kennedy, candidly, your Honor, we
think that argument is perverse. That is not the
relevant standard for purposes of the Establishment
Clause analysis.
A quick word on Borden, your Honor, which is a
case that the district cites very prominently. A couple
of issues with that holding. Number one, the Third
Circuit’s analysis in that case actually turns on the

App-275
public concern inquiry, which is the one prong of the
analysis that the district has fully conceded, as it
must, because the Ninth Circuit has adopted a very
expansive definition of public concern to incorporate
any speech or expression that touches on religion.
The only Establishment Clause discussion that is
actually in Borden is in dicta that the court admits it
need not undertake.
But the most important point about Borden, your
Honor, is that they are very different facts. The coach
in that case had a history of actively encouraging
students to participate in official prayer, and he
continued to actively encourage that student religious
expression, going so far as to email players asking
them to participate, asking them to report back to him.
Coach Kennedy has made very clear that the
nature of his religious conviction has nothing to do
with engaging in prayer with students. The core of his
religious conviction is to simply take a knee following
the game and offer a prayer of thanks.
The district can point to no authority, your Honor,
for the proposition that a 15- to 30-second silent
prayer constitutes a state endorsement of religion.
And that’s because no federal court has endorsed, in
our view, such an extreme and expansive
understanding of the Establishment Clause.
The clear impact, we think, of the district’s view
would be to strip public employees of all First
Amendment rights to engage in any visible religious
conduct while they are on duty. The law simply does
not support that conclusion.

App-276
THE COURT: How about if we hear from
Mr. Tierney. You will have every opportunity—you
will get multiple opportunities to take the floor and
counter their argument. I get your basic argument. I
want to hear Mr. Tierney and the district, and then
you can come back. You will be up many times.
MS. RICKETTS: Thank you, your Honor.
MR. TIERNEY: Good morning, your Honor. So I
don’t have to try to say everything I want to say in ten
minutes?
THE COURT: Right. There are no time limits
here. Just in Seattle.
MR. TIERNEY: There’s not a trapdoor that is
going to open?
What I want to do is go back and start at what I
think the logical prior steps are. But if you have some
question, obviously you will direct me to it, and I will
be happy to jump ahead.
THE COURT: You glean from my question, my big
focus is on step two of the Pickering test. I am stuck
on that. But I don’t want to curtail your remarks.
MR. TIERNEY: I would still like to go back,
because I think they illuminate what those questions
will be later on.
The first question here is—This is a motion for
preliminary injunction. We are arguing that it is a
mandatory preliminary injunction. And the plaintiff’s
response has been, well, it is not really mandatory, we
are just going back to the last peaceable status. And
they say they want to go back to the status that was
in existence for eight years. And that’s out of their
reply brief.

App-277
That status was clearly unconstitutional. I don’t
know that they really mean to say they want to go
back to that status, but all we can do in a motion for
preliminary injunction is examine what it is that the
plaintiff is asking for and what sort of facts they have
put before the court. And what they say they are
asking for is, return to the status of eight years before.
Now, in that status of eight years before, the
practice was Mr. Kennedy would lead prayers in the
locker room prior to a game, and then after a game he
would meet at the midfield, and players from his team,
and possibly players from another team, and give
basically a congratulation speech, with references to
God. And he conceded in the district—and this is in
the district’s letter of September 17, that that
constituted a prayer.
What they are asking to reinstate is the regime
that consisted of Mr. Kennedy leading prayers in the
locker room before the game, and leading verbal
prayers with the team after the game.
So when we look at all of these steps in the test—
all of the things that proceed farther down the line, we
have to look at it in view of what they are actually
asking for. I have my doubts that is really what they
are asking for.
I want to illustrate what I think went on here—
not that I think, that I know went on—with the
timeline. Your Honor, it is Tab 3. For eight years there
was a practice that clearly violated the Constitution.
It came to the district’s attention. And so, obviously,
the district isn’t aggressively trying to search out
prayer and persecute Christians or anyone else. Had
meetings with Mr. Kennedy, and he agreed to

App-278
abandon that practice, to not pray before games and
to not pray after games. Now, that is the last
peaceable status between the parties.
He made an agreement with the district. That
agreement he honored for a month. And then his
lawyers sent a letter saying he is going to pray at
midfield, and you can’t stop the students from joining
him.
Now, I believe that is the regime they want to put
in place. But that is not the last peaceable status. And
there are several problems with it in the context of a
motion for a preliminary injunction that I don’t believe
this court can get over the hurdles on.
I will start with, what was the agreement that
Mr. Kennedy made? It is in a contract. And this is Tab
13. I am going to put it up here. Mr. Kennedy signed a
contract with the district after the district told him
stop praying before games and stop praying after
games, and after he agreed that he would not do that.
That contract is signed October 5th of 2015.
So the last peaceable status between the parties—
And I want to point out, this contract states under
one of the bullet points, “Have read and understand
all policies and procedures.” So we have a pretty
visible issue that has been discussed in the district.
We have meetings between the superintendent and
Mr. Kennedy. We have him agreeing to stop praying
with the team before games and after games. And then
we have him execute a written contract that says he
has understood the policies.

App-279
THE COURT: The school district is not seeking to
bar him from praying before or after the game, or
during the game, or at any time, are you?
MR. TIERNEY: Do you mean outside his capacity
as a coach?
THE COURT: He can say a prayer to himself?
MR. TIERNEY: Nobody would know if he was
praying.
THE COURT: Joe Garagiola, he would make the
sign of the cross in the dirt with his bat, and Yogi
Berra would walk over and erase Garagiola’s cross and
say, “Let’s let God watch this one.” That was a
humorous way to lighten the moment.
Anybody can pray at any moment. You can say a
prayer right now silently. You are not contending that
you want to bar him from doing that?
MR. TIERNEY: No. In fact, your Honor, the
district was only concerned with demonstrative prayer
around the students, that reflected on his role as a
coach with the students.
THE COURT: So we are using that shorthand
version for that construct—
MR. TIERNEY: Most of the prayers that people
do—You know, you didn’t see me praying at the table
here beforehand. Most of the prayers people do,
nobody can see and nobody can have any concern with.
But a coach’s prayer, or a teacher’s, when they are
with the students in a role is a different animal. That
is what we are addressing. That’s what Mr. Kennedy
agreed to stop doing.

App-280
The district offered other places for him to engage
in a prayer if he wanted to. The district didn’t oppose
his prayer.
The only issue is basically what I call the time and
place issue: When can you do that? When can that be
acceptable? It was fine for a while until he insisted
that he would be able to do it on the district’s field,
under the lights, when he wanted to do it, and the
district couldn’t say anything about it, and couldn’t
stop the students from joining him.
I believe that’s the regime they want to put back
in place. But that is a modification of the contract that
would have been renewed if he had agreed to the same
contract. He never applied. He never said, “Renew my
contract,” because he didn’t want that contract
anymore. He wanted a different contract.
He is asking the court to write a different contract
for him that the parties had never agreed upon. That
is a mandatory injunction. That requires the district
to do something it had not done before. It is not putting
back in place any sort of status quo.
The other problem with it, as long as we are
talking about mandatory injunction, is that even if he
were correct on his argument that, “Well, in that
moment I’m not a public employee, I’m not a school
district employee or coach, I am a private citizen,” that
doesn’t advance him anywhere, because if he is a
private citizen he is subject to the same rules that
govern all the other private citizens sitting in the
stand. They are not allowed to go on the field and use
it as a forum for speech. They are not allowed to have
a religious demonstration out there.

App-281
That is something that turned into an issue later
on when we had this—and I submitted the photo,
because I think it is kind of scary, we had the Satanist
group show up and say, “We want to use the field, too.”
He becomes a private citizen—If he wins his
argument, he is a private citizen. But that doesn’t
allow him to take over the school’s field at the 50-yard
line and then engage in a prayer.
I think it makes no difference, really, as far as
what this court can do under a mandatory injunction.
You would be writing an order requiring the school
district to reform his contract and writing an order
requiring the school district to open a public forum on
the school property after games. Because if
Mr. Kennedy is allowed on the field to engage in free
speech, everybody else is going to be allowed on the
field to pray under free speech. And they have not
established that ground for you.
And that’s what I am talking about, what is before
the court in this motion for preliminary injunction.
They haven’t even put it before you as to laying out
exactly what you have to do. And having not
accomplished that, they can’t prevail on that. They
haven’t shown us anything that gives you grounds to
say it is more likely than not that they will succeed in
getting ultimately a decision in this case that requires
the school district to open a public forum. It hasn’t
even been discussed, but that is the consequence of
what they are asking for.
I mean, we are not going to do it, obviously. We
are going to keep talking. But I think that ends the
inquiry here in the injunction. Now, maybe we would
talk more if we were at summary judgment. If the

App-282
mission at this hearing is to get the court to issue a
mandatory injunction, they have failed in that
mission.
I want to point out one other thing on a mandatory
injunction. We talked about it changing the standard
to producing a clear likelihood of success on the merits.
But the other effect of it—And it is in that very
same case, the Marlyn Nutraceuticals case, is that it
changes the irreparable harm standard. The
irreparable harm standard says only extreme or very
serious damage will result. Again, that is a heightened
standard from a prohibitive injunction.
The next what I consider logical prior step is with
respect to the elements for a Section 1983 action. And
these are built on what we just talked about here, that
in order to prevail on a Section 1983 action the
plaintiffs have to show that there was a school district
policy that inflicted the harm that he is complaining
of. But the harm that he is complaining of is a contract
and an agreement he made to stop praying before and
after games.
All of the coaches’ positions were open at the end
of the season. They were all open for application. He
didn’t apply. Three other coaches didn’t apply. The
school district hired a new head coach. The head coach
participated in the hiring of other assistants, and all
the positions were filled. There was no application by
Mr. Kennedy for a renewal of his contract.
So no school district employee, much less a
policymaker, ever denied Mr. Kennedy a renewal of
the October 5th contract, the contract that he had
signed that said, “I won’t pray before or after games.”

App-283
That’s what he would have been entitled to if he had
actually applied for a job for 2016.
So in the absence of a policymaker—And that job
for 2016 is at the core of what they are asking the court
to do, “Exercise your injunctive powers on my 1983
claim.” But if there is no policymaker, there is no
Section 1983 claim, and we don’t have a basis for
federal jurisdiction to be exercised with respect to the
2016 coaching roster. I believe it goes to the court’s
jurisdiction. It certainly goes to the viability of any
Section 1983 claim regarding the renewal of his
contract.
He doesn’t want the contract he had.
I think those should stop the inquiry at this point,
especially when the standard is clear likelihood of
success on the merits. I don’t see any chance of
showing policymaker involvement in not renewing a
contract that he didn’t ask to renew.
But is it ever going to get to clear likelihood of
success on the merits? They basically refused to
address that point, and simply say, “Well, it would
have been futile.”
And here’s where I go back to what I started out
with: Let’s look at what we have in front of us for this
motion. What we have in front of us is Mr. Kennedy’s
testimony that, “I was suspended, then they gave me
a bad review, then they fired me.” That’s the testimony
that is before the court. And it hasn’t been changed.
“Suspending and then firing me from my job,”
that’s what the allegation is. That’s what the court has
before it to deal with.

App-284
From the complaint it says, “In January 2016,
Coach Kennedy’s contract was not renewed.” So they
are alleging that something affirmative happened in
January of 2016. That’s what the basis for the
preliminary injunction is. But that was established by
the witness, by the party.
Now what we have is the lawyers attempting to
backfill, provide their own testimony, change those
facts. They say, “Well, it was futile. He was
discouraged from applying because of what
happened.” That’s testimony by a lawyer. That isn’t
what was submitted to the court as a basis for you to
exercise your injunctive powers, any more than my
testimony, if I were to say, “Well, that is not really
what happened. He knew that they would renew the
contract, but on the grounds of the one that they
signed.” I am testifying to that. That isn’t the basis of
a motion.
So what is the basis that this court has—what has
been factually submitted to this court that says there
was a policymaker that did something wrong with
respect to renewing a contract for 2016? They have
nothing.
They have an allegation by the plaintiff that,
“They fired me,” that something happened in January
2016. We’ve got the school district saying, “He never
even applied. The positions were all open. We filled
them with someone else.” At best, that’s a disputed
fact. That is not a clear basis for exercise of your
injunctive powers.
Now we are getting to what you wanted to get to.
I think what I said before will illuminate this publicemployee/private-citizen issue. The contract that

App-285
Mr. Kennedy signed, and I will try to cut to the chase
a little more, if you read it all, he is going to be a coach,
mentor, and a role model.
THE COURT: Right.
MR. TIERNEY: He is going to “exhibit
sportsmanlike conduct at all times,” not just the times
of his choosing.
“Positive motivational strategies.”
Underneath the bold, where it says, “Always
approach officials with composure. I understand that
I am constantly being observed by others.” And that
goes to the core of his role. And that is what is at the
core of the court’s Ninth Circuit ruling in Johnson
versus Poway Unified School District.
What the court said there was a teacher doesn’t
stop being a teacher when he steps outside of the
classroom, a coach doesn’t stop being a coach when the
whistle blows. He is always being observed. So when
the coach is out there on the field, he is being observed
as a coach.
What the Johnson court said—in this last one
here, “Understand that the athletics program is an
integral part of the total educational process.”
What the court said in Johnson is—basically
asking the question, what does a teacher sell to the
school district? What the teacher sells to the school
district is the teacher’s expressions. And it cited cases
from other circuits.
And there is nothing remarkable about that.
That’s what teaching is. That’s what education is, you
put young people together with older people. And
having myself been a coach, been coached, and

App-286
watched my son being coached, I know that a coach in
most situations—Not most. I don’t want to be antieducation. But the Johnson case dealt with a calculus
teacher. Now in the life of a teenage boy, who is the
more towering figure, his football coach or his calculus
teacher? It is going to be his football coach. They can
be monumental figures in a kid’s life.
What the district contracts for when it hires a
coach is all of your expressions are relevant to what
you are doing with our students: We are buying every
bit of your behavior while you’re around the students,
because they are always watching you. You are very
important, and everything you do is important to us.
So what the Johnson court says, basically, is
everything that is expressed by a teacher is his job
duties. There isn’t some seam in there. There isn’t
some break when he is around the students.
If he goes in the teachers’ lounge and he talks to
other teachers, that is a different matter. If he is
engaged in some totally different thing—As the court
said about the teacher, if he is running errands or
doing something else for the school district, that is a
different matter. But if he is out and around the
students, in the classroom or out, every bit of his
expression is expression that the district has
contracted for. So every bit of it is subject to district
control.
THE COURT: I wrote and delivered a speech on
civility, comportment, and the theme was “Everything
I needed to know about civility I learned from
baseball.” That, it seems to me, is appropriate now.
Coach Kennedy is a very, very good man, who teaches

App-287
powerful lessons to young men. But it is a two-edged
sword, because he is a coach. He is “Coach.”
I played baseball. I had two tryouts for the pros. I
love baseball. I would walk through a wall for my
coaches. In many ways it is outcome determinative. I
love his sentiment enunciated at the center of the
field. That is powerful stuff.
In a different era, it would have been acceptable
and universally applauded—or almost universally.
That is not the law that we have before us. That’s my
quandary.
MR. TIERNEY: And I couldn’t agree more, your
Honor. If you read the district’s letters, that is the
tenor of what the district is saying. We are almost
basically begging, saying, “Look, do the wonderful
stuff that you do, but let’s work something out with
the prayer.” And they thought they had it worked out.
And then he said, “No, you don’t.”
That puts the district in an extremely difficult
position, that I would rather not have, of course. As
you said, in the day and age we live in, if it is going to
allow a demonstrative prayer at midfield, it is going to
have to open a public forum to allow other people to
speak what they want to speak.
THE COURT: I delivered the invocation at my
graduation ceremony. Enough said. In my life and in
my perception of tradition and faith, that was a good
thing. But we are a diverse—a more diverse
community, and the goalposts narrow. That’s what we
are wrestling with here.
MR. TIERNEY: And I agree, your Honor. I think
it is worthy at this point—worthwhile to emphasize we

App-288
are not here on a motion for summary judgment. We
are not here to decide the ultimate merits. We are here
to decide whether you are going to issue that kind of
order or what it will be going forward.
I feel like I have used up enough time.
THE COURT: You will have another shot.
Ms. Ricketts, do you want to come back up and
respond to what you have heard so far?
MS. RICKETTS: Yes, your Honor. A couple of
points, your Honor. I will start at the end and back up
and address the standard.
On the subject of whether his speech—whether
Coach Kennedy’s speech is as a citizen or as an
employee, that is the step two inquiry that your Honor
alluded to earlier. The district just told you that it is,
quote, buying every bit of his behavior, and that every
bit of it is subject to district control.
So the district is not backing off on its temporal
bright-line rule. They are doubling down on a rule that
says on-duty public employees cannot engage in any
form of visible religious conduct. The problem with
that, your Honor, is that it is squarely contradicted
both by the Supreme Court and by Ninth Circuit
precedent.
The Ninth Circuit in Dahlia made clear to caution
courts not to determine whether you act pursuant to
your official duties based on whether the views were
expressed inside the office or not. So the question is
not whether you’re on duty or off duty, the inquiry is
to look—
THE COURT: It is under the totality of the
circumstances. If you’re at a table in the cafeteria, and

App-289
you are invoking the Lord’s blessing for the food, that’s
a different question than with all the accoutrements,
all of the attention, all of the authority, by virtue of his
coachhood, that’s a different question from my
perspective.
MS. RICKETTS: Respectfully, your Honor, we
would disagree. The rule that the district has
articulated and the rule that the district punished
Coach Kennedy for violating was engagement in
demonstrative religious conduct.
That equally prohibits the teacher who is sitting
alone in the cafeteria and silently bows her head. It
would prohibit any coach, any teacher from wearing a
head scarf, from wearing a cross, from making the sign
of the cross. Those are all visible religious expressions,
your Honor.
And Dahlia and Lane squarely instruct the court
to look not at whether you are on duty or off duty, but
whether the speech is within or without the scope of
the employment duties. The district, your Honor, has
made no attempt to engage that test at all. They failed
even to cite Lane versus Franks, which is the
controlling test, in their response brief.
The district points to Poway—Johnson versus
Poway. We think Poway is a great case for us. Poway
illustrates how different the facts would have to be in
order to find in favor of the district.
The teacher in that case engaged in religious
expression in the classroom, hanging gigantic banners
with religious expression. And the court—There were
fact findings in that case that he had taken advantage
of his position in order to press his religious views onto
a captive audience of students.

App-290
Courts have consistently treated cases inside the
classroom as wholly other, because in that context
there is a captive audience of students who are forced
to listen to whatever expression the teacher comes
forward with. That is not this case, your Honor.
THE COURT: Were you an athlete?
MS. RICKETTS: Not a very good one, your Honor.
THE COURT: It is not a good or a bad. If you are
an athlete, you are impressionable, and you are
respectful, and you want to please your coach to get
more playing time, to shine, to do whatever. That’s a
subtle coercion. It is called stigma. Stigma has a very
laudatory role in society without rules, regulations,
and all that, and dogma. The Golden Rule is about
stigma, treat me the way you want to be treated.
There is coercion, albeit perhaps loving, kind,
inspiring. It is coercion nonetheless, from my
perspective.
MS. RICKETTS: Respectfully, your Honor, we
disagree, and we think the cases disagree as well.
First of all, on the facts, the district has expressly
stated that no students were ever coerced, were ever
required, were even actively encouraged to participate
in any religious conduct.
MR. TIERNEY: Your Honor, I would have to
object. This is a Rule 106 objection. That is
misquoting. And I would like to—
THE COURT: Put it on the record. Overruled.
MS. RICKETTS: I will have you look at the
statements in context, as well, your Honor.

App-291
The more important point, I think, here, is that
the Ninth Circuit has instructed what the remedy is
in the event of any confusion. Because the courts are
sensitive to exactly this concern that your Honor is
raising, students are impressionable.
Even, let’s say, in the context of a 15- to 30-second
silent prayer, your Honor, we don’t think there is any
uncertainty about what a reasonable observer would
understand in that situation.
But even if there was, the Ninth Circuit has said
the district has two remedies: First of all, it can issue
a disclaimer, making clear that the private speech is
not the speech of the state. That’s Prince v. Jacoby.
Second of all, your Honor, the Ninth Circuit has
stated over and over that the role of the school is to
educate the students, educate the community that the
school does not endorse all speech that it fails to
prohibit. That’s the Hills case, which is cited in our
brief, at Page 20.
The Ninth Circuit has made abundantly clear
that the desirable approach here is not to suppress the
speech, but instead for the school to simply make clear
that private speech and government speech are
separate.
A couple of points, your Honor, on the standard, if
I may?
THE COURT: Yes.
MS. RICKETTS: First of all, your Honor, the
district has misconstrued what is the last peaceable
state of affairs. Of course Coach Kennedy is not
seeking to pray with students. He is not seeking to
engage in any sort of religious conduct with students.

App-292
He has made that abundantly clear, and the district
itself has conceded that he complied with all directives
not to intentionally involve students in his religious
expression.
Instead, your Honor, the last peaceable state of
affairs is one before the district announced its blanket
ban on demonstrative religious conduct. That is
essentially rewinding the clock to September 2015.
The injunction that Coach Kennedy seeks here is
simply to preserve that state of affairs. The relevant
metric for that state of affairs is what the district’s
policy was before it announced this, in our view, baldly
unconstitutional rule.
The Brewer case, which is a Ninth Circuit 2014
opinion, makes clear that’s how the analysis proceeds
for purposes of determining whether something is a
mandatory or prohibitory injunction.
Candidly, your Honor, ultimately the label does
not matter, because courts order reinstatement even
when that remedy is construed as mandatory. And
that’s because the remedy of reinstatement is not just
an available remedy here, it is actually the preferred
remedy in cases of First Amendment retaliatory
discharge.
Courts have said that you are only to order
monetary damages, which Coach Kennedy does not
even seek, if there is some reason specific to the
workplace why reinstatement would be inappropriate.
The district has obviously pointed to no such
reason why reinstatement would be inappropriate
here. So I would argue reinstatement is fully available

App-293
to the court, and in fact it is the preferred remedy in
this case.
The notion that the characterization of the
injunction as mandatory, which we disagree with,
should be dispositive, we simply disagree.
Next, your Honor, the district points to and relies
heavily upon Coach Kennedy’s alleged failure to
reapply for a position in the 2016 season.
It is interesting that the district thinks that it can
escape liability on these grounds, for a couple of
reasons: First of all, the district made clear when it
suspended Coach Kennedy that he was prohibited
from participating in any capacity in the BHS football
program unless and until he agreed to the district’s
rules.
THE COURT: Ms. Ricketts, I am persuaded that
the district acted under color of law. My question is, is
there a violation of a constitutional right under the
Pickering test? I am not looking at the mandatory and
prohibitory injunction anymore. The standards, it
makes no difference to me. The clearly—
MS. RICKETTS: We agree, your Honor.
THE COURT: 1983, it is all about whether there
is a constitutional right. You drill down to the
Pickering test. The second standard—And he is a
teacher. He is a coach. Explain Lane to me, that it
alters the analysis of religious speech. Not just free
speech, but religiously-oriented free speech.
MS. RICKETTS: Your Honor, we would say that
Lane, as affirmed by Coomes, as well as Dahlia, which
is the Ninth Circuit en banc opinion, all of those cases
stand for the proposition that there can be no bright-

App-294
line rule between when you are on duty and when you
are off duty. That is not the relevant line in the sand.
Instead, what we have to do is say—the courts are
instructed to undertake a fact-specific analysis to look
at what are Coach Kennedy’s responsibilities, and look
at whether the speech is ordinarily a part of those job
responsibilities.
THE COURT: Yeah. After the analysis of the
facts, it is an issue of law. It is a question of law.
MS. RICKETTS: That’s right. We would submit,
your Honor, the prong two inquiry is actually
relatively straightforward, simply because the district
enunciates the wrong test.
What the district wants to do is take Poway and
construe Poway as creating a bright-line temporal rule
that applies to all public employees. First of all, I think
that—
THE COURT: There is no bright-line test in my
horizon on this issue. I’ve had three or four or five
religious freedom cases. I seem to get all of them. They
all stand on the facts presented before me. When I
finish a case, I shred everything and start over,
because there is no efficient way to try a case from a
trial lawyer’s perspective or from a judge’s
perspective.
Under these circumstances I evaluate what—I
know a lot about coaching. I coached my sons. They
are revered to men and women, boys and girls. That’s
one of the great advances in our culture, the equality
of women and girls to compete, and learn the skills of
competition. With all due respect, the coach is more
important to the athlete than the principal.

App-295
MS. RICKETTS: In the life of students on a daily
basis, we agree. Again, with no offense, Coach
Kennedy, everyone, I think, agrees, has had a
tremendous impact on the lives of these students. And
he is currently, candidly, your Honor, in agony, not
being able to participate in those relationships with
those players that he built up over time. There are a
number of seniors currently on the roster. He is not
able to be on the sidelines coaching them through their
final season. That itself, we would argue, is
irreparable.
But, your Honor, we are sensitive to the fact that
it would be attractive, it would be easier if the court in
Lane, or Garcetti, or Dahlia had articulated a clear
rule that said when you’re on the clock, you speak only
as a public employee; when you’re off the clock, you
don’t. But that’s not what the courts do.
Instead, we have to look at the employment
responsibilities that the district has articulated. And
respectfully, your Honor, they have nothing to do with
the religious expressions he is engaged in.
THE COURT: But all the other cases, the free
speech cases, are preferential in favor of free speech.
Not so much on the religious. It has gotten much
narrower because of the Establishment Clause. And
that has become—Justice Sotomayor, if she had
described the response in a religious speech case, I
would follow it.
MS. RICKETTS: To the extent, your Honor—
Well, I will say that we wholeheartedly agree, that
current Establishment Clause jurisprudence is not a
model of clarity, by any means. However, it is clear,
we think, that Sante Fe is the test. Sante Fe instructs

App-296
the court to look at what the reasonable observer
would understand.
What the reasonable observer sees here is Coach
Kennedy kneeling at midfield for a period of 10 to 15
seconds. Your Honor, even the district in its own
answer says that it does not know whether Coach
Kennedy was engaged in prayer in that length of time
during that October 16th game. How can there be a
violation of the Establishment Clause if the district
does not itself know whether any religious expression
was happening at all? It just doesn’t make sense.
A couple of points, just quickly, your Honor, to
touch on failure to reapply. As I mentioned earlier, the
district made very clear that Coach Kennedy was to
have no subsequent involvement in the football
program until he agreed to the district’s rule.
We now know from the papers that the district
has filed in this court that the district adhered to that
same view in its filings before the EEOC, and indeed
it continues to adhere to that view today.
So to claim that any intervening action by Coach
Kennedy would in any way have changed the result,
we think, your Honor, is simply meritless. The law
does not require futile action by a party.
But there is a second problem with the failure to
reapply, your Honor. The Supreme Court in Connick
made clear that the state cannot condition public
employments on a basis that infringes freedom of
expression. That is exactly what the district has done
here. This whole notion that an intervening cause
from Coach Kennedy’s failure to comply, candidly,
your Honor, we think that argument just doesn’t work.

App-297
A couple of additional points that counsel raised.
One related to the Satanists. We are by no means
asking the district to endorse a rule that would require
groups that clearly seek to disrupt or create a
disturbance onto the field. The district has ample tools
at its disposal to deal with those people. And those
sorts of hypotheticals, we think, have no bearing here.
Finally, your Honor, the issue of Monell, which
your Honor already alluded to, certainly is not a
jurisdiction issue. We think there can be no plausible
dispute that the district acted in its official capacity,
official correspondence, official policymaker, official
suspension.
THE COURT: Thank you, Ms. Ricketts.
Mr. Tierney, do you want to say anything about Lane?
If you want to say something about anything else, you
have the votes, you don’t need to speak.
MR. TIERNEY: I will just talk about Lane, your
Honor. The problem with that discussion, your Honor,
first of all, it mischaracterizes Lane, but most of all it
mischaracterizes what the district is saying.
The district isn’t saying that all public employees
are subject to a temporal test that says if they are at
work they are therefore speaking as public employees.
We don’t say anything of the sort. We don’t come close
to saying anything of the sort.
I would call it a straw man, except a straw man is
even stronger than that. It is a ridiculous argument.
It is a ridiculous argument for anybody to think that a
party could make, that there is some rule that says all
public employees while they are at work necessarily
speak as public employees. That is not what the case
law is about. We don’t say that.

App-298
What we draw from Johnson is much more
specific and much more varied. Johnson doesn’t deal
with all public employees. It only deals with the school
context.
It takes pains—It is a long opinion. It refers to
circuit court rulings from other districts, and draws on
all of those principles, to describe what is it about the
school environment that is unique, and what is it
about the factual basis of what teachers do, and then
it draws the conclusions from it.
And I will put the conclusions up here. This isn’t
a temporal test. It says, “Teachers necessarily”—this
is the rule in this case, “A teacher necessarily acts as
a teacher for purposes of a Pickering inquiry,” one,
“when at school or a school function”; two, “in the
general presence of students”; three, “in a capacity one
might reasonably view as official.”
There are at least three components there. It’s not
a temporal test. It doesn’t say from the minute they
walk in the door until they go. It says, “If you are in
school or at a school function.” That is sort of a
temporal test, but it is also a location test. And then,
even more specific, “In the general presence of
students.” So it doesn’t address anything that teachers
do outside of the presence of students.
And then, finally, even more leeway for a teacher,
“In a capacity one might reasonably view as official.”
There is a difference between the teacher at the
basketball game who is keeping score, or he is
standing in front of the crowd to keep people from
running on the court, or something like that. That is a
capacity you might reasonably view as official.

App-299
But if a teacher is sitting up in the stands
watching a game, I think Johnson would say that
teacher isn’t necessarily acting in the capacity as a
teacher. That is the test that we are applying.
There is no bright-line test here. There is a lot of
room for nuance. There is a lot of different elements to
it.
But if you take that, I think, under any generous
reading even, for the plaintiff, each of these factors
applies to his role when is he out in the middle of the
field with the students—the players. They do the
handshake line, which we never did when I was a
player. But they do that now. They still have to watch
the students then. Honestly, as a lacrosse coach, I will
tell you, fights break out then sometimes, and we
really had to watch it.
He’s got his coaching gear on, he’s got his students
around him, clearly in an official capacity. That is a
difference. It is not saying every single second,
anything he says, we have this bright-line rule that
wraps the whole package up. We are not saying that
at all. What we are saying is that these factors apply
squarely to the situation we are talking about.
I just have to briefly address that picture. I want
to put this picture up, your Honor. When we are
talking about the Establishment Clause issue—The
top picture is the one we submitted with the motion.
This bottom picture is—If you pull out the Ninth
Circuit—the Third Circuit opinion, this is in there.
This is what the Third Circuit said is a violation of the
Establishment Clause.
Now, it didn’t have the Johnson versus Poway test
to apply. But if you read the reasoning of that case, it

App-300
applies. That case was cited by—I believe that case
was cited by the—I might be thinking of Doe versus
Duncanville, which was another coaching case,
holding hands at midcourt. Those cases were cited by
the Johnson court.
This bottom picture was found to be a violation of
the Establishment Clause.
The top picture, they say, “Well, all he wants to do
is kneel on his own at the 50-yard line.” But in the
same letter that says he is going to do that, it says,
“Don’t you dare do anything to stop the students from
joining him.”
The school can’t, and doesn’t want to, stop
students from praying. If the students want to pray,
they are entitled to pray.
So how does the school manage that situation,
where a prayer circle with a coach in the middle of it
is a violation of the Establishment Clause, but we
can’t stop the students from praying? We don’t want
to stop the students from praying. The only way they
manage that is to say to the coach, “We are going to
ask you to do your prayer somewhere else.”
THE COURT: Thank you, Mr. Tierney.
MR. TIERNEY: You’re welcome, your Honor.
THE COURT: Ms. Ricketts, any final thoughts?
MS. RICKETTS: Two points, very briefly, your
Honor.
THE COURT: Thank you.
MS. RICKETTS: Your Honor, first, the step two
inquiry, the district continues to run from Lane,
continues to run from Dahlia. Both of those cases are

App-301
after Johnson versus Poway. Those are the controlling
cases in this circuit.
But the district on one hand says, “We are not
announcing a bright-line rule,” on the other hand they
are crafting such a rule with respect to public school
employees.
Under the district’s rule that’s announced and
that’s applied against Coach Kennedy, visible
religious conduct that may be observed by a student is
prohibited. And respectfully, your Honor, that is just
not what Lane and Dahlia permit. That is not the
relevant analysis.
Here is what happened in Poway: The teacher in
that case took advantage of his position to press his
particular views upon the impressionable and captive
minds before him. The court leaned heavily on the
classroom context, the captive audience of students
that were there. There is no classroom, there is no
captive audience here.
Second, your Honor, briefly, as to Borden, the
district wants to look at the eight-year history here
and claim that is a factor in their favor. In fact, it is
quite the opposite, your Honor. The district was
wholly unaware of Coach Kennedy’s religious
expression for the first eight years of his tenure as a
coach. That is how unobtrusive the religious
expression is here.
What the district wants to do is claim the media
attention resulting from the controversy it created,
and say that creates an Establishment Clause
violation.

App-302
Your Honor, that is simply not what is at issue.
All that Coach Kennedy wants to do is take a knee at
midfield for 15 to 30 seconds, for what is effectively a
personal moment of silence. There is no federal court
that should prohibit that religious expression. Thank
you.
THE COURT: Thank you, Ms. Ricketts. First, I
want to thank all participants for the written
materials and the oral presentations that were made
here today.
This is one of those cases that make you want to
be a lawyer, to argue and deal with complex, sensitive
issues in a public way. That’s why I wanted to be a
lawyer. I suspect that many of you feel the same way.
I am going to deny the motion for preliminary
injunction. I am satisfied that under the 1983
elements for injunctive relief that the district did act
under color of law, but they did not violate the
constitutional right of free speech violation
determined by Pickering.
The five elements or tests under Pickering: One,
whether the plaintiff spoke on a matter of public
concern: Yes. Two, whether the plaintiff spoke as a
private citizen as opposed to a public employee: No.
Three, whether the plaintiff’s protected speech was a
substantial or motivating factor in the adverse
employment action: Yes. Four, whether the state had
an adequate justification for treating the employee
differently from other members of the general public:
Yes. Five, whether the state would have taken the
adverse employment action even absent the protected
speech: No. This is the reason that Coach Kennedy is
no longer coaching for Bremerton.

App-303
He had a great opportunity, a great job, to
influence young people. Most coaches would coach for
free. Not the big coaching jobs at the university and
all that, but the workaday coaches get a stipend, and
it is not much. It is because they love the kids, they
love the sport, they love the competition.
Coach Kennedy was dressed in school colors. He
chose a time and event when the season is ten games,
or nine games. It is one-tenth of the excitement for the
students for that semester. It is a big deal. Under the
lights. He used that opportunity to convey his
religious views, as laudable as they were.
He was still in charge. He was still on the job. He
was still responsible for the conduct of his students,
his team. It is not a debatable point, from my
perspective, that he was a private citizens as opposed
to a public employee. He was on the job, as he would
have wanted to be. And a reasonable observer, in my
judgment, would have seen him as a coach,
participating, in fact leading an orchestrated session
of faith, of thanks, of fellowship. All those things are
laudable. They just can’t be happening on public
property in this climate under the law.
For those reasons the preliminary injunction is
denied, and I make no finding of mandatory versus
prohibitory injunction. I am just focusing on Coach
Kennedy’s role as coach as determinative of this issue.
All right. Have a great week. Court will be at
recess.
(Proceedings concluded.)

App-304
Appendix J
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
TACOMA DIVISION
________________
No. CV16-5694RBL
________________
JOSEPH A. KENNEDY,
Plaintiff,
v.
BREMERTON SCHOOL DISTRICT,
Defendant.
________________
Relevant Docket Entry
________________
Date Filed

#

9/19/2016

25

Docket Text
* * *
MINUTE ENTRY for proceedings
held before Judge Ronald B.
Leighton - Dep Clerk: Jean
Boring; Pla. Counsel: Rebekah
Ricketts, Jeffrey Heldson, Michael
Berry, Anthony Ferate; Def
Counsel: Michel Tierney; CR:
Barry Fanning; Preliminary
Injunction Hearing held on
9/19/2016. Argument presented.
For the reasons orally stated on
the record, the 15 MOTION for
Preliminary
Injunction
is
DENIED. Hearing concluded.
(JAB) (Entered: 09/19/2016.)
* * *

App-305
Appendix K
CONSTITUTIONAL PROVISIONS
INVOLVED
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
U.S. Const. amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

